APPENDIX

1a
APPENDIX A
United States
Court of Appeals
Fifth Circuit
FILED
April 23, 2021
Lyle W. Cayce
Clerk
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH
CIRCUIT
No. 17-70002
ANDRE LEE THOMAS,
Petitioner - Appellant
v.
BOBBY LUMPKIN, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:09-CV-644
Before JONES, SOUTHWICK, and HIGGINSON,
Circuit Judges.

2a
LESLIE H. SOUTHWICK, Circuit Judge:
Andre Lee Thomas, an inmate on death row in
Texas, filed a federal habeas application, arguing that
his counsel was constitutionally ineffective in
numerous ways at trial and sentencing. We granted
a certificate of appealability on four of Thomas’s
issues. We now AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
On March 27, 2004, Andre Lee Thomas broke into
the Sherman, Texas apartment of his estranged wife,
Laura Christine Boren. He stabbed his wife; their
four-year-old son, Andre Lee Boren; and one-year-old
Leyha Marie Hughes, Thomas’s stepdaughter. All
three were killed. He then used separate knives on
each victim and attempted to remove their hearts,
leaving gaping wounds in their chests. He believed
that by taking their hearts he would “set them free
from evil.” He also stabbed himself three times, but
his injuries were not fatal. Thomas left the apartment
shortly thereafter. Later that day, he went to the
Sherman police station and confessed.
In June 2004, Thomas was indicted for the capital
murder of Leyha Marie Hughes, his stepdaughter. He
was assigned R.J. Hagood and Bobbie Peterson as
counsel. While awaiting trial, Thomas removed one
of his eyeballs. Years later, he would remove the
other and eat it. At trial, Thomas pled not guilty by
reason of insanity, arguing that his actions were
because of an acute psychosis resulting from lifelong
mental illness. The State agreed that Thomas was
psychotic but argued his psychosis was voluntarily

3a
induced just before the killings through ingestion of
the cough medicine Coricidin. The State presented
expert testimony that high doses of Coricidin can
cause irrational behavior. There is no doubt that
Thomas has significant emotional and mental
problems. Their effect on his conviction is a central
issue in this appeal.
In March 2005, an all-white jury found Thomas
guilty of capital murder and sentenced him to death.
Another significant issue for us is the sufficiency of
the questioning of jurors on their views about
interracial marriage, relevant because Thomas is a
black man and his wife was a white woman.
Greater detail about Thomas’s killing of his wife
and the children, and about the trial, is in the opinion
affirming his conviction on appeal. Thomas v. State,
No. AP–75,218, 2008 WL 4531976 (Tex. Crim. App.
Oct. 8, 2008).
While his first appeal was pending, Thomas also
brought claims under state habeas corpus procedures.
As required under Texas law, Thomas’s application
for relief was filed in the court of conviction. On
March 28, 2008, that court recommended findings
and conclusions for consideration by the Texas Court
of Criminal Appeals. See TEX. CODE CRIM. PROC. art.
11.071, §§ 9(f), 11. On March 18, 2009, the Court of
Criminal Appeals “adopt[ed] the trial judge’s findings
and conclusions” and denied all relief. Ex parte
Thomas, No. WR–69,859-01, 2009 WL 693606, at *1
(Tex. Crim. App. Mar. 18, 2009).

4a
Thomas filed a federal habeas application under
28 U.S.C. § 2254. On September 19, 2016, the United
States District Court, in a 128-page opinion, analyzed
and rejected all claims. Thomas v. Director, TDCJCID, No. 4:09-cv-644, 2016 WL 4988257, at *1 (E.D.
Tex. Sept. 19, 2016) (on Westlaw, the entire opinion is
86 pages). The district court also denied Thomas’s
application for a certificate of appealability (“COA”).
Id. at *86. Thomas filed a timely motion under Rule
59(e) to alter or amend judgment, but the motion was
denied on December 13, 2016. On January 11, 2017,
Thomas filed a notice of appeal.
We granted Thomas’s motion for a COA on four
issues. Thomas v. Davis, 726 F. App’x 243 (5th Cir.
2018). We will analyze each of them. After the initial
briefing and just before oral argument, the State
submitted notice to the court of a possible
jurisdictional defect in the appeal. We must address
jurisdiction and do so first.
DISCUSSION
I. Potentially late notice of appeal
This appeal fails if the State’s late-discovered
defect in our jurisdiction proves valid. The question
posed was whether Thomas’s notice of appeal was
untimely. Our answer depends on whether Thomas’s
earlier Rule 59(e) motion, which was filed before the
deadline for a notice of appeal, tolled the time for
filing the appeal. The answer to that is governed by
whether it is appropriate for the court to examine a
Rule 59(e) motion to alter or amend a judgment with
the same attention to detail as is required for

5a
examining a Rule 60(b) motion. We must review Rule
60(b) motions to see if they are in fact though not in
form successive applications under Section 2244(b), in
which new claims are presented instead of alleged
mistakes, or fraud, or new evidence, or some other
valid basis under Rule 60(b). See Gonzalez v. Crosby,
545 U.S. 524, 532–34 (2005). We extended the
Supreme Court’s reasoning to motions under Rule
59(e). See Williams v. Thaler, 602 F.3d 291, 302–04
(5th Cir. 2010). Based on Williams, the State in a
Rule 28(j) letter argued that we lacked jurisdiction
because Thomas’s Rule 59(e) motion to alter or amend
the district court’s judgment was in fact a successive
habeas application and did not suspend the time to
file the notice of appeal. FED. R. APP. P. 4.
We were wrong in Williams. After the Rule 28(j)
letter was submitted, the Supreme Court held that
Rule 59(e) motions should not be recategorized as
successive applications regardless of their contents.
Banister v. Davis, 140 S. Ct. 1698, 1711 (2020).
Thomas’s notice of appeal was timely, and we have
jurisdiction.
II. Federal court review of state court decisions
To obtain habeas relief, the prisoner must show
that the state court’s decision “(1) . . . was contrary to,
or involved an unreasonable application of, clearly
established federal law, as determined by the
Supreme Court of the United States; or (2) . . . was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding.” 28 U.S.C. § 2254(d). A state court’s
decision is contrary to clearly established precedent if

6a
the rule it applies “contradicts the governing law set
forth in the Supreme Court’s cases,” or if the state
court confronts facts that are materially
indistinguishable from a decision of the Supreme
Court yet reaches a different result. Wooten v. Thaler,
598 F.3d 215, 218 (5th Cir. 2010) (brackets omitted). If
fair-minded jurists could disagree about whether the
state court’s decision was correct, deference under the
Antiterrorism and Effective Death Penalty Act
(“AEDPA”)
precludes
federal
habeas
relief.
Harrington v. Richter, 562 U.S. 86, 101 (2011). This
deference has also been said to require that a state
court’s legal conclusion “must be more than merely
incorrect in order to constitute an unreasonable
application of federal law; it must be objectively
unreasonable.” Miller v. Dretke, 420 F.3d 356, 360
(5th Cir. 2005). We presume the state court’s factual
findings are correct unless rebutted with clear and
convincing evidence. Wooten, 598 F.3d at 218.
The standard of review becomes doubly deferential
when, as in most of the claims raised here, the
petitioner is seeking habeas relief for ineffective
assistance of counsel. Richter, 562 U.S. at 105. “The
pivotal question is whether the state court’s
application of the Strickland standard was
unreasonable. This is different from asking whether
defense counsel’s performance fell below Strickland’s
standard.” Id. at 101. “[E]ven a strong case for relief
does not mean the state court’s contrary conclusion
was unreasonable.” Id. at 102. To obtain federal
habeas relief, the petitioner must prove that the state
court’s decision “was so lacking in justification that
there was an error well understood and

7a
comprehended in existing law beyond any possibility
for” reasonable disagreement. Id. at 103.
The prisoner must prove both deficient
performance and prejudice to succeed on a claim for
ineffective assistance of counsel.
Strickland v.
Washington, 466 U.S. 668, 697 (1984). An attorney’s
performance is deficient if it falls “below an objective
standard of reasonableness.” Id. at 688. A petitioner
is prejudiced if “there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Id. at 694.
There is a strong presumption that defense counsel’s
strategic and tactical decisions are “within the wide
range of reasonable professional assistance.” Id. at
689.
III.Claims allowed by the certificate of appealability
We granted a COA on four claims, which we will
discuss in the following order: (A) the jury was tainted
with racial bias, and the state court unreasonably
held that defense counsel provided effective
assistance during voir dire; (B) the state court
unreasonably held that defense counsel provided
effective assistance despite their failure to challenge
Thomas’s competency to stand trial; (C) the state
court unreasonably held that defense counsel
provided effective assistance despite their failure to
present an expert in pharmacology to rebut the
State’s evidence that Thomas’s psychosis was
voluntarily induced; and (D) the state court
unreasonably held that defense counsel provided
effective assistance, despite their failure to prepare

8a
and present an effective mitigation
sentencing. Thomas, 726 F. App’x at 243.

case

at

A. Racial bias on jury
We granted a COA on a two-part claim regarding
racial bias, that “the jury was tainted with racial bias,
and the state court unreasonably held that defense
counsel provided effective assistance during voir dire,
despite their failure to challenge the biased jurors.”
Though the claims are related and merged at times in
briefing, to the extent possible we analyze them
separately.
1. Was the jury tainted with racial bias?
Thomas emphasizes to this court that “his jury
included three jurors who admitted that they
harbored bias against ‘people of different racial
groups marrying and/or having children.’” As we
previously discussed, attitudes about interracial
marriage were explored because the defendant
Thomas, who is a black man, married Laura Christine
Boren, a white woman. Though Thomas killed his
wife and their own interracial child, Andre Jr., the
murder for which he was tried was that of Leyha
Marie, his wife’s child by her later relationship. The
briefing does not indicate the race of that victim, nor
does it raise any issues about race having affected the
trial beyond juror attitudes about an interracial
marriage and the couple having a child together.
Evidence on this claim comes both from answers
on a jury questionnaire and from voir dire. The
following are the relevant parts of the questionnaire:

9a
103.
What is your church or spiritual
affiliation’s position on interracial marriages?
104.
Do you (___) Agree or (___) Disagree
with this position? Please tell us why you feel
this way:
105.
The Defendant in this case, Andre
Thomas, and his ex-wife, Laura Boren Thomas,
are of different racial backgrounds. Which of
the following best reflects your feelings or
opinions about people of different racial
backgrounds marrying and/or having children:
(___) I vigorously oppose people of different
racial backgrounds marrying and/or having
children and am not afraid to say so.
(___) I oppose people of different racial
backgrounds marrying and/or having children,
but I try to keep my feelings to myself.
(___) I do not oppose people of different racial
backgrounds marrying or being together, but I
do oppose them having children.
(___) I think people should be able to marry or
be with anyone they wish.
PLEASE TELL US WHY YOU FEEL THIS
WAY: [blank provided].
The only one of the three contested jurors to check
the first block on Question 105 was Marty Ulmer,

10a
indicating he “vigorously oppose[d] people of different
racial backgrounds marrying and/or having children
and [was] not afraid to say so.” In the blank provided
for explanation, he wrote that he did not “believe God
intended for this.”
Ulmer was the only one of those three jurors who
was questioned on voir dire specifically about racial
attitudes. Counsel asked how Ulmer would feel about
sitting on a capital case where the black male
defendant was accused of killing his wife, a white
female. He answered,
Well, I think — I think it’s wrong to have those
relationships, my view, but we are all human
beings and God made every one of us. And, you
know, as far as — I don’t care if it is
white/white, black/black, that don’t matter to
me. If you’ve done it, you are a human being,
you have got to own up to your responsibility.
Q. So, the color of anyone’s skin would not have
any impact or bearing upon your deliberations?
A. No, not according to that, no.
Q. Okay.
A. Not whether they were guilty or innocent.
Defense counsel then asked again whether Ulmer
would take into account the defendant’s or victim’s
race in deciding whether to impose the death penalty.
Ulmer answered: “No, I wouldn’t judge a man for

11a
murder or something like that according to something
like that, no, I would not.”
Another juror, Charles Copeland, checked the
option on the questionnaire that his church’s position
was that there “should not be” interracial marriage,
and Copeland indicated he agreed with that view. In
response to Question 105, Copeland checked the
option that he “oppose[d] people of different racial
backgrounds marrying and/or having children, but
[he] tr[ied] to keep [his] feelings to [himself].”
Copeland was not specifically questioned about these
answers. When the court asked him during voir dire
if he could “make up [his] mind solely upon the
evidence” presented, Copeland answered that he
could.
The final relevant juror is Barbara Armstrong.
She indicated that her church or spiritual affiliation
did not have a position on interracial marriage, and
she added: “It is not the church[‘s] place to have a
position on matters such as this.” Like Copeland, she
checked the option on Question 105 that she opposed
interracial marriage and such couples having
children but tried to keep those feelings to herself.
She added her own explanation: “I think it is harmful
for the children involved because they do not have a
specific race to belong to.” Armstrong was not
questioned about her answers at voir dire. The court
asked whether she could assess the case based only
on the evidence presented in the courtroom, and she
stated that she could.
All three of those jurors were accepted, as defense
counsel made neither a for-cause nor a peremptory

12a
challenge to exclude any of them. There was also an
alternate juror who expressed misgivings about
interracial marriage, but because she was dismissed
before deliberations began, we do not discuss her.
Thomas also refers us to one final piece of evidence
related to juror bias. As the prosecutor completed his
argument before jurors began their deliberations on
Thomas’s sentence, he may have alluded to race:
Are you going to take the risk about him asking
your daughter out, or your granddaughter out?
After watching the string of girls that came up
here and apparently could talk him into — that
he could talk into being with him, are you going
to take that change?
We are uncertain if it is completely fair to
characterize this as injecting a racial component into
deliberations, in part because we do not know the race
of the other witnesses and also because it is the kind
of argument that could well be made in a case in
which race was not a factor. Further, Thomas’s COA
is not broad enough to include a direct challenge to
the prosecutor’s words or its effect on the trial.
In order to understand the claims about juror
racial bias presented in state court, we examine the
state habeas application. Counsel filed 44 claims for
relief in state court. The only one relevant for jury
bias itself (as opposed to ineffectiveness of counsel on
the issue) was Claim 20, which stated that the
“presence of jurors opposed to interracial
relationships deprived Mr. Thomas of a fair trial.”
Thomas argued that the presence of racially biased

13a
jurors “raises overwhelming concerns that significant
racial bias affected the decision-making process in
Mr. Thomas’s capital trial.” He also contended it was
“highly likely that the views of the four impaneled
jurors who opposed interracial marriage prevented or
substantially impaired ‘the performance of [their]
duties as [] juror[s] in accordance with [their]
instructions and [their] oath.’”
The only relevant fact findings by the state habeas
court were these:
All members of Mr. Thomas’s jury were
white.
There is no evidence that the jury’s decision
was racially motivated.
No objection was ever made by the
Applicant to the purported racial bias of any juror
that was seated.
There were no legal conclusions about jury racial bias
other than as to the effectiveness of counsel. We will
address counsel effectiveness in the next section of the
opinion. The above findings and conclusions were
adopted by the Court of Criminal Appeals. Ex parte
Thomas, 2009 WL 693606, at *1.
In his federal habeas application, Thomas asserted
“there is no requirement that Mr. Thomas show that
the jury’s decision was racially motivated, as a
showing that a jury was not impartial creates a
structural error.” See Neder v. United States¸527 U.S.

14a
1, 8 (1999); Virgil v. Dretke, 446 F.3d 598, 607 (5th
Cir. 2006).
We begin our analysis of the law with essential
points: “blatant racial prejudice is antithetical to the
functioning of the jury system.” Pena-Rodriguez v.
Colorado, 137 S. Ct. 855, 871 (2017). It is undeniable
“that discrimination on the basis of race, ‘odious in all
aspects, is especially pernicious in the administration
of justice.’” Id. at 868 (quoting Rose v. Mitchell, 443
U.S. 545, 555 (1979)). Any “defendant has the right
to an impartial jury that can view him without racial
animus, which so long has distorted our system of
criminal justice.” Georgia v. McCollum, 505 U.S. 42,
58 (1992). If a defendant is denied the right to an
impartial decisionmaker, regardless of the nature of
the bias, any subsequent conviction is tainted with
constitutional infirmity. See Virgil, 446 F.3d at 607.
Any juror who “the defendant has specific reason to
believe would be incapable of confronting and
suppressing their racism” should be removed from the
jury. See McCollum, 505 U.S. at 58. If a juror should
have been removed for cause, then seating that juror
requires reversal. United States v. Martinez-Salazar,
528 U.S. 304, 316 (2000).
A defendant’s right to an impartial jury, though
fundamental, does not mean that jurors who have
preconceived notions cannot be validly seated. To the
contrary, as the Supreme Court has instructed:
To hold that the mere existence of any
preconceived notion as to the guilt or innocence
of an accused, without more, is sufficient to
rebut the presumption of a prospective juror’s

15a
impartiality would be to establish an
impossible standard. It is sufficient if the juror
can lay aside his impression or opinion and
render a verdict based on the evidence
presented in court.
Irvin v. Dowd, 366 U.S. 717, 723 (1961).
Thomas presented his argument on this claim to
the state habeas court in four short paragraphs.
Quoting Wainwright v. Witt, 469 U.S. 412, 424 (1985),
he argued that it was “likely that the views of the four
impaneled jurors who opposed interracial marriage
prevented or substantially impaired ‘the performance
of [their] duties as a juror in accordance with [their]
instructions and [their] oath.”
In response to this argument, the state court found
“[t]here is no evidence that the jury’s decision was
racially motivated.” That finding is not directly on
point as to whether any juror with a relevant bias that
made him or her unable to be impartial was seated on
the jury. Though we can identify no state-court
findings directly on the point of whether a biased
juror was seated, AEDPA deference may still be owed.
We also apply a presumption of correctness where a
“finding was necessarily part of the court’s rejection
of the defendant’s claim.” Valdez v. Cockrell, 274 F.3d
941, 948 n.11 (5th Cir. 2001) (citing Marshall v.
Lonberger, 459 U.S. 422, 433 (1983)).
Indeed,
“determining whether a state court’s decision resulted
from an unreasonable…factual conclusion does not
require that there be an opinion from the state court
explaining the state court’s reasoning.” Richter, 562
U.S. at 98. Rather, a federal court will deny habeas

16a
relief “if there was a reasonable justification for the
state court’s decision” in the record. Id. at 109.
The issue before us, then, is whether it was
“objectively unreasonable” for the state habeas court
to reject Thomas’s claim that his right to an impartial
jury was violated. See Miller, 420 F.3d at 360. In
reviewing whether the state court erred when it did
not find that someone with disqualifying racial
attitudes was seated as a juror, we should consider
any “reasonable justification for the state court’s
decision.” See Richter, 562 U.S. at 109. A necessary
implicit finding within the state court’s explicit
finding is that no juror would base his decision on race
rather than on the evidence presented. To rephrase,
any bias of a juror could be set aside in determining
guilt or a punishment. We now turn to determine
whether that finding was “objectively unreasonable.”
See Miller, 420 F. 3d at 360.
In evaluating the state habeas court’s finding and
any possible reasonable justifications, we consider the
answers Ulmer gave during voir dire.
The
questioning did not cause Ulmer to retreat on his
beliefs about interracial marriage. Still, when asked
if “the color of anyone’s skin would…have any impact
or bearing upon [his] deliberations,” Ulmer
responded,” No, not according to that, no.” He
“wouldn’t judge a man for murder or something like
that according to something like [race], no, I would
not.” Ulmer also said that he didn’t “care if it was
white/white, black/black, that don’t matter.”
On that record, the state court found “no evidence
that the jury’s decision was racially motivated.” We

17a
consider it a reasonable understanding of that finding
that Ulmer’s answers, if accepted as true, which the
state habeas court was entitled to do, were clear that
his moral judgment would not affect his fact finding.
That would mean that whatever biases this juror
brought to deliberations, they were not ones that
would affect his decision on guilt, innocence, or the
ultimate penalty; he certainly stated they would not.
See Irvin, 366 U.S. at 723 (“It is sufficient if the juror
can lay aside his impression or opinion and render a
verdict based on the evidence presented in court.”).
We conclude that the state habeas court’s finding that
Ulmer could serve as an impartial juror was not
objectively unreasonable.
We now consider the other two relevant jurors.
Armstrong and Copeland disapproved of interracial
marriage but not “vigorously,” and they liked to keep
such opinions to themselves. After Ulmer, who was
“vigorously oppose[d]” to interracial marriage, agreed
that he could set aside his opinions in determining
guilt, innocence, or a punishment, defense counsel did
not question Armstrong or Copeland about their
views on interracial marriage.
Thomas’s argument that racially biased jurors
were seated is unavoidably linked to his claim that
counsel was ineffective in its handling of those jurors
at voir dire. Despite our efforts to divide our analysis
between the two, there is inevitable overlap: a
counsel’s failure to object to the seating of a juror who
expressed an inability to be impartial is ineffective
assistance. See Virgil, 446 F.3d at 613–614. Here, of
course, these two members of the venire did not make
an “unequivocal express[ion] that they could not sit as

18a
fair and impartial jurors.” See id. at 613. We cannot
say based on these questionnaire answers alone that
the state habeas court was objectively unreasonable
in concluding that Armstrong and Copeland decided
the case solely on the evidence presented. A different
subject is whether their questionnaire answers
expressed a view that required Thomas’s counsel to
question them in voir dire, as was done for Ulmer. To
the extent the issue is whether Armstrong and
Copeland could be seated without some further
probing by counsel into their potential partiality, that
is a claim about ineffective representation. We
address that point in the next section.
A few final points about the law. We agree with
the dissent that Thomas has a Sixth Amendment
right to an impartial jury without overt racial bias.
We interpret the dissent as concluding that Ulmer
could not be seated because of his questionnaire
answers showing his opposition to interracial
marriage. We disagree because we find no clearly
established law from the Supreme Court that the
state habeas court’s decision contravened. We have
already discussed Supreme Court decisions that
jurors who are “incapable of confronting and
suppressing their racism” should be removed from the
jury. See McCollum, 505 U.S. at 58. That is not the
same thing as saying any juror who has expressed
even strong opposition to interracial marriage cannot
be seated in a case involving a defendant who did
marry someone of a different race if the person
indicates an ability to confront and suppress those
opinions.

19a
We conclude that fair-minded jurists could
disagree about whether the state court’s decision was
correct as to jury bias, which means that AEDPA
deference is owed that decision. Richter, 562 U.S. at
101. Thomas is not entitled to relief on the basis that
the state court improperly resolved the claim that any
partial jurors were seated.
2. Was defense counsel
addressing jury bias?

ineffective

in

The second issue arising from the jury service of
Ulmer, Copeland, and Armstrong concerns possible
ineffective assistance of counsel. This was Claim 21
in Thomas’s state habeas application. Thomas argues
that defense counsel’s representation in jury selection
was deficient because “[n]o reasonable lawyer would
have allowed multiple jurors who openly admitted
moral opposition to interracial relationships to be
seated in a capital trial of a black defendant accused
of murdering his white wife and interracial child.” At
the very least, Thomas contends that defense counsel
should have questioned “them regarding their
biases.” He asserts that defense counsel asked only
minimal questions of one juror and none of the other
two. He claims that the “white jurors here admittedly
harbored a specific bias against black men like
Thomas who disobeyed ‘God[‘s] intent[ions]’ and
muddied white ‘bloodline[s]’ by marrying and having
children with a white woman.” Prejudice, Thomas
argues, resulted from what was unknown about the
jurors’ biases. The state habeas court determined
that Thomas “failed to overcome the presumption that
trial counsel was effective during voir dire

20a
questioning.” The court made no explicit factual
findings to support that conclusion.
The issue before this court is whether it was
objectively unreasonable for the state habeas court to
conclude that defense counsel’s representation during
voir dire was constitutionally adequate. See Richter,
562 U.S. at 102–03. In making that determination,
we look for any “reasonable justification for the state
court’s decision.” See id. at 109. A presumption of
correctness “not only applies to explicit findings of
fact [by a state habeas court], but it also applies to
those unarticulated findings which are necessary to
the state court’s conclusions of mixed law and fact.”
Valdez, 274 F.3d at 948 n.11.
Certainly, the jury was questioned about racial
prejudice in the context of this case. All prospective
jurors were asked about racial bias, at least in the
questionnaires. They knew this case involved an
interracial marriage.
The relevant question is
whether defense counsel should have probed further
during voir dire any juror whose written answers
were concerning.
Defense counsel questioned Ulmer specifically on
his beliefs about interracial marriage.
The
questioning did not cause Ulmer to retreat on his
beliefs about such marriages, but when asked if “the
color of anyone’s skin would…have any impact or
bearing upon [his] deliberations,” Ulmer responded,
“No, not according to that, no.” He stated that he
“wouldn’t judge a man for murder or something like
that according to something like [race], no, I would
not.” Ulmer also said that he didn’t “care if it was

21a
white/white, black/black, that don’t matter.” Under
our “doubly deferential” review, Cullen v. Pinholster,
563 U.S. 170, 190 (2011), the questioning of Ulmer
was sufficient, and the state habeas court was not
objectively unreasonable when it concluded that
Thomas did not rebut the presumption of counsel’s
effectiveness as to Ulmer.
We turn next to Copeland and Armstrong. The
only voir dire supplementation of information about
Armstrong’s
and
Copeland’s
attitudes
and
impartiality was the trial judge’s eliciting that each of
them could decide the case solely on the evidence
presented to them at trial. The Supreme Court has
observed that “[g]eneric questions about juror
impartiality may not expose specific attitudes or
biases that can poison jury deliberations. Yet more
pointed questions ‘could well exacerbate whatever
prejudice might exist without substantially aiding in
exposing it.’” Pena-Rodriguez, 137 S. Ct. at 869
(quoting Rosales-Lopez v. United States, 451 U.S. 182,
195 (1981) (Rehnquist, J., concurring in result)). We
do not interpret that language as invalidating the
generic questioning of Armstrong and Copeland. It
does, however, demonstrate the difficulty for counsel.
The state habeas court made no specific factual
findings relevant to jurors Armstrong and Copeland
and the effectiveness of counsel regarding them. The
following legal conclusions are on point (we have
omitted the numerous citations to state court
decisions):
A trial court has wide discretion in
conducting voir dire, and its rulings are

22a
reviewed under an abuse of discretion
standard. If the subject could possibly be
raised during trial, the attorneys are entitled
to voir dire on that issue. Generally speaking,
a voir dire topic is proper if it seeks to discover
a juror’s views on an issue applicable to the
case.
Strickland encompasses the prohibition
against
second-guessing
counsel’s
trial
strategy on voir dire. Not every attorney will
conduct voir dire in the same manner, and,
with hindsight, every attorney may have
wished that additional questions were asked.
However, the fact that another attorney might
have pursued other areas of questioning during
voir dire will not support a finding of ineffective
assistance.
The applicant has failed to overcome the
presumption that trial counsel was effective
during voir dire questioning.
The applicant has not demonstrated that
his counsel’s performance fell below a
reasonable objective standard, and he has not
demonstrated that any alleged error prejudiced
his defense.
The issue of whether the voir dire questioning
satisfied counsel’s obligations is a mixed question of
law and fact. See Strickland, 466 U.S. at 698.
Factually, we know what happened. Counsel each
asserted that a balance was struck between the costs
and benefits of more specific questioning. We accept

23a
that the state court made factual findings to support
its rejection of relief. See Valdez, 274 F.3d at 948 n.11.
The state habeas court’s legal conclusions, already
quoted, emphasize the discretion of counsel on how to
proceed with a criminal defense, including the
conducting of voir dire. The difficult issue is whether
the state court made an unreasonable application of
the clearly established law.
The evidence on defense counsel’s decisions about
voir dire and about other issues during trial comes
from four affidavits, two from each of the defense
attorneys.
According to the briefing, the first
affidavits from each trial counsel were obtained at the
initiative of Thomas’s habeas counsel, while the
second pair was obtained by the State a few months
later. In each situation, the procuring party was
given affidavits largely supportive of its arguments on
the effectiveness of trial counsel. The earlier affidavit
of each attorney seems to be describing all that
counsel did wrong; the later, the many efforts to do
things right. They almost seem to be describing
different events. All four affidavits were presented to
the state habeas court.
The lead attorney was R.J. Hagood. In his June
2007 affidavit, he stated that his “failure to ask few,
if any, follow up questions of the members of the jury
who had indicated on their jury questionnaires that
they were opposed to interracial marriage was not
intentional; I simply didn’t do it.” In November 2007
though, Hagood provided an affidavit that said he had
carefully considered how to question prospective
jurors.

24a
[Thomas] states that we were ineffective for
failing to inquire into the racial bias of each
juror. Strategically, I would never ask pointed
questions regarding racial bias from a juror
without a real basis to do so. Voir dire can be
delicate in that you do not want to alienate a
juror who may end up on the jury. Accusing
someone of racism is a good way to do that.
Nona Dodson had suggested several questions
to pose to jurors. I followed some of her [advice]
which, based on many years as a trial attorney,
I believed would be useful. I did not take all of
her suggestions. In fact, I found some of those
questions offensive and inappropriate to
propound to a rural jury. I cannot recall any
questions suggested by Ms. Dodson that I outright refused to ask. . . . For those jurors who
expressed some problem with interracial
relationships, either [co-counsel] Ms. Peterson
or I questioned them to the extent necessary for
us to request a strike for cause or make a
decision to use a strike against them. Often
time, there were much worse jurors upon whom
we exercised our strikes.
Co-counsel Bobbie Peterson Cate also submitted
two affidavits. Her June 2007 statement contained
nothing about the decision-making for juror
questioning. Her December 2007 affidavit largely
mirrored Hagood’s on this issue, suggesting careful
consideration of how to handle questioning during
voir dire about racial biases.
These are strikingly different representations,
between just not thinking to ask about interracial

25a
marriage and making a careful consideration of the
issue. We at least know that sufficient attention was
given the issue to create several written questions for
prospective jurors about interracial marriage.
Without doubt, though, Armstrong and Copeland
were not asked about their racial attitudes in voir
dire. It could be, as Hagood asserted in his second
affidavit, that he considered the suggested questions,
asked some of Ulmer, but decided to ask none of
Armstrong and Copeland. Once the juror who more
“vigorously oppose[d]” than the other two agreed to
set aside his bias, Hagood may have strategically
avoided the risk of alienating Armstrong and
Copeland.
Hagood also stated in his second affidavit that he
had tried many cases in Grayson County, Texas, in
which his clients were “black defendants found not
guilty by all-white” juries. There could be strategic
reasons for not further inquiring into the potential
jurors’ feelings about race and interracial
relationships, and the record supports that Hagood
was experienced in dealing with these concerns on
voir dire. According to his second affidavit, Hagood’s
decisions were strategic attempts to avoid alienating
potential jurors based on his trial experience in rural
areas like Grayson County. Certainly, counsel must
make difficult tactical judgments.
In considering the effectiveness of counsel, we note
the differences between the two who were not
questioned, Armstrong and Copeland, and Ulmer,
who was. One distinction is that Armstrong and
Copeland indicated that they did not like to discuss
with others their beliefs about interracial marriage.

26a
Copeland and Armstrong also did not indicate that
they were “vigorously” opposed to interracial
marriage. Finally, Ulmer was questioned and seated
before Armstrong and Copeland. We must decide
whether the state habeas court was objectively
unreasonable to find that Thomas has not shown
ineffective assistance in deciding not to question or
strike Armstrong or Copeland after questioning
Ulmer.
Other circuits have emphasized the difficulty
defense counsel faces in deciding how to discover
potential racial bias without over-emphasizing it.
The facts of a Third Circuit capital case involved “an
interracial sexual relationship between an AfricanAmerican man and his white girlfriend” whom the
man killed. Jacobs v. Horn, 395 F.3d 92, 98, 119 (3d
Cir. 2005). The court analyzed counsel’s failure to ask
racial-bias questions as being reasonable if counsel
“believed that probing the jurors’ potential racial
prejudices might unduly emphasize the racial
differences.” Id. at 118. The court held there was no
counsel ineffectiveness due largely to the fact that the
record did not support that race had anything to do
with why the defendant killed his girlfriend. Id.
There is no such evidence here either. Jacobs did not
discuss the need to inquire about jurors’ potential
objections to interracial relationships.
Another example is a capital murder trial
conducted in Illinois on facts similar to those in
Jacobs, i.e., the absence of any evidence that there
was a racial motive behind a black man’s killing of a
white victim; there was no questioning of prospective
jurors about racial attitudes. Lear v. Cowan, 220 F.3d

27a
825, 829 (7th Cir. 2000). The Seventh Circuit found
no ineffectiveness in the decision to avoid
emphasizing the racial component of the facts, as
counsel
“testified that he thought he had dealt with the issue
adequately by asking general questions about bias
without focusing on race.” Id.
To be clear, the racial issues in the case before us
were considered by counsel and the court as more
central than in the two decisions we just discussed.
Though no briefing here has suggestioned that
Thomas had a racial motive for the killings, the
district court agreed that the interracial marriage
and the couple having children had potential to affect
some jurors’ objective view of the evidence and
justified questioning the venire.
Nonetheless, these other circuits’ opinions support
that there is considerable discretion in deciding how
much questioning, if any, is required even as to
possible racial biases. The Supreme Court has said
that “inquiry into racial prejudice at voir dire [is] not
constitutionally required [when] the facts of the case
[do] not suggest a significant likelihood that racial
prejudice might infect [the defendant’s] trial.” Turner
v. Murray, 476 U.S. 28, 32 (1986) (third alteration in
original) (quotation marks omitted). The Turner
plurality based its reason for finding voir dire
inadequate “on a conjunction of three factors: the fact
that the crime charged involved interracial violence,
the broad discretion given the jury at the deathpenalty hearing, and the special seriousness of the
risk of improper sentencing in a capital case.” Id. at
37. We have those three here, but unlike in Turner,

28a
some questions were asked at this trial about
prospective jurors’ racial attitudes.
As we discussed in the juror-racial-bias analysis,
this case is also different from Virgil v. Dretke, in
which two jurors “each unequivocally expressed that
they could not sit as fair and impartial jurors.” 446
F.3d at 613. Failure to challenge for cause or use a
peremptory strike was ineffective assistance where
counsel also did not question “either [juror] as to
whether they would be able to set aside their
preconceived notions and adjudicate . . . with an open
mind, honestly and competently considering all the
relevant evidence.” Id. If Armstrong and Copeland
had unequivocally expressed their inability to remain
impartial, this would be an easier case.
We also have AEDPA, under which we show
broad, if limited, deference to the decision of the state
court. That was not an issue in Turner. The
limitations are that facts not be unreasonably
determined and that the Supreme Court’s clearly
established law not be unreasonably applied. §
2254(d)(1)–(2).
The jurors were questioned about racial prejudices
in their questionnaire, and defense counsel provided
a colorable reason not to question further. The state
habeas court approved. Perhaps it applied Strickland
incorrectly, but to be reversed, the state court must
have erred unreasonably.
As to legal conclusions, we do not interpret
Supreme Court authority as requiring counsel to have
probed further in response to the “dilemma” of what

29a
to do with potential racial bias. Hagood expressed
concern that other jurors who might serve in place of
Armstrong and Copeland were more troubling. The
questionnaire answers could have been interpreted by
counsel as not reflecting the kind of animosities to a
black defendant that would motivate them to convict
regardless of the evidence. Counsel also could have
viewed further questioning of the potential jurors
about their feelings on interracial relationships as
likely to alienate jurors who would not be struck for
cause. Counsel had experience with black defendants
being found not guilty by all-white juries, and
counsel’s actions can be interpreted as mindful of the
potential negative effect of further questioning jurors
in Grayson County on their racial biases. It was not
objectively unreasonable for the state habeas court to
hold that defense counsel complied with Strickland.
Thomas is not entitled to habeas relief on the basis
of the claim involving the jurors who expressed
opposition to interracial marriage.
B. Ineffective assistance in failing to challenge
Thomas’s competency to stand trial
Thomas argues that his counsel was ineffective for
failing to challenge his competency to stand trial,
which was Claim 16 in his state habeas application.
In June 2004, Thomas was declared incompetent to
stand trial, a conclusion that no one challenged.
Thomas was then sent to a psychiatric treatment
facility at the Maximum Security Unit of North Texas
State Hospital – Vernon Campus (“Vernon”) for
several weeks. While at Vernon, Thomas underwent
a series of tests and examinations. Dr. Thomas Gray,

30a
a clinical psychologist, wrote in his medical report on
July 23, 2004, that the test results “strongly indicated
gross exaggeration of [Thomas’s] symptoms.” The
report further provided that the “test results strongly
indicate that he had been exaggerating any symptoms
that he may be experiencing at present.” The report
concluded that Thomas was “diagnosed with
malingering,” meaning that “[h]e has clearly
exaggerated symptoms that he might be experiencing
and may have even fabricated some symptoms of
psychosis.”
In its findings, the state habeas court recognized
Dr. Gray’s conclusion that Thomas was competent to
stand trial. It also found that “Dr. [Edward] Gripon’s
testimony that the applicant was competent at the
time of trial was credible.” When Hagood was asked
by the trial court after Thomas returned from the
Vernon facility whether he was raising a second
challenge to competency, Hagood answered that he
was not “at that time.” The state habeas court later
found that defense counsel should have objected to the
competency finding upon Thomas’s return from
Vernon, but it still found that Thomas “was
competent to stand trial.” The court’s legal conclusion
that we review is this: “The record does not support
the applicant’s claim that he was incompetent to
stand trial or that his attorney was ineffective for
failing to raise the competency issue a second time.”
Thomas argues that trial counsel’s failure to
investigate his competency after he returned from
Vernon was ineffective assistance of counsel.
Further, the failure to investigate was prejudicial
because there was a reasonable probability Thomas

31a
would have been found incompetent to stand trial if
counsel had made a challenge at that time. “Counsel
could have submitted evidence of their own
interaction with” him or “have obtained a further
expert competency evaluation.”
It is clearly established law that an incompetent
person cannot be put on trial. See Drope v. Missouri,
420 U.S. 162, 171 (1975). A defendant is not
competent unless he has “a rational as well as factual
understanding of the proceedings against him,” and a
“sufficient present ability to consult with his lawyer
with a reasonable degree of rational understanding.”
Indiana v. Edwards, 554 U.S. 164, 170 (2008)
(emphasis and citation omitted). A mentally ill
defendant can still be competent to stand trial,
however. Mays v. Stephens, 757 F.3d 211, 216 (5th
Cir. 2014). If the defendant has a history of mental
illness, defense counsel has a duty to investigate or
request a hearing on competency. Bouchillon v.
Collins, 907 F.2d 589, 597 (5th Cir. 1990). “[E]vidence
of a defendant’s irrational behavior, his demeanor at
trial, and any prior medical opinion on competence to
stand trial are all relevant in determining whether
further inquiry is required.” Drope, 420 U.S. at 180.
On collateral review, the question is whether, based
on what was then known to the state trial court, “the
failure to make further inquiry into [the defendant’s]
competence to stand trial[] denied [the defendant] a
fair trial.” Id. at 174-75.
To succeed on a claim that counsel failed to
investigate, “a petitioner must allege with specificity
what the investigation would have revealed and how
it would have changed the outcome of the trial.”

32a
Miller, 420 F.3d at 361. If defense counsel is aware of
a fact that would cause a reasonable attorney to
investigate further, then the failure to investigate
further is likely deficient performance. See id. at 364.
As we have already stated, there is a strong
presumption under Strickland that defense counsel’s
strategic and tactical decisions fell “within the wide
range of reasonable professional assistance.” 466
U.S. at 689. Strickland also prohibits this court from
evaluating defense counsel’s choices through the
“distorting lens of hindsight.” Id.
We examine the evidence on the attorney’s actions.
Hagood admitted in his first affidavit that he “should
have filed an objection to the competency report and
should have urged a new competency hearing” after
Thomas returned from Vernon. His second affidavit,
though, sought to justify his not seeking another
hearing:
[We] did not request a new competency
hearing. The reason for this was simple: the
applicant was not incompetent when we began
his trial. Although heavily medicated and still
suffering from mental illness, I was able to talk
to the applicant and discuss the case with him.
The applicant was able to participate in our
conversations and help me with his defense. In
fact, based on some of our conversations and
the applicant’s ability to recall events and
make suggestions, there was no question at
that time that the applicant was competent to
stand trial. The trial court specifically asked
me if I was claiming incompetency. I avoided
the question as much as I could, but eventually

33a
had to tell the judge that we were not
challenging competency at that time because I
had no new evidence to dispute the findings at
Vernon or suggest the applicant was
incompetent.
When Thomas returned from Vernon, the official
report was that Thomas was severely manufacturing
and exaggerating his psychotic symptoms. Based on
that
report,
defense
counsel
may
have
understandably discounted signs in Thomas of
potential incompetence. Thomas’s erratic actions, in
light of the medical evaluation, arguably did not place
counsel on notice that further inquiry was needed. It
is true that the state habeas court credited a portion
of Hagood’s first explanation — that he should have
made a second competency objection. In deciding if
this constituted an unreasonable factual finding, we
accept that the state court could have treated the
assertion in the first affidavit as Hagood’s post hoc
realization that he should have done more, while that
in the second affidavit reflects Hagood’s belief the
challenge would not have been successful.
We acknowledge that a reasonable jurist could
have concluded that defense counsel’s dismissal of
signs of incompetence and failure to challenge
competency a second time was ineffective
representation under Strickland. We must analyze
the decision, though, by applying the standard of
whether it was objectively unreasonable for the state
habeas court to conclude that defense counsel
complied with Strickland. In considering the facts
known to defense counsel on the eve of trial, which are
the facts the state habeas court considered, we cannot

34a
say that it was objectively unreasonable for the state
court
to
conclude
that
defense
counsel’s
representation complied with Strickland. Thomas is
not entitled to habeas relief on this ground.
C. Ineffective assistance in
voluntary-intoxication theory

rebutting

the

Thomas
argues
that
defense
counsel’s
representation was inadequate because they failed to
present “appropriate expert testimony to rebut th[e]
central prosecution theory,” which was that Thomas’s
undisputed psychosis at the time of the killings was
self-induced. In Texas, “[v]oluntary intoxication does
not constitute a defense to the commission of crime.”
TEX. PENAL CODE § 8.04(a). Thomas contends that the
cause of his psychosis “was the ‘real fight’ in the guilt
phase,” and counsel knew it. The State and another
doctor had both informed defense counsel that they
should retain an expert who could testify about the
effects of Thomas’s recreational abuse of
dextromethorphan (“DXM”) contained in the cough
suppressant Coricidin. Instead, defense counsel
called two of the State’s experts and also a
psychiatrist, though the latter was not qualified to
testify as a pharmacologist. Thomas reasons that his
counsel’s “failure to obtain appropriate expert
testimony to rebut the prosecution’s central theory
was deficient” because it allowed the State to present
an unchallenged factual predicate for its main
argument.
Thomas’s arguments regarding the
ineffectiveness of his counsel in rebutting the
voluntary-intoxication theory were presented as
Claims 29, 30, and 31 in his state habeas application.

35a
Thomas also contends that his counsel’s
performance was prejudicial because “[a]t least one
reasonable juror could have decided in light of [other]
witnesses’ expert evaluations that Thomas’s
psychosis did not result from cough medicine or other
substances, but from his severe organic mental
illness.” Thomas further argues that the state court
applied the wrong legal standard because it imposed
a preponderance of the evidence standard while
Strickland requires only a reasonable probability of a
different outcome.
In an effort to demonstrate what further trial
counsel could have done, Thomas in the state habeas
proceedings submitted affidavits from three other
doctors. They supported Thomas’s defense in these
ways: Dr. Jonathan Lipman, an expert in
neuropharmacology, would have testified that
Thomas’s psychosis was involuntary and not
substance induced; Dr. Myla Young, an expert in
neuropsychology, would have testified that Thomas’s
psychosis was the result of “significant brain
dysfunction . . . like that demonstrated in several
neurological, psychiatric and neurodevelopmental
disorders”: Dr. Ruben Gur, also a neuropsychologist,
would have testified that Thomas suffered from
schizophrenia and that his psychosis was organic.
A defense attorney must reasonably investigate
possible defenses or “make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691. A decision not to
investigate “must be directly assessed for
reasonableness in all the circumstances, applying a
heavy measure of deference to counsel’s judgments.”

36a
Id. Again, to obtain habeas relief, the petitioner must
show “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. “A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Id.
A petitioner for habeas relief has the burden to
support both that counsel was constitutionally
ineffective and that prejudice resulted. Rector v.
Johnson, 120 F.3d 551, 563 (5th Cir. 1997). The state
habeas court here found insufficient proof “that
counsel’s performance was constitutionally deficient
and [counsel] was not acting as a reasonably
competent attorney, and his advice was not within the
range of competence demanded of attorneys in
criminal cases.” As to prejudice, the court articulated
the correct legal standard, that “a ‘reasonable
probability’ the result would have been different is
merely ‘probability sufficient to undermine confidence
in the outcome’ of trial.” The court then found that
Thomas failed to prove that his counsel’s performance
“prejudiced his defense and that based on the opinions
of Gur, Young, and Lipman there is a reasonable
probability that, but for counsels unprofessional errs
the results of the proceeding would have been
different.”
To support his argument on this issue, Thomas
largely relies on Draughon v. Dretke, 427 F.3d 286
(5th Cir. 2005). Of course, only the Supreme Court’s
decisions constitute clearly established law under
Section 2254(d)(1). Our review of Draughon, then, is
to see whether it precedentially held what had
already been clearly established by the Supreme

37a
Court. See Marshall v. Rodgers, 569 U.S. 58, 64
(2013). We held that habeas relief was warranted
because defense counsel failed to present expert
testimony challenging the main factual predicate of
the prosecution’s case. Draughon, 427 F.3d at 296.
Draughon was charged with capital murder; he
argued that the killing was accidental, thus making
his intent to kill the primary issue at trial. Id. at 289–
91. A witness testified that she saw the defendant
pull a gun and shoot the victim. Id. at 290. The
defense did not counter this testimony with any
expert evidence about the trajectory of the bullet. Id.
at 294. In habeas proceedings, a forensics expert
testified that the defendant had not shot the victim
directly, rather the bullet had ricocheted off the
ground into the defendant. Id. at 291.
We take from Draughon that the clearly
established law from the Supreme Court is that
effective representation requires an attorney to
conduct a reasonable investigation into the law and
facts of the case. Strickland, 466 U.S. at 691. We
applied that law in Draughon and held that on those
facts, the defense counsel had to hire an expert
witness to counter the main factual predicate of the
state. In Draughon¸ if defense counsel did not put a
forensics expert on the witness stand, then only the
defendant could counter that testimony. 427 F.3d at
297. Thomas argues that his case is like Draughon
because defense counsel failed to retain an expert
witness to rebut the State’s central theory that
Thomas’s psychosis was voluntarily induced from his
ingestion of DXM in the Coricidin.

38a
It is true that Hagood stated in his first affidavit
that he “did not do an independent investigation of
the experts.” Whatever Hagood meant by that, he did
offer a psychiatrist, Dr. Edward Gripon, who testified
that Thomas’s psychosis was organic. Dr. Gripon
explained that he had reviewed thousands of pages of
documentation on Thomas’s mental condition;
interviewed Thomas multiples times; and reviewed
“offense reports, crime-scene photographs, witness
statements, videotapes, audiotapes . . . jail records . .
. medical records . . . treatment records . . . [and]
expert reports.” He testified that Thomas had a
chronic schizophrenic condition and was insane at the
time of the offenses. Dr. Gripon rejected that abusing
DXM could have caused Thomas’s actions.
In addition, defense counsel talked to two other
medical experts who were ultimately not called to
testify. As the state habeas court found, “Dr. Jay
Crowder, a psychiatrist hired by the defense but not
called at trial, informed the defense that he could not
rule out the possibility that the psychotic episode
leading up to the murders was induced by his use of a
combination of drugs and alcohol.” Hagood explained
that he also had talked to Dr. Richard Rogers who
“indicated that testing showed [Thomas] was
manipulative and ‘blew the top off’ the questions
indicating malingering.”
Our concern is not whether counsel at trial could
have done more. That is often, maybe always, the
case. Thomas’s counsel did introduce testimony to
contradict the main factual predicate for the State’s
theory.
Given that defense counsel presented

39a
testimony to counter the State’s main factual
predicate, no deficiency under Draughon exists.
Finally, Thomas also argues that his counsel
provided ineffective representation on expert
testimony when they “inexplicably resorted to calling
the prosecution’s experts.” He further writes that
“even if that strategy [was] reasonable . . . the
resulting testimony confirms it was not.” Such an
argument fails. “It is all too tempting for a defendant
to second-guess counsel’s assistance after conviction
or adverse sentence, and it is all too easy for a court,
examining counsel’s defense after it has proved
unsuccessful, to conclude that a particular act or
omission of counsel was unreasonable.” Strickland,
466 U.S. at 689. Hagood explained that he hoped by
calling the State’s witnesses he could “diffuse some of
the more damaging testimony against” Thomas. That
trial counsel’s strategy proved unsuccessful cannot be
used as a reason to question the reasonableness of the
strategy. Id.
Based on these facts, it was not objectively
unreasonable for the state habeas court to conclude
that Thomas had not carried his burden under
Strickland to show defense counsel’s representation
was constitutionally inadequate. Thomas is not
entitled to relief on this ground.
D. Ineffective assistance in presenting a mitigation
defense
Thomas argues that his trial counsel provided
constitutionally
deficient
representation
at
sentencing, which prejudiced him because there was

40a
a substantial probability that a reasonable juror
would have reached a different outcome if the
mitigation defense had been adequate.
This
argument was presented as Claim 34 to the state
habeas court. As we have already stated, Thomas
must show that the state court’s application of the
Strickland standard was objectively unreasonable to
his claim of ineffective assistance of counsel at
sentencing, a substantially higher burden.
First, Thomas contends that his trial counsel’s
investigation of mitigating evidence was deficient,
which prevented the jury from hearing the tragic
story of his life. The story of his life, he asserts, was
filled with “mental-health issues, abuse, and neglect.”
Those problems were compounded with alcohol and
drug abuse. He writes that he attempted suicide at a
young age with no objection from his parents;
tragically, his parents encouraged it. He argues that
these facts were well known to his friends and family,
that defense counsel was deficient by failing both to
investigate this personal history and to present
evidence of it to jurors.
Next, Thomas argues that “there is at least a
reasonable probability that one juror would have
decided against the death penalty,” and thus trial
counsel’s deficient performance was prejudicial to
him. More importantly, he argues that “the state
habeas court’s conclusion that [he] failed to prove
prejudice reasonably applied clearly established law.”
He contends that “the state court completely ignored
what [the other] witnesses would have said and how
their testimony would have altered the picture before
the jury at sentencing. Ultimately, Thomas asserts

41a
that defense counsel’s representation at sentencing
“painted an overwhelmingly incomplete and
misleading picture.”
The question before this court is whether it was
objectively unreasonable for the state habeas court to
conclude that defense counsel’s representation at
sentencing complied with Strickland. If reasonable
jurists could disagree about the reasonableness of the
state court’s decision, then AEDPA precludes federal
habeas relief because “even a strong case for relief
does not mean the state court’s contrary conclusion
was unreasonable.” Richter, 562 U.S. at 102. AEDPA
requires deference to the state court’s decision if there
is a reasonable basis for it. Id.
A defense attorney’s obligations in a capital case
include conducting a thorough investigation into
potential mitigating evidence. See Wiggins v. Smith,
539 U.S. 510, 522 (2003). In citing to the ABA
guidelines for performance of defense counsel in
death-penalty cases, the Supreme Court stated that
counsel should investigate and consider presenting
testimony about the defendant’s medical history,
educational history, employment and training
history, family and social history, prior adult and
juvenile correctional experience, and religious and
cultural influences. Id. at 524. “[T]he duty to
investigate does not force defense lawyers to scour the
globe on the off chance something will turn up.”
Rompilla v. Beard, 545 U.S. 374, 383 (2005). At the
same time, defense counsel must begin preparation
for sentencing with adequate time for investigation
into the defendant’s background. Williams v. Taylor,
529 U.S. 362, 395 (2000).

42a
We have examined the principal evidence on
counsel’s performance that was presented to the state
habeas court. The affidavits from each of the trial
counsel discuss the mitigation case. Some of the
information in the affidavits raises doubts about the
preparation of a case for mitigation of sentence.
Hagood’s first affidavit states he met only twice on his
own with Shelli Schade, the person he hired as an
expert to prepare the mitigation case, whom the
record shows was recommended to Hagood by the
Texas Defender Service. That recommendation gives
at least initial reasonableness to Hagood’s reliance
that Schade knew what to do and would do it. He was
“disappointed with the work” she did and said it could
have been his or co-counsel’s fault for not “giving her
enough direction.” Hagood’s first affidavit indicated
some involvement in the decisions being made, such
as rejecting Schade’s suggestion to seek testimony
from two particular family members because Hagood
did not think they would be worth the effort. He was
interested in having Thomas’s mother testify, but
“shortly before trial she disappeared.”
Hagood’s second affidavit describes much more
thorough preparation. That affidavit discusses such
matters as the witnesses he considered, efforts he
made to prepare useful ones to testify, and judgments
he made at trial regarding the value of their
testimony:
The applicant claims that we were not
prepared to present our punishment case. This
is patently false. Ms. Peterson and I spent
many months preparing all aspects of the case.
I had talked to several family members

43a
regarding the applicant’s background and
childhood.
The applicant’s mother was angry at the
applicant for killing her grandson. Although I
could have gleaned useful background
information from her testimony, I did not do so.
She had left the state and I made no attempt to
subpoena her or get her back to Grayson Cunty,
Texas for the trial. I was too afraid of what
might come out of her mouth and further
damage she might [do] to the applicant. I had
no intention of putting her on the stand and
preferred that the State did not have that
opportunity either.
I believed the applicant’s aunt, Doris
Gonzales, would be my primary witness
regarding mitigation. When I interviewed her
she was articulate and passionate about the
trial and obstacles faced by the applicant. Once
on the stand, however, she collapsed. She was
unable to relate to the jury, despite my best
attempts, in as clear and convincing a manner
as she had during trial preparation.
I had also prepared two of the applicant’s
brothers and his father. They, too, had done a
much better job in my office than they were
able to in court. Once I realized that they were
not coming across well, I abandoned my
questioning of those three witnesses.
On appeal here, Thomas emphasizes counsel
Peterson’s statement in her first affidavit that “[l]ate

44a
in the trial, Mr. Hagood asked me who we had for the
punishment phase … [which was when she] realized
that [they] were not prepared for the punishment
phase.” Peterson’s second affidavit gave what could
be seen as a more comprehensive explanation. She
restated her earlier assertions, and described her
understanding of what Shelli Schade was supposed to
be doing:
I did not think Mr. Hagood had spoken to
any witnesses, I was not privy to any witness
he may have talked to or the reasons behind
much of Mr. Hagood’s strategy at trial.
The applicant’s mother was not cooperative. I
procured Kate Allen with Mr. Hagood’s
consent.
I do not know what instructions Ms. Schade
was given by Mr. Hagood. All materials
possessed by Mr. Hagood and myself were
available to Ms. Schade. Ms. Schade requested
more documents from me as the trial went on
and I provided everything possible.
Since the state habeas court decision is what we
must review, we quote some of its factual findings on
this issue. It largely accepted the assertions Hagood
made in his second affidavit that we have already
quoted. Importantly, it found that “Hagood spent
many months preparing all aspects of the case. He
stated that he had talked to several family members
regarding the applicant’s background and childhood.”
It further found that Hagood believed Thomas’s aunt
would be the defense’s principal mitigation witness

45a
but abandoned questioning her because she collapsed
on the stand and “was unable to relate to the jury.”
The state court similarly found that Hagood
abandoned questioning of Thomas’s father and
brothers when “he realized that they were not coming
across well.” Further, the state court found that
“Hagood was aware of the family background and
history of mental problems and alcohol abuse,” and he
“felt that such information to a juror could cut both
ways.”
Other
factual
findings
reflect
an
acknowledgement by the state court that counsel had
not done all that could have been done. For example,
the court found that counsel “did not initially retain
any experts for the mitigation phase of the case.”
“Members of Mr. Thomas’s family, friends and
community leaders were available at the time of Mr.
Thomas’s trial to inform counsel, experts, and jurors
about Mr. Thomas’s life. The defense team did not
contact all of Mr. Thomas’s family members. Nor did
Ms. Schade draft a social history or mitigation
report.”
We must defer to these factual findings, which are
presumed correct, unless rebutted with clear and
convincing evidence. 28 U.S.C. § 2254(e)(1). Thomas
asserts it was unreasonable for the state court to find
that Hagood spent months preparing because some of
Hagood’s claims, such as speaking with Thomas’s
family members, were “demonstrably untrue” based
on later evidence that was gathered. As we have
stated regarding other claims, though, Thomas must
convince that the state court made “an unreasonable
determination of the facts” by considering “the

46a
evidence presented in the State court proceeding.” §
2254(d)(2). The record we can consider is only the one
before the state court.
Moreover, it is not only the sentencing-phase
evidence that is relevant to mitigation. As the federal
district court pointed out, Hagood had already
presented substantial mitigating evidence during the
guilt phase of the trial; offering the evidence at the
sentencing phase would have been cumulative. For
example, Thomas’s father, Danny Thomas, testified
about Thomas’s upbringing and childhood.
He
testified that Thomas had appeared to have “mental
problems,” describing nervous-breakdown behavior
and depression.
Also testifying at the guilt phase was Carmen
Hayes, Thomas’s girlfriend at the time of the
murders. She testified that Thomas spoke often about
the book of Revelation and believed that “all women
were Jezebels,” meaning that “women were lustful.”
She also testified that two days before the murders,
Thomas said, “God, forgive me for my sins,” before
stabbing himself in the chest, and saying he wanted
to “fly with the angels.” He would also put duct tape
over his mouth because “he felt like he was the devil
and if he stopped talking for 24 hours, the world
would be right.” Hayes, along with Paul Boren, Amy
Ingle, and Rose Soto Caballero, testified to Thomas’s
frequent use of the term “déjà vu.” Hayes testified
that Thomas believed that “God was making him
relive days when he was smoking marijuana [as
p]unishment.”

47a
Isaiah Gibbs, Thomas’s lifelong friend, testified
about Thomas’s relationship with his mother,
Rochelle Thomas. Ms. Thomas regularly took her son
and Gibbs to church. When Gibbs and Thomas were
with “some girl” she did not like, Ms. Thomas referred
to her as “Jezebel.” Gibbs spoke to the strong
influence that she had on Thomas, and how she would
give whippings with belts or shoes to Gibbs and
Thomas.
Ingle, Hayes, Bryant Hughes, Boren, and Rae
Baird each testified about Thomas’s religious
obsession. Ingle testified that he cut out the words in
Revelation to reword it.
Hughes testified that
Thomas believed the angels were “bound in hell” and
that Thomas wanted to free them. Boren relayed a
story about Thomas’s claiming that “if everyone
would just stop and say, peace, love, that would bring
about the end of world.”
The State also called Eric Ross, Thomas’s older
brother, at the sentencing stage. That brother
testified to Thomas’s childhood and stated that he
loved his brother. When Thomas finally began
presenting mitigating evidence at the sentencing
stage, substantial background information and
mitigating evidence had already been presented to
the jury.
The defense called nine additional witnesses for
further mitigation.
Included was Danny Ross,
Thomas’s brother, who testified about Thomas’s
childhood and how he strove for knowledge as a young
student. Ross’s wife Wendy Ross also testified that
she loved Thomas and that he had been there for her.

48a
She testified that Thomas had watched her children
for her and that she never had any fears or concerns
about Thomas’s watching her children, but that his
behavior changed in the months leading up to the
murders.
Thomas’s aunt Doris Gonzales also
testified, describing her visits with Thomas and his
brothers as full of “[l]aughter, happiness, joking, [and]
kidding.
Dr. Kate Allen, a clinical social worker and family
sociologist, also testified for Thomas. In her opinion,
Thomas was essentially raised by himself and his two
brothers, suffered from schizophrenia, and had traits
of a borderline personality disorder and antisocial
personality disorder. She further testified that her
opinion was that “his mental illness was, by far, the
driving force” of the murders.
The defense had presented much mitigation
evidence at the guilty phase, then supplemented that
evidence at sentencing. The state habeas court’s
conclusion that defense counsel complied with
Strickland was not objectively unreasonable.
Thomas’s case is distinguishable from the cases he
cites.
For example, he refers us to Porter v.
McCollum, 558 U.S. 30 (2009), to argue that ignoring
pertinent paths of investigation was deficient
performance under Strickland. In Porter¸ however,
defense counsel failed to “obtain any of [the
defendant’s] school, medical, or military service
records or interview any members of [the defendant’s]
family.” Id. at 39 (emphasis added). Here, the state
court found that Hagood had spent months preparing
and had interviewed various members of the family.

49a
Thus, unlike the defense attorney in Porter whose
failure to investigate prevented him from making a
strategic choice about what to tell the jury, Hagood’s
investigation into Thomas’s past allowed him to make
a strategic choice. In his brief on appeal, Thomas
writes
that
because
of
defense
counsel’s
ineffectiveness “the jury never heard . . . that [he]
badly needed medical help from a young age and
never received it – a very different portrait of his
humanity and culpability.” To the extent the jury did
not hear this story, it was arguably because Thomas’s
counsel made a strategic decision not to share this
story for fear that it would hurt Thomas’s case. Even
if that decision was incorrect and against clearly
established law requiring more of defense counsel, it
was not objectively unreasonable for the state court to
conclude that defense counsel complied with
Strickland. See Miller, 420 F.3d at 360. Thomas is
not entitled to habeas relief on this claim.
We view the current arguments about the
effectiveness of counsel’s preparation of a mitigation
case primarily to present factual questions. The state
habeas court had to make credibility choices,
considering all the evidence before it. Though some
of the information in these affidavits makes the
preparation of a case on mitigation appear
worrisomely slapdash, Hagood’s second affidavit
shows meaningful effort, with some mistakes and
surprises, but not constitutionally ineffective
performance. We cannot conclude that the state
habeas court made an unreasonable determination of
the facts when it accepted the assertions that it did.

50a
We conclude that Thomas has not overcome the
state habeas court’s factual finding that counsel was
aware of Thomas’s extensively troubled past. Hagood
asserts he was making choices about which witnesses
to put on the stand, and the state habeas court found
those choices did not make Hagood ineffective.
AFFIRMED.

51a
STEPHEN A. HIGGINSON, Circuit
concurring in part and dissenting in part:

Judge,

An all-white jury found Thomas, a black man, guilty
of capital murder and sentenced him to death for
killing his wife, a white woman, and two children,
including their interracial child. That jury included
three jurors who acknowledged bias against
interracial marriage. Empaneling them—affirming
their capital verdict and death sentence—was
objectively unreasonable, contradicting the clearly
established Supreme Court and Fifth Circuit caselaw
aptly summarized in the majority opinion1:
It is undeniable “that discrimination on the
basis of race, ‘odious in all aspects, is especially
pernicious in the administration of justice.’”
[Pena-Rodriguez, 137 S. Ct. 855,] 868 [(2017)]
(quoting Rose v. Mitchell, 443 U.S. 545, 555
(1979)). Any “defendant has the right to an
I appreciatively concur in the majority opinion’s resolution
of Thomas’s other COA issues except for whether his counsel was
ineffective in addressing jury bias. As to that issue, because I
see AEDPA error under Irvin v. Dowd, 366 U.S. 717, 722 (1961),
and Parker v. Gladden, 385 U.S. 363, 366 (1966) (a defendant is
“entitled to be tried by 12, not 9 or even 10, impartial and
unprejudiced jurors”), denying Thomas his Sixth Amendment
right to an impartial jury, above all a jury without overt racial
bias, Pena-Rodriguez, 137 S. Ct. 855, 868 (2017); see also United
States v Booker, 480 F.2d 1310, 1311 (7th Cir. 1973) (“if even one
member of the jury harbors racial prejudice against the accused,
his right to trial by an impartial jury is impaired”), I do not reach
whether Thomas’s trial counsel, who undertook either no or
negligible voir dire inquiry into jurors’ avowals of actual racial
bias, was constitutionally deficient under Turner v. Murray, 476
U.S. 28, 36–37 (1986), and Mu’Min v. Virginia, 500 U.S. 415,
431–32 (1991).
1

52a
impartial jury that can view him without racial
animus, which so long has distorted our system
of criminal justice.” Georgia v. McCollum, 505
U.S. 42, 58 (1992). If a defendant is denied the
right to an impartial decisionmaker, regardless
of the nature of the bias, any subsequent
conviction is tainted with constitutional
infirmity. Virgil [v. Dretke], 446 F.3d [598,] 607
[(5th Cir. 2006)]. Any juror who “the defendant
has specific reason to believe would be
incapable of confronting and suppressing their
racism” should be removed from the jury. See
McCollum, 505 U.S. at 58. If a juror should
have been removed for cause, then seating that
juror requires reversal.
United States v.
Martinez-Salazar, 528 U.S. 304, 316 (2000).
The facts of Thomas’s violent crime are undisputed
and the majority recognizes that racial issues were
inextricably bound up with his murders. See RosalesLopez v. United States, 451 U.S. 182, 189–90 (1981).
Indeed, the fact of Thomas’s interracial relationship
with his victim was at the crux of the State’s case,
urging the all-white jury to vote for capital
punishment:
Are you going to take the risk about him asking
your daughter out, or your granddaughter out?
After watching the string of girls that came up
here and apparently could talk him into—that
he could talk into being with him, are you going
to take that chance?
Adjudicating this horrific crime would challenge
any juror, but it is constitutionally prohibited for a

53a
racially biased juror who “vigorously oppose[s]” (Juror
Ulmer) (or “oppose[s]”—Jurors Copeland and
Armstrong) “people of different racial backgrounds
marrying and/or having children.”
As we both celebrate and enforce, the Constitution
rests our “criminal justice system . . . firmly on the
proposition that before a person’s liberty can be
deprived, guilt must be found, beyond a reasonable
doubt, by an impartial decisionmaker. The Sixth
Amendment provides in part: ‘In all criminal
prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been
committed.’ Put simply, ‘The right to jury trial
guarantees to the criminally accused a fair trial by a
panel of impartial, ‘indifferent’ jurors.’” Virgil v.
Dretke, 446 F.3d 598, 605 & nn. 22, 23 (5th Cir. 2006)
(quoting the Sith Amendment and clearly established
Supreme Court caselaw, including Irvin v. Dowd, 366
U.S. 717, 722 (1961), and Parker v. Gladden, 385 U.S.
363, 366 (1966) (per curiam)) (alterations in original).
In Thomas’s state habeas proceeding, the state
court’s cursory conclusion about juror bias was that
“[t]here is no evidence that the jury’s decision was
racially motivated.” I agree with the majority that
this finding gave no resolution to Thomas’s structural
error claim that jurors with actual, disqualifying bias
were seated. Where I disagree is with the majority’s
compensating inference that Ulmer’s admitted-to
racial bias was impliedly disclaimed by him as a
“moral judgment” he “could set aside…in determining
guilt.” Although Ulmer separately stated that he
would not let the color of Thomas’s skin affect his

54a
judgment of him, the majority candidly acknowledges
that he never retreated from his “beliefs about
interracial marriage.” “Belief” is dignifying here.
Ulmer admitted to racial animus—condemned by the
unanimous Supreme Court one half century ago in
Loving v. Virginia as “odious,” “invidious” and
“repugnant”—here against the exact interracial
circumstance of the offense Thomas was sentenced to
death for. 388 U.S. 1, 11 & n.11 (1967).
I would apply clearly established Supreme Court
law to forbid persons from being privileged to
participate in the judicial process to make life or
death judgment about brutal murders involving
interracial marriage and offspring those jurors openly
confirm they have racial bias against. The law rightly
condemned this repugnancy when enacted as law by
lawmakers, just as it might condemned it when we
ask citizens to join us as judges.

55a
APPENDIX B
United States
Court of Appeals
Fifth Circuit
FILED
June 7, 2018
Lyle W. Cayce
Clerk
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH
CIRCUIT
No. 17-70002
ANDRE LEE THOMAS,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:09-CV-644
Before JONES, SOUTHWICK, and HIGGINSON,
Circuit Judges.

56a
PER CURIAM:*
Andre Lee Thomas, a Texas state prisoner, was
convicted of capital murder and sentenced to death.
The district court denied his Section 2254 petition and
also denied him a Certificate of Appealability
(“COA”). Here he moves for a COA on five issues: (1)
whether the jury composition was tainted by racial
bias and whether defense counsel was ineffective for
failing to question the allegedly biased jurors; (2)
whether defense counsel was ineffective for not
investigating Thomas’s competency to stand trial; (3)
whether defense counsel was ineffective in rebutting
the State’s voluntary-intoxication theory; (4) whether
defense counsel was ineffective in presenting a
mitigation defense in the penalty phase; and (5)
whether execution of the severely mentally ill violates
the Eighth Amendment.
Without expressing any view on the merits, we
conclude that reasonable jurists could disagree about
the resolution of the first four issues. Therefore, we
grant a COA on those issues. We deny a COA on the
issue of whether execution of the severely mentally ill
violates the Eighth Amendment. This issue is
foreclosed under our precedent.
The Clerk’s Office will set a briefing schedule.
Motion for COA GRANTED IN PART AND
DENIED IN PART.
Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.
*

57a
APPENDIX C
2016 WL 4988257
Only the Westlaw citation is currently
available.
United States District Court, E.D. Texas,
Sherman Division.
Andre Lee THOMAS, #999493, Petitioner,
v.
DIRECTOR, TDCJ-CID, Respondent.
CIVIL ACTION NO. 4:09cv644
|
Signed 09/19/2016
Attorneys and Law Firms
Maurie Amanda Levin, Maurie Amanda Levin,
[sic] Attorney at Law, Philadelphia, PA, Donald
Lee Bailey, Attorney at Law, Sherman, TX,
Marilyn Clark, Patrick J. McLaughlin, Dorsey &
Whitney LLP, Minneapolis, MN, for Petitioner.
Fredericka Searle Sargent, Attorney General’s
Office, Austin, TX, for Respondent.
MEMORANDUM OPINION AND ORDER OF
DISMISSAL
MICHAEL H. SCHNEIDER, UNITED STATES
DISTRICT JUDGE
*1 Petitioner Andre Lee Thomas, an inmate
confined in the Texas prison system, filed the above-

58a
styled and numbered petition for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254. Petitioner is
challenging his capital murder conviction and death
sentence imposed by the 15th Judicial District Court
of Grayson County, Texas in Cause Number 051858,
in a case styled The State of Texas v. Andre Thomas.
For reasons set forth below, the Court finds that the
petition is not well-taken and that it will be denied.
Procedural History of the Case
In March 2005, Petitioner was convicted of the
capital murder of thirteen month old Leyha Marie
Hughes, by cutting or stabbing her with a knife, in
violation of Tex. Penal Code § 19.03(a)(8). He was
found guilty after the jury rejected his plea of not
guilty by reason of insanity. The Texas Court of
Criminal Appeals (“TCCA”) affirmed the conviction
and death sentence. Thomas v. State, No. AP-75218,
2008 WL 4531976 (Tex. Crim. App. Oct. 8, 2008)
(unpublished). Petitioner did not file a petition for a
writ of certiorari.
Petitioner filed his first application for a writ of
habeas corpus in state court on June 8, 2007. The
state trial court issued extensive findings of fact and
conclusions of law on March 28, 2008. The TCCA
subsequently denied relief based on the trial court’s
findings and conclusions and on its own review. Ex
parte Thomas, No. WR-69859-01, 2009 WL 693606
(Tex. Crim. App. March 18, 2009) (unpublished).
Petitioner began the present proceedings on
December 27, 2009. He filed a petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254 on March

59a
16, 2010 (docket entry #7). On April 22, 2010, the
Court granted his unopposed motion to stay and hold
the proceedings in abeyance while he pursued a
second application for a writ of habeas corpus in state
court. The application was dismissed as successive
pursuant to Texas Code of Criminal Procedure Article
11.071 § 5. Ex parte Thomas, No. WR-69859-02, 2010
WL 1795738 (Tex. Crim. App. May 5, 2010)
(unpublished). On June 9, 2010, the Director was
ordered to show cause why relief should not be
granted. He filed an answer (docket entry #23) on
May 11, 2011. Petitioner filed a reply (docket entry
#35) on March 21, 2012.
Factual Background of the Case
The facts of the case were summarized in the
concurring opinion denying habeas relief in state
court as follows:
[Petitioner] has a severe mental illness. He
suffers from psychotic delusions and perhaps
from schizophrenia. He also has a long history
of drug and alcohol abuse. Because of his drug
abuse, he was frequently truant, quit school in
the ninth grade, and had a series of juvenile
and adult arrests. Dr. Axelrad, called by both
the State and defense, testified that the
twenty-one-year-old [Petitioner] told him that
he had been abusing alcohol since age ten and
marijuana since age thirteen, and, in the
month before the murders, had been taking
large doses of Coricidin, a cold medicine, for
recreational purposes.

60a
[Petitioner’s] behavior in the months before
the killings became increasingly “bizarre”: He
put duct tape over his mouth and refused to
speak; he talked about how the dollar bill
contains the meaning of life; he stated that he
was experiencing deja vu and reliving events
time and again; he had a religious fixation and
heard the voice of God. In the weeks before the
murders, [Petitioner] was heard by others
talking about his auditory and visual
hallucinations of God and demons.
*2 About twenty days before the killings, he
took Coricidin and then tried to commit suicide
by overdosing on other medications. He was
taken to the local MHMR facility, but then
walked away before he could be treated. Two
days before the killings, he drank vodka and
took about ten Coricidin tablets and then
stabbed himself. His mother took him to the
local hospital. But again, [Petitioner] left the
hospital before he could be committed for
observation or psychiatric treatment. On two
occasions in the days before the killings,
[Petitioner] was seen by friends to be highly
intoxicated; they described him as vomiting,
delirious, incapacitated, and lying on the floor.
At around 7:00 p.m. on March 26th, just one
day after stabbing himself, [Petitioner] went to
his estranged wife’s apartment where she and
her boyfriend, Bryant Hughes, were listening
to religious audiotapes.
According to
[Petitioner’s] statement to police, he had come
to believe that God wanted him to kill his wife,

61a
Laura, because she was “Jezebel,” to kill his
four-year-old son, Andre, Jr., because he was
the “Anti-Christ,” and to kill his wife’s
daughter, thirteen-month old Leyha, because
she, too, was evil. That evening, [Petitioner]
saw Bryant twisting an extension cord as they
listened to the religious tapes, and he thought
that Bryant also wanted to strangle Laura and
the children. [Petitioner] wanted to make “the
first move,” so he walked into Laura’s kitchen
to find a knife, but then decided that it was not
the right time. Bryant drove applicant home
around 10:00 p.m.
[Petitioner] reported that the next morning
he woke up and heard a voice that he thought
was God telling him that he needed to stab and
kill his wife and the children using three
different knives so as not to “cross
contaminate” their blood and “allow the
demons inside them to live.” He walked over to
Laura’s apartment. He saw Bryant drive by
and wave, so [Petitioner] believed that this was
a signal that he was doing “the right thing” by
killing his wife and the children.
He burst into the apartment, then stabbed
and killed Laura and the two children. He used
a different knife on each one of the victims, and
then he carved out the children’s hearts and
stuffed them into his pockets. He mistakenly
cut out part of Laura’s lung, instead of her
heart, and put that into his pocket. He then
stabbed himself in the heart which, he thought,
would assure the death of the demons that had

62a
inhabited his wife and the children. But he did
not die, so he walked home, changed his
clothes, and put the hearts into a paper bag and
threw them in the trash. He walked to his
father’s house with the intention of calling
Laura, whom he had just killed. He called
Laura’s parents instead and left a message on
their answering machine:
Um, Sherry, this is Andre. I need y’alls
help, something bad is happening to me
and it keeps happening and I don’t know
what’s going on. I need some help, I
think I’m in hell. I need help. Somebody
needs to come and help me. I need help
bad. I’m desperate. I’m afraid to go to
sleep. So when you get this message,
come by the house, please. Hello?
[Petitioner] then walked back to his trailer
where his girlfriend, Carmen Hayes, and his
cousin, Isaiah Gibbs, were waiting for him. He
told them that he had just killed his wife and
the two children. Ms. Hayes took him to the
Sherman Police Department and he told the
police what he had done.
After he was
hospitalized for his chest wound, he was taken
to jail, and he gave a videotaped statement to
the police. In that videotaped statement,
[Petitioner] gives a very calm, complete, and
coherent account of his activities and his
reasons for them.
*3 Five days after the killings, [Petitioner]
was in his cell with his Bible. After reading a

63a
Bible verse to the effect that, “If thy right eye
offends thee, pluck it out,” [Petitioner] gouged
out his right eye. [Petitioner] was examined for
competency to stand trial by two psychologists
and was evaluated by a treating psychologist in
jail, all of whom agreed that [Petitioner] was
not then competent to stand trial. All three
provided
a diagnosis
or
opinion of
“Schizophreniform Disorder with a Rule out of
Substance Induced Psychotic Disorder due to
[Petitioner’s] recent history of abusing
Coricidin.”
After approximately five weeks of
treatment and medication in the Vernon State
Hospital, [Petitioner] was found to have
regained his competency to stand trial. During
his stay at Vernon, [Petitioner] was placed on
Zyprexa, a strong anti-psychotic medication,
and did not display “bizarre or unusual
behaviors,” but he did make “hyper-religious
statements throughout his stay.”
The
attending psychiatrist at Vernon updated
applicant’s diagnosis as being SubstanceInduced Psychosis with Delusions and
Hallucinations. He also diagnosed [Petitioner]
as malingering (as did a psychologist).
[Petitioner] was returned to Grayson
County to stand trial.
Several different
psychiatrists and psychologists-both for the
State and [Petitioner]-interviewed and tested
[Petitioner] in anticipation for the capital
murder trial. By that time, [Petitioner] was
fully alert, conversant, and attentive. His

64a
memory tested well, he spoke at a level
consistent with his tested I.Q. of 112, and he
behaved appropriately during the interviews.
He told one psychiatrist in December 2004 that
he had not experienced any hallucinations
since September, although he was severely
depressed.
At trial, the jury rejected his insanity plea
and found [Petitioner] guilty of the capital
murder of thirteen-month-old Leyha. Based
upon the jury’s answers to the special
punishment issues, the trial judge sentenced
him to death.
Ex parte Thomas, 2009 WL 693606, at *1-3 (Cochran,
J., concurring) (footnotes omitted).
Grounds for Relief
Petitioner brings the following grounds for relief:
1. Petitioner was deprived of his right to a fair trial
under the Due Process Clause of the Fourteenth
Amendment to the United States Constitution
because he was not competent to stand trial.
2. Defense counsels’ failure to move for a
competency hearing following Petitioner’s return
from Vernon State Hospital was constitutionally
ineffective.
3. Race dynamics pervaded every aspect of
Petitioner’s trial in violation of the Sixth and
Fourteenth Amendments.

65a
4. Petitioner’s jury was selected in a racially
discriminatory manner in violation of his rights under
the Sixth and Fourteenth Amendments to the United
States Constitution.
5. The Defense’s failure to challenge the State’s
jury shuffle and disparate questioning of the only
African American venire member to make it to voir
dire constituted ineffective assistance of counsel
under the Sixth and Fourteenth Amendments.
6. The presence of jurors opposed to interracial
relationships deprived Petitioner of a fair trial and
violated his right to equal protection under the Sixth
and Fourteenth Amendments.
7. Defense counsels’ failure to inquire into racial
prejudice deprived Petitioner of his constitutional
right to effective assistance of counsel.
8. The State withheld evidence that undermined
Petitioner’s theory of substance-induced psychosis in
violation of Brady v. Maryland.
9. Defense counsels’ failure to hire an expert in
neuropharmacology was constitutionally ineffective.
*4 10. Defense counsels’ failure to obtain a
neuropsychological examination and the testimony of
a neuropsychologist was constitutionally ineffective.
11. Defense counsels’ reliance on the State’s
experts to prove key issues was constitutionally
ineffective.

66a
12. Defense counsels’ failure to elicit opinions on
sanity from Drs. Harrison and McGirk further
rendered its counsel constitutionally ineffective.
13. Defense counsels’ failure to present evidence of
or seek a jury instruction on diminished capacity
constituted constitutionally ineffective assistance of
counsel.
14. Defense counsels’ performance at the
punishment phase of Petitioner’s trial was
constitutionally ineffective.
15. The trial court placed unconstitutional
limitations on Petitioner’s presentation of mitigating
evidence.
16. Sentencing Petitioner to death violates the
prohibition on cruel and unusual punishment set
forth in the Eighth Amendment to the United States
Constitution because Petitioner is indisputably and
severely mentally ill.
17. As Petitioner is no longer a future danger, his
death sentence violates the Eighth and Fourteenth
Amendments.
18. Defense counsels’ copious failures in handling
expert witnesses further deprived Petitioner of
effective assistance of counsel.
19. Defense counsels’ repeated failures to object to
inadmissible
evidence
was
constitutionally
ineffective.

67a
20. Counsel was constitutionally ineffective for
failing to object to the court’s erroneous instruction
on, and the entire evidence regarding, voluntary
intoxication as there was no intoxication, and it
should have never been allowed to infect the trial.
21. The cumulative evidence of counsel’s failures
at both phases of Petitioner’s trial unequivocally
constitutes constitutionally ineffective assistance of
counsel.
22. The State violated Petitioner’s due process
rights under the Fifth, Sixth and Fourteenth
Amendments when the State knowingly presented
false and misleading testimony in violation of Napue
v. Illinois and its progeny.
23. The trial court’s refusal to define “reasonable
doubt” denied Petitioner of his right to due process
under the Fourteenth Amendment.
24. Petitioner was deprived of his Fifth
Amendment privilege against self-incrimination
because the jury used Petitioner’s decision not to
testify against him in imposing a sentence of death.
25. Petitioner’s death sentence is unconstitutional
under Roper v. Simmons because the State used prior
convictions based on acts committed by Petitioner
when he was a juvenile to establish an aggravating
factor.
26. Petitioner was deprived of his right to a fair
trial under the Sixth Amendment because his

68a
attorney had a conflict of interest that was not
waived.
27.
Petitioner’s
appellate
constitutionally ineffective.

counsel

was

Standard of Review
The role of federal courts in reviewing habeas
corpus petitions by prisoners in state custody is
exceedingly narrow. A person seeking federal habeas
corpus review must assert a violation of a federal
constitutional right. Lowery v. Collins, 988 F.2d 1364,
1367 (5th Cir. 1993). Federal habeas corpus relief will
not issue to correct errors of state constitutional,
statutory, or procedural law, unless a federal issue is
also present. See Estelle v. McGuire, 502 U.S. 62, 6768 (1991); West v. Johnson, 92 F.3d 1385, 1404 (5th
Cir. 1996), cert. denied, 520 U.S. 1242 (1997). Federal
courts do “not sit as a super state supreme court on a
habeas corpus proceeding to review error under state
law.” Wood v. Quarterman, 503 F.3d 408, 414 (5th
Cir. 2007) (citations omitted), cert. denied, 552 U.S.
1314 (2008); Skillern v. Estelle, 720 F.2d 839, 852 (5th
Cir. 1983), cert. denied, 469 U.S. 873 (1984).
*5 The petition was filed in 2010, thus review is
governed by the Antiterrorism and Effective Death
Penalty Act (“AEDPA”). See Lindh v. Murphy, 521
U.S. 320, 327 (1997). Under AEDPA, a petitioner who
is in custody “pursuant to the judgment of a State
court” is not entitled to federal habeas corpus relief
with respect to any claim that was adjudicated on the
merits in State court proceedings unless the
adjudication of the claim –

69a
(1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceedings.
28 U.S.C. § 2254(d). “By its terms § 2254 bars
relitigation of any claim ‘adjudicated on the merits’ in
state court, subject only to the exceptions in §§
2254(d)(1) and (d)(2).” Harrington v. Richter, 562 U.S.
86, 98 (2011). AEDPA imposes a “highly deferential
standard for evaluating state-court rulings, and
demands that state-court decisions be given the
benefit of the doubt.” Renico v. Lett, 559 U.S. 766, 773
(2010) (citations and internal quotation marks
omitted). With respect to the first provision, a “state
court decision is ‘contrary to’ clearly established
federal law if (1) the state court ‘applies a rule that
contradicts the governing law’ announced in Supreme
Court cases, or (2) the state court decides a case
differently than the Supreme Court did on a set of
materially indistinguishable facts.”
Nelson v.
Quarterman, 472 F.3d 287, 292 (5th Cir. 2006) (en
banc) (quoting Mitchell v. Esparza, 540 U.S. 12, 15-16
(2003)), cert. denied, 551 U.S. 1141 (2007). “[R]eview
under § 2254(d)(1) is limited to the record that was
before the state court that adjudicated the claim on
the merits.” Cullen v. Pinholster, 563 U.S. 170, 18081 (2011). As such, “evidence later introduced in
federal court is irrelevant to § 2254(d)(1) review.” Id.
at 184. “The same rule necessarily applies to a federal

70a
court’s review of purely factual determinations under
§ 2254(d)(2), as all nine Justices acknowledged.” Blue
v. Thaler, 665 F.3d 647, 656 (5th Cir. 2011), cert.
denied, 133 S. Ct. 105 (2012). The Supreme Court has
specified that a Texas court’s factual findings are
presumed to be sound unless a petitioner rebuts the
“presumption of correctness by clear and convincing
evidence.” Miller-El v. Dretke, 545 U.S. 231, 240
(2005) (citing 28 U.S.C. § 2254(e)(1)). The “standard
is demanding but not insatiable;... [d]eference does
not by definition preclude relief.” Id. (citation and
internal quotation marks omitted). More recently,
the Supreme Court held that a “state court’s
determination that a claim lacks merit precludes
federal habeas relief so long as ‘fairminded jurists
could disagree’ on the correctness of the state court’s
decision.” Richter, 562 U.S. at 101 (citation omitted).
See also Clark v. Thaler, 673 F.3d 410, 421-22 (5th
Cir. 2012), cert. denied, 133 S. Ct. 179 (2012). The
Supreme Court has explained that the provisions of
AEDPA “modified a federal habeas court’s role in
reviewing state prisoner applications in order to
prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent
possible under law.” Bell v. Cone, 535 U.S. 685, 693
(2002). Federal habeas corpus relief is not available
just because a state court decision may have been
incorrect; instead, a petitioner must show that a state
court decision was unreasonable.
Id. at 694.
Furthermore, when a state court provides alternative
reasons for denying relief, a federal court may not
grant relief “unless each ground supporting the state
court decision is examined and found to be
unreasonable under AEDPA.” Wetzel v. Lambert, 565

71a
U.S. ____, ____, 132 S. Ct. 1195, 1199 (2012)
(emphasis in original).
Discussion and Analysis
Claim Number 1: Petitioner was deprived of his
right to a fair trial under the Due Process
Clause of the Fourteenth Amendment to the
United States Constitution because he was not
competent to stand trial.
*6 Petitioner initially argues that he is entitled to
relief because he was not competent to stand trial. He
stressed that the Supreme Court has specified that
“[i]t is well established that the Due Process Clause
of the Fourteenth Amendment prohibits the criminal
prosecution of a defendant who is not competent to
stand trial.” Medina v. California, 505 U.S. 437, 439
(1992). He noted that the test for competency is
whether the defendant has the ability to understand
the charges against him and the ability to
communicate effectively with defense counsel. Dusky
v. United States, 362 U.S. 402, 402 (1960). He asserts
that a defendant must prove incompetence only by a
preponderance of the evidence. Cooper v. Oklahoma,
517 U.S. 348, 355-56 (1996).
In support of the claim, Petitioner observed that
he had plucked out one of his eyes just prior to trial
and had been declared to be schizophrenic and
psychotic. He states that members of the defense
team had reported that he was unable to
communicate effectively with them. Shelli Schade, a
mitigation specialist, stated that Petitioner was very
childlike, quiet and sad, and it was difficult to engage

72a
him in conversation. She observed that he appeared
drugged during trial. He asserted that Bobbie
Peterson, who sat second chair as defense counsel,
stated that he was unresponsive, disinterested, and
unhelpful. Leah Eastep, legal assistant to the
defense, stated that he just ate Skittles, or anything
else sweet, all day long. Petitioner noted that he was
given Zyprexa, a drug used for acute and maintenance
treatment of schizophrenia and related psychotic
disorders. He started out on 10 mg. of Zyprexa on
June 24, 2004. Within a matter of two weeks, he was
receiving the maximum dosage of 40 mg. per day.
The record in this case reveals that the issue of
whether Petitioner was competent to stand trial was
a major concern at trial, and the trial court went to
great lengths to make sure that he was competent
before going forward with the trial. There was no
doubt at the time of trial that he suffered from
schizophrenia, but his condition did not mean that he
was incompetent to stand trial. “A defendant can be
both mentally ill and competent to stand trial.” Mays
v. Stephens, 757 F.3d 211, 216 (5th Cir. 2014), cert.
denied, 135 S. Ct. 951 (2015). On direct appeal, the
TCCA addressed Petitioner’s claim that he was not
competent at the time of his trial as follows:
In April 2004, defense counsel and the
prosecutor both filed motions requesting that
[Petitioner] be examined to determine his
competency to stand trial. The trial court
ordered two psychologists to examine and
evaluate [Petitioner] for competency, both of
whom subsequently filed reports determining
[Petitioner] to be incompetent to stand trial.

73a
On June 16, 2004, the trial court, having
considered the psychological reports, found
[Petitioner] to be incompetent to stand trial
and ordered him to be committed to the Texas
Department of Mental Health and Mental
Retardation—Vernon Campus for restoration
to competency. In late July 2004, [Petitioner]
was returned to Grayson County. A report that
[Petitioner] was competent was filed by Dr.
Joseph Black, Chief Psychiatrist for the
Competency Program at the Vernon Campus,
with copies for both parties. At trial in
February 2005, after the State rested, defense
counsel moved for a directed verdict because
the trial court had proceeded to trial without
determining that [Petitioner’s] competency had
been restored.
The trial court overruled
[Petitioner’s] motion for a directed verdict, and
found, pursuant to Article 46B.084 and after
having taken judicial notice of Dr. Black’s
report, that [Petitioner] was competent to
stand trial....
*7 [D]efense counsel specifically told the
trial court he was not claiming [Petitioner] was
not competent to stand trial. Without an
objection or a claim of incompetency, the trial
court
was
authorized
to
make
the
determination of competency as directed by Art
46B.084(a).
Point of error seven is overruled.
Thomas v. State, 2008 WL 4531976, at *13-14
(footnotes omitted).

74a
The issue was raised again in the state habeas
corpus proceedings in claim number fifteen. 1 SHCR
152-54.1.1 In claim sixteen, Petitioner also claimed
that his attorney was ineffective on this issue. 1
SHCR 154-58. In response, defense counsel and other
members of the defense team, as well as the
prosecutors, filed affidavits with the state habeas
court.
Lead counsel R. J. Hagood filed two affidavits. In
his first affidavit, dated June 13, 2007, he stated: “We
should have filed an objection to the competency
report and should have urged a new competency
hearing. When the State rested its case and I was
asked whether the defense wanted to raise an
incompetency issue in the middle of the trial and I
said no I do not have any new evidence regarding
competency.” 2 SHCR 495 (¶ 10). The second, dated
November 30, 2007, provided the following response
to this issue:
[Petitioner] claims in his fifteenth ground that
[he] was incompetent to stand trial. In his
sixteenth ground he claims that he received
ineffective assistance of counsel because we did
not request a new competency hearing. The
reason for this was simple: [Petitioner] was not
incompetent when we begun his trial. Although
heavily medicated and still suffering from
mental illness, I was able to talk to [Petitioner]
and discuss the case with him. [Petitioner] was
able to participate in our conversations and
“SHCR” refers to the state habeas clerk's record preceded
by the volume number and followed by the page number.
1

75a
help me with his defense. In fact, based on
some of our conversations and [Petitioner’s]
ability to recall events and make suggestions,
there was no question at that time that
[Petitioner] was competent to stand trial. The
trial court specifically asked me if I was
claiming incompetency. I avoided the question
as much as I could, but eventually had to tell
the judge that we were not challenging
competency at that time because I had no new
evidence to dispute the findings at Vernon or
suggest
[Petitioner]
was
incompetent.
Although I will work diligently for my clients, I
will not lie to the court or file motions, the basis
of which I know are not true.
6 SHCR 2145-46. In the remainder of this section of
his affidavit, counsel noted that Ms. Schade disagreed
with his assessment, but he expressed the opinion
that her vehement beliefs against the death penalty
clouded her judgment. Id. at 2146.
Co-counsel Bobbie Peterson also filed two
affidavits. In her second affidavit, she specified that
she “never stated that [she] believed [Petitioner] was
incompetent.
Although heavily medicated and
completely disinterested in the proceeding, under the
limited definition of competency in Texas, I cannot
say with certainty that he was incompetent.” 6 SHCR
2163 (¶ 14).
*8 Mitigation specialist Shelli Schade provided the
following observations about Petitioner’s competency
in her affidavit:

76a
12. [Petitioner’s] ability to assist me was
severely limited. He always had mittens on
and was in a glass cell, on display twenty-four
hours a day. He was extremely depressed. He
was very childlike, quiet and sad, and it was
not easy to start a conversation with him. He
did not understand what we needed and could
not identify or help locate witnesses. I know
[Petitioner] was on a maximum dose of drugs
before and during trial.
17. I heard they were giving [Petitioner] a
high dose of a new drug, a psychotropic. I could
tell he was drugged because he had such a flat
affect, he was child-like and soft spoken, and
did not make a lot of eye contact. [Petitioner]
had been maintained on the drug for months.
1 Supp. SHCR 24, 25.
Leah Eastep, a legal assistant to the defense,
stated that “Petitioner was on the maximum dosage
of Zyprexa during the trial and wore leg braces during
court. During the trial, he ate only [S]kittles, or
anything sweet, all day long.” 2 SHCR 432 (¶ 37).
Lead prosecutor Joseph Brown responded to the
claim Petitioner was incompetent as follows in his
affidavit:
9. [Petitioner] claims in his fifteenth ground
that he was incompetent to stand trial. In his
sixteenth ground he claims that he received
ineffective assistance of counsel because
defense counsel did not request a new

77a
competency hearing. I personally observed
[Petitioner] during trial. Although he was
medicated, he was able to communicate with
his attorneys and the court. He was not actively
psychotic. The trial court specifically asked Mr.
Hagood
if
[Petitioner]
was
claiming
incompetency. Mr. Hagood told the judge that
they were not challenging competency at that
time because he had no new evidence to dispute
the findings at Vernon Hospital or suggest that
[Petitioner] was incompetent. Had I believed
that [Petitioner] was incompetent, I myself
would have recommended that the court hold a
hearing.
7 SHCR 2340.
The final relevant affidavit before the state trial
court was provided by Kerye Ashmore, the second
chair for the prosecution, who gave the following
statement:
[Petitioner] claims in his fifteenth ground
that he was incompetent to stand trial. In his
sixteenth ground he claims that he received
ineffective assistance of counsel because
defense counsel did not request a new
competency hearing.
[Petitioner] was evaluated by three experts
retained by the State after his obtaining
competency at Vernon State Hospital. None of
those experts in any way suggested that
[Petitioner] was anything but competent to
stand trial.

78a
More importantly, I asked defense
psychiatrist, Dr. Gripon, whether [Petitioner]
was competent to stand trial during Gripon’s
testimony in front of the jury. His response was
an unequivocal ‘yes.’2
It is difficult to understand now how
[Petitioner] maintains that he was not
competent to stand trial when even the
defense’s own star expert psychiatric witness
indicated that he was.
6 SHCR 2327 (¶ 12). He likewise specified that he
would have recommended a hearing if he had believed
that Petitioner was incompetent. Id. at 2328 (¶ 13).
*9 After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact:
91. Dr. Gripon’s testimony that [Petitioner]
was competent at the time of trial was credible.
90.3 Initially, [Petitioner] was found
incompetent and sent to Vernon State Hospital
for treatment. [ ] [Petitioner] was returned to
Grayson County to stand trial after doctors at
Vernon State Hospital found that he was then
competent to stand trial. [ ]
91. No second claim of competency was
raised.

2
3

36 RR 101.
It is noted that the state court findings are misnumbered.

79a
92. The trial court specifically asked Mr.
Hagood
if
[Petitioner]
was
claiming
incompetency. Mr. Hagood told the judge that
[Petitioner] was not challenging competency at
that time.
93. The trial court on at least one occasion
addressed [Petitioner] directly and asked him
a question regarding Ms. Peterson (Cate’s)
representation. Ms. Cate had told the court
that she had explained to [Petitioner] that
while Ms. Peterson (Cate) was a prosecutor she
had worked on a case against [Petitioner], that
he understood and wished Ms. Peterson (Cate)
to continue as co-counsel. ( [7 RR 4-5] ). This
court did not observe [Petitioner] to be
incompetent.
94. At no time did Ms. Peterson (Cate)
suggest that [Petitioner] was unable to
understand her.
95. During trial, [Petitioner] was treated for
his schizophrenia with an antipsychotic drug
called Zyprexa.
As is widely recognized,
antipsychotic drugs can have a “sedation-like”
effect, and in severe cases, may affect thought
processes. Riggins v. Nevada, 504 U.S. 127,
143 (1992) [ ].
96. As Mr. Hagood explains, the defense
team should have objected to the competency
when [Petitioner] returned from the state
hospital. [ ] While his attorney recognized that

80a
the report should have been objected to, the
defense team did not object to the findings.
97. Defendant was competent to stand trial.
10 SHCR 3539-40 (some citations omitted as
indicated by brackets).
The state trial court went on to issue the following
conclusions of law:
45. In ground 15, [Petitioner] claims that he
was denied due process because he was not
competent to stand trial. This ground was not
objected to at trial and has been waived. In Ex
parte Bagley, 509 S.W.2d 332, 334 (Tex. Crim.
App. 1974), the Court of Criminal Appeals held
that “the failure of petitioner, as defendant, to
object at trial, and to pursue vindication of a
constitutional right of which he was put on
notice on appeal, constitutes a waiver of the
position he now asserts” on a writ of habeas
corpus; see also Ex parte Boyd, 58 S.W.3d 134,
136 (Tex. Crim. App. 2001) (citing Bagley and
noting that “[o]rdinarily, the writ of habeas
corpus may not be used to litigate matters that
could have been raised at trial and on direct
appeal”).
46. Under Texas law, [Petitioner] was
competent to stand trial.
47. A person is legally incompetent to stand
trial if he lacks either (1) sufficient present
ability to consult with his lawyer with a

81a
reasonable degree of rational understanding or
(2) a rational as well as factual understanding
of the proceedings against him. See Tex. Code
Crim. Proc. Ann. art. 46.02 §§ 1A (Vernon
Supp. 2001); Moore v. State, 999 S.W.2d 385,
392 (Tex. Crim. App. 1999); Guzman v. State,
923 S.W.2d 792, 795 (Tex. App. – Corpus
Christi 1996, no pet.). Evidence of mental
impairment alone does not require a
competency hearing where no evidence
indicates that a defendant is incapable of
consulting with counsel or understanding the
proceedings against him. Townsend v. State,
949 S.W.2d 24, 26-27 (Tex. App. – San Antonio
1997, no pet.) (evidence that defendant was
depressed and suicidal did not warrant an
incompetency hearing); Linger felt v. State, 629
S.W.2d 216 (Tex. App. – Dallas 1982, pet. ref’d)
(testimony from psychiatrist that defendant
suffered from schizophrenia did not warrant a
competency hearing). Generally, to raise the
issue of incompetency, there must be evidence
of recent severe mental illness or bizarre acts
by the defendant or evidence of moderate
retardation. Guzman v. State, 923 S.W.2d 792,
797-98 (Tex. App. – Corpus Christi 1994, no
pet.).
*10 48. The record does not support
[Petitioner’s] claim that he was incompetent to
stand trial or that his attorney was ineffective
for failing to raise the competency issue a
second time.

82a
49. [Petitioner] has failed to prove that he
was incompetent to stand trial or that his
attorney was ineffective for failing to raise the
competency issue a second time.
10 SHCR 3572-73. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1.
The analysis of the present ground for relief must
begin with the fact that Petitioner did not raise the
competency issue when the trial began or at any time
during the trial. The TCCA on direct appeal observed
that “counsel specifically told the trial court he was
not claiming [Petitioner] was not competent to stand
trial.” Thomas v. State, 2008 WL 4531976, at *14. In
the state habeas proceedings, the trial court made the
conclusion of law that the ground was not objected to
and was waived. 10 SHCR 3572 ¶ 45. The TCCA
adopted the trial court’s findings and conclusions in
denying relief.
The Director argues that the competency claim is
procedurally defaulted in light of the decisions issued
by the state courts. The procedural default doctrine
was announced by the Supreme Court in Coleman v.
Thompson, 501 U.S. 722 (1991). The Court explained
the doctrine as follows:
In all cases in which a state prisoner has
defaulted his federal claims in state court
pursuant to an independent and adequate
state procedural rule, federal habeas review of

83a
the claims is barred unless the prisoner can
demonstrate cause for the default and actual
prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to
consider the claims will result in a
fundamental miscarriage of justice.
Id. at 750. Applying this principle, the Fifth Circuit
has held that the “procedural-default doctrine
precludes federal habeas review when the last
reasoned state-court opinion addressing a claim
explicitly rejects it on a state procedural ground.”
Matchett v. Dretke, 380 F.3d 844, 848 (5th Cir. 2004)
(citation omitted), cert. denied, 543 U.S. 1124 (2005).
With this in mind, the Fifth Circuit has consistently
held that the Texas contemporaneous objection rule
constitutes an adequate and independent ground that
procedurally bars federal habeas review of a
petitioner’s claims. Turner v. Quarterman, 481 F.3d
292, 301 (5th Cir.), cert. denied, 551 U.S. 1193 (2007);
Cardenas v. Dretke, 405 F.3d 244, 249 (5th Cir. 2005),
cert. denied, 548 U.S. 925 (2006); Dowthitt v. Johnson,
230 F.3d 733, 752 (5th Cir. 2000) (“[T]he Texas
contemporaneous objection rule is strictly or regularly
applied evenhandedly to the vast majority of similar
claims, and is therefore an adequate procedural
bar.”), cert. denied, 532 U.S. 915 (2001). The state
habeas court explicitly rejected the competency claim
because Petitioner did not object to it at trial.
Petitioner made no attempt to overcome the
procedural default by demonstrating either cause and
prejudice or a fundamental miscarriage of justice;
thus, the claim in procedurally defaulted. See Turner,
481 F.3d at 301.

84a
*11 In the alternative, the state habeas court
considered the claim on the merits and found that
Petitioner was competent. It is abundantly clear that
the Constitution “does not permit trial of an
individual who lacks ‘mental competency.’ ” Indiana
v. Edwards, 554 U.S. 164, 170 (2008) (citing Dusky,
362 U.S. at 402). The test for competence is (1)
whether the defendant has “a rational as well as
factual understanding of the proceedings against
him” and (2) whether the defendant “has sufficient
present ability to consult with his lawyer with a
reasonable degree of rational understanding.” Id.
The test on collateral review is “whether, in light of
what was then known [by the state trial court], the
failure to make further inquiry into petitioner’s
competence to stand trial, denied him a fair trial.”
Drope v. Missouri, 420 U.S. 162, 174-75 (1975). A
state court’s factual finding of competency is
presumed to be correct. Deville v. Whitley, 21 F.3d
654, 656 (5th Cir.), cert. denied, 513 U.S. 968 (1994).
In the present case, the trial court was clearly
concerned with the issue of Petitioner’s competency.
The trial court had him sent to Vernon State Hospital
when told that he was incompetent. The trial was
begun only after doctors at Vernon State Hospital
informed the trial court that he had been restored to
competency. During the trial, the judge specifically
asked Mr. Hagood if he was claiming that Petitioner
was incompetent. The trial continued because Mr.
Hagood said that he was not challenging competency
at that time. The trial court fulfilled its responsibility
of inquiring into the issue of whether Petitioner was
competent.

85a
Moreover, the finding that Petitioner was
competent was supported by the record before the
state court. First of all, Petitioner was returned to
Grayson County from Vernon State Hospital after Dr.
Black found that he was competent. Dr. B. Thomas
Gray, a clinical psychologist, reported that Petitioner
had been diagnosed as “malingering” and that it was
“possible he may engage in gestures or behaviors,
including possibly those involving self-harm, in a bid
to appear more seriously mentally ill than he is, and
to avoid the consequences of the current charges he
faces.” 3 SHCR 894. Petitioner’s own expert, Dr.
Gripon, testified that he was competent. 36 RR 101.
Petitioner’s lead counsel, R. J. Hagood, specified that
Petitioner was not incompetent when the trial began.
Although heavily medicated, Petitioner was able to
talk to his attorney and discuss the case with him.
Counsel stressed that Petitioner was able to
participate in conversations and help with the
defense. He added that Petitioner had the ability to
recall events and make suggestions. Counsel was of
the opinion that “there was no question at that time
that [Petitioner] was competent to stand trial.” 6
SHCR 2146. Co-counsel Peterson likewise stated that
she was of the opinion that he was competent.
Similarly, the prosecutors were of the opinion that he
was competent. Petitioner attempts to counter this
evidence by citing the opinions of Leah Eastep and
Shelli Schade. He has not, however, rebutted the
finding of fact that he was competent with clear and
convincing evidence. With respect to the conclusion
of law that Petitioner was competent, he at best has
only shown that fairminded jurists could disagree
about the correctness of the state court’s decision;

86a
thus, the decision was not unreasonable. Coleman v.
Thaler, 716 F.3d 895, 902 (5th Cir. 2013), cert. denied,
134 S. Ct. 1306 (2014). Overall, with respect to the
first ground for relief, Petitioner has not shown, as
required by § 2254(d), that the state court findings
resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings.
The first ground for relief is
procedurally defaulted and, in the alternative, lacks
merit. Petitioner also failed to overcome § 2254(d).
All relief should be denied.
Claim Number 2: Defense counsels’ failure to
move for a competency hearing following
Petitioner’s return from Vernon State Hospital
was constitutionally ineffective.
*12 Petitioner’s second ground for relief is a
continuation of his first ground for relief. This time,
he alleges that his attorney was ineffective for failing
to move for a competency hearing when he returned
to Grayson County from the state mental hospital.
Ineffective assistance of counsel claims are
governed by the Supreme Court’s standard
established in Strickland v. Washington, 466 U.S. 668
(1984). Strickland provides a two-pronged standard,
and the petitioner bears the burden of proving both
prongs. Id. at 687. Under the first prong, he must
show that counsel’s performance was deficient. Id. To
establish deficient performance, he must show that

87a
“counsel’s representation fell below an objective
standard of reasonableness,” with reasonableness
judged under professional norms prevailing at the
time counsel rendered assistance. Id. at 688. The
standard requires the reviewing court to give great
deference to counsel’s performance, strongly
presuming counsel exercised reasonable professional
judgment. Id. at 690. Under the second prong, the
petitioner must show that his attorney’s deficient
performance resulted in prejudice. Id. at 687. To
satisfy the prejudice prong, the habeas petitioner
“must show that there is a reasonable probability
that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different. A
reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id. at 694. An
ineffective assistance of counsel claim fails if a
petitioner cannot satisfy either the deficient
performance or prejudice prong; a court need not
evaluate both if he makes an insufficient showing as
to either. Id. at 697.
In the present case, although counsel indicated,
and the state court found, that counsel should have
raised the issue of competency a second time when
Petitioner was returned from Vernon State Hospital,
the fact remains that counsel did not have a basis for
raising the issue. Dr. Black found that Petitioner’s
competency had been restored. Dr. Gray observed
that Petitioner was found to be malingering, and lead
counsel Hagood was of the opinion that he was not
incompetent when the trial began. Mr. Hagood
further specified that during the course of the trial he
“had no new evidence to dispute the findings at

88a
Vernon or suggest [Petitioner] was incompetent.” 6
SHCR 2146. Even though Petitioner was suffering
from schizophrenia, the case law was clear at the time
of trial that the “presence or absence of mental illness
or brain disorder is not dispositive” of competency.
See Mata v. Johnson, 210 F.3d 324, 329 n.2 (5th Cir.
2000). See also Patterson v. Cockrell, 69 Fed.Appx.
658, at *4-6 (5th Cir.), cert. denied, 540 U.S. 1008
(2003). “A defendant can be both mentally ill and
competent to stand trial.” Mays, 757 F.3d at 216. In
light of counsel’s opinion that Petitioner was not
incompetent and there was no new evidence to
support a claim of incompetency, his representation
was not deficient for failing to raise the issue.
Counsel appropriately explained in his affidavit that
“[a]lthough I will work diligently for my clients, I will
not lie to the court or file motions, the basis of which
I know are not true.” 6 SHCR 2146. The case law is
abundantly clear that counsel was not required to
make frivolous or futile motions or objections.
Johnson v. Cockrell, 306 F.3d 249, 255 (5th Cir. 2002),
cert. denied, 538 U.S. 926 (2003); Koch v. Puckett, 907
F.2d 524, 527 (5th Cir. 1990). Petitioner has not
shown that counsel’s representation was deficient
because he failed to raise the competency issue a
second time at the beginning of the trial. Moreover,
in light of the conclusion in the first ground for relief
that Petitioner was competent, Petitioner cannot
show that he was prejudiced by counsel’s failure to file
a motion for a competency hearing. He has not
satisfied either Strickland prong.
*13 In addition to the foregoing, the claim should
be rejected in light of the findings by the state court.

89a
The state habeas court issued the following two
conclusions of law in response to Petitioner’s claim
that his attorney was ineffective for failing to move
for a competency hearing:
48. The record does not support
[Petitioner’s] claim that he was incompetent to
stand trial or that his attorney was ineffective
for failing to raise the competency issue a
second time.
49. [Petitioner] has failed to prove that he
was incompetent to stand trial or that his
attorney was ineffective for failing to raise the
competency issue a second time.
10 SHCR 3572-73. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner argues in his reply that the affidavits of
Hagood, Peterson, Eastep and Schade were sufficient
for the state court to find that he did not understand
the charges against him and was unable to
communicate effectively with counsel. He argues that
there was more than enough evidence before the state
court to establish prejudice for his attorneys’ failure
to raise the issue of competency. Nonetheless, there
was abundant evidence to support the state court’s
findings. Petitioner has not satisfied his burden of
rebutting the presumption of correctness that must be
accorded to the state court’s findings of fact with clear
and convincing evidence, as required by 28 U.S.C. §

90a
2254(e)(1).
With respect to the state court’s
conclusions of law, Petitioner at best has only shown
that fairminded jurists could disagree about the
correctness of the state court’s decision; thus, the
decision was not unreasonable. Coleman, 716 F.3d at
902. Overall, Petitioner has not shown, as required
by § 2254(d), that the state court findings resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings.
Finally, in the context of § 2254(d), the deferential
standard that must be accorded to counsel’s
representation must also be considered in tandem
with the deference that must be accorded state court
decisions, which has been referred to as “doubly”
deferential. Richter, 562 U.S. at 105. “When §
2254(d) applies, the question is not whether counsel’s
actions were reasonable. The question is whether
there is any reasonable argument that counsel
satisfied Strickland’s deferential standard.” Id. “If
the standard is difficult to meet, that is because it was
meant to be.” Id. at 102. Also see Morales v. Thaler,
714 F.3d 295, 302 (5th Cir.), cert. denied, 134 S. Ct.
393 (2013). Petitioner has not satisfied his burden of
overcoming the “doubly” deferential standard that
must be accorded to counsel in conjunction with §
2254(d). He has not shown that he is entitled to relief
based on ineffective assistance of counsel. The second
ground for relief lacks merit.

91a
Claim Number 3: Race dynamics pervaded
every aspect of Petitioner’s trial in violation of
the Sixth and Fourteenth Amendments.
*14 In his third ground for relief, Petitioner
asserts that race dynamics pervaded every aspect of
his trial in violation of the Sixth and Fourteenth
Amendments. He supports the claim by observing
that he is an African-American man convicted of
murdering his estranged Caucasian wife, their son,
and her mixed-race daughter by another man. It
should be noted that he was actually convicted only of
the capital murder of thirteen month old Leyha Marie
Hughes. He complains that he was convicted by an
all-white jury. He stressed that four of the jurors
stated that they opposed interracial marriages.
In support of the claim, Petitioner discussed the
history of racism in Grayson County. He placed
special emphasis on the lynching of an AfricanAmerican man 77 years earlier who had been accused
of raping a white woman. In both his state and
federal petitions, he relied on little more than studies
and statistics, along with anecdotal stories. He
argues that the studies “support the common-sense
assertion that the fact that [Petitioner] is AfricanAmerican and the victims were white and mixed-race
had an influence on the outcome of the trial.” See
petition, page 49.
In evaluating the claim, the most noteworthy
aspect of the ground for relief is that Petitioner relies
on an incident that occurred 77 years earlier, along
with generalized studies and statistics – none of

92a
which gives rise to an inference that racism played
any role in this case. The claim is conclusory, which
does not support a petition for a writ of habeas corpus.
See Miller v. Johnson, 200 F.3d 274, 282 (5th Cir.),
cert. denied, 531 U.S. 849 (2000); Koch, 907 F.2d at
530; Ross v. Estelle, 694 F.2d 1008, 1011 (5th Cir.
1983) (“We are thus bound to re-emphasize that mere
conclusory allegations do not raise a constitutional
issue in a habeas proceeding.”). He also claims that
his rights under the Sixth and Fourteenth
Amendments were violated, but he failed to cite any
case law in support of this allegation. By comparison,
the Director appropriately observed that the type of
approach being employed by Petitioner was rejected
in McClesky v. Kemp, 481 U.S. 279 (1986). In order to
establish an equal protection violation, Petitioner
“must prove that the decisionmakers in his case acted
with a discriminatory purpose.” Id. at 292 (emphasis
in original). The Supreme Court held that it would
not “infer” a discriminatory purpose on the part of the
State; thus, the equal protection claim was rejected.
Id. at 299. In the present case, Petitioner’s conclusory
allegations that race dynamics pervaded every aspect
of his trial fares no better. He has not shown that the
decision makers in his case acted with a
discriminatory purpose. He has not shown that he is
entitled to relief on this claim.
In addition to the foregoing, the ground for relief
should be denied for reasons provided by the state
habeas court. The ground for relief was presented as
ground number seventeen in the state habeas corpus
proceedings. The trial court gave the following
reasons for rejecting the claim:

93a
50. Under ground 17, [Petitioner] does not
actually state an error upon which he could
receive relief.
51. [Petitioner] did not make an objection at
trial regarding ground 17 and has waived this
issue.
10 SHCR 3573. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1.
The second reason articulated by the state court
concerns the contemporaneous objection rule, which
was fully discussed on pages 13-14 of this opinion.
Petitioner has made no attempt to overcome the
procedural default by demonstrating either cause and
prejudice or a fundamental miscarriage of justice;
thus, the claim is procedurally defaulted. See Turner,
481 F.3d at 301.
*15 The first reason articulated by the state
habeas court is essentially the same as this Court’s
analysis. The state court found that he “does not
actually state an error upon which he could receive
relief.” 10 SHCR 3573. Similarly, this Court has
found that he has offered nothing other than
conclusory allegations and bald assertions, which are
insufficient to support a petition for a writ of habeas
corpus. See Miller, 200 F.3d at 282; Koch, 907 F.2d
at 530; Ross, 694 F.2d at 1011. Petitioner simply has
not shown that he is entitled to relief on this claim.
Furthermore, he has not shown, as required by §

94a
2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Overall, Petitioner has not shown that
he is entitled to relief on his third ground for relief.
Claim Number 4: Petitioner’s jury was selected
in a racially discriminatory manner in violation
of his rights under the Sixth and Fourteenth
Amendments to the United States Constitution.
Claim Number 5: The Defense’s failure to
challenge the State’s jury shuffle and disparate
questioning of the only African American
venire member to make it to voir dire
constituted ineffective assistance of counsel
under the Sixth and Fourteenth Amendments.
In claim number four, Petitioner asserts that the
State’s request for a jury shuffle in his case was made
with the intent to remove African-Americans from the
portion of the venire most likely to be presented for
individual voir dire. He further asserts that the
State’s disparate questioning of the only AfricanAmerican venire member reached during voir dire (as
a result of the jury shuffle) similarly violated his
constitutional rights. He argues that separately and
in combination, these actions by the State violated his
rights under the Sixth and Fourteenth Amendments
to an impartial jury and equal protection. In claim
number five, Petitioner argues that trial counsel’s

95a
failure to object to the State’s request to shuffle and
the disparate questioning was constitutionally
ineffective. He added that the failure to object
precluded the errors from being raised on direct
appeal, which prejudiced him.
The analysis of this claim begins with the
Supreme Court’s decision in Batson v. Kentucky, 476
U.S. 79 (1986). The Court held that the Equal
Protection Clause forbids the State from challenging
potential jurors solely on the basis of their race. Id.
at 89. Under Batson, a defendant must establish a
prima facie case that the State exercised its
peremptory challenges on the basis of race. Id. at 96.
Once the defendant has established a prima facie case
of discrimination, the burden shifts to the State to
provide a race-neutral reason for each strike. Id. at
97. The trial court then makes a determination of
whether the defendant has established purposeful
discrimination. Id. at 98. A state court’s finding of
the absence of discriminatory intent is “a pure issue
of fact” that is accorded great deference and will not
be overturned unless clearly erroneous. Hernandez v.
New York, 500 U.S. 352, 364-65 (1991).
The Supreme Court analyzed the State’s use of
jury shuffles in the context of Batson in Miller-El v.
Cockrell (“Miller-El I”), 537 U.S. 322 (2003). Texas
provides that either party, based solely upon visual
inspection of the venire, may request the court to
shuffle or randomly reseat the entire panel. See Tex.
Code Crim. Proc. art. 35.11. Both the State and the
defendant have the absolute right to one jury shuffle.
Smith v. State, 648 S.W.2d 695, 696 (Tex. Crim. App.
1983). In Miller-El I, the Supreme Court held that

96a
“the prosecution’s decision to seek a jury shuffle when
a predominant number of African-Americans were
seated in the front of the panel, along with its decision
to delay a formal objection to the defense’s shuffle
until after the new racial composition was revealed,
raise[d] a suspicion that the State sought to exclude
African-Americans from the jury.” 537 U.S. at 346.
The Supreme Court noted, however, that the jury
shuffle alone “might not be denominated as a Batson
claim because it does not involve a peremptory
challenge.” Id. A reviewing court’s role is to
“determine whether the trial court’s determination of
the prosecutor’s neutrality with respect to race was
objectively unreasonable and has been rebutted by
clear and convincing evidence to the contrary.” Id. at
341. The case was remanded for further development.
*16 In Miller-El II, the Supreme Court reiterated
its finding in Miller-El I that a prosecutor’s request to
shuffle a jury when a predominant number of AfricanAmericans were seated near the front of the panel
“raise[d] a suspicion that the State sought to exclude
African-Americans from the jury.” 545 U.S. at 25354. The Court went on to hold that where the State
fails to offer any racially neutral reason for shuffling
the jury, “nothing stops the suspicion of
discriminatory intent from rising to an inference.” Id.
at 254. Overall, the Court found three factors
supported a finding that the State violated Batson: (1)
the prosecution’s use of the jury shuffle when
members of a protected class are disproportionately
seated near the front of the venire, (2) disparate
questioning, and (3) evidence of official office policy or

97a
long-standing customs systematically excluding a
protected class from juries. Id. 253-66.
More recently, the Fifth Circuit discussed the use
of jury shuffles in the context of the Miller-El line of
cases in Fields v. Thaler, 588 F.3d 270 (5th Cir. 2009),
cert. denied, 562 U.S. 901 (2010). In Fields, unlike
Miller-El, all courts rejected the Batson claim. The
Fifth Circuit distinguished the cases as follows:
Although Fields, like Miller-El and Reed, was
tried in Dallas County, the similarities end
there. Fields’s trial took place in Dallas County
in October 2002, long after the trials of MillerEl and Reed in 1986 and 1983, respectively.
See Miller-El I, 537 U.S. at 328, 123 S.Ct. 1029;
Reed, 555 F.3d at 366, 371. There is no
evidence that the now infamous Sparling
Manual, outlining the reasoning for excluding
minorities from jury service, was still in use by
Dallas County prosecutors when Fields’s case
was tried. See Miller-El II, 545 U.S. at 264, 125
S.Ct. 2317; Reed, 555 F.3d at 382. There were
no jury shuffles like the ones found to have
been used for discriminatory reasons in MillerEl’s case. See Miller-El II, 545 U.S. at 254, 125
S.Ct. 2317. There were no “trick” questions by
the prosecutor, id. at 261, 125 S.Ct. 2317, and
the prosecutor did not use different “scripts” for
jurors of different races. Id. at 255-57, 125
S.Ct. 2317. The transcript of the voir dire
examination in Fields’s case indicates that the
prosecutor asked nearly identical questions of
all of the prospective jurors. The trial judge,
noticing that the prosecutor had peremptorily

98a
struck all five of the blacks remaining after
agreed strikes, invited defense counsel to make
a Batson challenge. When the prosecutor said
that he struck Randy Williams because of gold
teeth and gold chains, the trial judge pressed
the prosecutor for further explanation as to
why his reasons for the strike were not racially
motivated. Fields’s counsel was invited to
cross-examine the prosecutor after the
prosecutor gave his reasons, but declined, and
only challenged the prosecutor’s reasons for
striking Green, Williams, and Peterson. In
sum, the strongest evidence of racial
discrimination in this case is the fact that the
prosecutor struck all five of the blacks
remaining in the venire after challenges for
cause and agreed strikes. Although that is
indeed convincing statistical evidence, see
Miller-El II, 545 U.S. at 241, 125 S.Ct. 2317, it
is not enough to support the granting of habeas
relief, where the habeas petitioner fails to
rebut the State’s race-neutral reason for
striking a juror.
Id. at 281. The Fifth Circuit found that the state
court’s decision that a prospective juror was not
peremptorily struck because of her race was not an
unreasonable determination of the facts in light of the
evidence presented in the state court proceeding. Id.
With the case law in mind, the analysis of claim
number four should begin with a comparison of the
claim as it was presented in the state habeas
proceedings to the way it has been presented in the
present proceedings.
Claim number four was

99a
presented as claim number eighteen in the state
habeas corpus proceedings. Petitioner argued only
that the State’s jury shuffle violated his rights under
the Sixth and Fourteenth Amendments. In the
present proceeding, Petitioner’s claim goes beyond a
complaint about the State’s shuffle to include
complaints about the State’s allegedly disparate
questioning of African-American venire members.
*17 Petitioner’s embellishment of the claim raises
exhaustion issues. State prisoners bringing petitions
for a writ of habeas corpus are required to exhaust
state remedies before proceeding in federal court
unless “there is an absence of available State
corrective process” or “circumstances exist that
render such process ineffective.
28 U.S.C. §
2254(b)(1). In order to exhaust properly, a state
prisoner must “fairly present” all of his claims to the
state court. Picard v. Connor, 404 U.S. 270, 275
(1981). This means that a petitioner must have
informed the state court system of the same facts and
legal theories upon which he bases his assertions in
his federal habeas petition. Id. at 276-77; Dispensa v.
Lynaugh, 847 F.2d 211, 217-18 (5th Cir. 1988). “The
exhaustion requirement is satisfied when the
substance of the federal habeas claim has been fairly
presented to the highest state court.” Morris v.
Dretke, 413 F.3d 484, 491 (5th Cir. 2005) (citation
omitted). “It is not enough that all the facts necessary
to support the federal claim were before the state
courts...or that a somewhat similar state-law claim
was made.” Anderson v. Harless, 459 U.S. 4, 6 (1982).
Rather, the petitioner must have presented the
substance of his federal constitutional claim to the

100a
state courts. Id.; Picard, 404 U.S. at 513. The state
court must have been apprised of all of the facts and
legal theories upon which the petitioner bases his
assertions. Picard, supra; Dispensa, 847 F.2d at 217;
Rodriguez v. McKaskle, 724 F.2d 463, 466 (5th Cir.),
cert. denied, 469 U.S. 1039 (1984). Where a petitioner
makes the same legal claim to a federal court which
he presented to the state courts, but supports that
claim with factual allegations which he did not make
to the state courts, he has failed to satisfy the
exhaustion requirement. Rodriguez, 724 F.3d at 466;
Burns v. Estelle, 695 F.2d 847, 849 (5th Cir. 1983). In
Texas, all claims must be presented to and ruled on
by the Texas Court of Criminal Appeals. Richardson
v. Procunier, 762 F.2d 429, 432 (5th Cir. 1985); Deters
v. Collins, 985 F.2d 789, 797 (5th Cir. 1993). When a
petition includes claims that have been exhausted
along with claims that have not been exhausted, it is
called a “mixed petition,” and historically federal
courts in the Fifth Circuit have dismissed the entire
petition for failure to exhaust.
Galtieri v.
Wainwright, 582 F.2d 348, 355 (5th Cir. 1978) (en
banc).
As a result of Coleman’s procedural default
doctrine, federal courts have dismissed unexhausted
claims in a mixed petition as procedurally barred.
Fearance v. Scott, 56 F.3d 633, 642 (5th Cir.), cert.
denied, 515 U.S. 1153 (1995). See also Finley v.
Johnson, 243 F.3d 215, 220 (5th Cir. 2001). Such
unexhausted claims would be procedurally barred
because if a petitioner attempted to exhaust them in
state court they would be barred by Texas abuse-ofthe-writ rules. Fearance, 56 F.3d at 642. The Fifth

101a
Circuit has held that the procedural bar contained in
Tex. Code Crim. Proc. Ann art. 11.071 § 5 is an
adequate state ground for finding procedural bars in
light of decisions by the Texas Court of Criminal
Appeals. Ibarra v. Thaler, 691 F.3d 677, 684-85 (5th
Cir. 2012); Balentine v. Thaler, 626 F.3d 842, 857 (5th
Cir. 2010), cert. denied, 564 U.S. 1006 (2011). The
procedural bar may be overcome by demonstrating
either cause and prejudice for the default or that a
fundamental miscarriage of justice would result from
the court’s refusal to consider the claim. Fearance, 56
F.3d at 642 (citing Coleman, 501 U.S. at 750-51).
In the present case, Petitioner extended claim
number four to include complaints about the State’s
allegedly disparate questioning of African-American
venire members. The new arguments were not
presented to the state courts and are unexhausted.
Petitioner made no attempt to overcome the
procedural default by demonstrating either cause and
prejudice or a fundamental miscarriage of justice;
thus, his allegation that the State engaged in
disparate questioning of African-American venire
members is procedurally defaulted.
The portion of claim number four that is exhausted
and is properly before the Court is Petitioner’s
complaint that the State’s jury shuffle violated his
rights under the Sixth and Fourteenth Amendments.
Petitioner acknowledges, however, that he did not
object to the jury shuffle at trial; thus, the issue was
not preserved for review on direct appeal. In the state
habeas corpus proceedings, the trial court made a
finding of fact that Petitioner did not object to the
shuffle. 10 SHCR 3536 (¶ 69). The trial court went

102a
on to issue the conclusion of law that he did not object
to the jury shuffle and that he waived his rights
regarding the issue. 10 SHCR 3574 (¶ 56). The TCCA
subsequently denied Petitioner’s state application for
a writ of habeas corpus on the trial court’s findings
and conclusions and its own review. Ex parte
Thomas, 2009 WL 693606, at *1. The ground for relief
was procedurally defaulted in light of the
contemporaneous objection rule. Petitioner made no
attempt to overcome the procedural default by
demonstrating either cause and prejudice or a
fundamental miscarriage of justice; thus, the claim
must be rejected as procedurally defaulted.
*18 Despite the waiver, the state habeas court, in
the alternative, discussed the claim on the merits.
The issue was fully developed in the state habeas
corpus proceedings.
Affidavits from all of the
attorneys addressed the issue.
While the first
affidavits from both defense counsel indicated that
they remember some minorities in the first three
rows, neither states with any certainty how many. 2
SHCR 496 (¶ 14) (Hagood); 1 Supp. SHCR 10 (¶ 16)
(Peterson). Petitioner’s reply includes both a preshuffle and post-shuffle seating chart. See reply,
pages 25-26. The pre-shuffle seating chart shows two
African-Americans in the first row, while the postshuffle shows no African-Americans in the first row.
In his second affidavit, lead counsel Hagood states
that his “recollection of the original panel was that
there was many younger people in the front of the
panel as well as several people who had the
appearance of those who might use drugs. It was not
surprising that those would have been unacceptable

103a
jurors to the State. I was certainly not surprised
when the State requested a shuffle nor did I think it
was racially motivated.” 6 SHCR 2146.
Prosecutor Ashmore explained the decision
requesting a shuffle in his affidavit as follows:
The decision to request a shuffle was not
based on race. As the jury was seated, my
recollection is that there might have been two
black veniremen in [the] first three rows, but I
am not sure of the exact number. I do know
that there were not “numerous” black
veniremen seated early in the original call of
the jury. As Mr. Hagood noted in his affidavit,
there were a number of “scruffy looking” white
veniremen in the first several rows. Mr. Brown
and I discussed this fact, and no mention was
ever made about attempting to shuffle
minorities.
Both Mr. Brown and I thought that there
were a number of white veniremen that
appeared rough looking and because of this, a
shuffle was asked for.
I think that I
commented that some of the white veniremen
looked like they had just come from jail. In any
event, trying to adjust the venire as to where
minorities may have been seated had nothing
to do with the request of the State.
6 SHCR 2328. Lead prosecutor Brown’s comments
were similar to those expressed by Ashmore: “When
the jury panel was first seated, we noticed a relatively
large number of jurors in the first few rows were of a

104a
rough appearance. I believe that almost all of these
rough jurors were white. My memory is that we
checked our listings of the criminal histories of the
jurors in the front and that a relatively high
percentage of jurors in front had criminal histories as
opposed to jurors in the back.” 7 SHCR 2340 (¶ 10).
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact:
65. The State timely requested a jury
shuffle.
66. There were more African-Americans in
the first one hundred venire men prior to the
shuffle.
67. The State requested the shuffle based on
the appearance of several of the venire men in
the first one hundred.
68. There is no evidence that the request for
a shuffle was racially motivated.
69. [Petitioner] did not object to the shuffle.
70. As a result of the State’s shuffle, only
two of the 102 potential jurors questioned
during voir dire were African American. Ex. 27
at ¶ 18; R.R. Vo. 23, P. 115.
71. All members of [Petitioner’s] jury were
white. Ex. 27 at ¶ 18.

105a
72. There was no evidence that the jury’s
decision was racially motivated.
73. No objection was ever made by
[Petitioner] to the purported racial bias of any
juror that was seated.
10 SHCR 3536-37.
The state trial court went on to issue the following
conclusions of law:
52. [Petitioner] has failed to present by a
preponderance of the evidence any proof of
purposeful prosecutorial or jury discrimination
in his particular case. County v. State, 812
S.W.2d 303, 308 (Tex. Crim. App. 1989).
56. [Petitioner] did not object to the jury
shuffle and waived any rights under that issue.
*19 57. In Batson v. Kentucky, 476 U.S. 79,
106 S. Ct. 1712, 90 L.Ed.2d 69 (1986), the
Supreme Court held that a prosecutor violates
a defendant’s equal protection rights if he uses
peremptory strikes to eliminate members of
defendant’s race from the jury.
58. Texas Courts have declined to make the
broad extension of Batson that [Petitioner]
seeks. See Ladd v. State, 3 S.W.3d 547, 563
(Tex. Crim. App. 1999), cert. denied, 529 U.S.
1070 (2000).
59. [Petitioner] has failed to prove by a
preponderance of the evidence any fact which

106a
would establish purposeful discrimination by
the court and has failed to cite any law which
would support the extension of Batson to jury
shuffle requests. As such, [Petitioner] has also
failed to prove by a preponderance of the
evidence that his attorneys were ineffective for
not object[ing] to the State’s request for a jury
shuffle.
60. The defense and the state are entitled to
a shuffle, if requested.
61. The failure to shuffle when timely
requested is reversible error.
62. The requested shuffle did not constitute
reversible error.
63. Batson does not apply to a jury shuffle.
10 SHCR 3574-75. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Overall, the state habeas court found that the
State’s request for a shuffle was based on the
appearance of several of the venire men in the first
one hundred. There was no evidence presented to the
court that the shuffle was racially motivated.
Petitioner has not overcome the presumption of
correctness that must be accorded to these findings by
clear and convincing evidence. In conclusion, claim

107a
number four must be rejected because it was
procedurally defaulted and because it lacks merit.
In claim number five, Petitioner presents claim
number four in the context of an ineffective assistance
of counsel claim.
In the state habeas corpus
proceedings, lead counsel Hagood explained that it
was his “recollection of the original panel was that
there was many younger people in the front of the
panel as well as several people who had the
appearance of those who might use drugs. It was not
surprising that those would have been unacceptable
jurors to the State. I was certainly not surprised
when the State requested a shuffle nor did I think it
was racially motivated.” 6 SHCR 2146.
In the aftermath of the Miller-El line of cases, the
Fifth Circuit dealt with a claim of ineffective
assistance for failing to object to a jury shuffle in
Blanton v. Quarterman, 543 F.3d 230 (5th Cir. 2008),
cert. denied, 556 U.S. 1240 (2009). The Fifth Circuit
noted that Miller-El I stood for the proposition “that
a racially-motivated jury shuffle, along with other
factors indicating intent to exclude AfricanAmericans, can ‘raise a suspicion’ of purposeful
discrimination and rebut a prosecutor’s race-neutral
justification for a peremptory strike.” Id. at 242. The
Fifth Circuit further noted, however, that the jury
shuffle alone “might not be denominated as a Batson
claim because it does not involve a peremptory
challenge.” Id. (quoting Miller-El I, 537 U.S. at 346).
*20 Miller-El I was decided before the trial began
in the present case. As such, the prosecutors and
defense counsel were on notice of the decision issued

108a
in Miller-El I. Nonetheless, the attorneys on both
sides agreed that race had nothing to do with the
shuffle. Defense counsel stated that he was not
surprised that the State requested a shuffle in light of
the appearance of people in the front of the original
panel. He did not think the request for a shuffle was
racially motivated. In light of his impressions, his
representation was not deficient for failing to object to
the shuffle. It is again noted that counsel was not
required to make frivolous or futile motions or
objections. Johnson, 306 F.3d at 255; Koch, 907 F.2d
at 527.
Furthermore, Petitioner cannot show
prejudice in light of the state court finding that the
shuffle was not racially motivated. The ineffective
assistance of counsel claim lacks merit.
In addition to the foregoing, the claim must be
rejected for the reasons provided by the state court.
In light of the evidence before the state habeas court,
the court issued the following specific conclusions of
law regarding whether counsel was ineffective on this
issue:
55. [Petitioner] has not demonstrated that
his counsel’s performance fell below a
reasonable objective standard, and he has not
demonstrated that any alleged error prejudiced
his defense.
59. [Petitioner] has failed to prove by a
preponderance of the evidence any fact which
would establish purposeful discrimination by
the court and has failed to cite any law which
would support the extension of Batson to jury
shuffle requests. As such, [Petitioner] has also

109a
failed to prove by a preponderance of the
evidence that his attorneys were ineffective for
not object[ing] to the State’s request for a jury
shuffle.
10 SHCR 3574-75. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1. Petitioner has not shown, as required
by § 2254(d), that the state court findings resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. At best, he has only shown that
fairminded jurists could disagree about the
correctness of the state court’s decision; thus, the
decision was not unreasonable. Overall, relief should
be denied on Petitioner’s fourth and fifth grounds for
relief.
One last issue should be mentioned regarding the
ineffective assistance of counsel claim. In Miller-El
II, the prosecution’s use of the jury shuffle was just
one of the factors that led to the conclusion that the
State violated Batson. A second factor was the State’s
use of disparate questioning. Petitioner did not raise
the disparate questioning aspect of Miller-El II in his
state application for a writ of habeas corpus, but he
added it in the present proceedings. His inclusion of
the disparate questioning aspect of Miller-El II was
not properly exhausted and was procedurally

110a
defaulted. Since the pleadings were filed in this case,
the Supreme Court decided Martinez v. Ryan, 132 S.
Ct. 1309 (2012), and Trevino v. Thaler, 133 S. Ct. 1911
(2013). The Supreme Court opened the door slightly
for a showing of cause and prejudice to excuse the
procedural default in Martinez and Trevino. The
Fifth Circuit summarized the rule announced in
Martinez and Trevino as follows:
To succeed in establishing cause to excuse the
procedural default of his ineffective assistance
of trial counsel claims, [petitioner] must show
that (1) his underlying claims of ineffective
assistance of trial counsel are “substantial,”
meaning that he “must demonstrate that the
claim[s] ha[ve] some merit,” Martinez, 132 S.
Ct. at 1318; and (2) his initial state habeas
counsel was ineffective in failing to present
those claims in his first state habeas
application. See id.; Trevino, 133 S. Ct. at 1921.
*21 Preyor v. Stephens, 537 Fed.Appx. 412, 421 (5th
Cir. 2013), cert. denied, 134 S. Ct. 2821 (2014). The
Fifth Circuit subsequently reaffirmed this basic
approach in Reed v. Stephens, 739 F.3d 753, 774 (5th
Cir.), cert. denied, 135 S. Ct. 435 (2014).
In the present case, Petitioner’s underlying claims
of ineffective assistance of trial counsel with respect
to the jury shuffle were not substantial. Similarly, his
initial state habeas counsel was not ineffective even
though he did not include a disparate questioning
argument in presenting state claim number eighteen.
Petitioner has not satisfied the requirements to
overcome the procedural default as set forth in

111a
Martinez and Trevino. Overall, Petitioner is not
entitled to relief on either claim number four or claim
number five, and the ineffective assistance of counsel
claim is not saved by the rule announced in
Martinez/Trevino.
Claim Number 6: The presence of jurors
opposed to interracial relationships deprived
Petitioner of a fair trial and violated his right to
equal protection under the Sixth and
Fourteenth Amendments.
Claim Number 7: Defense counsels’ failure to
inquire
into
racial
prejudice
deprived
Petitioner of his constitutional right to effective
assistance of counsel.
Claims six and seven involve the interracial
dynamics of the case.
Prospective jurors were
required to fill out lengthy jury questionnaires before
voir dire. Petitioner observed that four members of
the jury openly admitted in their responses that they
“oppose people of different racial backgrounds
marrying and/or having children.” In claim number
six, Petitioner argues that it is highly likely that the
self-proclaimed racial biases of these four impaneled
jurors “prevent[ed] or substantially impair[ed] the
performance of [their] duties...in accordance with
[their] instructions and [their] oath.” Petition at 83
(quoting Wainwright v. Witt, 469 U.S. 412, 424
(1985)). In claim number seven, Petitioner argues
that his attorney was ineffective for failing to inquire
into racial prejudice.

112a
The jury questionnaire mentioned by Petitioner
contained the following question:
The Defendant in this case, Andre Thomas, and
his ex-wife, Lauren Boren Thomas, are of
different racial backgrounds. Which of the
following best reflects your feelings or opinions
about people of different racial backgrounds
marrying and/or having children.
(___) I vigorously oppose people of different
racial backgrounds marrying and/or having
children and am not afraid to say so.
(___) I oppose people of different racial
backgrounds marrying and/or having
children, but I try to keep my feelings to
myself.
(___) I do not oppose people of different racial
backgrounds marrying or being together,
but I do oppose them having children.
(___) I think people should be able to marry
or be with anyone they wish.
3 SHCR 922 (question 105). The following three
jurors and one alternate juror checked either the first
or second option: Barbara Armstrong (3 SHCR 941),
Charles William Copeland (3 SHCR 964), Marty
Glenn Ulmer (3 SHCR 989), and Norma Sue Hintz (3
SHCR 1015). Marty Glenn Ulmer checked the first
option while the remaining three checked the second
option. The first three individuals served as jurors.
Norma Sue Hintz was chosen as an alternate juror

113a
and was excused at the close of trial. Petitioner
argues that the inclusion of these four people on his
jury violated his right to a fair trial and equal
protection under the Sixth and Fourteenth
Amendments.
*22 The Sixth Amendment right to a fair trial
includes the right to an impartial jury. Morgan v.
Illinois, 504 U.S. 719, 727 (1992). The right to an
impartial jury consists of nothing more than the quest
for “jurors who will conscientiously apply the law and
find the facts.” Wainwright, 469 U.S. at 423; see also
Smith v. Phillips, 455 U.S. 209, 217 (1982) (“Due
Process means a jury capable and willing to decide the
case solely on the evidence before it”); Irvin v. Dowd,
366 U.S. 717, 722 (1961) (“In essence, the right to jury
trial guarantees to the criminally accused a fair trial
by a panel of impartial, ‘indifferent’ jurors.”). The
Supreme Court “firmly has rejected the view that
assumptions of partiality based on race provide a
legitimate basis for disqualifying a person as an
impartial juror.” Georgia v. McCollum, 505 U.S. 42,
59 (1992). A prospective juror may not be rejected
merely because of “the racial stereotypes held by that
party.” Id. Instead, a prospective juror may be
excluded if the juror’s views would “prevent or
substantially impair the performance of his duties as
a juror in accordance with his instructions and his
oath.” Morgan, 504 U.S. at 728 (quoting Wainwright,
469 U.S. at 424).
“[P]art of the guarantee of a defendant’s right to
an impartial jury is an adequate voir dire to identify
unqualified jurors.” Id. at 729 (citations omitted).
“Voir dire examination serves the dual purpose of

114a
enabling the court to select an impartial jury and
assisting
counsel
in
exercising
peremptory
challenges.” Mu’Min v. Virginia, 500 U.S. 415, 431
(1991).
Under the Due Process Clause of the
Fourteenth Amendment, a trial court may not deny
an African-American defendant the opportunity to
question prospective jurors on the subject of racial
bias when the circumstances suggest the need for
such questioning. Ham v. South Carolina, 409 U.S.
524, 527 (1973). Furthermore, a “capital defendant
accused of an interracial crime is entitled to have
prospective jurors informed of the race of the victim
and questioned on the issue of racial bias.” Turner v.
Murray, 476 U.S. 28, 36-37 (1986). On the other
hand, there is no per se rule requiring voir dire on
racial bias or prejudice in every case in which the
defendant and the victim are of different races.
Ristaino v. Ross, 424 U.S. 589, 596 n.8 (1976).
Instead, whether such voir dire is necessary requires
“an assessment of whether under all of the
circumstances presented there was a constitutionally
significant likelihood that, absent questioning about
racial prejudice, the jurors would not be as ‘indifferent
as (they stand) unsworne.’ ” Id. at 596 (quoting Coke
on Littleton 155b (19th ed. 1832)).
The facts of this case reveal that the trial court
conducted a lengthy voir dire. Each prospective juror
was questioned individually. The attorneys were
permitted to question them about racial bias. Of the
four jurors in question, the first prospective juror to
be questioned was Marty Glenn Ulmer. The record
reveals that the trial court and the attorneys
questioned him extensively in order to determine

115a
whether he should be on the jury. He informed the
court that “until I’ve seen the proof of it, I wouldn’t –
– I could not form an opinion.” 16 RR 11. When
questioned by the State, he specified that he had not
formed an opinion in this case even though his ex-wife
knew Petitioner’s mother-in-law. Id. at 15-16. He
repeatedly specified that he would have to listen to all
of the evidence before making up his mind. Id. at 17,
19. He stated that he could presume Petitioner to be
innocent until proven guilty. Id. at 22. He repeatedly
stated that he would follow the law. Id. at 22, 25, 30.
When questioned by the defense, Ulmer stated
that he could say “yes” to imposing the death penalty
if the defendant was proven guilty and proven sane.
Id. at 53. On the other hand, he stated that he would
have a hard time sentencing a man to death if there
was something wrong with him. Id. Defense counsel
questioned him about racial bias as follows:
*23 MS. PETERSON: Well, how would –– how
do you feel about, if you are sitting on a case
where the defendant or a defendant accused of
capital murder was a black male, and the
victim, his wife, was a white female.
VENIREPERSON: Well, I think –– I think it’s
wrong to have those relationships, my view,
but we are all human beings and God made
every one of us. And, you know, as far as –– I
don’t care if it is white/white, black/black, that
don’t matter to me. If you’ve done it, you are a
human being, you have got to own up to your
responsibility.

116a
MS. PETERSON: So, the color of anyone’s skin
would not have any impact or bearing upon
your deliberations?
VENIREPERSON: No, not according to that,
no.
MS. PETERSON: Okay.
VENIREPERSON: Not whether they were
guilty or innocent.
MS. PETERSON: Would the race of either the
defendant or the victim be something that you
would take into consideration in determining,
or considering, answering these special issues,
or considering either the death penalty or life
imprisonment?
VENIREPERSON: No, I wouldn’t judge a man
for murder or something like that according to
something like that, no, I would not.
16 RR 64-66. Following this exchange, both the State
and the defense specified that they were not
challenging Ulmer for cause and were accepting him
as a juror. Id. at 67-68.
The second of the four jurors to be questioned was
Barbara Armstrong. The state trial court thoroughly
questioned her in order to determine is she was
impartial:
THE COURT: Okay. What I am asking you is,
can you listen to the evidence in this case and
make up your mind based on the evidence, or

117a
based on what you’ve already heard and read,
do you think you have already formed an
opinion as to his guilt or innocence?
VENIREPERSON: Well, I haven’t formed an
opinion. But, I mean, all I can go by is just
what I’ve heard. It is just hearsay....
THE COURT: So, what I’m telling you is,
whatever you have heard before, whether from
friends, or heard about it on the news, or read
it in the newspaper, you’ve got to be able to tell
me you can set that aside, not consider that for
any purpose, and just make up your mind in
this case based on the evidence that you hear
in this courtroom if you are chosen as a juror.
VENIREPERSON: I think I can do that.
THE COURT: I can’t have you just think.
VENIREPERSON: I can do that.
THE COURT: Okay. I apologize for that. Let
me get into it before the lawyers have to. We
got to be certain in these things. This is a very
serious case, obviously, and so, we need to
know for sure that you can do that.
VENIREPERSON: I can.
THE COURT: If you can, that’s fine. And if you
can’t, that’s fine, but we just need to know.
VENIREPERSON: I can.

118a
16 RR 127-28.
The attorneys followed-up with an extensive line
of questioning to determine whether Armstrong
would follow the law and be an impartial juror. After
going over the charges against Petitioner, the state
prosecutor and Armstrong had the following
exchange:
MR. ASHMORE: Is there anything in the fact
that –– those allegations, where you do not feel
like you could apply the law we’ve gone over in
this case?
VENIREPERSON: I don’t think so. I think I
can sit and listen to the evidence. 16 RR 177.
A similar question was posed by Petitioner’s cocounsel:
*24 MS. PETERSON: And I gather, throughout
all of this, and it is my impression that you’re
going to listen to the evidence and render a
verdict ––
VENIREPERSON: Of course, I am. I mean, I’m
not coming in here with my mind made up or,
anything. I have no idea. Yes, I would listen
to all of the evidence.
16 RR 197. Both sides then chose to forego a
challenge to Armstrong, and both sides stipulated
that they would accept her as a juror. Id. at 198.
Christopher Copeland was the next prospective
juror to be questioned who had stated that he opposed

119a
people of different racial backgrounds marrying
and/or having children. The trial court asked him the
following questions regarding the issue of
impartiality:
THE COURT: Is there anything that you have
read or heard about this case previously that
would cause you to already have formed an
opinion regarding this man’s guilt or
innocence.
VENIREPERSON: No, sir.
THE COURT: Could you, if chosen as a juror,
listen to the evidence from the witness stand
and make up your mind based solely upon the
evidence that you hear?
VENIREPERSON: Yes.
16 RR 258. The state prosecutor likewise asked him
questions to determine if he would be impartial:
MR. BROWN: Anything you are thinking about
–– anything you’re thinking that you need to
tell us about whether you could serve as a juror
in this case?
VENIREPERSON: You know, you just –– you
have to listen to both sides.
MR. BROWN: Okay.
VENIREPERSON: You’ve got to prove he did
it. They prove he didn’t, whatever, insanity.
You know, that’s what a jury does, isn’t it?

120a
They listen to both sides and they make up
their mind as to ––
MR. BROWN: You haven’t made up your mind
on anything yet, have you?
VENIREPERSON: No.
16 RR 294. He subsequently told defense counsel that
he would not make up his mind until he hears both
sides of the story. Id. at 299. Neither the State nor
the defense challenged him for cause, and both
accepted him as a juror. Id. at 300-01.
The final juror in question was Norma Hintz, the
alternate juror who was ultimately excused from jury
deliberations. She told the trial court that she had
not already formed an opinion regarding the guilt or
innocence of Petitioner based on anything she had
read in the newspaper or heard. 26 RR 100. She
specified that she thought she could make up her
mind based just upon the evidence that she would
hear in court. Id. at 101. She stated that she could
follow the law. Id. at 118. Neither the State nor the
defense challenged her for cause, and both accepted
her as an alternate juror. Id. at 146.
The record reveals that Petitioner was fully
permitted to question the prospective jurors in the
quest to obtain an impartial jury. He was accorded
all of his rights under the Sixth and Fourteenth
Amendments. It is again noted that Petitioner
argued that it is highly likely that the self-proclaimed
racial biases of these four jurors prevented or
substantially impaired the performance of their

121a
duties in accordance with their instructions and their
oath. Petition at 83. However, his assertion is
speculative. He has offered nothing other than
conclusory allegations and bald assertions, which are
insufficient to support a petition for a writ of habeas
corpus. See Miller, 200 F.3d at 282; Koch, 907 F.2d at
530; Ross, 694 F.2d at 1011. Moreover, apart from
being conclusory, the claim must also be rejected
because the Supreme Court “firmly has rejected the
view that assumptions of partiality based on race
provide a legitimate basis for disqualifying a person
as an impartial juror...‘we may not accept as a defense
to racial discrimination the very stereotype the law
condemns.’ ” McCollum, 505 U.S. at 59 (citation
omitted). A person may not be removed as a juror
based merely on “the racial stereotypes held by that
party.” Id. Petitioner had every opportunity to
explore whether a prospective juror should be
disqualified as impartial under the law. He was
accorded all of his rights under the Sixth and
Fourteenth Amendments in order to pick an impartial
jury. Claim number six lacks merit.
*25 With respect to Petitioner’s related ineffective
assistance of counsel claim, the Fifth Circuit has
found that an “attorney’s actions during voir dire are
considered to be a matter of trial strategy.” Teague v.
Scott, 60 F.3d 1167, 1172 (5th Cir. 1995). See also
Seigfried v. Greer, 372 Fed.Appx. 536, 540 (5th Cir.),
cert. denied, 562 U.S. 1066 (2010). Competent counsel
need not engage in searching investigations of
potential jurors during voir dire where no suspicion of
juror bias is raised by previous testimony. See Fuller
v. Johnson, 158 F.3d 903, 907 (5th Cir. 1998), cert.

122a
denied, 526 U.S. 1133 (1999). Moreover, where the
record indicates that trial counsel questioned
prospective jurors in detail, a petitioner is not entitled
to relief where there is no reasonable probability that
further questions would have produced a different
result. Harris v. Johnson, 81 F.3d 535, 540 (5th Cir.),
cert. denied, 517 U.S. 1227 (1996). The issue of
whether counsel was obligated to explore the jury’s
racial attitudes when the victim was white and the
defendant was African-American was considered by
the Fifth Circuit in Moore v. Maggio, 740 F.2d 308
(5th Cir. 1984), cert. denied, 472 U.S. 1032 (1985).
The Fifth Circuit found that counsel’s decision not to
bring up the subject of racial bias before the jury
“might be considered sound trial strategy” when there
was no showing that the trial was attended by any
racial animosity. Id. at 317-18. More recently, the
Fifth Circuit rejected an ineffective assistance of
counsel claim based on counsel’s failure to question
potential jurors about racial bias when there was no
showing that counsel should have been aware of
racial bias or prejudice among the venire. Preyor, 537
Fed.Appx. at 423. The finding was made even though
the defendant was African-American and the victim
was white. Id. at 422. The ultimate inquiry is
whether trial counsel’s failure to ask questions
rendered a defendant’s trial fundamentally unfair.
Mu’Min, 500 U.S. at 425-26. A petitioner must also
show that “but for his attorneys failure to inquire into
racial bias of prospective jurors, his trial would have
reached a different result.” Clark v. Collins, 19 F.3d
959, 965 (5th Cir. 1994), cert. denied, 513 U.S. 966
(1994). A state court’s resolution of this issue is
presumed correct, and a habeas petitioner must rebut

123a
this presumption by clear and convincing evidence.
Varga v. Quarterman, 321 Fed.Appx. 390, 395 (5th
Cir. 2009), cert. denied, 558 U.S. 1078 (5th Cir. 2009).
The ineffective assistance of counsel claim was
fully developed during the state habeas corpus
proceedings. The ineffective assistance of counsel
claim was presented as claim number 21 in the state
habeas corpus proceedings. Mr. Hagood provided the
following response in his affidavit:
Under [Petitioner’s] arguments, no white
juror in Grayson County, Texas, would be able
to sit in judgment on a black defendant. I do
not believe that is the case. I have had many
black defendants found not guilty by all-white
jurys. I take issue with [Petitioner’s] decision
to race-bait. It appears that the prosecutors
and jurors are being accused of racial prejudice
without any basis in the record. [Petitioner]
seeks to claim racial discrimination, then
speculates and cherry-picks items from the
record in order to support the proposition they
wish the courts to believe. I believe that this
sort of unfounded accusation cheapens the
judicial system and threatens the ideology
behind all jury trials.
Next, under ground 21, [Petitioner] states
that we were ineffective for failing to inquire
into the racial bias of each juror. Strategically,
I would never ask pointed questions regarding
racial bias from a juror without a real basis to
do so. Voir dire can be delicate in that you do
not want to alienate a juror who may end up on

124a
the jury. Accusing someone of racism is a good
way to do that....For those jurors who
expressed some problem with interracial
relationships, either Ms. Peterson or I
questioned them to the extent necessary for us
to request a strike for cause or make a decision
to use a strike against them. Often time, there
were much worse jurors upon whom we
exercised our strikes.
6 SHCR 2147.
Co-counsel Peterson
response in her affidavit:

provided

the

following

18. Next, under ground 21, [Petitioner]
states that defense counsel was ineffective for
failing to inquire into the racial bias of each
juror. Strategically, I am cautious in asking
questions regarding racial bias of each juror so
that I do not sound like I am accusing a juror of
being racist and angering a potential juror.
Nona Dodson had suggested several questions
to pose to jurors. Mr. Hagood and I followed
some of her advise which, based on many years
as a trial attorney, we believed would be useful.
We did not take all of her suggestions.
19. For those jurors who expressed some
problem with interracial relationships, either
Mr. Hagood or I questioned them to the extent
necessary for us to request a strike for cause or
make a decision to use a strike against them.

125a
*26 6 SHCR 2163-64. The record makes it clear that
the attorneys questioned the prospective jurors
extensively to determine whether they should be
disqualified. When appropriate, they questioned
jurors about racial bias, such as when they questioned
Mr. Ulmer. Mr. Hagood observed that there was not
any basis in the record of racial prejudice. Petitioner
has not shown otherwise. Defense counsels’ decision
to forego questioning three of the four jurors about
racial bias was simply a matter of trial strategy.
Counsels’ decision not to object to them was likewise
trial strategy, particularly when they thought there
were worse jurors to strike.
After accumulating all of the evidence necessary to
make a decision on these two claims, the state trial
court issued the following findings of fact:
71. All members of [Petitioner’s] jury were
white.
72. There is no evidence that the jury’s
decision was racially motivated.
73. No objection was ever made by
[Petitioner] to the purported racial bias of any
juror that was seated.
10 SHCR 3537. Petitioner has not overcome the
presumption of correctness that must be accorded to
these findings of fact with clear and convincing
evidence.
The state trial court also issued the following
conclusions of law:

126a
52. [Petitioner] has failed to present by a
preponderance of the evidence any proof of
purposeful prosecutorial or jury discrimination
in his particular case. County v. State, 812
S.W.2d 303, 308 (Tex. Crim. App. 1989).
53. Strickland encompasses the prohibition
against second guessing counsel’s trial strategy
on voir dire. Not every attorney will conduct
voir dire in the same manner, and, with
hindsight, every attorney may have wished
that additional questions were asked.
However, the fact that another attorney might
have pursued other areas of questioning during
voir dire will not support a finding of ineffective
assistance. See Delrio v. State, 840 S.W.2d 443,
445 (Tex. Crim. App. 1992); Owens v. State, 916
S.W.2d 713, 716 (Tex. App. – Waco 1996).
54. [Petitioner] has failed to overcome the
presumption that trial counsel was effective
during voir dire questioning. See Shilling v.
State, 977 S.W.2d 789, 791 (Tex. App. –Ft.
Worth 1998, pet. ref’d) (ineffectiveness claim
fails where record is devoid of reasoning
counsel employed during voir dire); Sungia v.
State, 733 S.W.2d 594, 600 (Tex. App. – San
Antonio 1987, no pet.) (overruling complaint
regarding brief voir dire that failed to include
certain questions based on absence of
indication that trial counsel’s decision was
unsupported).
his

55. [Petitioner] has not demonstrated that
counsel’s performance fell below a

127a
reasonable objective standard, and he has not
demonstrated that any alleged error prejudiced
the defense.
10 SHCR 3574. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner has not shown, as required by § 2254(d),
that the state court findings resulted in a decision
that was contrary to, or involved an unreasonable
application of, clearly established federal law as
determined by the Supreme Court of the United
States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceedings. He
made the conclusory claim that the trial court’s
findings and conclusions on this matter are both
unsupported by the evidence and contrary to clearly
established law.
However, the findings and
conclusions are supported by the record and
consistent with clearly established law. At best, he
has only shown that fairminded jurists could disagree
about the correctness of the state court’s decision;
thus, the decision was not unreasonable. Overall, the
Petitioner’s sixth and seventh grounds for relief lack
merit and should otherwise be rejected because he has
not satisfied the requirements of § 2254(d).
Claim Number 8: The State withheld evidence
that undermined Petitioner’s theory of
substance-induced psychosis in violation of
Brady v. Maryland.

128a
*27 Petitioner next alleges that the State withheld
exculpatory evidence in violation of Brady v.
Maryland, 373 U.S. 83, 87 (1963). Petitioner asserts
that he was high on dextromethorphan (“DXM”) at
the time of the offense. DXM is the active ingredient
in Coricidin. The State retained Dr. Shannon Miller,
an expert on DXM. Petitioner claims that Dr. Miller
would have provided information favorable to him.
He further alleges that the State chose to bury its
contacts with Dr. Miller. He alleges that the State
violated Brady by failing to disclose its information
regarding Dr. Miller.
The Supreme Court has held that “the suppression
by the prosecution of evidence favorable to an accused
upon request violates due process where the evidence
is material either to guilt or punishment, irrespective
of the good faith or bad faith of the prosecution.”
Brady, 373 U.S. at 87. The duty to provide favorable
evidence includes impeachment evidence as well as
exculpatory evidence. United States v. Bagley, 473
U.S. 667, 676 (1985). In order to prevail on a Brady
claim, the Fifth Circuit requires a petitioner to show
that (1) the prosecution suppressed evidence, (2) the
evidence was favorable to the defense, and (3) the
evidence was material to his guilt or innocence.
Mahler v. Kaylo, 537 F.3d 494, 500 (5th Cir. 2008)
(citations omitted). “Evidence is ‘material’ only when
there exists ‘a reasonable probability that, had the
evidence been disclosed to the defense, the result of
the proceeding would have been different.’ ” Id.
(citing Bagley, 473 U.S. at 682). “The mere possibility
that an item of undisclosed information might have
helped the defense, or might have affected the

129a
outcome of the trial, does not establish ‘materiality’ in
the constitutional sense.” United States v. Agurs, 427
U.S. 97, 109-10 (1976). “Evidence is not ‘suppressed’
if the defendant either knew, or should have known,
of the essential facts permitting him to take
advantage of any exculpatory evidence.” West, 92
F.3d at 1399 (citation omitted). The State in under no
duty “to make a complete and detailed accounting to
defense counsel of all investigatory work done.”
Blackmon v. Scott, 22 F.3d 560, 565 (5th Cir.), cert.
denied, 513 U.S. 1060 (1994).
Petitioner’s Brady claim was fully developed
during the state habeas corpus proceedings. Kerye
Ashmore, one of the prosecutors, responded to the
claim as follows:
Dr. Shannon Miller was contacted by me
about the possibility of testifying at trial. This
contact occurred several months before any
type of retainer was paid to him. As best I
remember, at the time Dr. Miller was originally
contacted, the State was still awaiting the
results of evaluation and testing of [Petitioner]
by Drs. Scarano, Axelrad and Oropeza.
Initially, Dr. Miller indicated that he did not
feel that he could be involved in any testing or
evaluation of [Petitioner] or testify in his case
without being licensed to practice medicine in
the State of Texas. He indicated he would
expect the State to bear the cost of any such
certification and needed to check further on
that. For a period of time there was really no
discussion between the prosecutors or Dr.
Miller concerning his involvement in the case.

130a
Dr. Miller was in possession of the basic
facts of the case, including the State’s position
of what activities demonstrated that
[Petitioner] knew his conduct was wrong.
Finally, after paying the retainer fee, Dr.
Miller was contacted by Joe Brown and myself.
This was during voir dire in this case and after
the submission of reports to us (which we in
turn provided to the defense) concerning
[Petitioner] and to which these experts
testified.
In talking with Dr. Miller he
indicated that the cases that he had dealt with
where he had seen psychosis did involve larger
amounts of DXM and he questioned whether
the amount of DXM in this case could produce
a psychosis. However, Dr. Miller indicated that
he would not be able to form an opinion
concerning [Petitioner], his mental state, his
psychosis, the cause thereof, or his sanity
unless and until he could perform a complete
evaluation of [Petitioner].
*28 It was decided to not do this because of
several factors: (1) attendant cost of having Dr.
Miler come to Grayson County to evaluate and
subsequently to testify, and (2) the fact that
[Petitioner] had already been fully tested and
evaluated by three expert witnesses the State
had already hired.
Joe and I felt that
[Petitioner] had probably been seen by at least
one, probably more than that, defense experts
for purposes of evaluation.
We felt like
[Petitioner] had been seen enough and we
doubted that the defense team would allow us

131a
to bring another expert in during voir dire in
this case to do another evaluation.
We
therefore indicated to the doctor that we would
not be needing further involvement from him.
Dr. Miller was not requested to prepare a
report.
Defense attorney R. J. Hagood requested
that I meet with him to discuss our expert
witnesses and who we anticipated would be
called at trial. This was one reason that a
decision had to be made concerning Dr. Miller.
Therefore, as I remember, the following day I
met with Mr. Hagood with the State’s list of
expert witnesses which had previously been
provided to the defense. It was a rather lengthy
list, and I was attempting to accommodate the
defense request to narrow down the list.
At this meeting, I went through the list of
the State’s potential expert witnesses and
advised Mr. Hagood who I anticipated would in
reality be called to testify.
During this
meeting, I advised Mr. Hagood that the State
would not be calling Shannon Miller. Of
course, Mr. Hagood inquired as to why and he
was advised of the above conversation and
reasoning for us not using Dr. Miller. In fact,
during this conversation, when I advised Mr.
Hagood that Dr. Miller was not going to be used
and the reasons for that, Mr. Hagood indicated
that did not surprise him as he had been doing
a lot of reading, particularly on the Internet,
about DXM.
He further stated that the

132a
position that the drugs did not cause psychosis
was going to be the position of defense experts,
including Dr. Harrison, at the trial. I took from
that the defense already had expert witnesses
who could testify whatever mental problems
[Petitioner] may have had prior to and at the
time of the murder were not substance induced.
Accordingly, it came as no surprise that the
defense in fact put this testimony on through
expert witnesses.
6 SHCR 2325-37. Mr. Ashmore’s statement was
consistent with the statements provided by Joe
Brown, the lead prosecutor. 7 SHCR 2339-40. Mr.
Brown specified that this information was disclosed
to the defense team by Mr. Ashmore, although he was
not present during the conversation. Id. at 2340.
Mr. Hagood, in turn, provided the following
statement in his affidavit:
[P]etitioner claims that the State suppressed
Brady material. I am unaware of any proof,
including that in [Petitioner’s] 11.071 writ
application
and
attachments,
which
establishes that Shannon Miller ever made any
finding regarding [Petitioner], much less a
finding favorable to [Petitioner]. I recall sitting
down with the State prosecutor, Kerye
Ashmore, and sorting out which of the State’s
experts would actually testify, but do not
remember the substance of that conversation
other than that Miller would not be brought to
testify. I have known Mr. Ashmore for a
considerable time, and have handled numerous

133a
cases which he prosecuted. I have never known
Mr. Ashmore to be dishonest or unethical. I
have no reason to believe differently based on
the supporting information in this 11.071
application.
6 SHCR 2145. Co-counsel Bobbie Peterson likewise
stated that she was “unaware of any fact regarding a
person named Shannon Miller ever having made a
finding regarding [Petitioner], much less a finding
favorable to [Petitioner].” 6 SHCR 2162. She further
stated that she had never known Mr. Ashmore to
withhold Brady evidence. Id.
*29 Pursuant to an order of the trial court, Dr.
Miller also provided a statement. He noted that he
was contacted by Joe Brown and Kerye Ashmore. 9
SHCR 3226. He was given basic facts about the case.
He advised the prosecutors that he would not be able
to form an opinion about Petitioner unless he
reviewed records pertaining to that period of time,
and he never received the records. Id. at 3227. He
specified that he never made a diagnosis in the case
nor came to any final conclusions about Petitioner.
Id. He was never asked to prepare a report. Id. He
was subsequently informed that the case was closed
and asked to return any unused portion of the
retainer. Id.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact:
74. Dr. Miller is a psychiatrist who has
written extensively about DXM addiction, is a

134a
specialist on the effects of drug addiction, and
is certified in addiction medication. See Ex. 39.
75. In January 2005, the State formally
retained Dr. Miller, signed a modified version
of his retainer agreement and sent him a
retainer check for ten hours work. See supra,
Part I-I.
76. The State Prosecutors telephoned Dr.
Miller and recounted the basic facts of the case
to him, including the State’s position. During
that conversation, Dr. Miller preliminarily
questioned whether DXM could have played a
part in the kind of psychotic episode
[Petitioner] experienced on March 27, 2004.
State’s Resp. to App. for Writ of Habeas Corpus
at 23.
77. There was no evidence from Dr.
Shannon Miller, exculpatory or otherwise.
78. Dr. Shannon Miller states in his
affidavit that he did not form an opinion
concerning [Petition], his mental state, his
psychosis, the cause thereof, or his sanity
because he never performed a complete
evaluation of [Petitioner] or examined all of the
records.
79. Mr. Ashmore’s and Mr. Brown’s decision
was not to use Dr. Miller because of several
factors including: (1) the attendant cost of
having Dr. Miller come to Grayson County to
evaluate and subsequently to testify, and (2)

135a
the fact that [Petitioner] had already been fully
tested and evaluated by three expert witnesses
the State had already hired.
80. The affidavit of J. Kerye Ashmore is
credible.
81. The affidavit of Joseph D. Brown is
credible.
82. Mr. Ashmore and Mr. Brown believed
that [Petitioner] had been seen by enough
experts for the State and doubted that the
defense team would allow them to bring
another expert in during the voir dire in the
case to do another evaluation.
83. Dr. Miller was not requested to prepare
a report.
84. Mr. Ashmore and Mr. Hagood met to
discuss the State’s list of expert witnesses
which had previously been provided to the
defense prior to or during voir dire. Mr.
Ashmore went through the list of the State’s
potential expert witnesses and advised Mr.
Hagood who the State anticipated would be
called to testify. During this meeting, Mr.
Ashmore advised Mr. Hagood that the State
would not be calling Shannon Miller. Mr.
Hagood inquired as to why and was advised of
the reasoning for the State not using Dr. Miller.
During this conversation, Mr. Ashmore advised
Mr. Hagood that Dr. Miller could not give an
opinion without examining the defendant and

136a
Dr. Miller indicated the cases he had dealt with
generally involved larger doses of DXM.
10 SHCR 3537-38.
Petitioner questions the
credibility of the State prosecutors, but he failed to
overcome the presumption of correctness that must be
accorded to the state court findings with clear and
convincing evidence.
In his reply, he merely
characterized Mr. Ashmore’s assertions as highly
suspect and incredible.
*30 The state trial court went on to discuss the law
surrounding Brady. After discussing the law, the
court issued the following conclusions of law:
40. [Petitioner] has failed to satisfy any of
the three prongs set out in Brady...
41. There was no evidence from Dr.
Shannon Miller, exculpatory or otherwise.
42. [Petitioner] has failed to prove that
there was any evidence suppressed by the
State.
43. [Petitioner] has failed to prove by a
preponderance of the evidence that Dr. Miller
gave evidence favorable to [Petitioner].
44. [Petitioner] has failed to prove by a
preponderance of the evidence the prong
regarding materiality and that but for that
material evidence the results of his trial would
have been different.

137a
10 SHCR 3571-72. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
The state court’s discussion of the law adhered to
clearly established law as determined by the Supreme
Court. In light of the evidence before it, the state
court appropriately found that none of the three
Brady prongs were satisfied. Petitioner at best has
only shown that fairminded jurists could disagree
about the correctness of the state court’s decision;
thus, the decision was not unreasonable. Coleman,
716 F.3d at 902. Overall, Petitioner has not shown,
as required by § 2254(d), that the state court findings
resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Petitioner has not shown that he is
entitled to relief on claim number eight.
Claim Number 9: Defense Counsel’s failure to
hire an expert in neuropharmacology was
constitutionally ineffective.
Petitioner took the position at trial that he was not
guilty by reason of insanity. The State took the
position that Petitioner either knew right from wrong
or that any psychosis he was experiencing at the time
of the offense was substance induced. With respect to

138a
the latter position, it should be noted that voluntary
intoxication under Texas law does not constitute a
defense to the commission of a crime. Tex. Penal Code
§ 8.04(a) & (d). Defense counsels’ trial strategy was
to prove that Petitioner was insane at the time of the
offense, not because of voluntary intoxication, but
because of his prior medical and mental history.
In the present claim, Petitioner argues that
counsel was ineffective for failing to hire a
neuropharmacologist to educate the team prior to
trial or to oppose the State’s experts at trial. He
submitted an affidavit from Dr. Jonathan Lipman, a
neuropharmacologist, who specified that he would
have been available to the defense team at the time of
trial. 2 SHCR 547, ¶¶ 1, 4 (“I am Board Certified in
neuropharmacology...I was available to consult with
the attorneys representing [Petitioner] following his
arrest in 2004 and subsequently, and was, in fact,
consulting with attorneys in Texas in this period of
time.”). He asserted that “there was and is no
affirmative forensic toxicological support for the view
that [Petitioner] was intoxicated by alcohol,
marijuana or Coricidin’s ingredients at the time of the
offenses.” Id. at 548, ¶ 10. Petitioner argues that if
the defense team had hired a neuropharmacologist,
like Dr. Lipman, the jury would have heard that his
behavior before, during, and after the murders did not
resemble intoxication-induced psychosis, but was
consistent with paranoid psychotic mental illness. Id.
at 550, ¶ 15. He further argues that if the defense
team had made this argument, then there would have
been no basis for the State’s experts to offer testimony
on the voluntary intoxication theory.

139a
*31 Petitioner notes that instead of calling a
neuropharmacologist, counsel called Dr. Edward B.
Gripon, a forensic psychiatrist, who addressed the
substance-induced psychosis theory. In an affidavit,
Dr. Gripon expressed the opinion that “[d]etailed
opinions regarding specific pharmacological issues
should have been directed to a pharmacologist, i.e., a
pharmacist.” 2 SHCR 447, ¶ 14.
In response, the Director noted that the Fifth
Circuit has held that where a petitioner claims
counsel failed to impeach a witness or cast doubt on
the credibility of a witness’ testimony, then any
arguable weakening of the State’s evidence must be
viewed in light of the totality of the State’s evidence.
Leal v. Dretke, 428 F.3d 543, 549 (5th Cir. 2005), cert.
denied, 547 U.S. 1073 (2006). The Director proceeded
to review the relevant evidence, particularly the
evidence submitted by the State’s experts.
The record reveals that Petitioner’s ineffective
assistance of counsel claim was fully developed during
the state habeas corpus proceedings. Mr. Hagood’s
affidavit included the following response to Dr.
Lipman’s affidavit:
I have read the affidavit by Jonathan Lipman.
I understand his conclusion, I just don’t [think
it] has anything to do with this case. Neither
the State nor any of its experts alleged that
substances which triggered [Petitioner’s]
psychotic episode were still in his system at the
time he murdered his wife and her children. It
appears that Mr. Lipman’s conclusions were
based on that assumption. I believe that Mr.

140a
Lipman was working under the premise that
the [word] “intoxicated” had its vernacular
meaning rather than the specific meaning
assigned to it in [the] Texas Code of Criminal
Procedure. Lipman does not address the
combination of DXM, alcohol and marijuana
nor does he give any opinion about the amount
of drugs and alcohol in [Petitioner’s] system at
the time of the psychotic break. Lipman’s
opinion, as set [out in] his affidavit, would not
have been beneficial to [Petitioner] because it
fails to address [the] core issues in this case:
first, whether [Petitioner] understood that his
actions were wrong when he murdered his wife
and her children and second, whether the
psychosis he was experiencing at the time of
the murder had been premeditated by his drug
and alcohol abuse prior to the day of the
murder.
6 SHCR 2150 (emphasis in original). Mr. Hagood
went on to specifically address the claim that he was
ineffective for failing to hire a neuropharmacologist:
Petitioner] argues that I was ineffective for
failing to hire a neuropharmacologist and
request a neuropsychological examination for
[him]. As stated above, [Petitioner] is missing
the point of the State’s case. The issue was not
whether [Petitioner] was psychotic. He was.
The issue was not whether he had a large
amount of DXM, alcohol and marihuana in his
system when he committed the triple murder.
He did not, and no one claimed that he did. The
issue was whether [Petitioner], in a psychotic

141a
state, still understood that his conduct was
wrong when he murdered his wife and her two
children and if not, was the psychotic state
caused or aggravated by the use of a substance.
I am not aware of a neuropharmacologist who
is qualified to diagnose schizophrenia as
opposed to substance induced behavior or who
could extrapolate the amount of drugs in his
system at the exact moment of the psychotic
break.
*32 6 SHCR 2152. Citing the affidavit, the Director
emphasized Mr. Hagood’s conclusion that he was not
aware of a neuropharmacologist who could address
the core issue of whether Petitioner knew right from
wrong at the time of the incident and, if not, was the
psychotic state caused or aggravated by the use of a
substance.
In addition to Mr. Hagood’s affidavit, the three
state psychiatrists/psychologists who testified at trial
submitted affidavits. Dr. Victor R. Scarano observed
that Dr. Lipman did not interview nor evaluate
Petitioner. 6 SHCR 2182, ¶ 13. He added that Dr.
Lipman misconstrued his central point in his report
and testimony, which was Petitioner “at the time of
the murders was suffering from a drug induced
psychosis.” Id. Dr. Scarano went on to provide a
thorough explanation for his conclusion and the
shortcomings in Dr. Lipman’s analysis. Dr. David
Axelrad likewise discussed the shortcomings in Dr.
Lipman’s analysis and how his “conclusions were not
relevant to [his] diagnosis.” 6 SHCR 2278, ¶ 54.
Finally, Dr. Peter Oropeza, like the two psychiatrists,
observed that Dr. Lipman’s use of the term

142a
“intoxication” was not the term as defined in the
Texas Penal Code. 6 SHCR 2295, ¶ 54. He asserted
that Petitioner’s statement that “[h]ad the defense
team hired a neuropharmacology expert, the jury
would have learned that there was no scientific
support for the State’s theory that Mr. Thomas was
intoxicated by alcohol, marijuana or DXM at the time
of the murders,” was false, misleading and a
misrepresentation of his diagnosis. Id. at 2296, ¶ 58.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the findings of fact that included the following:
20. The blood samples and a urine test from
[Petitioner] on the morning of the crime did not
reveal any evidence of intoxication due to
[Petitioner’s] ingestion of either marijuana or
Coricidin on the evening of March 25, 2004. [ ]
As stipulated by the State at trial, a less than
measurable amount of Dextromethorphan
(“DXM”) was found in [Petitioner’s] blood. [ ]
35. Mr. Hagood’s and Ms. Bobbie Peterson
(Cate’s) trial strategy was to prove that
[Petitioner] was insane at the time of the
offense, not because of intoxication, but
because of his prior medical and mental
history.
36. The State’s position was that
[Petitioner] either knew right from wrong or
that any psychosis he had was substance
induced.

143a
37. For the guilt/innocence phase of the
trial, the State primarily relied on Drs. David
Axelrad and Victor Scarano and psychologist
Dr. Peter Oropeza. [ ]
39. The defense team also retained three
core experts for the guilt/innocence phase of the
trial: psychiatrist Dr. Edward Gripon and Dr.
Jay Crowder and psychologist Richard Rogers.
Ex. 72. None had specific credentials as a
neuropharmacologist and only Dr. Gripon was
called at trial. The defense team did not
initially retain any experts for the mitigation
phase of the case. [ ]
41. The Defense neither retained nor called
a neuropharmacologist or a toxicologist.
44. Texas Law provides that “Voluntary
intoxication does not constitute a defense to the
commission of crime” and “intoxication” means
“disturbance of mental or physical capacity
resulting from the introduction of any
substance into the body.” Texas Penal Code §
8.04(a) & (d).
*33 48. On direct examination, Dr. Victor
Scarano set out his opinion that [Petitioner’s]
use of drugs and alcohol precipitated
[Petitioner’s] psychotic episode.
52. The court’s instruction on voluntary
intoxication was supported in that: (1) the
evidence showed that [Petitioner] told Dr.
Peter Oropeza that he smoked marijuana the

144a
night before the murder [ ]; (2) the medical
records of [Petitioner] showed that there was
marijuana in his urine. There was insufficient
blood to test for marijuana in the blood as what
blood was left from the hospital was used to
test for DXM; (3) there was DXM still in
[Petitioner’s] blood at the time his blood was
drawn several hours after the murders; (4)
there was evidence from nurse Natalie Sims
that [Petitioner] had told her that if it hadn’t
been for the drugs the crime would not have
happened. The defense expert, Dr. Harrison,
was also questioned about this [ ]; and (5) the
defense expert Dr. Gripon, admitted during
cross-examination that the combined use of
marijuana, alcohol, and DXM would aggravate
and exacerbate a pre-existing condition of
schizophrenia [ ].
Numerous witnesses
testified to [Petitioner’s] drug and/or alcohol
abuse. [ ] The State’s expert psychiatrists also
found that [Petitioner’s] psychosis was
substance-induced. [ ]
57. Dr. Victor Scarano, M.D., testified about
[Petitioner’s] mental state at the time he
murdered the victims.
During direct
examination, Dr. Scarano testified that a
person can be mentally ill and delusional and
still be sane according to the legal definition of
sanity in Texas. [ ] Dr. Scarano described how
mental illness can be substance-induced. [ ]
The doctor also explained to the jury that a
substance-induced mental illness or psychosis
does not disappear when the substance is taken

145a
away from a subject. Instead, the “psychosis
can continue once it is precipitated by a
substance for a longer period of time, even
when the substance is removed.” [ ] The doctor
testified that [Petitioner] was psychotic when
he killed his wife and her two children, but that
the psychosis was triggered by his substance
abuse in the preceding days and weeks. [ ] The
doctor also set out the facts of the case, some of
which had been given to him by [Petitioner],
and applied those facts to the legal definition of
sanity. In Dr. Scarano’s medical opinion,
[Petitioner] knew that his conduct was wrong
and was not legally insane at the time he
murdered his wife and her two children. [ ]
60. Dr. Jay Crowder, a psychiatrist hired by
the defense but not called at trial, informed the
defense that he could not rule out the
possibility that the psychotic episode leading
up to the murders was induced by his use of a
combination of drugs and alcohol.
162. As a medical doctor and a psychiatrist,
part of a doctor’s education and training would
include the pharmacological effect of drugs and
alcohol on the brain and relating to psychotic
behavior.
169. Neuropharmacologists are not the only
individuals who should be allowed to testify in
court in regards to the effects of drugs on the
central nervous system. These individuals are
not physicians, but rather are consultants
whose services may be requested by the

146a
physician responsible for the evaluation and/or
treatment of the patient. Many physicians,
including family physicians, emergency room
physicians, internists, pediatricians, and
psychiatrists, have expertise in identifying the
effects of drugs or their absence on human
behavior.
*34 10 SHCR 3529, 3531-36, 3550-52 (some citations
omitted as indicated by brackets).
The state trial court also issued the following
conclusions of law:
87. Dr. Lipman’s conclusions in his affidavit
do not prove by a preponderance of the evidence
that the opinions and diagnosis of the State’s
experts are erroneous.
88. [Petitioner] has failed to prove by a
preponderance of the evidence, that counsel’s
failure to hire a neuropharmacologist or to
have a neuropharmacological exam performed
on [him] was constitutionally deficient.
10 SHCR 3579. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
The specific issue before the Court in claim
number nine is whether defense counsel was
ineffective for failing to hire a neuropharmacologist,
such as Dr. Lipman. In Strickland, the Supreme

147a
Court described defense counsel’s duty to investigate
as follows:
[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible
options
are
virtually
unchallengeable; and strategic choices made
after less than complete investigation are
reasonable precisely to the extent that
reasonable professional judgments support the
limitations on investigation. In other words,
counsel has a duty to make reasonable
investigations or to make a reasonable decision
that
makes
particular
investigations
unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be
directly assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.
Strickland, 466 U.S. at 690-91. See also Williams v.
Taylor, 529 U.S. 362 (2000); Wiggins v. Smith, 539
U.S. 510 (2003); Rompilla v. Beard, 545 U.S. 374
(2005). The Supreme Court subsequently observed
that these three post-Strickland cases, each of which
granted relief on ineffective assistance claims, did not
establish “strict rules” for counsel’s conduct “[b]eyond
the general requirement of reasonableness.”
Pinholster, 563 U.S. at 195. See also Brown v. Thaler,
684 F.3d 482, 490-91 (5th Cir. 2012), cert. denied, 133
S. Ct. 1244 (2013). “An attorney need not pursue an
investigation that would be fruitless, much less one
that might be harmful to the defense.” Richter, 562
U.S. at 108. Petitioner’s counsel were “entitled to
formulate a strategy that was reasonable at the time

148a
and to balance limited resources in accord with
effective trial tactics and strategies.” Id. at 107. “A
fair assessment of attorney performance requires
every effort be made to eliminate the distorting effects
of hindsight...and to evaluate the conduct from
counsel’s perspective at the time.” Strickland, 466
U.S. at 689.
In the present case, defense counsel hired three
psychiatrists and/or psychologists. The state trial
court
appropriately
observed
that
neuropharmacologists are not the only individuals
who can testify in court regarding the effects of drugs
on the central nervous system. Both Dr. Edward
Gripon and Dr. Jay Crowder had sufficient training
and expertise in identifying the effects of drugs or
their absence on human behavior. Dr. Crowder, in
turn, advised the defense team that he could not rule
out the possibility that the psychotic episode leading
up to the murders was induced by his use of a
combination of drugs and alcohol. Overall, defense
counsel formulated a strategy that was reasonable in
recognizing the possible issues regarding Petitioner’s
mental state and employing three experts. “[T]he
duty to investigate does not force defense lawyers to
scour the globe on the off chance something will turn
up.” Rompilla, 545 U.S. at 383. Counsel was not
deficient by not canvassing the field to find a more
favorable defense expert. Dowthitt, 230 F.3d at 748.
*35 In an analogous situation, the Fifth Circuit
observed that defense counsel perhaps could have
investigated more or hired different experts;
nonetheless, courts “must be particularly wary of
arguments that come down to a matter of degrees.

149a
Did counsel investigate enough? Did counsel present
enough mitigating evidence? Those questions are
even less susceptible to judicial second-guessing.”
Ward v. Stephens, 777 F.3d 250, 264 (5th Cir.)
(citations omitted), cert. denied, 136 S. Ct. 86 (2015).
Defense counsel possibly could have employed
another expert.
Nonetheless, counsel acted
reasonably in this case by recognizing the need for
experts and, in fact, hiring several experts. Petitioner
has not shown that their representation fell below an
objective standard of reasonableness and was
otherwise deficient by failing to also hire a
neuropharmacologist.
The Director also appropriately noted that the
omitted testimony should be viewed in light of the
totality of the State’s evidence. State differently, the
question of prejudice should be considered. To
demonstrate prejudice, a petitioner “must show that
there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at
694. “The likelihood of a different result must be
substantial, not just conceivable.” Richter, 562 U.S.
at 112 (citation omitted).
As an initial matter, Dr. Lipman’s affidavit does
not show that the outcome of the case would have
been different. Mr. Hagood’s assessment of Dr.
Lipman’s affidavit astutely observed that it does not
have “anything to do with this case.” 6 SHCR 2150.
Dr. Axelrad similarly observed that Dr. Lipman’s
conclusions were not relevant to his diagnosis. 6

150a
SHCR 2278, ¶ 54. Dr. Lipman’s analysis simply did
not address the legal issues in this case. Thus the
state court appropriately found, as a conclusion of
law, that his “conclusions in his affidavit do not prove
by a preponderance of the evidence that the opinions
and diagnosis of the State’s experts are erroneous.”
10 SHCR 3579. Overall, the State’s evidence that
Petitioner’s psychosis was substance induced was
substantial, and he has not established that the
testimony that could have been offered by a
neuropharmacologist, like Dr. Lipman, would not
have changed the results.
Overall, Petitioner has not shown, as required by
§ 2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Furthermore, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). He has not
satisfied his burden of showing that counsel was
ineffective on this issue. Claim number nine lacks
merit.
Claim Number 10: Defense Counsel’s failure to
obtain a neuropsychological examination and
the testimony of a neuropsychologist was
constitutionally ineffective.
Claim number ten, like the previous claim, is an
allegation that defense counsel was ineffective for

151a
failing to obtain the services of another expert – this
time one dealing in neuropsychology. He asserts that
counsel should have hired a neuropsychologist to
provide evidence of his mental impairment. He
stresses that his mental impairment is entirely
separate from and in addition to his paranoid
schizophrenic mental illness. In support of the claim,
Petitioner provided affidavits from Dr. Ruben C. Gur,
Ph.D, and Dr. Myla H. Young, Ph.D. He specifically
cited the following comments by Dr. Gur:
*36 Based upon my observation and work and
a review of Dr. Young’s work, it is my opinion
that [Petitioner] suffers from schizophrenia of
the paranoid type and, significantly, he has
brain impairments in addition to those
associated with that mental illness. This
“double whammy” is most likely a result of
genetic and environmental facts and has
substantially impaired his judgment and hold
on reality during commission of the crimes at
issue in this case.
See PX 14 (Gur); PX 35 (Young). Petitioner argues
that the omission rises to the level of ineffective
assistance of counsel.
This issue was fully developed during the state
habeas corpus proceedings. Competing affidavits
were provided by Dr. Victor Scarano, M.D., Dr. David
Axelrad, M.D., and Dr. Peter Oropeza. Dr. Scarano
reviewed the reports submitted by Doctors Young and
Gur. He initially discussed Dr. Young’s report. 6
SHCR 2176-78 ¶ 11. He observed that “[m]ost well
trained
psychologists
who
perform

152a
neuropsychological testing will suggest that their
results must be considered in association with the
overall clinical findings of the treating and/or
evaluating physician, be he/she a neurologist or
psychiatrist.” Id. Dr. Young, however, failed to do so.
He noted that Dr. Young’s evaluation took place in
May 2007, some three years after the murders. He
observed that the report completely avoids comments
or opinions as to the emotional or psychological effects
of being locked up on death row for two years. He
observed that prescribed medications can skew the
results of neuropsychological tests, but Dr. Young
makes no comment about that. He observed that Dr.
Young found Petitioner to be actively psychotic in
2007 even though he had been on antipsychotic
medication for three years. He expressed the opinion
that Dr. Young was not objective.
Dr. Scarano next evaluated the report provided by
Dr. Gur. 6 SHCR 2178-82 ¶ 12. He pointed out that
Dr. Gur could not say when the brain impairment
manifested itself. He noted that Dr. Gur could not
determine that Petitioner’s present paranoid
schizophrenia was not related to long term drug abuse
and a drug induced psychosis in a person with a
genetic vulnerability for the development of
schizophrenia. He observed that it was evident that
Dr. Gur was not a trained forensic psychologist and
had little, if any, experience in forensic psychological
evaluations.
“The examination/evaluation of an
individual’s state of mind at the time of the criminal
act is a discipline in which a trained forensic
psychiatrist or forensic psychologist looks into the
past and applies his/her skills in providing a learned

153a
opinion.” Id. He observed that Dr. Gur was unable to
do so. He observed that Dr. Gur’s opinion that
Petitioner had paranoid schizophrenia and brain
impairments in June 2007 did not establish the cause
of Petitioner’s mental illness on March 27, 2004. He
criticized Dr. Gur’s avoidance of linking any brain
injury to Petitioner’s long history of substance abuse
and its damaging effect on the young, developing
brain. He opined that, in reality, Dr. Gur “has no idea
what was going on in the brain of [Petitioner] at the
time he murdered his ex-wife and her two children.
Gur’s conclusion is, in fact, speculation, pure and
simple.” Id. at 2182 ¶ 12.
After summarizing all of the evidence provided by
Petitioner’s experts, Dr. Scarano summarized the
evidence as follows:
Regardless of whether [Petitioner] was in the
throes of a drug induced or schizophrenic
delusional psychosis at the time he murdered
his wife and her two children, [Petitioner] by
his actions and statements knew that what he
was doing was wrong.
*37 6 SHCR 2185 ¶ 15.
Dr. Axelrad likewise reviewed Dr. Young’s report.
6 SHCR 2273-76 ¶¶ 27-39. He observed that Dr.
Young prepared the extensive report in her capacity
as
a
clinical
psychologist
specializing
in
neuropsychology
and
neuropsychological
assessments. He asserted that although her resume
was impressive, her report was flawed. He observed
that Petitioner was taking the following three drugs

154a
at the time of her assessment: Navane
(antipsychotic), Trazodone (antidepressant) and
Cogentin (for antipsychotic side effects). However,
she made no attempt to explain how the drugs DXM,
marihuana and alcohol he was using prior to the
murders can contribute to Petitioner’s current
symptomology or might explain his current physical
and mental characteristics. He observed that many
of the sensory and motor impairments, attention and
concentration deficits cited by her can just as easily
be caused by Petitioner’s prescription drugs as
schizophrenia.
Dr. Axelrad reiterated that there is no issue that
Petitioner was psychotic at the time he committed the
murders.
He observed that Dr. Young never
addressed whether Petitioner, in his psychotic state,
understood that his actions in killing his ex-wife and
her two small children were wrong. He stressed he
testified that there were numerous actions by
Petitioner showing he understood that killing his exwife and her two children was wrong. He observed
that Dr. Young does not dispute his analysis
surrounding the murder nor disagree with his
assertion that an individual can be psychotic yet still
know right from wrong. He asserted that Dr. Young’s
statement that Petitioner was actively psychotic at
the time she examined him did not make any sense
since he had been on medication and receiving
treatment for over two years. He concluded his
assessment of Dr. Young’s report by stating that her
blatant lack of research, preparation and
methodology invalidated her assessment of
Petitioner.

155a
Dr. Axelrad went on to review Dr. Gur’s report. 6
SHCR 2273-76 ¶¶ 40-52. He noted that Dr. Gur
acknowledged that Petitioner’s neuropsychological
test results could not be explained by the neurology of
schizophrenia alone, so he speculated that Petitioner
had an overlay of a serious neurological event such as
severe head trauma or a brain tumor. He noted that
Dr. Gur could not identify anything in Petitioner’s
medical history that could account for his severe
neuropsychological impairments. He observed that
Dr. Gur’s description of Petitioner as “clearly
psychotic” was not based on any mental status
examination.
He reiterated that Petitioner’s
medication should have controlled the psychosis. He
stressed that Dr. Gur made no mention of either
Petitioner’s prior drug use or the medications that he
was taking at the time of the examination. He
observed that neither Dr. Young nor Dr. Gur
acknowledged that Petitioner’s self-reporting might
be inaccurate, exaggerated, incomplete or selfserving. He noted that Dr. Gur speculated about
possible causes of Petitioner’s brain dysfunction.
While there was no evidence to support the
speculation, there was ample evidence that Petitioner
exhibited psychotic behavior during the time of his
excessive drug use in the two month period before the
murders. He observed that Dr. Gur never concluded
in his report that Petitioner was legally insane when
he committed the murders under the definition
provided by the Texas Penal Code, nor does Dr. Gur
dispute his findings regarding sanity. He finally
observed that Dr. Gur’s report is irrelevant since it
does not, cannot and makes no attempt to address
Petitioner’s sanity or functioning in 2004.

156a
*38 Dr. Oropeza likewise assessed Dr. Young’s
report. 6 SHCR 2290-93 ¶¶ 30-41. He provided
criticisms similar to those provided by Dr. Scarano
and Dr. Axelrad. He stressed that Dr. Young’s use of
subjective testing to rule out symptoms of
malingering was not reliable.
He finally
characterized her report as lacking objectivity. He
went on to critique Dr. Gur’s report. 6 SHCR 2393-95
¶¶ 42-51. As observed by Dr. Scarano and Dr.
Axelrad, Dr. Oropeza observed that Dr. Gur made no
mention of what effect Petitioner’s heavy drug use or
the medications he was using. He expressed the
opinion that Petitioner’s psychotic episode on March
27, 2004 was precipitated by voluntary intoxication as
defined by the Texas Penal Code.
As was noted in conjunction with the previous
ground for relief, lead counsel Hagood provided the
following response to the claim that he was ineffective
for failing to request a neuropsychological
examination:
[Petitioner] argues that I was ineffective for
failing to hire a neuropharmacologist and
request a neuropsychological examination for
[him]. As stated above, [Petitioner] is missing
the point of the State’s case. The issue was not
whether [Petitioner] was psychotic. He was.
The issue was not whether he had a large
amount of DXM, alcohol and marihuana in his
system when he committed the triple murder.
He did not, and no one claimed that he did. The
issue was whether [Petitioner], in a psychotic
state, still understood that his conduct was
wrong when he murdered his wife and her two

157a
children and if not, was the psychotic state
caused or aggravated by the use of a substance.
I am not aware of a neuropharmacologist who
is qualified to diagnose schizophrenia as
opposed to substance induced behavior or who
could extrapolate the amount of drugs in his
system at the exact moment of the psychotic
break.
6 SHCR 2152.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued findings of fact and conclusions of law
regarding the claim that counsel was ineffective for
failing to request a neuropsychological examination.
Many of the findings listed regarding claim number
nine on pages 47 through 48 of this memorandum
opinion apply equally to the present claim. Two
findings bear repeating:
35. Mr. Hagood’s and Ms. Bobbie Peterson
(Cate’s) trial strategy was to prove that
[Petitioner] was insane at the time of the
offense, not because of intoxication, but
because of his prior medical and mental
history.
36. The State’s position was that
[Petitioner] either knew right or wrong or that
any psychosis he had was substance induced.
10 SHCR 3531. The evidence presented by the
defense attorneys was consistent with their strategy.
The affidavits by Drs. Scarano, Axelrad and Oropeza

158a
explained why the affidavits submitted by Drs. Young
and Gur did not undermine nor address the State’s
position that Petitioner either knew right or wrong or
that any psychosis was substance induced. The state
trial court accordingly issued the following conclusion
of law:
91. [Petitioner] has failed to prove by a
preponderance of the evidence that [counsel’s]
alleged deficient performance prejudiced his
defense and that based on the opinions of Gur,
Young and Lipman there is a reasonable
probability
that,
but
for
counsel’s
unprofessional errors the result of the
proceeding would have been different.
10 SHCR 3579. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
In the petition, Petitioner goes no further than to
say that the evidence provided by Drs. Young and Gur
would have amounted to a persuasive case that he
was not guilty by reason of insanity, sparing him a
death sentence. He erroneously argues that the state
court’s decision was conclusory, unreasoned and
unsupported. The record reveals that there was
substantial evidence to support the state court’s
findings. He did not satisfy his burden of rebutting
the presumption of correctness that must be accorded
the state court findings by clear and convincing
evidence. Overall, Petitioner has not shown, as
required by § 2254(d), that the state court findings

159a
resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Furthermore, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). He has not
satisfied his burden of showing that counsel was
ineffective on this issue. Claim number ten lacks
merit.
Claim Number 11: Defense counsels’ reliance on
the State experts to prove key issues was
constitutionally ineffective.
*39 In claim number eleven, Petitioner alleges
that his attorneys were ineffective for calling Drs.
Axelrad and Scarano during the defense’s case-inchief. He argued that calling these two State’s
experts adversely as defense witnesses shows that his
attorneys were not pursuing a strategy but, rather,
were grasping at straws. He noted that his attorneys
had an expert, Dr. Gripon, to testify that he was not
sane at the time of the murder, along with neutral fact
witnesses Drs. McGirk and Harrison at their disposal.
This issue was fully developed during the state
habeas corpus proceedings. Mr. Hagood provided the
following explanation for calling Drs. Axelrad and
Scarano:
[P]etitioner claims that I was ineffective for
calling experts hired by the State in the defense

160a
case. I was aware of both Dr. Scarano’s and Dr.
Axelrad’s diagnoses long before the trial
started. I was somewhat taken aback that the
court allowed the State to go into sanity issues
prior to our witnesses regarding insanity.
However, my decision to call two of the State’s
witnesses during our case was deliberate. My
strategic decision to do so was to elicit certain
information and to attempt to diffuse some of
the more damaging testimony against
[Petitioner]. I was able to get Dr. Scarano to
admit that psychoses triggered by marihuana
or alcohol was rare.
Further, I elicited
information that alcohol induced psychoses
generally occurred in chronic alcoholics and
[Petitioner] did not appear to be a chronic
alcoholic. I also attempted to get the doctor to
give information that would minimize the
testimony against [Petitioner]. Dr. Scarano
admitted that this was his first case involving
DXM. As for Dr. Axelrad, after the State was
able to call Scarano first and set out the
prosecutions’s theory through the expert, I
wanted first shot at Dr. Axelrad. This would
allow me to frame the questions in a way more
beneficial to [Petitioner].
I pressed both
doctors, after hearing the State’s theory, in
order to make them back down from their
diagnosis or to at least admit that they could
not rule out schizophrenia that was not
precipitated by drug and alcohol use.
6 SHCR 2153-54. With respect to his failure to elicit
opinions from Drs. McGirk and Harrison, Mr. Hagood

161a
noted that neither had examined Petitioner for the
purpose of determining insanity.
Id. at 2154.
Moreover, Dr. Harrison had specified in his affidavit
that he could not rule out that Petitioner had
experienced a substance induced psychotic episode.
Id.
Petitioner complains that “[i]nstead of forcing the
State to rebut the defense’s insanity case, the
dynamics were such that the defense found
themselves rebutting the State’s sanity presentation.”
Petition at 121.
Prosecutor Ashmore, however,
discussed his reaction to the defense team’s decision
calling the doctors as adverse witnesses as follows:
I thought it was important trial strategy to put
Dr. Scarano on as early as possible in the case.
I also believed that the defense team felt it
would be damaging to their case to present
their experts in their case-in-chief only to have
me present the State’s experts’ opinion in
rebuttal, perhaps leaving the last thing heard
by the jury as being experts who indicated that
[Petitioner] was sane at the time of the offense.
Therefore, I believe it was trial strategy on the
part of the defense to call Scarano and Axelrad
in order to have their testimony immediately
rebutted by the defense expert witnesses.
Based on my years of trial work, particularly
these type of cases, I thought that was sound
strategy on the part of the defense.
*40 6 SHCR 2332 ¶ 23.

162a
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the
claim that counsel was ineffective for calling Drs.
Scarano and Axelred during the defense’s case-inchief:
198. The decision to call Dr. Axelred as part
of the defense case was done to examine him
and attempt to frame questions in a way more
favorable to [Petitioner] as well as to attempt
to discredit his opinion prior to the State
examining him. Strategically, Mr. Hagood
states he felt this was the best course of action
rather than attempting to exclude his
testimony.
199. Mr. Hagood’s decision to call two of the
state’s witnesses during the defense case was
deliberate. Mr. Hagood states that his strategy
was to illicit certain information and attempt
to diffuse some of the more damaging
testimony against [Petitioner]. Mr. Hagood
was able to get Dr. Scarano to admit that
psychoses triggered by marihuana or alcohol
was rare.
Further, the defense illicited
information that alcohol induced psychoses
generally occurred in chronic alcoholics and
[Petitioner] did not appear to be a chronic
alcoholic.
200. Mr. Hagood also states that he
attempted to get the doctor to give information
that would minimize the testimony against

163a
[Petitioner]. Dr. Scarano admitted that this
was his first case involving DXM.
201. Mr. Hagood states in his affidavit that
he wanted to be the first to question Dr.
Axelrad in order to frame the question in a way
more beneficial to [Petitioner].
202. Mr. Hagood states that he pressed both
doctors, after hearing the state’s theory, in
order to make them back down from their
diagnosis or to at least admit that they could
not rule out schizophrenia that was not
precipitated by drug and alcohol use.
10 SHCR 3556-57. The state trial court went on to
issue the following conclusions of law:
94. [Petitioner] has failed to prove by the
preponderance of the evidence that Mr. Hagood
was not employing trial strategy calling two of
the State’s experts in the defense’s case-inchief.
95. [Petitioner] has failed to prove by a
preponderance of the evidence that counsel’s
performance was constitutionally deficient and
that he was not acting as a reasonably
competent attorney, and that his trial strategy
was not within the range of competence
demanded of attorneys in criminal cases.
96. [Petitioner] has failed to prove by a
preponderance of the evidence that a
constitutionally
deficient
performance

164a
prejudiced his defense and that there is a
reasonable probability that, but for counsel’s
decision to use Dr. Scarano and Dr. Axelrad in
the defense’s case-in-chief, the result of the
proceeding would have been different.
10 SHCR 3580. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner acknowledges that counsel’s decision to
call two of the State’s experts during the defense’s
case-in-chief was trial strategy, but he disagrees with
the strategy. Nonetheless, “strategic choices made
after thorough investigation of law and facts relevant
to plausible options are virtually unchallengeable.”
Strickland, 466 U.S. at 690. Counsel was aware of the
anticipated testimony of these witnesses. He called
them in order to lessen the impact of their testimony.
The Court would note that the practice of calling the
other side’s witness in order to get the first shot at
that witness is a trial strategy regularly employed by
attorneys.
Petitioner has not shown that Mr.
Hagood’s decision to call Drs. Scarano and Axelrad in
the defense’s case-in-chief was outside the range of
objective reasonableness demanded of attorneys in
criminal cases. See Richter, 562 U.S. at 110. His
arguments to the contrary are fallacious.
*41 Overall, Petitioner has not shown, as required
by § 2254(d), that the state court findings resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established

165a
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Furthermore, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). In particular, he
failed to satisfy the requirement of showing that there
was not any reasonable argument that counsel
satisfied Strickland’s deferential standard. Richter,
562 U.S. at 105. Petitioner has not satisfied his
burden of showing that counsel was ineffective on this
issue. Claim number eleven lacks merit.
Claim Number 12: Defense counsels’ failure to
elicit opinions on sanity from Drs. Harrison and
McGirk rendered its counsel constitutionally
ineffective.
Drs. Harrison and McGirk were the first two
psychologists who had contact with Petitioner after
the crimes for the purpose of evaluating his mental
state. Petitioner argues that the failure to even elicit
their opinions regarding his sanity at the time of
crimes violated both Strickland prongs. In support of
the claim, Petitioner offers affidavits from both
doctors. Dr. Harrison states that he would have
testified that Petitioner was insane on the morning of
March 24, 2004, because he was suffering from
psychosis and further that he did not understand
what he did on that morning. 2 SHCR 508-508. Dr.
McGirk similarly states that if he had been asked, he
would have testified that Petitioner was insane on
that morning and that he did not know what he was

166a
doing was wrong at the time he committed the
murders. Petitioner’s Exhibit 25 ¶¶ 10-11.
This issue was raised in both the direct appeal and
in the state habeas corpus proceedings. The TCCA
rejected the claim on direct appeal as follows:
[Petitioner] complains that “counsel failed
to request and obtain evaluations and opinions
from Dr. James Harrison and Dr. Robin
McGirk on the issue of [Petitioner’s] sanity at
the time the offense was committed.” The trial
court appointed Harrison to examine
[Petitioner] for the sole purpose of determining
his competency to stand trial. Dr. McGirk met
with [Petitioner] several times in his capacity
as the jail psychologist; he was not hired by
either the State or the defense. Both were
called to testify by the defense. Dr. Harrison
believed that [Petitioner] was schizophrenic,
but he testified that he did not have enough
information to render an opinion regarding
[Petitioner’s] sanity at the time of the offense.
Dr. McGirk also diagnosed [Petitioner] as
schizophrenic, but declined to give an opinion
as to [Petitioner’s] sanity at the time of the
offense.
Petitioner has not shown how counsel’s
representation was deficient. Article 46.03,
Sec. 3(g) permits the same expert to be
appointed to evaluate competency and
insanity, provided that the expert files
separate reports. But counsel was by no means
required or expected to solicit the same expert’s

167a
opinion, in this case Dr. Harrison’s, regarding
both issues. [Petitioner] also overlooks the fact
that, in addition to obtaining approval for the
appointment of Dr. Edward Gripon, counsel
requested and was granted the services of
another psychologist, Dr. Richard Rogers, to
assist [Petitioner] in preparing his insanity
defense. Dr. Rogers evaluated [Petitioner] and
prepared a report but was never called to
testify, for reasons that the record does not
reveal.
[Petitioner] has also failed to prove how
counsel’s performance prejudiced his defense.
There is nothing to indicate that Dr. Harrison
or Dr. McGirk would have testified to
[Petitioner’s] legal insanity at the time of the
offense had they been appointed specifically for
the purpose of such an evaluation. In fact, Dr.
Harrison testified under cross-examination
that people with schizophrenia could still be
legally sane...
*42 [Petitioner] has failed to meet his
burden to demonstrate deficient performance
and prejudice. He has failed to show a
reasonable probability that the result of the
proceeding would have been different if counsel
had also requested sanity evaluations from Dr.
Harrison and Dr. McGirk.
Thomas v. State, 2008 WL 4531976, at *17-18. The
TCCA appropriately noted that the defense called
both doctors. They both declined to offer an opinion
regarding Petitioner’s sanity.

168a
This issue was developed further during the state
habeas proceedings. In response to Dr. Harrison’s
affidavit, prosecutor Ashmore observed that Dr.
Harrison’s affidavit did not comport with his sworn
trial testimony:
During cross-examination of Dr. Harrison, I
specifically asked him whether, after
interviewing [Petitioner] on a number of
occasions, reviewing all of the expert’s reports
in this case (which were quite detailed) and
looking at the other information that he
indicated that he had taken into consideration
both during direct examination and on voir dire
prior to his cross, whether he felt like he had
insufficient information to give an opinion
about [Petitioner’s] sanity at the time of the
offense. Dr. Harrison responded that he did
not feel like he had sufficient information to
render an opinion (RR Vol. 35, p. 50-51). At no
time did Dr. Harrison indicate that he would
not render an opinion because he was under
some mistaken belief that he would be
precluded from rendering such an opinion. The
reasoning at trial was that he had insufficient
information to provide an opinion.
6 SHCR 2331 ¶ 20. On the other hand, Dr. McGirk’s
testimony was that he was only hired by the jail to
determine if Petitioner needed medication or was a
danger to himself, and that he was never hired to
determine competency or sanity. 35 RR 184, 188-89.
Dr. McGirk specifically testified that he was not going
to offer an opinion on Petitioner’s sanity and that it
was for the jury to decide. 35 RR 171-82.

169a
Mr. Hagood offered the following response to this
claim of ineffective assistance of counsel:
Petitioner] complains...that I was ineffective
for not eliciting opinions on sanity from Cactus
McGirk and James Harrison.
Neither
psychologist had examined [Petitioner] with
the purpose of determining insanity. Harrison
had stated in his report that he could not rule
out that a substance had induced [Petitioner’s]
psychotic episode. He also testified that he
could not make a determination regarding
sanity when asked by the prosecution. Coupled
with the fact that Harrison had never been sent
to determine sanity, I did not think it a good
idea to query him on that issue. As for Cactus
McGirk, he had only been hired by the jail to
determine if [Petitioner] needed medication or
was a danger to himself. After being examined
by prosecutor Kerye Ashmore, McGirk came
across as biased against the State and
incompetent. I did not believe that McGirk had
any credibility with the jury and was not about
to hang [Petitioner’s] insanity theory on
McGirk.
6 SHCR 2154. The Director argues that counsel’s
decisions with respect to these witnesses are entitled
to deference.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the
claim that counsel was ineffective for failing to elicit
opinions on sanity from Drs. Harrison and McGirk:

170a
*43 203. Neither Dr. James Harrison or Dr.
Cactus McGirk had examined [Petitioner] with
the purpose of determining sanity.
204. Harrison stated in his first report that
he could not rule out that a substance had
induced [Petitioner’s] psychotic episode.
(State’s Response, appendix ex. O)
205. Harrison testified that he did not have
enough evidence to make a determination of
sanity.
206. Dr. Harrison’s affidavit does not
comport with his sworn testimony. During
cross examination of Dr. Harrison, Mr.
Ashmore specifically asked him whether after
interviewing [Petitioner] on a number of
occasions, reviewing all of the expert reports in
this case (which were quite detailed) and
looking at the other information that he
indicated he had taken into consideration both
during direct examination and on voir dire
prior to cross, whether he felt like he had
sufficient information to give an opinion about
[Petitioner’s] sanity at the time of the offense.
Dr. Harrison responded he did not feel like he
had sufficient information to render an opinion
(RR vol. 35, pp. 50-51).
207. Cactus McGirk had been hired by the
jail to determine if [Petitioner] needed
medication or was a danger to himself. McGirk
has never been hired to determine competency
or sanity. (RR vol. 35, pp. 184, 188-189).

171a
208. Mr. Hagood knew that Harrison had
stated in his report that he could not rule out
that a substance had induced [Petitioner’s]
psychotic episode.
209. Harrison also testified that he could
not make a determination regarding sanity
when asked by the prosecution. (RR vol. 35, p.
51)
210. After being examined by prosecutor,
Kerye Ashmore, Mr. Hagood states that
McGirk came across as biased against the state
and incompetent.
211. Mr. Hagood did not believe McGirk had
any credibility with the jury and was not going
to hang [Petitioner’s] insanity on McGirk.
10 SHCR 3557-58.
The state trial court then
proceeded to issue the following conclusion of law:
97. [Petitioner] has failed to prove by the
preponderance of the evidence that Mr. Hagood
was not employing trial strategy in not
requesting sanity opinions from Dr. Harrison
or Dr. McGirk.
10 SHCR 3580. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.

172a
In the present petition, Petitioner simply asserts
that defense counsel should have elicited sanity
opinions from Drs. Harrison and McGirk. With
respect to the issue of whether counsel’s
representation was deficient on this issue, the
dispositive factor is that defense counsel chose not to
elicit opinions from the doctors because of trial
strategy. Mr. Hagood knew that Dr. Harrison had
stated in his report that he could not rule out that a
substance had induced Petitioner’s psychotic episode.
Mr. Hagood was also of the opinion that Dr. McGirk
did not have any credibility with the jury, and he was
not going to hang the issue of Petitioner’s insanity on
Dr. McGirk. Once again, “strategic choices made after
thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable.”
Strickland, 466 U.S. at 690. With respect to the
prejudice prong, the Court finds the claim to be
somewhat incredible because both doctors were asked
whether they would offer opinions, albeit by the State,
and both declined. Petitioner cannot show harm.
Overall, Petitioner has not shown that Mr. Hagood’s
representation on this matter was outside the range
of objective reasonableness demanded of attorneys in
criminal cases. See Richter, 562 U.S. at 110.
*44 In addition to the foregoing, Petitioner has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence

173a
presented in the state court proceedings.
Furthermore, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
Claim number twelve lacks merit.
Claim Number 13: Defense counsels’ failure to
present evidence of or seek a jury instruction
on diminished capacity constituted ineffective
assistance of counsel.
In claim number thirteen, Petitioner argues that
counsel should have pursued a diminished capacity
defense.
He erroneously asserts that Texas
recognizes a diminished capacity defense.
Before the pleadings were ever filed in this case,
the Fifth Circuit discussed the diminished capacity
defense in Coble v. Quarterman, 496 F.3d 430 (2007).
The Fifth Circuit found that “counsel was not
ineffective for failing to present a diminished capacity
defense because diminished capacity is not cognizable
in Texas. See, e.g., Jackson v. State, 115 S.W.3d 326,
328 (Tex. App. – Dallas 2003).” Id. at 437-38.
The Jackson case cited by the Fifth Circuit was
decided by the state intermediate appellate court in
Dallas, Texas. The case was subsequently considered
by the TCCA. Discretionary review was granted “to
determine whether the doctrine of diminished

174a
capacity exists in the jurisprudence of Texas.”
Jackson v. State, 160 S.W.3d 568, 569 (Tex. Crim.
App. 2005). In affirming the Dallas appellate court,
the TCCA provided the following analysis:
[T]he evidence of mental illness in this case
does not negate mens rea. Rather, the evidence
presented an excuse for the crime[.] In fact,
this evidence makes it even more apparent that
Appellant intended to cause serious bodily
injury or death to his brother. The evidence of
appellant’s paranoia simply provides a motive
for an intentional act. The evidence presented
was the type of excuse-based evidence that
would
be
raised
as
an
affirmative
defense....The court of appeals correctly stated
that Texas does not recognize diminished
capacity as an affirmative defense i.e., a lesser
form of insanity.
Id. at 572-73. Much like the situation in Jackson,
Petitioner committed murder, and he raised the
excuse of insanity. A diminished capacity defense
was unavailable. More recently, the Eastern District
of Texas rejected diminished capacity arguments in
two death penalty cases. Mays v. Director, TDCJCID, No. 6:11cv135, 2013 WL 6677373, at *25 (E.D.
Tex. Dec. 18, 2013), c.o.a. denied, 757 F.3d 211 (5th
Cir. 2014), cert. denied, 135 S. Ct. 951 (2015);
Roberson v. Director, TDCJ-CID, No. 2:09cv327, 2014
WL 5343198, at *58 (E.D. Tex. Sept. 30, 2014), aff’d,
619 Fed.Appx. 353 (5th Cir. 2015), cert. denied, 136 S.
Ct. 1177 (2016).

175a
Mr. Hagood responded to this
assistance of counsel claim as follows:

ineffective

[Petitioner] complains that we did not request
a jury instruction on diminished capacity.
There is no “diminished capacity” defense in
Texas. The case law cited by [Petitioner] refers
to the State’s proof of specific intent and a
“failure of proof” defense. That language was
submitted to the jury as one of the elements the
State had to prove beyond a reasonable doubt.
I would disagree with [Petitioner’s] assertion
that I should have requested a lesser-included
charge to capital murder. Our trial strategy
involved straight insanity. Although it is
permissible to request conflicting defensive
instructions in a jury charge, it is not always
prudent. In front of a real jury, in a real death
penalty trial, with real dead babies, telling a
jury “he did it, but he was insane” then saying
in the next breath, “but if he wasn’t insane he
was just reckless or criminally negligent”
might seem deceitful and manipulative to a
jury. Even if I believed that the facts of this
case warranted a lesser included instruction, I
might not have requested one. I certainly
would not have labeled in a “diminished
capacity” defense as that carries with it a
different connotation.”
*45 6 SHCR 2158.
The state trial court proceeded to issue the
following conclusions of law on this claim:

176a
121. Texas does not recognize diminished
capacity as an affirmative defense i.e., a lesser
form of the defense of insanity,
122. The diminished-capacity doctrine
argued by [Petitioner] in this case is a failureof-proof defense in which [Petitioner] claims
that the State failed to prove that the
defendant had the required state of mind at the
time of the offense.
123. [Petitioner] has failed to prove by a
preponderance of the evidence that counsel’s
performance was constitutionally deficient.
10 SHCR 3585. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
In the present petition, Petitioner merely
reasserts his claim that counsel should have pursued
a diminished capacity defense and that he was
ineffective for failing to do so. The claim may be
summarily dismissed in light of clearly established
Fifth Circuit case law that “counsel was not
ineffective for failing to present a diminished capacity
defense because diminished capacity is not cognizable
in Texas.” Coble, 496 F.3d at 437-38. The claim lacks
any basis in law in Texas. The claim may also be
dismissed in light of § 2254(d). Petitioner has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly

177a
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings.
Furthermore, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Counsel was not ineffective
for failing to pursue a defense that was unavailable
under Texas law. As such, Petitioner failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
Claim number thirteen lacks merit.
Claim
Number
14:
Defense
counsels’
performance at the punishment phase of
Petitioner’s
trial
was
constitutionally
ineffective.
Claim number fourteen concerns the mitigating
evidence presented by defense counsel during the
punishment phase of the trial. An argument is made
that the story of Petitioner’s tragic life was never told
due to ineffective assistance of counsel. He asserts
that his life is a case study of mental illness, neglect
and abuse. He adds that it is not surprising that the
triad of mental illness, neglect and abuse was seen in
both his life and that of his siblings, parents, aunts,
uncles, grandparents, and great aunts and uncles.4
The Court observes that the presentation of the claim in
state court differs somewhat from the way it has been presented
4

178a
He asserts that counsel should have investigated and
offered mitigating evidence from additional family
members, although he admits that the minimal
number of family members who testified for the
defense in the punishment phase of the trial did more
harm than good.
*46 The Director argues that the defense team
conducted a constitutionally sufficient investigation
and presented ample mitigating evidence. He notes
that counsel’s failure to investigate will not rise to the
level of ineffective assistance of counsel where the
evidence in question is cumulative, unknown, or
possibly harmful to the defense. Anderson v. Collins,
18 F.3d 1208, 1220-21 (5th Cir. 1994). He opines that
Petitioner does not argue that something should have
been done better, but that something should have
been done differently. See Answer, pages 112-13. He
notes that the Fifth Circuit has recognized that it
“must be particularly wary of arguments that
essentially come down to a matter of degrees. Did
counsel investigate enough? Did counsel present
enough mitigating evidence? Those questions are
even less susceptible to judicial second-guessing.”
Dowthitt, 230 F.3d at 743 (internal quotation marks
and citation omitted). The Director argues that
Petitioner has not satisfied either Strickland prong on
this matter.

in this Court.
Petitioner, through a different attorney,
embellishes on the claim from the way it was presented in state
court. Review under § 2254(d) is limited to the record that was
before the state court that adjudicated the claim on the merits.
Pinholster, 563 U.S. at 181; Blue, 665 F.3d at 656.

179a
The case law is abundantly clear that “defense
counsel has the obligation to conduct a ‘reasonably
substantial, independent investigation’ into potential
mitigating circumstances.” Neal v. Puckett, 286 F.3d
230, 236-37 (5th Cir. 2002) (quoting Baldwin v.
Maggio, 704 F.2d 1325, 1332-33 (5th Cir. 1983)), cert.
denied, 537 U.S. 1104 (2003). See also Woods v.
Thaler, 399 Fed.Appx. 884, 891 (5th Cir. 2010), cert.
denied, 131 S. Ct. 2444 (2011). “Mitigating evidence
that illustrates a defendant’s character or personal
history embodies a constitutionally important role in
the process of individualized sentencing, and the
ultimate determination of whether the death penalty
is an appropriate punishment.” Riley v. Cockrell, 339
F.3d 308, 316 (5th Cir. 2003) (citation omitted), cert.
denied, 543 U.S. 1056 (2005). In assessing whether
counsel’s performance was deficient, courts look to
such factors as what counsel did to prepare for
sentencing, what mitigation evidence he had
accumulated, what additional “leads” he had, and
what results he might reasonably have expected from
those leads.
Neal, 286 F.3d at 237.
The
reasonableness of counsel’s investigation involves
“not only the quantum of evidence already known to
counsel, but also whether the known evidence would
lead a reasonable attorney to investigate further.”
Wiggins, 539 U.S. at 527. See also Blanton, 543 F.3d
at 236. “[C]ounsel should consider presenting...[the
defendant’s] medical history, educational history,
employment and training history, family and social
history, prior adult and juvenile correctional
experience, and religious and cultural influences.”
Wiggins, 539 U.S. at 524 (citing ABA Guidelines for
the Appointment and Performance of Counsel in

180a
Death Penalty Cases § 11.8.6, at 133 (1989)). The
Supreme Court stressed in Wiggins that the
“investigation into mitigating evidence should
comprise efforts to discover all reasonably available
mitigating evidence.” Id. (emphasis in original).
The Supreme Court added, however, that the
investigation into mitigating evidence has limits:
[We] emphasize that Strickland does not
require
counsel
to
investigate
every
conceivable line of mitigating evidence no
matter how unlikely the effort would be to
assist the defendant at sentencing. Nor does
Strickland require defense counsel to present
mitigating evidence at sentencing in every
case. Both conclusions would interfere with
the “constitutionally protected independence of
counsel” at the heart of Strickland, 466 U.S., at
689, 104 S.Ct. 2052. We base our conclusion on
the much more limited principle that “strategic
choices made after less than complete
investigation are reasonable” only to the extent
that “reasonable professional judgments
support the limitations on investigation.” Id.
at 690-91, 104 S.Ct. 2052. A decision not to
investigate thus “must be directly assessed for
reasonableness in all the circumstances.” Id.,
at 691, 104 S.Ct. 2052.
*47 Id. at 533. In Wiggins, the Supreme Court held
that counsel’s representation “fell short of...
professional standards” for not expanding the
investigation beyond the investigation report and one
set of records they obtained, particularly “in light of

181a
what counsel actually discovered” in the records. Id.
at 524-25. More recently, the Court found counsel’s
representation deficient when he failed “to conduct
some sort of mitigation investigation” even though his
client was fatalistic and uncooperative. Porter v.
McCollum, 558 U.S. 30, 40 (2009) (emphasis in
original). See also Rompilla, 545 U.S. at 381-82
(counsel’s investigation was unreasonable because
counsel failed to review a prior conviction file used by
the prosecution, a file that would have alerted counsel
that further investigation was necessary). On the
other hand, the Supreme Court has found that
counsel’s performance was not deficient where he
gathered a substantial amount of information and
then made a reasonable decision not to pursue
additional sources. Bobby v. Van Hook, 558 U.S. 4,
11-12 (2009). Similarly, in Strickland, the Court
found that counsel’s decision not to seek more
character or psychological evidence than was already
in hand was reasonable. Strickland, 466 U.S. at 699.
In order to establish that counsel was ineffective due
to a failure to investigate the case, a petitioner must
do more than merely allege a failure to investigate;
instead, he must state with specificity what the
investigation would have revealed, what specific
evidence would have been disclosed, and how the
evidence would have altered the outcome of the trial.
Anderson, 18 F.3d at 1221.
A court determines whether a petitioner was
prejudiced by counsel’s deficient performance by
“reweigh[ing] the evidence in aggravation against the
totality of the available mitigating evidence” and
asking whether the petitioner “has shown that, had

182a
counsel presented all the available mitigating
evidence, there is a reasonable probability that a juror
would have found that the mitigating evidence
outweighed the aggravating evidence.” Gray v. Epps,
616 F.3d 436, 442 (5th Cir. 2010) (quoting Wiggins,
539 U.S. at 534), cert. denied, 563 U.S. 905 (2011).
The transcript in this case reveals that abundant
evidence that could have been presented by Petitioner
in mitigation during the sentencing phase of the trial
had
already
been
presented
during
the
guilt/innocence phase of the trial. Danny Thomas,
Petitioner’s father, testified extensively about
Petitioner’s childhood. 28 RR 153-62. He noted that
he had been separated from Petitioner’s mother,
Rochelle Thomas, since between 1985 and 1989. Id.
at 151. He stated that he provided guidance to
Petitioner and described him as very intelligent. Id.
at 153. He testified that Petitioner made good grades.
Id. at 153-54. His contact with Petitioner did not
“drop off” after Rochelle left him. Id. at 157. Mr.
Thomas testified that Rochelle took Petitioner to
church “every time the door opened.” Id. at 159. He
specified that he was aware that Petitioner smoked
marijuana, but he did not know how much marijuana
he smoked. Id. at 162. He described Petitioner as a
moderate drinker. Id. at 165. He agreed that
Petitioner had mental problems. Id. at 167. He
testified that Petitioner’s behavior changed for the
worse during the two or three months leading up to
the murders. Id. at 169.
The State also took steps to have Petitioner’s
mother testify at the trial. She was subpoenaed to

183a
attend the trial, but she failed to appear and was held
in contempt. 28 RR 149.
The State called Carmen Hayes, Petitioner’s
girlfriend at the time of the murders, during the
guilt/innocence phase of the trial. She testified that
they were smoking marijuana and taking Coricidin
Cough and Cold medicine during the days just prior
to the murders. 27 RR 185. She described him as a
regular drinker. Id. at 187. He would talk about
religion when they were smoking and taking
Coricidin. Id. at 195. In particular, he would talk
about the book of Revelation. Id. She testified that
Petitioner “believed that all women were Jezebel.” Id.
She explained that he thought all women were lustful.
Id. at 196. She described how he stabbed himself in
the chest just two days before the murders. Id. at 23234. Petitioner told her just before stabbing himself
that he wanted to be forgiven of his sins and fly with
the angels. Id. at 234-35. She subsequently testified
that on other occasions he placed duct tape on his
mouth to stop talking. 28 RR 26. He told her that “he
felt like he was the devil, and if he stopped talking for
24 hours, then the world would be right.” Id. at 27.
She added, however, that he would remove the duct
tape “not to speak, but to smoke dope.” Id. at 28.
Around the time of the murders, Rochelle Thomas
occasionally spent the night at Petitioner’s house. Id.
at 71. Ms. Hayes also discussed Petitioner’s regular
use of the term “deja vu.” “He thought he was –– God
was making him relive days because he was smoking
marijuana. Punishment I suppose.” Id. at 89.
*48 The State also called Isaiah Gibbs, Petitioner’s
life long friend. 29 RR 106. He testified that

184a
Petitioner thought of him as one of his best friends.
Id. at 127. He testified about a number of experiences
involving Petitioner. Near the beginning of his
testimony, he stated that Petitioner came over to his
house and confessed to him that he had killed his exwife and her two kids. 29 RR 111-12. He noted that
Petitioner was in tears at the time. Id. at 112. Mr.
Gibbs testified that he did not believe him and “told
him to quit playing.” Id. at 112-13. He discussed
Petitioner’s relationship with Laura and how they
first started going together in middle school. Id. at
121. He discussed how Petitioner thought that his
cousin, Floyd Patterson, was having an affair with
Laura. Id. at 122-23. On another occasion, Petitioner
had told him that he thought Laura had slept with his
brother Brian. Id. at 126. Petitioner had also accused
him of sleeping with Laura. Id. at 127.
On cross-examination, Isaiah Gibbs was
questioned extensively about Petitioner’s relationship
with his mother, Rochelle Thomas. 29 RR 154-56.
Mr. Gibbs noted that Rochelle Thomas regularly
talked about church. Id. at 155. If Petitioner brought
around a girl that she did not like, she would refer to
the girl as Jezebel. Id. He noted that Mrs. Thomas
treated him just like Petitioner, and she would
discipline them both and give them whippings. Id. at
156. The State objected to defense counsel discussing
Petitioner’s upbringing as irrelevant, but the trial
court overruled the objection. Id. at 157. The trial
court gave Petitioner a full opportunity to present
evidence about his background.
Numerous other witnesses talked about
Petitioner’s character. When questioned by the

185a
defense, Ms. Rae Baird, a friend, testified about
Petitioner’s hyper-religious nature. 29 RR 193-94.
She did not see him after January 2004, but before
then he told her that God talked to him. Id. at 194.
He told her that God had told him that he needed to
get back with Laura. Id.
Clifford Adams testified that he and Petitioner
were very good friends for a long time. 29 RR 200. He
testified that Petitioner used marijuana. Id. As far
as quantities were concerned, “if he had it, he would
smoke it.” Id. Mr. Adams testified that Petitioner got
back at Floyd Patterson for sleeping with Laura by
sleeping with Floyd’s girlfriend, Amy Ingle. Id. at
202. He believed that Petitioner engaged in actions
to get attention, such as refusing to talk. Id. at 203.
He would act “weepy” and “goofy” around girls to get
them to sleep with him. Id. at 205.
Bryant Hughes, Laura’s boyfriend at the time of
the murders, also talked about Petitioner’s hyperreligious nature when questioned by the defense. 30
RR 66-67, 68-70. Mr. Hughes added that “[o]nce he
came over with a dollar bill showing me the pyramid
on the back of it and saying, That is one of their
[Illuminati] symbols.” Id. at 78. When questioned by
the defense, he admitted that he told the police that
Petitioner was crazy and always talking about weird
things. Id. at 85.
Don Bowling testified that he knew Petitioner as
a co-worker with the City of Sherman. 30 RR 90. He
discussed Petitioner’s alleged odd behavior. The only
thing that Petitioner did to make him question his
mental status was dying his hair from one color to

186a
another. Id. at 92. His impression was that
Petitioner was just seeking attention from people. Id.
at 92-93.
Paul Boren, Laura’s father, also testified. He
stated that he encouraged Petitioner to get a job, and
he offered to help him. 30 RR 128, 139-40. He
likewise testified about Petitioner’s obsession with
religion. Id. at 137-38, 155-56. He witnessed
Petitioner tear up money as if it was nothing. Id. at
157.
He was aware that Petitioner smoked
marijuana. Id. at 158. He also heard Petitioner talk
about his feeling of “deja vu.” Id. at 160.
Amy Ingle, who was Petitioner’s friend and a
former girlfriend of Floyd Patterson, likewise talked
about his strange behavior and obsession with
religion and the Bible. She testified that he talked
about God a lot and thought that God had a purpose
for him. 33 RR 190. She noted that on one occasion
“he took the Bible and, you know, cut out the words in
Revelations to reword it.” Id. She further testified
that “he thought certain people had demons and that
demons were kind of around us, but he also did
believe in angels and that angels were here” and that
“they had power –– super powers over everybody.” Id.
at 190-91. She characterized him as a “different type
of person,” who “had his own thoughts on everything
and expressed them.” Id. at 192. She described his
mother as “eccentric.” Id. at 193. She added that
Petitioner’s mother was “real Godly and just
overboard with it, I’d say.” Id. He became upset when
his mother moved to Oklahoma and cried over it. Id.
He also discussed the dollar bill and the eye symbol
over the pyramid with her. Id. at 197-98. Like the

187a
other witnesses, she testified that he used the term
“deja vu” and felt like everything was “happening over
and over again.” Id. at 198. She also testified that
she had seen him with duct tape on his mouth. Id. at
200.
*49 The defense called Rose Soto Caballero, a
former girlfriend, who testified that she had been
friends with Petitioner since kindergarten and that
they started dating in fifth grade. 3 RR 18. Like other
witnesses, she testified that she saw him smoke
marijuana and drink alcohol. Id. at 20. She explained
that Petitioner had dyed his hair green for an
Incredible Hulk themed birthday party for Andre, Jr.
Id. at 27, 46. She stated that she had spent a good
amount of time with Rochelle Thomas and described
her as sweet. Id. at 29. She noted that Petitioner was
upset when his mother moved away. Id. She added
that “[n]obody will ever understand her, but she has
her own quirks and her own ways of doing things.” Id.
at 30. She stated that Petitioner discussed religion
with her. Id. at 31. She added that “[h]e had told her
that he thought that he had spirits, demons in him
from the cemetery.” Id. at 28. Their conversations
about demons and being evil and seeking forgiveness
occurred about two months before the murders. Id. at
34. He also talked “about how everything was deja
vu, and about living the same days over and over
again.” Id. On cross-examination, she testified that
she loved him greatly and still loved him. Id. at 45.
During the sentencing phase of the trial, the State
called Eric Ross, Petitioner’s older brother, as a
witness. He testified that Rochelle Thomas was his
mother, and Danny Thomas was his stepfather. 40

188a
RR 53. He stated that he was self-employed. Id. He
had previously worked at Popeye’s for eleven years
and had been a manager. Id. at 54. He stated that
his mother and the elders of the church were the
greatest influences on him. Id. at 55. He testified in
depth about Petitioner’s childhood. Id. at 55-57. He
specified that his mother raised him the same way she
raised Petitioner and that he had never been arrested
nor neglected. Id. at 56.
With the backdrop of all of this evidence
concerning Petitioner’s character and his background,
the defense team finally had the opportunity to
present mitigating evidence for the purpose of
persuading the jury to spare his life. The jury had
heard all of the previous evidence, which was the
same type of evidence that could have been presented
by defense counsel during the punishment phase of
the trial. With this in mind, defense counsel called
Steve Atkins, Leander Williford, Danny Ross, Wendy
Ross, Scott Hamel, Doris Gonzales, Roger Braziel, Dr.
Kate Allen and Larry Fitzgerald during the
punishment phase of the trial. Of these, three were
family members: brother Danny Ross, sister-in-law
Wendy Ross and paternal aunt Doris Gonzales.
Danny Ross testified that he was Rochelle
Thomas’ second oldest child and Petitioner’s older
brother. 40 RR 88. He started working at Popeye’s
when he was sixteen and was still working there. Id.
He worked with his older brother Eric. Id. Danny
Ross testified extensively about Petitioner’s
childhood. He described Petitioner as a good kid. Id.
at 90. He noted that Petitioner strived for knowledge

189a
in school. Id. at 91. He testified that he had never
seen a violent side to Petitioner. Id. at 97.
Defense counsel next called Wendy Ross, Danny
Ross’ wife. 40 RR 117. She testified that she had been
married to Danny for eight years and that they had
three children. Id. She described her husband’s
family as close. Id. at 119. Members of the family
were protective of each other and did not reveal their
family problems to others. Id. at 120. She was not
really aware of problems that were being experienced
by members of the family. Id. at 120-21. She stated
that she loved Petitioner. Id. at 124. He watched her
kids for her, and she never had any concerns or fears
because he was watching them. Id. She observed
changes in him in the months just prior to the
murders, which she attributed to anxiety. Id. at 125.
Wendy Ross characterized her mother-in-law,
Rochelle Thomas, as loving and caring and good to
her. Id. at 126. She testified that she had observed
Petitioner’s relationship with his mother. Id. at 131.
She loved him, and he loved her. Id. She never
observed them get into a fight. Id.
Doris Gonzalez, Petitioner’s paternal aunt,
testified that she and Rochelle lived together a few
times. Rochelle came to stay with her once for a few
weeks in Oklahoma without the kids, who stayed with
their dad. 40 RR 159-60. She observed Petitioner
interacting with his brothers by “[l]aughter,
happiness, joking, kidding.” Id. at 161. She described
Petitioner as very loving, kind and analytical. Id. at
163. She testified that she was responsible for taking
care of Brian Ross, one of Petitioner’s older bothers.
Id. at 163-64. The trial court initially would not

190a
permit the defense to question her about Brian’s
mental illness and the issue of family genetics. Id. at
164-65.
Nonetheless, she was subsequently
permitted to testify that Brian Ross was diagnosed
with a mental illness, and she signed the papers for
him to obtain professional help. Id. at 171. She
observed Petitioner being “very distraught, crying a
lot” in the months just prior to the murders. Id. at
165. He would not talk to her about it. Id. She went
on to talk about Petitioner’s loving relationships with
other members of the family. She also discussed some
concerns she had, including Rochelle’s inappropriate
attire around her sons and Danny Thomas’ drinking.
Id. at 168-69.
*50 Steve Atkins testified that he had previously
been employed at the Crockett House, which is a
MHMR outpatient facility. 40 RR 74-75. He knew
Petitioner from seeing him at the facility visiting his
older brother, Brian. Id. at 74. Leander Williford, Jr.,
testified that he knew Petitioner when they worked
together for three years at the cemetery. Id. at 83.
He stated that Petitioner had a good disposition with
no problems. Id. at 86. Scott Anthony Hamel testified
that Petitioner had been his friend since childhood.
Id. at 136. He ran around with him until about one
and one-half months before the murders. Id. at 139.
He stopped hanging out with him because of the
people Petitioner “was running with....Like Carmen
and Zack and Kim.” Id. He noticed changes in
Petitioner’s behavior when he started hanging out
with them. Id. He characterized Petitioner as being
depressed. Id. at 141. He testified that he had never
seen Petitioner be violent. Id. at 142. Corporal Roger

191a
Braziel testified about Petitioner’s conduct and
behavior while confined at the Grayson County Jail.
Id. at 176-178. The final witness was Dr. Kate Allen,
a clinical social worker and family sociologist, who
testified extensively about her findings regarding
Petitioner.
Petitioner complains, however, that
counsel did not adequately prepare Dr. Allen to testify
at trial.
Despite all of the foregoing testimony, Petitioner
now complains that many additional witnesses were
not contacted by the defense team who knew him as
he was growing up and descending into increasingly
severe mental illness, and/or had detailed
information about him and the family’s multigenerational pattern of health issues.
These
witnesses include Walter Johnson (Petitioner’s greatuncle), Kevin Ross (uncle), Pam Ross Borens (aunt),
Alice Harris (aunt), Denise Ross Wade (aunt), Konta
Johnson (aunt), Todd Johnson (Konta’s husband),
Roscoe Johnson (uncle), Christopher Bennett
(childhood friend), McCloud Luper (one of Rochelle’s
boyfriends), Clifton Eaton (minister at Petitioner’s
church), Wanda Banks (church director), Floyd
Patterson (cousin) or Christopher Smith (childhood
friend). In support of his claim, he attached affidavits
from family and friends.
The Director observed that these affidavits reveal
that Petitioner did not have a stable father figure,
that his family was poor and often without money to
pay the utilities, that they moved around a lot, that
his mother did not provide much guidance and was
unstable, that his bothers were mean and aggressive
towards him, that people suspected that he was

192a
mentally ill even as a young child and teenager, that
his brother was a diagnosed schizophrenic, that he
behaved oddly (putting duct tape on his mouth), that
he was hyper-religious, and that he was affected by
the deaths of his grandmother and aunt. The Director
appropriately observed that all of this information
was in front of the jury in some form, having been
testified to either at the guilt/innocence or
punishment phases of the trial, or both. The Director
persuasively argued that because much of the
evidence cited by Petitioner was actually presented in
some form to the jury, any additional evidence would
have been cumulative of evidence already admitted at
trial. See Emery v. Johnson, 139 F.3d 191, 197 (5th
Cir. 1997) (Petitioner has not shown prejudice in that
omitted testimony was duplicative), cert. denied, 525
U.S. 969 (1998); Motley v. Collins, 18 F.3d 1223, 1228
(5th Cir.) (“[N]on-record Penry evidence merely
corroborated the substantial trial testimony.”), cert.
denied, 513 U.S. 960 (1994); Lincecum v. Collins, 958
F.2d 1271, 1280 (5th Cir. 1992) (“[T]estimony would
merely have been duplicative and could not have had
an effect on the jury’s decision to assess the death
penalty.”), cert. denied, 506 U.S. 957 (1992). The
Director thus argues that the omission of such
cumulative evidence was not prejudicial.
The Director also appropriately observed that
Petitioner did not demonstrate how much of the
evidence he claims should have been presented
during punishment would have been helpful to his
case. First of all, evidence regarding his mother’s
upbringing – as deplorable as it was – and her
mother’s upbringing – as deplorable as it was – has

193a
only marginal relevance to Petitioner or his own
childhood. The Supreme Court’s Eighth Amendment
jurisprudence demands only that the capital
sentencing jury not be precluded from considering, as
a mitigating factor, the character and the record of the
individual offender, as well as the circumstances of
the particular offense. E.g., Penry v. Johnson, 532
U.S. 782 (2001) (Penry II); Penry v. Lynaugh, 492 U.S.
302 (1989) (Penry I); Eddings v. Oklahoma, 455 U.S.
104 (1982); Lockett v. Ohio, 438 U.S. 586 (1978)
(plurality op.). The Director appropriately argued
that the focus of this case was on Petitioner, as
opposed to his ancestors or distant relatives. By
comparison, the evidence found “powerful” by the
Supreme Court in Wiggins was that of abuse and
neglect suffered specifically by the petitioner.
Wiggins, 539 U.S. at 535.
*51 The Director further noted that much of the
additional evidence cited by Petitioner of his
upbringing was double-edged. The Fifth Circuit has
often denied claims for lack of prejudice due to the
double-edged nature of the evidence. See Gray, 616
F.3d at 449 (Petitioner “cannot show prejudice
because much of the new evidence is ‘double edged’ in
that it could also be interpreted as aggravating.”);
Miniel v. Cockrell, 339 F.3d 331, 346-48 (5th Cir.
2002) (upholding the state court’s conclusion that
petitioner suffered no prejudice from counsel’s failure
to investigate and present evidence of abuse and
neglect during childhood), cert. denied, 540 U.S. 1179
(2004); Ladd v. Cockrell, 311 F.3d 349, 360 (5th Cir.
2002) (failure to present evidence of troubled
childhood, mental retardation diagnosis as a child,

194a
low IQ test score, being placed on a psychomotor
inhibitor, and good behavior in institutional settings
not prejudicial because some of the evidence was
double-edged, and the rest had only “minimal”
mitigating value); Vasquez v. Thaler, 389 Fed.Appx.
419, 429 (5th Cir. 2010) (“[W]e have repeatedly
rejected IAC claims where alleged failures to
investigate mitigating evidence did not prejudice the
defendant because of the double-edged nature of the
evidence available.”), cert. denied, 563 U.S. 991
(2011).
The Court observes that Petitioner claims that the
mitigating evidence was not investigated nor
developed because the defense team was leaderless,
fractured and lethally unprepared. In support of this
allegation, he placed special emphasis on the affidavit
provided by Shelli Schade, the mitigation specialist,
who was experiencing her first capital murder case.
Petitioner’s Ex. 30 ¶ 2. Ms. Schade claims that Mr.
Hagood did not give her any guidance with respect to
what he expected of her or what he wanted her to do.
Id. at ¶¶ 3-4, 8-9. Petitioner also cites other affidavits
from members of the defense team and members of
his family that purportedly attacks Mr. Hagood’s
preparation for the punishment phase of the trial.
Lead counsel Hagood responded to the claim that
he was not prepared as follows:
[Petitioner] attacks me as unprepared and
inept. [Petitioner] claims that we were not
prepared to present our punishment case. This
is patently false. Ms. Peterson and I spent
many months preparing all aspects of the case.

195a
I had talked to several family members
regarding [Petitioner’s] background and
childhood.
Ms. Peterson and I never divided duties in
this case in a manner that was set in stone. By
and large, I handled voir dire and most of the
experts. This was because I had experience of
having done so in the past. Ms. Peterson
procured Kate Allen with my consent. I did not
know about Ms. Allen until shortly before she
testified although I was glad Ms. Peterson had
contacted Ms. Allen. Unfortunately, I was
disappointed in Ms. Allen’s performance. Her
demeanor did not translate well to the rural
community from which our jurors were
selected. Likewise, Ms. Schade was employed
based on a recommendation from the Texas
Defender Service. I instructed Ms. Schade to
do as much background as possible. All
materials possessed by Ms. Peterson and
myself were available to her. At no time did
she request more documents from us or tell us
that she needed more information to do her job.
I was disappointed in her performance. Having
worked with Amanda Maxwell, a mitigation
specialist also recommended by the Texas
Defender Service, in another case, I can now
see what Ms. Schade should have done. Ms.
Schade allowed her personal feelings about the
death penalty to effect her performance. While
I would not hesitate to hire Ms. Maxwell again,
I cannot say the same for Ms. Schade.

196a
6 SHCR 2155. In her affidavit, Ms. Peterson added to
Mr. Hagood’s statement by noting that she “procured
Kate Allen with Mr. Hagood’s consent.” Id. at 2166 ¶
31.
With respect to the claim that counsel did not
prepare the witnesses that he did call and the
additional claim that he failed to call Petitioner’s
mother, Mr. Hagood responded as follows:
*52 [P]etitioner’s mother was angry at [him]
for killing her grandson. Although I could have
gleaned useful background information from
her testimony, I did not do so. She left the state
and I made no attempt to subpoena her or get
her back to Grayson County, Texas for the trial.
I was too afraid of what might come out of her
mouth and further damage she might [do] to
[Petitioner]. I had no intention of putting her
on the stand and preferred that the State not
have the opportunity either.
I believed [Petitioner’s] aunt, Doris
Gonzales, would be my primary witness
regarding mitigation. When I interviewed her
she was articulate and passionate about the
trial and obstacles faced by [Petitioner]. Once
on the stand, however, she collapsed. She was
unable to relate to the jury, despite my best
attempts, in as clear and convincing a manner
as she had during trial preparation.
I had also prepared two of [Petitioner’s]
brothers and his father. They, too, had done a
much better job in my office than they were

197a
able to do in court. Once I realized that they
were not coming across well, I abandoned my
questioning of those three witnesses.
Id. at 2154-55. Ms. Peterson likewise stated that
Petitioner’s mother was not cooperative. Id. at 2166
¶ 31.
With respect to strategy and investigative
findings, Mr. Hagood provided the following response:
I was also aware of the family background and
history of mental problems and alcohol abuse.
That information to a jury could cut both ways.
I certainly didn’t want the jury to think that
[Petitioner’s] background and propensity for
drug use and mental instability would make
him more of a future danger. Additionally, I
concentrated on relatives and friends with
current, close relationships to [Petitioner].
Strategically, I did not want to introduce
childhood anecdotes or the history of distant
relations.
Through my investigation and
interviews with friends and family members, I
had been told that [Petitioner] had engaged in
conduct as a child, long before any onset of
mental illness, that involved cruelty to animals
and setting fires. I am aware of the MacDonald
triad which refers to the three major
personality traits in children that are said to be
warning signs for the tendency to become a
serial killer: the three are bedwetting,
firestarting and cruelty to animals. They were
first described by J. M. MacDonald in his
article “The Threat to Kill” in the American

198a
Journal of Psychiatry. Not all children who
exhibit these signs grow up to develop
antisocial personality disorder, but these signs
are found in significantly higher proportions
than in the general population. Generally, two
out of three indicates a very strong tendency
towards
sociopathy.
Although
some
researchers have called the triad into question,
these three traits were included in the
Diagnostic and Statistical Manual of Mental
Disorders IV-TR under conduct disorder at the
time of [Petitioner’s] trial. I was afraid that the
jury would see this as a sure sign that
[Petitioner] would be a future danger. As such,
I did not seek out all friends and relatives.
Although I would have liked Ms. Schade to
come up with more mitigating evidence, I felt
that I was presenting the case to the jury most
likely to sway them.
Id. at 2155-56. Petitioner’s reply to the answer
asserts that Mr. Hagood’s affidavit is not credible. He
refers to the affidavit as “revisionist history,” which
should be rejected.
After accumulating all of the aforementioned
evidence and conducting oral arguments, the state
trial court issued lengthy findings of fact regarding
the claim that counsel was ineffective during the
punishment phase of the trial:
*53 129. Members of [Petitioner’s] family,
friends and community leaders were available
at the time of [his] trial to inform counsel,
experts, and jurors about [his] life.

199a
130. The defense team did not contact all of
[Petitioner’s] family members. Nor did Ms.
Schade draft a social history or mitigation
report.
131. Mr. Hagood spent many months
preparing all aspects of the case. He states
that he talked to several family members
regarding [Petitioner’s] background and
childhood.
132. [Petitioner’s] mother was angry at
[him] for killing her grandson. Although Mr.
Hagood states that he could have gleaned
useful background information from the
mother’s testimony, Mr. Hagood did not do so.
She had left the state and Mr. Hagood states he
made no attempt to subpoena her or get her
back to Grayson County, Texas for trial. Mr.
Hagood states that this was because he was too
afraid of what might come out of her mouth and
the further damage she might do to
[Petitioner]. Mr. Hagood states that he had no
intention of putting her on the stand and
preferred that the state not have that
opportunity either.
133. Mr. Hagood believed [Petitioner’s]
aunt, Doris Gonzalez, would be the primary
defense witness regarding mitigation. When
Mr. Hagood interviewed her she was articulate
and passionate about the trial and obstacles
faced by [Petitioner]. Once on the stand, she
collapsed. She was unable to relate to the jury

200a
despite Mr. Hagood’s best attempts as she had
during trial preparation.
134. Mr. Hagood also prepared two of
[Petitioner’s] brothers and his father. They,
too, had done a much better job in Mr. Hagood’s
office than they were able to do in court. Mr.
Hagood states that once he realized that they
were not coming across well, he abandoned his
questioning of those three witnesses.
135. Ms. Peterson (Cate) procured Kate
Allen with Mr. Hagood’s consent. Mr. Hagood
did not know about Ms. Allen until shortly
before she testified, although he was glad Ms.
Peterson (Cate) had contacted Ms. Allen. Mr.
Hagood was disappointed with Ms. Allen’s
performance because her demeanor did not
translate well to the rural community from
which our jurors were selected.
136. Ms. Schade was employed based on a
recommendation from the Texas Defender’s
Service.
137. Mr. Hagood states that he instructed
Ms. Schade to do as much background as
possible.
All materials possessed by the
defense were available to her.
138. Mr. Hagood was disappointed in Ms.
Schade’s performance. Mr. Hagood states that
having worked well with Amanda Maxwell, a
mitigation specialist also recommended, by the

201a
Texas Defender Service, in another case, he can
now see what Ms. Schade should have done.
139. Mr. Hagood also states that Ms.
Schade allowed her personal feelings about the
death penalty to affect her performance.
140. Ms. Schade was admonished by the
court to restrain herself because a juror had
complained about her action in the courtroom.
141. Mr. Hagood was aware of the family
background and history of mental problems
and alcohol abuse.
142. Mr. Hagood felt that such information
to a juror could cut both ways.
143. Mr. Hagood did not want the jury to
think that [Petitioner’s] background and
propensity for drug use and mental instability
would make him more a future danger.
*54 144. Mr. Hagood concentrated on
relatives and friends with current close
relationships to [Petitioner]. Strategically, Mr.
Hagood states that he did not want to introduce
childhood anecdotes or the history of distant
relations.
145. Through his investigation and
interviews [with] friends and family members,
Mr. Hagood had been told that [Petitioner] had
engaged in the conduct as a child long before

202a
any onset of mental illness that involved
cruelty to animals and setting fires.
146. Mr. Hagood was afraid that the jury
could see this as a sure sign that [Petitioner]
would be a future danger as such, Mr. Hagood
did not seek out all friends and relatives.
10 SHCR 3545-47. Petitioner has not rebutted the
presumption of correctness that must be accorded to
these findings of fact with clear and convincing
evidence. See Miller-EL, 545 U.S. at 240.
The state trial court proceeded to issue the
following conclusions of law on this claim:
100. [Petitioner] has failed to prove by a
preponderance of the evidence that a
constitutionally
deficient
performance
prejudiced his defense or that there is a
reasonable probability that but for counsel’s
unprofessional errors the result of the
proceeding would have been different.
102. [Petitioner] has failed to prove by a
preponderance of the evidence that Mr. Hagood
was not employing trial strategy in his
selection of punishment witnesses.
103. [Petitioner] has failed to prove by a
preponderance of the evidence that counsel’s
performance was constitutionally deficient and
that he was not acting as a reasonably
competent attorney in that his trial strategy
was not in the range of competence required of

203a
attorneys in criminal cases in his selection and
handling of punishment witnesses.
10 SHCR 3581. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
In the present petition, Petitioner presents a long
list of additional witnesses who could have been
interviewed and called as witnesses during the
punishment phase of the trial. However, “there comes
a point at which evidence from more distant relatives
can be expected to be only cumulative, and the search
for it distractive from more important duties.” Bobby,
558 U.S. at 11. See also Simon v. Epps, 394 Fed.Appx.
138, 144 (5th Cir. 2010), cert. denied, 562 U.S. 1290
(2011). “[C]ounsel has a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691. In the present case,
defense counsel’s strategy was to concentrate on close
friends and relatives, who, in fact, testified. The
anticipated testimony of the proposed additional
witnesses would have been cumulative. Similarly,
testimony from additional expert witnesses would
have been cumulative. Counsel’s representation was
not deficient for failing to present cumulative
testimony.
To the extent Petitioner argues that counsel
should have presented evidence of problems
experienced by other family members, Wiggins
requires counsel to investigate evidence of abuse and

204a
disadvantages experienced by him. Wiggins, 539 U.S.
at 535. If his mother or grandmother or cousins were
on trial, then their history would have been relevant.
Nonetheless, evidence was presented about problems
experienced by other family members to the extent
that Petitioner was affected by their experiences,
including evidence of poverty, an unstable home, his
father’s drinking and Brian’s mental problems.
Counsel’s representation was not deficient for failing
to present mitigating evidence regarding other family
members that did not directly impact Petitioner.
*55 Furthermore, to the extent that these
witnesses would have offered “double-edged”
testimony, Mr. Hagood engaged in reasonable trial
strategy in deciding to forego calling them as
witnesses. He sensibly wanted to avoid presenting
testimony providing the jury a sure sign that
Petitioner would be a future danger. The decision to
forego presenting “double-edged” evidence is a
reasonable trial strategy. See Hopkins v. Cockrell,
325 F.3d 579, 586 (5th Cir.) (holding “that a tactical
decision not to pursue and present potentially
mitigating evidence on the ground that it is doubleedged in nature is objectively reasonable”), cert.
denied, 540 U.S. 968 (2003); Mann v. Scott, 41 F.3d
968, 984 (5th Cir.) (noting the heavy deference owed
trial counsel when deciding as a strategical matter to
forego admitting evidence of a ‘double-edged nature’
which might harm defendant’s case), cert. denied, 514
U.S. 1117 (1994); Rodriguez v. Quarterman, 204
Fed.Appx. 489, 500 (5th Cir. 2006) (The decision to
forego presenting double-edged evidence regarding
petitioner’s permanent brain damage was reasonable

205a
since it could have bolstered the State case regarding
future dangerousness.), cert. denied, 549 U.S. 1350
(2007).
Counsel’s tactical decision to forego
presenting double-edged testimony was objectively
reasonable and does not amount to deficient
performance. Lamb v. Johnson, 179 F.3d 352, 358
(5th Cir. 1999) (citations omitted), cert. denied, 528
U.S. 1013 (1999).
In conclusion with respect to this claim, Petitioner
has not shown that counsel’s representation was
deficient in his selection of punishment witnesses.
Moreover, since the evidence the additional witnesses
would have presented was cumulative, he cannot
show prejudice. Finally, to the extent that their
testimony would have been double-edged, their
testimony would have had limited mitigating value, if
any, which would have been outweighed by the
aggravating nature of such evidence. Overall, having
reweighed the evidence in aggravation against the
totality of available mitigating evidence, the Court
finds that Petitioner has not shown that, had counsel
presented all of the available mitigating evidence,
there is a reasonable probability that a juror would
have found that the mitigating evidence outweighed
the aggravating evidence. Petitioner has not shown
that counsel was ineffective during the punishment
phase.
In addition to the foregoing, Petitioner has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a

206a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings.
In
particular, he failed to show that the state court’s
finding that he had not shown prejudice was
unreasonable. Furthermore, he failed to overcome
the “doubly” deferential standard that must be
accorded counsel in the context of § 2254(d). Indeed,
he failed to overcome the requirement of showing that
there was not any reasonable argument that counsel
satisfied Strickland’s deferential standard. Richter,
562 U.S. at 105. Petitioner has not satisfied his
burden of showing that counsel was ineffective on this
issue. Claim number fourteen lacks merit.
Claim Number 15: The trial court placed
unconstitutional limitations on Petitioner’s
presentation of mitigating evidence.
In claim number fifteen, Petitioner complains that
the trial court limited the testimony of his expert, Dr.
Kate Allen. More specifically, the trial court granted
the State’s motion in limine and instructed Dr. Allen
to “avoid anything that says mitigation or moral
culpability.” 41 RR 124. The trial court also held that
Dr. Allen could not be called a “mitigation specialist”
in open court; instead, she was to be referred to as a
“social worker.” Id. at 24. Finally, she was prohibited
from testifying as to any conversations she had with
Petitioner one day earlier, wherein he expressed
remorse for the killing, because such testimony was
inadmissible hearsay. Id. 26-27.
*56 The Director argued that the trial court
properly limited Dr. Allen’s testimony under

207a
evidentiary rules. Petitioner did not address the
response in his reply.
The state trial court issued
conclusions of law on this claim:

the following

116. The trial court properly limited Dr.
Allen from testifying that she believed evidence
was “mitigating” or referring to a “mitigation
time line” compiled by a “mitigation expert.”
117. The trial court properly prevented Dr.
Allen from testifying that [Petitioner] had
expressed remorse to her the night before Dr.
Allen testified. The Court of Criminal Appeals
has decided that the federal constitution does
not require admission of a defendant’s selfserving, out-of-court declarations of remorse
when they are inadmissible under state law
even when these declarations meet the test of
constitutional “relevancy.” See Lewis v. State,
815 S.W.2d 560, 568 (Tex. Crim. App. 1991)
(defendant’s hearsay expressions of remorse
not admissible at punishment phase of capital
murder trial); Thomas, 638 S.W.2d at 484
(defendant’s self-serving hearsay declarations
in mitigation are ordinarily inadmissible).
Although “[r]emorse following commission of a
serious crime may well be a circumstance
tending in some measure to mitigate the degree
of a criminal’s fault, but it must be presented
in a form acceptable to the law of evidence
before he is entitled to insist that it be received
over objection.” Renteria v. State, 206 S.W.3d
689, 697 (Tex. Crim. App. 2006).

208a
10 SHCR 3583-84. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
“The use of mitigation evidence is the product of
the requirement of individualized sentencing.”
Kansas v. Marsh, 548 U.S. 163, 174 (2006) (citations
omitted). In Lockett v. Ohio, 438 U.S. 586, 604 (1978),
a plurality of the Supreme Court held that “the
Eighth and Fourteenth Amendments require that the
sentencer, in all but the rarest kind of capital case,
not be precluded from considering, as a mitigating
factor, any aspect of a defendant’s character or record
and any of the circumstances of the offense that the
defendant proffers as a basis for a sentence less than
death.” (emphasis in original). The Court held that
the sentencer must have full access to “highly
relevant” information. Id. at 603. A majority of the
Court adopted the Lockett ruling in Eddings v.
Oklahoma, 455 U.S. 104, 110 (1982). The Lockett and
Eddings decisions were revisited in Johnson v. Texas,
509 U.S. 350 (1993). The Court read these cases
narrowly:
Lockett and its progeny stand only for the
proposition that a State may not cut off in an
absolute manner the presentation of mitigating
evidence, either by statute or judicial
instruction, or by limiting the inquiries to
which it is relevant so severely that the
evidence could never be part of the sentencing
decision at all.

209a
Id. at 361 (citations omitted). Lockett “does not
deprive the State of its authority to set reasonable
limits on the evidence a defendant can submit, and to
control the manner in which it is submitted.” Oregon
v. Guzek, 546 U.S. 517, 526 (2006). “States are free to
structure and shape consideration of mitigating
evidence in an effort to achieve a more rational and
equitable administration of the death penalty.” Id.
(citations and internal quotation marks omitted).
*57 In the present case, the trial court’s ruling did
not cut off in an absolute manner the presentation of
mitigating evidence; instead, the trial court required
the presentation of the evidence in a manner
consistent with evidentiary rules. The TCCA has
repeatedly held that only the individual juror can
decide what mitigating weight, if any, is to be given
to particular evidence. See Curry v. State, 910 S.W.2d
490, 495 (Tex. Crim App. 1995).
“Although
technically a ‘factual question,’ the mitigation issue is
in reality a normative determination left to the
subjective conscience of each juror.” Howard v. State,
941 S.W.2d 101, 119 (Tex. Crim. App. 1996). The
Director persuasively argued that Dr. Allen was not
qualified to give such an opinion and that the trial
court’s limits were appropriate.
The trial court likewise reasonably prohibited Dr.
Allen from telling the jury that Petitioner had
expressed remorse to her. As was noted by the trial
court, the TCCA has consistently held that the
Constitution does not require the admission of a
criminal defendant’s self-serving, out-of-court
declarations of remorse when they are inadmissible
under state law. See Lewis v. State, 815 S.W.2d at

210a
568 (defendant’s hearsay expressions of remorse not
admissible at punishment phase of capital murder
trial); Thomas, 638 S.W.2d at 484 (defendant’s selfserving hearsay declarations in mitigation are
ordinarily inadmissible); Renteria, 206 S.W.3d at 697
(Although “[r]emorse following commission of a
serious crime may well be a circumstance tending in
some measure to mitigate the degree of a criminal’s
fault, but it must be presented in a form acceptable to
the law of evidence before he is entitled to insist that
it be received over objection.”). Furthermore, even if
Dr. Allen should have been allowed to testify to
Petitioner’s self-serving declarations of remorse, he
cannot show harm since several other witnesses had
already testified that he was sorry and worried about
forgiveness. Overall, the trial court’s rulings were
consistent with the Supreme Court’s holding that
states can structure and shape the consideration of
mitigating evidence. States are not required to
disregard their evidentiary rules in capital cases. The
fifteenth ground for relief lacks merit.
In addition to the foregoing, Petitioner has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings. He has not
satisfied the requirements of § 2254(d); thus, all relief
on claim number fifteen must be denied.

211a
Claim Number 16: Sentencing Petitioner to
death violates the prohibition on cruel and
unusual punishment set forth in the Eighth
Amendment to the United States because
Petitioner is indisputably and severely
mentally ill.
Petitioner’s sixteenth ground for relief is a claim
that he should not be executed because he is mentally
ill. He supports his claim by citing Olmstead v. L.C.
ex rel. Zimring, 527 U.S. 581, 609-10 (1999), and
Atkins v. Virginia, 536 U.S. 304, 318 (2002).
Olmstead, however, concerns confining mentally
disabled patients in a segregated environment. It has
nothing to do with the execution of mentally ill
inmates. Petitioner’s reliance on Atkins is likewise
misplaced. Atkins prohibits the execution of mentally
retarded inmates. It does not cover the execution of
mentally ill inmates separate and apart from mental
retardation. The Director correctly observed that the
Fifth Circuit has held that the Supreme Court has not
“created a new rule of constitutional law, made
retroactive by the Supreme Court, making the
execution of mentally ill persons unconstitutional.”
In re Neville, 440 F.3d 220, 221 (5th Cir.), cert. denied,
546 U.S. 1161 (2006). See also In re Woods, 155
Fed.Appx. 132, 136 (5th Cir. 2005) (“Atkins did not
cover mental illness separate and apart from mental
retardation, and [petitioner] points to no Supreme
Court case creating such a rule.”). Since the pleadings
were filed in this case, the Fifth Circuit rejected yet
another claim by a death row inmate that the Eighth
Amendment prohibits the execution of the mentally
ill. Mays, 757 F.3d at 219. The ground for relief lacks

212a
merit and is foreclosed by Fifth Circuit precedent.
The Director also properly observed that relief must
be denied because Petitioner is attempting to rely on
a new rule of law, which is barred by Teague v. Lane,
489 U.S. 288 (1989).
*58 In addition to the foregoing, the claim should
be denied for reasons explained by the state court.
The trial court issued the following conclusion of law:
137. The execution of mentally retarded
persons and insane persons violates the Eighth
Amendment. Atkins v. Virginia, 536 U.S. 304
(2002); Ford v. Wainwright, 477 U.S. 399
(1986). There is no Supreme Court authority
or authority from the Texas Court of Criminal
Appeals suggesting that mental illness is
enough to render one immune from execution
under the Eighth Amendment.
138. The Court of Criminal Appeals has
previously rejected an invitation to extend the
federal constitutional proscription against
execution of the insane to the greater category
of mentally ill defendants. Colburn v. State,
966 S.W.2d 511 (Tex. Crim. App. 1998).
139. [Petitioner] has failed to prove by a
preponderance of the evidence that the Court
of Criminal Appeals should extend the
prohibition in Atkins to those who are mentally
ill.
10 SHCR 3588-89. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas

213a
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1. Petitioner has not shown, as required
by § 2254(d), that the state court findings resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. He has not satisfied the requirements of
§ 2254(d); thus, all relief on claim number sixteen
must be denied.
Claim Number 17: As Petitioner is no longer a
future danger, his death sentence violates the
Eighth and Fourteenth Amendments.
Petitioner argues that he should not be executed
because he is no longer a future danger in light of the
fact that he plucked out both of his eyes and is
completely blind. The claim was presented for the
first time in Petitioner’s second state application for a
writ of habeas corpus. The TCCA dismissed the
application as an abuse-of-the-writ pursuant to Texas
Code of Criminal Procedure Article 11.071 § 5. The
TCCA included the following remarks in dismissing
the claim:
[Petitioner] alleges that due to his blindness
there is no longer a probability that he would
commit criminal acts of violence that would
constitute a continuing threat to society. See
Art. 37.071, § 2(b)(1). But our law imposes no
such requirement. The question was whether

214a
there was such a probability when he was
convicted. The jury found that there was, and
this application contains no claim that would
make the judgment of the trial court improper.
Accordingly, the application is dismissed.
Ex parte Thomas, 2010 WL 1795738, at *1.
The Director argues that the dismissal of the claim
as an abuse-of-the-writ by the TCCA operates as a
procedural bar. The procedural default doctrine
announced in Coleman was previously discussed on
pages thirteen through fourteen and again on page
twenty-four of this memorandum opinion. “A district
court must deny federal habeas relief on procedurally
defaulted claims dismissed ‘pursuant to an
independent and adequate state procedural rule,’
such as Texas’s abuse-of-the-writ doctrine.” Reed 739
F.3d at 767. Petitioner has not attempted to overcome
the procedural bar by showing cause and prejudice or
a fundamental miscarriage of justice; thus, the claim
is procedurally barred.
*59 The Director also appropriately observed that
the Fifth Circuit has rejected a challenge to a finding
of future dangerousness premised on a change of
circumstances over time as Teague-barred. Hughes v.
Johnson, 191 F.3d 607, 623-24 (5th Cir. 1999), cert.
denied, 528 U.S. 1145 (2000). Petitioner’s claim that
he is no longer a continuing threat to society because
of his self-inflicted blindness would likewise create a
new rule of law that is barred by Teague’s nonretroactivity doctrine.

215a
Relief on claim number seventeen is thus
foreclosed as procedurally barred and by Teague’s
non-retroactivity doctrine.
Claim Number 18: Defense counsels’ copious
failure in handling expert witnesses further
deprived Petitioner of effective assistance of
counsel.
Petitioner argues that the evidence makes it clear
that his actions were not those of a sane and rational
person. He stresses that he was mentally ill and
suffering from schizophrenia at the time of the
murders. As a result of his mental illness, he acted
under the psychotic delusion that he was doing God’s
will.
He complains that the State obtained a
conviction with surprising ease despite this evidence.
He blames his counsel for failing to develop and
implement any meaningful strategy with regard to
expert witnesses or failing to investigate the facts
relevant to their opinions.
A. Counsel was ineffective for failing to
prepare and present essential testimony from
psychiatric expert Dr. Edward Gripon.
Petitioner initially argues that counsel was
ineffective with respect to his star expert, Dr. Edward
Gripon. He asserts that counsel “failed completely to
prepare” and “provide Dr. Gripon with available
information” regarding his sanity. Petition at 245.
He characterized counsel as incompetent and
disorganized.

216a
Lead counsel Hagood provided the following
response:
[Petitioner] attaches an affidavit from Dr.
Gripon stating that he did not remember
reviewing all of the materials we were given by
the State in discovery. My recollection is that
we gave him a copy of everything we had
received in discovery. The offense reports
clearly reference recordings being placed into
evidence. Because Dr. Gripon reviewed all of
the materials, had he seen that evidence
existed, such as recorded interviews, but not
provided to him, I would have expected him to
inquire as to their location. Dr. Gripon never
complained that items were missing from
materials sent to him. I discussed the case
with Dr. Gripon originally and instructed him
to do everything necessary for his evaluation. I
was never given a list of questions from Dr.
Gripon, but I did spend a considerable time
going over the questions I would be asking Dr.
Gripon. I even spent a couple of hours with Dr.
Gripon in his hotel room the night before he
testified going back over questions and issues.
I made sure the doctor knew that I would ask
him about his qualifications, his interviews
and examinations of [Petitioner] and would
then elicit his opinion regarding sanity. I do
not know which questions Dr. Gripon
specifically asked me to use that were not use
in some manner. Strategically, there may have
been some questions I did not ask. Our position
was always that [Petitioner’s] psychosis was

217a
not caused by a substance but was organic.
However, I had discussed the case with Dr.
Crowder and Dr. Richard Rogers. I attempted
to avoid any questions of Dr. Gripon which
would highlight that [Petitioner] was willingly
taking drugs prior to the murders as well as
anything that would make [Petitioner] more
blameworthy or less sympathetic in front of the
jury. Dr. Crowder had been unable to rule out
substance induce psychosis and Dr. Rogers
indicated that testing showed [Petitioner] was
manipulative and “blew the top off” the
questions indicating malingering. I was being
careful not to elicit information from our expert
which the State’s experts could use against
[Petitioner].
*60 6 SHCR 2152-53.
At trial, Dr. Gripon was asked by defense counsel
what items he had reviewed in reaching his
evaluation of Petitioner’s sanity. Dr. Gripon provided
the following answer:
I have reviewed offense reports, crime scene
photographs, witness statements, videotapes,
audiotapes, information from those who
interviewed this individual around or about the
time of the arrest and subsequent to that. I’ve
reviewed jail records. I reviewed medical
records. I’ve reviewed treatment records of his
treatment once he was begun on treatment
using psychotic medication. I reviewed reports
of other people who have examined him and
interviewed him and whatever opinion or

218a
conclusion they have come to. I’ve read expert
reports in regard to this particular case of
people who have testified. I’ve read anything
that was provided to me that would help me
have some kind of understanding of this man
in these circumstances.
36 RR 73. He added that he had been told that he had
been provided everything the defense had. Id. It is
noted that Dr. Gripon specified in his affidavit that
counsel provided him with numerous materials,
although he also noted a few items that he did not
receive. 2 SHCR 445 ¶¶ 4, 6.
Regardless of any omissions that may have
occurred, the transcript from the trial reveals that Dr.
Gripon effectively discussed schizophrenia, delusions
associated with schizophrenia, and hallucinations. 36
RR 77-83. He opined that Petitioner’s treatment in
jail was “most consistent with treating a chronic
schizophrenic condition.” Id. at 83. He testified that
he had considered drug-induced psychosis, but he
ruled it out. Id. at 92. Dr. Gripon was of the opinion
that Petitioner was still in a state of psychosis at the
time he plucked out his eye. Id. at 96. After
discussing all of the reasons upon which he formed his
opinion, Dr. Gripon finally gave his opinion as to
Petitioner’s mental status at the time of the murders
as follows:
I believe that he was operating under the effect
of a psychotic illness at that time, specifically
schizophrenia, in which he believed that he
was doing what was directed by or that he was
at least operating under the direction of God in

219a
fighting these demons, saving the world; that
was all based on psychosis, and that based
upon that psychosis, he did not know that
conduct at that time was wrong.
Id. at 99-100.
On cross-examination, he
acknowledged that Drs. Scarano and Axelrad were
highly qualified and they were of the opinion that
Petitioner’s psychosis was substance induced. Id. at
102. In his affidavit, Dr. Gripon noted that there were
additional questions that could have been asked that
would have supported a finding of insanity. 2 SHCR
446 ¶ 11. Overall, a review of the record reveals that
Dr. Gripon effectively presented a basis for the jury to
find that Petitioner was insane at the time of the
offense, but the jury believed the State’s witnesses.
Counsel’s representation with respect to Dr. Gripon
was not deficient simply because the jury found
against Petitioner on this issue.
*61 After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the
claim that counsel was ineffective with respect to Dr.
Gripon:
186. Mr. Hagood’s recollection is that the
defense gave Dr. Gripon a copy of everything
they had received in discovery.
188. Mr. Hagood handled Dr. Gripon’s
testimony.

220a
190. Mr. Hagood states that Dr. Gripon
never complained to him that items were
missing from the materials sent to the doctor.
191. Mr. Hagood also states that he was
never given a list of questions from Dr. Gripon,
but did spend a considerable time going over
the questions the defense would be asking Dr.
Gripon.
192. Mr. Hagood states that he spent a
couple of hours with Dr. Gripon in his hotel
room the night before he testified going back
over questions and issues.
193. Mr. Hagood states that he made sure
the doctor knew that he would be asked about
his
qualifications,
interviews
and
examinations of [Petitioner] and would then
illicit [sic] his opinion regarding sanity.
194. Mr. Hagood states that he does not
know which questions Dr. Gripon specifically
asked Mr. Hagood to use that were not used in
some manner.
195. Dr. Gripon is not specific about which
questions Mr. Hagood should have asked.
196. Mr. Hagood states that strategically
there may have been some questions the
defense did not ask.
197. Mr. Hagood states that during the
examination of Dr. Gripon, Hagood was being

221a
careful not to illicit [sic] information from
Gripon which the state’s experts could use
against [Petitioner].
10 SHCR 3555-56. Petitioner complains that the
state court’s findings were based solely on Mr.
Hagood’s recollection; nonetheless, the findings of fact
were supported by the evidence even though there
was some evidence to the contrary. Petitioner has not
overcome the presumption of correctness that must be
accorded to the state court findings with clear and
convincing evidence.
The state trial court proceeded to issue the
following conclusions of law:
89. [Petitioner] has failed to prove by a
preponderance of the evidence exactly what
questions Mr. Hagood did not ask Dr. Gripon.
90. [Petitioner] has failed to prove by a
preponderance of the evidence that the decision
not to ask certain questions was not trial
strategy.
92. [Petitioner] has failed to prove by a
preponderance of the evidence that counsel’s
performance was constitutionally deficient and
was not acting as a reasonably competent
attorney, and his advice was not within the
range of competence demanded of attorneys in
criminal cases.
93. [Petitioner] has failed to prove by a
preponderance of the evidence that a

222a
constitutionally
deficient
performance
prejudiced his defense and that there is a
reasonabl[e] probability but for counsel’s
unprofessional err[or]s the results of the
proceeding would have been different.
10 SHCR 3579-80. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner disputes these findings, but he has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings.
Furthermore, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
His first ineffective assistance of counsel claim under
claim number eighteen regarding Dr. Gripon must be
rejected because it lacks merit and because he has not
satisfied the requirements of § 2254(d).

223a
B. Defense counsel’s failure to lodge a
Daubert/Kelly objection to Dr. Victor Scarano’s
testimony constituted ineffective assistance of
counsel.
C. Defense counsel’s failure to lodge a
Daubert/Kelly objection to Dr. David Axelrad’s
testimony likewise constituted ineffective
assistance of counsel.
*62 Petitioner argues that defense counsel was
ineffective for failing to lodge objections to the
testimony of Dr. Victor Scarano and Dr. David
Axelrad pursuant to Daubert v. Merrell Dow
Pharmaceuticals, 509 U.S. 579 (1993), and the
Kelly/Frye standard, Frye v. United States, 293 F.
1013 (D.C. Cir. 1923). Daubert and Frye did not,
however, set a constitutional standard for the
admissibility of expert testimony. Milone v. Camp, 22
F.3d 693, 702 (7th Cir. 1994), cert. denied, 513 U.S.
1076 (1995). Daubert simply examined the standard
of the admissibility of scientific evidence under the
Federal Rules of Evidence. A violation of Daubert
does not equal a constitutional violation. After the
petition was filed in this case, the Fifth Circuit, in
another capital murder case, rejected a claim based
on Daubert with the explanation that such claims are
“squarely foreclosed by Supreme Court and circuit
precedent.” Rivas v. Thaler, 432 Fed.Appx. 395, 404
(5th Cir.) (citations omitted), cert. denied, 132 S. Ct.
850 (2011). More recently, in yet another capital
murder case, the Fifth Circuit held that “Daubert does
not apply” and rejected an ineffective assistance of
counsel claim based on counsel’s failure to challenge
the State’s psychiatric and psychological experts

224a
based on Daubert. Williams v. Stephens, 761 F.3d
561, 571 (5th Cir. 2014), cert. denied, 135 S. Ct. 1735
(2015). The Fifth Circuit subsequently rejected
similar claims based on Daubert in Gonzales v.
Stephens, 606 Fed.Appx. 767, 774-75 (5th Cir. 2015),
andHoliday v. Stephens, 587 Fed.Appx. 767, 783 (5th
Cir. 2014), cert. denied, 135 S. Ct. 2893 (2015). There
is no legal basis to Petitioner’s claim that defense
counsel was ineffective for failing to lodge objections
to the testimony of Dr. Scarano and Dr. Axelrad based
on Daubert, Frye and related cases.
In addition to the foregoing, the claim lacks merit
because counsel did not have a basis to object to Drs.
Scarano and Axelrad testifying. Mr. Hagood noted in
his affidavit that he was provided their credentials
and was aware of their qualifications before trial. 6
SHCR 2149. He was present when they examined
Petitioner, and he observed their professionalism. Id.
at 2149-50.
They appeared knowledgeable and
followed the protocol most doctors use. Id. at 2150.
He consulted with his expert, Dr. Jay Crowder, and
their testimony was consistent with the information
provided by his expert. Id. Mr. Hagood concluded
that requesting a Daubert/Kelly hearing would have
been frivolous. Id. Counsel was not required to make
frivolous objections. Johnson, 306 F.3d at 255; Koch,
907 F.2d at 527. “Failure to raise meritless objections
is not ineffective lawyering; it is the very opposite.”
Clark, 19 F.3d at 966.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the

225a
claim that counsel was ineffective with respect to Dr.
Scarano and Dr. Axelrad:
119. Trial counsel did not raise a Daubert
challenge to Dr. Scarano or Dr. Axelrad.
163. Dr. Scarano’s testimony was consistent
with what the defense expert, Dr. Crowder, had
told Mr. Hagood.
164. Mr. Hagood felt requesting a
Daubert/Kelly hearing regarding Scarano and
Axelrad would be frivolous.
165. The majority of Dr. Scarano’s work as
a full-time forensic psychiatrist is in the
examination and evaluation of individuals
involved in the criminal justice system, as was
the case with [Petitioner].
166. Dr. Scarano is often appointed as a
forensic psychiatrist expert by courts. In
addition, his services are employed as a
consulting and/or testifying expert by the
prosecution and the defense in criminal cases.
A large portion of the defendants on whom he
performs
forensic
psychiatric
examinations/evaluations have a history of
drug abuse. Evaluation of the defendant’s
abuse of drugs is an integral and important
part
of
the
forensic
psychiatrist
examination/evaluation.
168. This court finds that Dr. Scarano is a
qualified expert in forensic psychiatry.

226a
170. Based on the facts of the case and the
information provided to the defense, Mr.
Hagood did not believe the trial court would
have prevented Dr. Axelrad’s testimony.
10 SHCR 3554, 3551-52. Petitioner criticizes these
findings by saying that the state habeas court’s
findings were issued without consideration of the
salient facts. The findings, however, were based on
the facts before the court.
Petitioner has not
overcome the presumption of correctness that must be
accorded to the state court findings with clear and
convincing evidence.
*63 The state trial court accordingly issued the
following conclusions of law:
73. [Petitioner] has failed to prove by a
preponderance of the evidence that Dr. Scarano
was not qualified to render a diagnosis
involving substance-induced psychosis.
74. [Petitioner] has failed to prove by a
preponderance of the evidence that the Court
would have excluded Dr. Scarano’s testimony.
75. [Petitioner] has failed to prove by a
preponderance of the evidence that defense
counsel was ineffective for not requesting a
Daubert/Kelly hearing regarding Dr. Scarano.
76. [Petitioner] has failed to prove by a
preponderance of the evidence that Dr. Axelrad
was not qualified to render a diagnosis
involving substance-induced psychosis.

227a
77. [Petitioner] has failed to prove by a
preponderance of the evidence that the Court
would have excluded Dr. Axelrad’s testimony.
78. [Petitioner] has failed to prove by a
preponderance of the evidence that defense
counsel was ineffective for not requesting [a]
Daubert/Kelly hearing on Dr. Axelrad.
10 SHCR 3577-78. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner disputes these findings, but he has gone
no further than to argue that the state habeas court’s
conclusions were cursory and unreasonable.
Nonetheless, the conclusions were reasonable in light
of the evidence before the state court. Petitioner has
not shown, as required by § 2254(d), that the state
court findings resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings.
Furthermore, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of

228a
showing that counsel was ineffective on this issue.
Furthermore, his second and third ineffective
assistance of counsel claims under claim number
eighteen regarding Dr. Scarano and Dr. Axelrad must
be rejected in light of clearly established Fifth Circuit
precedent and because he has not satisfied the
requirements of § 2254(d).
D. Defense counsel’s failure to call expert
Larry Fitzgerald during the punishment phase
denied [Petitioner] effective assistance of
counsel.
Petitioner next complains that defense counsel
was ineffective for failing to call Larry Fitzgerald
during the punishment phase of the trial. He initially
complained that Ms. Peterson hired Larry Fitzgerald
at the last minute, and then he complained that
defense counsel did not call him as a witness to show
that he would not be a danger to society.
Larry Fitzgerald was initially questioned on voir
dire outside of the presence of the jury. He testified
that he had been the public information officer for the
Texas Department of Criminal Justice, but he had
retired by time of the trial. 41 RR 139. He stated that
he had testified in about twelve capital murder trials.
Id. at 140. On cross-examination, he testified that he
did not develop any of the policies at the prison
system. Id. at 141. He had not written any media
articles; instead, he had testified about articles. Id.
at 142. He stated that his qualifications to testify
were based on spending “a lot of time down there
inside the prison in my capacity.” Id. at 143. His
intent was to show a video prepared by the Texas

229a
Defender Service. Id. at 144. He described the Texas
Defender Service as an advocacy group against the
death penalty. Id. at 145. The group had sought him
out, presumably because of his experience at the
prison system. Id. at 146. The State specified that it
did not object to Mr. Fitzgerald testifying, but defense
counsel chose not to call him as a witness. Id. at 148.
*64 Mr. Hagood reviewed Mr. Fitzgerald’s
testimony in his affidavit. He expressed the opinion
that “Fitzgerald, under the blistering [ ] examination
by the State did not come off as a respected expert.
Instead, he looked like a bureaucrat who was being
used by a defense oriented organization. I did not
want a repeat of Fitzgerald’s performance in front of
the jury.” 6 SHCR 2151. The Director observed that
prosecutor Ashmore stated in his affidavit that he
was hoping that Mr. Fitzgerald would testify so that
he could discredit him in front of the jury. Id. at 2331
(“I thought he was one of the worst witnesses I have
seen in some time and felt that he would be very
damaging if the defense used him.”). The Court notes
that following the trial in this case the Fifth Circuit
upheld a state trial court’s decision prohibiting Mr.
Fitzgerald from testifying during the punishment
phase about the future dangerousness of a capital
murder defendant. Fuller v. Dretke, 161 Fed.Appx.
413, 416 (5th Cir.), cert. denied, 548 U.S. 936 (2006).
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the
claim that counsel was ineffective with respect to
Larry Fitzgerald:

230a
217. Mr. Fitzgerald had been questioned by
the State out of the presence of the jury. The
State had him admit that he was retired from
the Texas Department of Criminal Justice
where he had been employed as a public
information officer. (RR vol. 41, p. 142) The
State established that Fitzgerald did not aid in
the development of TDCJ policies, had never
investigated crimes in the penitentiary, and
had not gathered any statistics of his own. (RR
vol. 41, pp. 141-146) Fitzgerald also testified
that the video tape he intended to show was
provided by the Texas Defender Service. (RR
vol 41, pp. 144-145)
218. Mr. Hagood believed that Fitzgerald
did not come off as a respected expert.
219. Mr. Hagood’s decision not to call
Fitzgerald as a witness was trial strategy.
10 SHCR 3559. Petitioner did not attempt to
overcome the presumption of correctness that must be
accorded to the state court findings with clear and
convincing evidence.
The state trial court proceeded to issue the
following conclusions of law:
98. [Petitioner] has failed to prove by a
preponderance of the evidence that Mr.
Hagood’s decision not to call Larry Fitzgerald
was not trial strategy.

231a
99. [Petitioner] has failed to prove by a
preponderance of the evidence that counsel was
not acting as a reasonably competent attorney
and his advice was not within the range of
competence demanded by attorneys in criminal
case[s] by not introducing the testimony of
Larry Fitzgerald.
10 SHCR 3580-81. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner disputes Mr. Hagood’s assessment of
Larry Fitzgerald and argues that he should have been
called as a witness.
Nonetheless, Mr. Hagood
observed the State question him on voir dire. He was
of the opinion that Mr. Fitzgerald would not be a good
witness. Mr. Hagood engaged in reasonable trial
strategy in deciding not to use Larry Fitzgerald as a
witness. Petitioner has not shown, as required by §
2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Moreover, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). Indeed, he failed
to satisfy the requirement of showing that there was
not any reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.

232a
at 105. Indeed, there was a reasonable argument that
Mr. Hagood did not call Larry Fitzgerald as a witness
because he did not think he would be a good defense
witness. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
His fourth ineffective assistance of counsel claims
under claim number eighteen regarding Larry
Fitzgerald should be denied because it lacks merit
and because Petitioner has not satisfied the
requirements of § 2254(d).
E. Defense counsel’s failure to investigate
the qualifications of Royce Smithey or object to
his
inadmissible
testimony
constituted
ineffective assistance of counsel.
*65 Petitioner next complains that counsel did not
investigate the qualifications of Royce Smithey or
object to his testimony. The State called Mr. Smithey
as an expert during the sentencing phase of the trial.
Petitioner argues that Mr. Smithey was not qualified
under the Daubert standard. The focus of the claim
is Petitioner’s argument that counsel was ineffective
for failing to conduct even a basic investigation into
Smithey’s qualifications. He argues that he was not
afforded relief in state court because of the state
court’s unreasonable application of federal law and
unreasonable findings of fact.
As an initial matter, the Court again notes that
the Fifth Circuit has rejected Daubert claims in the
context of capital murder cases with the explanation
that such claims are “squarely foreclosed by Supreme
Court and circuit precedent.” Rivas, 432 Fed.Appx. at
404. Moreover, ineffective assistance of counsel

233a
claims based on Daubert in the context of capital
murder cases have been rejected. Williams, 761 F.3d
at 571 (“Daubert does not apply”); Gonzales, 606
Fed.Appx. at 774-75; Holiday, 587 Fed.Appx. at 783.
There is no basis to Petitioner’s claim that defense
counsel was ineffective for failing to challenge Mr.
Smithey’s testimony based on Daubert.
In addition to the foregoing, the claim lacks merit
because Mr. Smithey was qualified as a witness, and
counsel had no reason to object to him as a witness.
At the time of the trial, Mr. Smithey was the chief
investigator for the Texas Special Prison Prosecution
Unit. He had regularly testified in death penalty
cases. See, e.g., Sells v. Stephens, 536 Fed.Appx. 483,
487 (5th Cir. 2013); Fuller v. Johnson, 114 F.3d 491,
497 (5th Cir. 1997); Jones v. Cockrell, 74 Fed.Appx.
317, 321 (5th Cir. 2003). See also Garcia v. Director,
TDCJ-CID, 73 F. Supp.3d 693, 751-762 (E.D. Tex.
2014);Williams v. Thaler, No. 1:09cv271, 2013 WL
1249773, at *9-12 (E.D. Tex. Mar. 26, 2013); Simpson
v. Quarterman, Civil Action No. 1:04cv485, 2007 WL
1008193, at *21-23 (E.D. Tex. Mar. 29, 2007). The
TCCA has found that his testimony regarding general
prison conditions is both relevant and permissible.
Lucero v. State, 246 S.W.3d 86, 97 (Tex. Crim. App.
2008). Despite his extensive record of testifying in
death penalty and non-death penalty criminal cases,
Petitioner now alleges that counsel should have
objected to Mr. Smithey testifying. Counsel, however,
was not required to make frivolous or futile
objections. Johnson, 306 F.3d at 255; Koch, 907 F.2d
at 527. In light of the extensive case law finding that
Mr. Smithey was an appropriate witness, Petitioner

234a
cannot show he was prejudiced by counsel’s alleged
failure to investigate Mr. Smithey’s background or his
failure to object to Mr. Smithey’s testimony.
In addition to the foregoing, Mr. Hagood
responded to the claim that he was ineffective with
respect to Mr. Smithey as follows:
[T]he State had announced its intention to call
Royce Smithey. We did not challenge the
witness’ credentials because we intended to get
much of the information Fitzgerald was to
provide in through the State’s witness. It
would make no sense to seek to exclude a
State’s witness needed by the defense as well.
We were successfully able to get our video tape
into evidence and establish that [Petitioner]
would be sent to the Connally Unit which was
maximum security, the different classifications
within the unit, security precautions in the
unit, and that [Petitioner] could never reach
the best classification of G1. We also were able
to have Smithey testify that an inmate serving
life in a capital case is not housed in open
housing with other inmates, are ineligible for
furloughs and trustee status and cannot work
out side of the facility. Smithey also testified
that there was a psychiatric unit available and
the homicide rate at TDCJ.
*66 6 SHCR 2151. Mr. Hagood’s response makes it
clear that he actually wanted Mr. Smithey to testify.
The decision not to challenge Mr. Smithey was
reasonable trial strategy.

235a
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the
claim that counsel was ineffective with respect to
Royce Smithey:
220. The defense did not challenge Smithey’s
credentials because they intended to get much
of the information Fitzgerald was to provide in
through the State’s witness. Through Smithey,
the defense was able to get a video tape of the
conditions at prison into evidence and establish
that [Petitioner] would be sent to the Connally
Unit which was maximum security, the
different classifications within the unit,
security precautions in the unit and that
[Petitioner] could never reach the best
classification of G1. The defense was able to
have Smithey testify that an inmate serving
life in a capital case is not housed in open
housing with other inmates, are ineligible for
furloughs and trustee status and cannot work
out side of the facility. Smithey also testified
that there was a psychiatric unit available and
to the homicide rate at TDCJ.
10 SHCR 3559-60. Petitioner did not overcome the
presumption of correctness that must be accorded to
the state court findings with clear and convincing
evidence.
The state trial court proceeded to issue the
following conclusions of law:

236a
100. [Petitioner] has failed to prove by a
preponderance of the evidence that a
constitutionally
deficient
performance
prejudiced his defense or that there is a
reasonable probability that but for counsel’s
unprofessional errors the result of the
proceeding would be different.
102. [Petitioner] has failed to prove by a
preponderance of the evidence that Mr. Hagood
was not employing trial strategy in his
selection of punishment witnesses.
10 SHCR 3581. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner disputes Mr. Hagood’s assessment of
the situation and the state court’s findings and
conclusions;
nonetheless,
the
findings
and
conclusions were supported by the evidence before the
state court. Petitioner has not shown, as required by
§ 2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Moreover, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). Indeed, he failed
to satisfy the requirement of showing that there was

237a
not any reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
His fifth ineffective assistance of counsel claims under
claim number eighteen regarding Royce Smithey
should be denied because it lacks merit and because
Petitioner has not satisfied the requirements of §
2254(d).
F. Defense counsel’s failure to challenge the
qualifications and testimony of Dr. Peter
Oropeza
constituted
constitutionally
ineffective assistance of counsel.
*67
Petitioner
also
challenges
counsel’s
representation with respect to one last State expert,
Dr. Peter Oropeza. He complains that counsel failed
to challenge Dr. Oropeza’s assessment of his
competency and mental state at the time of the
offense. During the state habeas proceedings, Dr.
Oropeza provided an affidavit fully setting out his
credentials, training and expertise. At the time of the
trial, he was a clinical psychologist and an expert
mitigation specialist. He was well qualified to testify
at the time of the trial. In his affidavit, Mr. Hagood
stressed that he did not have any reason to challenge
Dr. Oropeza’s qualifications.
6 SHCR 2151-52.
Counsel was not required to make frivolous or futile
objections. Johnson, 306 F.3d at 255; Koch, 907 F.2d
at 527.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding the

238a
claim that counsel was ineffective with respect to Dr.
Peter Oropeza:
221. Dr. Peter Oropeza states that he has
testified numerous times in different courts
both for the State and the defense. Dr. Oropeza
has always been found to be an expert. Dr.
Oropeza has never had a challenge to his
expertise sustained.
222. Dr. Oropeza was a psychologist
licensed in this state who has a Doctoral degree
in psychology prior to 2004.
223. Dr. Oropeza had at least 24 hours of
specialized forensic training relating to
incompetency or insanity evaluations prior to
2004.
224. Dr. Oropeza had completed six hours of
required continuing education in courses in
forensic psychiatry or psychology, as
appropriate, in either of the reporting periods
in the 24 months preceding the appointment
prior to 2004.
225. The exams before the Texas Board of
Examiners of Psychologists consists of a
jurisprudence written examination, the
national examination (EPPP), and an oral
examination. An examinee must pass all three
tests to become a licensed psychologist. On the
jurisprudence
written
examination
Dr.
Oropeza [ ] received a score of 98, and on the
national examination a score of 81. The oral

239a
boards include a review of a case vignette that
involves a host of issues regarding a
hypothetical case. Dr. Oropeza’s practice was
in the area of assessment and the board noted
weaknesses regarding therapy issues. Dr.
Oropeza addressed these issues in the next
examination and passed. Applicants do not
receive scores from the oral examination,
rather, feedback is provided on areas to
address and a simple pass or fail is given.
226. Dr. Oropeza only testified during the
punishment phase of [Petitioner’s] case.
227. Mr. Hagood knew that under 46B.022,
Dr. Oropeza met the qualifications set out in
subsections (a)(1), (a)(2)(B)(I) and (b), he was
licensed by the appropriate board, had training
consisting of 24 hours of specialized training
relating to
incompetency or
insanity
evaluations and he met his continuing
education requirements.
10 SHCR 3560-61. Petitioner has not overcome the
presumption of correctness that must be accorded to
the state court findings with clear and convincing
evidence.
The state trial court proceeded to issue the
following conclusions of law:
82. [Petitioner] has failed to prove by a
preponderance of the evidence that Dr. Peter
Oropeza was not legally qualified or competent
to testify to [his] competency or sanity.

240a
83. [Petitioner] has failed to prove by a
preponderance of the evidence that by choosing
not to attack Dr. Oropeza’s qualifications on
non-existent grounds, counsel was not acting
as a reasonably competent attorney, and his
advice was not within the range of competence
demanded of attorneys in criminal cases.
84. [Petitioner] has failed to prove by a
preponderance of the evidence that if defense
counsel had challenged Dr. Oropeza’s
qualifications, the challenge would have been
sustained and that there is a reasonable
probability that the result of the proceeding
would have been different.
*68 10 SHCR 3581. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner challenges Mr. Hagood’s assessment of
the situation and asserts that Dr. Oropeza’s
testimony was very damaging. Nonetheless, the
record reveals that Dr. Oropeza was qualified to
testify. Counsel did not have a legitimate basis upon
which to challenge his qualifications or testimony.
The state trial court reasonably found that Mr.
Hagood was not ineffective with respect to Dr.
Oropeza. Petitioner has not shown, as required by §
2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of

241a
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Moreover, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). Indeed, he failed
to satisfy the requirement of showing that there was
not any reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
His final ineffective assistance of counsel claims
under claim number eighteen regarding Dr. Peter
Oropeza should be denied because it lacks merit and
because Petitioner has not satisfied the requirements
of § 2254(d).
As a final matter with respect to claim number
eighteen,
Petitioner
criticized
counsel’s
representation with respect to each and every
witness, expert or otherwise. His nitpicking of
counsel’s handling of each and every witness lessens
the overall effectiveness of the claim. The Supreme
Court has observed that “[f]ocusing on a small
number of key points may be more persuasive than a
shotgun approach.” Yarborough v. Gentry, 540 U.S.
1, 7 (2003). Petitioner has employed a shotgun
approach. None of his arguments in this claim are
persuasive. None satisfy the requirements of §
2254(d).
Claim Number 19: Defense counsel’s repeated
failures to object to inadmissible evidence was
constitutionally ineffective.

242a
In claim number nineteen, Petitioner argues that
counsel was ineffective for failing to object to
inadmissible evidence. In particular, he complains
that counsel failed to object to unfounded lay opinion
testimony, overtly leading questioning by the State,
and hearsay.
A. Lay opinion testimony
With respect to lay opinion testimony, Petitioner
focused on testimony provided by Nurse Nancy Sims,
Counselor Jennifer Loyless and Texas Ranger
William Bennie.
Petitioner asserts that the
prosecution inappropriately sought to extrapolate lay
opinions based on lay witnesses’ perceptions of
Petitioner before or after the murders. He stressed
that none of the lay witnesses actually witnessed or
perceived anything at the time of the murders on
March 27, 2004.
Nurse Sims was called during the defense’s casein-chief. Petitioner complains that Ms. Peterson
elicited narrative, repetitive testimony that he had
overcome his mental illness. The record reveals that
Nurse Sims testified that Petitioner appeared more
stable and less of a threat after his return from
Vernon State Hospital. 33 RR 124. Petitioner told
her that he no longer heard voices and that he wanted
to go home and use Coricidin. Id. at 125. Petitioner
complains that this line of questioning enabled the
State to obtain, without objection, the following lay
opinion from Nurse Sims on cross-examination:

243a
*69 Q. On the evening of March 29th of 2004,
after the defendant had been placed into the
jail, he was in holding cell 3, correct?
A. Correct.
Q. And he asked to speak with you, correct?
A. Yes.
Q. And you walked up to holding cell 3, and the
defendant said, I’m sorry.
A. Correct.
Q. Correct? You asked him what he was sorry
for, he hadn’t done anything to you. And he
responded, I cut their hearts out. After I
stabbed them, I cut their hearts out. I didn’t
mean to hurt anybody. Please, Ms. Natalie, as
God as my witness, I didn’t mean it.
A. Correct.
Q. Okay, Indicating –– does that indicate to you
in any manner, shape, or form the defendant
knew that cutting the hearts out of Laura
Thomas, Andre Boren and Leyha Hughes that
he had done something wrong?
A. It indicates, yes, sir, that he does know.
Q. And this is on March 29th of 2004, correct?
A. Yes, sir.

244a
Q. And I think that you indicated, at least on
the 30th, as I recall –– the 31st he indicated
some delusional thinking.
A. Yes.
Q. So, even during the time he was going
through some delusional thought process, he
still was able to indicate to you that he knew
what he had done was wrong.
A. Yes, sir.
33 RR 130-31. See also id. at 133 (testimony that
Petitioner’s statement, “I’m sorry for everything I
have done. I have let my family down” was an
indication that he knew what he had done was
wrong); id. at 136 (testimony that after Petitioner had
pulled his eye out, he was still concerned about
forgiveness – another indication that he knew what
he had done was wrong); id. at 146 (even though
Petitioner continued to exhibit delusional behavior,
he continued “to recognize that he –– his actions were
wrong in killing Laura Thomas and those two kids”).
Petitioner complains that Nurse Sims provided lay
opinion testimony, through egregiously leading
questions, regarding his “mental state at the time of
the murders – testimony which she had no basis to
give.” Petition at 282.
Petitioner also complains about the following
testimony provided by defense witness Jennifer
Loyless, a professional counselor and triage specialist
at MHMR Services of Texoma, on cross-examination:

245a
Q. Are you familiar with Dextromethorphan?
A. No, I’m not.
Q. It is Coricidin. It is contained in Coricidin
cold tablets, Cough and Cold.
A. Yes.
Q. And, of course, you are aware that can cause
problems in behavior in co –– in perception and
cognition.
A. I’m not a physician, but any substance could
change that, yes. Correct.
Q. So, it would be –– have been important to
you insofar as knowing why the defendant was
exhibiting this behavior or why he was saying
what he did, to know whether he had been
doing Coricidin, antipsychotic drugs, drinking,
and smoking marijuana, prior to coming in and
seeing you, right?
A. Yes.
34 RR 24-25.
Lead counsel Hagood responded to the present
ground for relief as follows:
*70 [Petitioner] accuses me...of being
ineffective for failing to object to lay opinion
testimony. The complained of lay opinions
were to my recollections actually questions
about the witnesses’ personal observations

246a
rather than medical diagnoses. There was no
reason to object to her qualifications. In fact, I
am personally familiar with Ms. Sims, and I
believe the court would have allowed her to
testify to [Petitioner’s] actions since she has
treated more than one mentally disturbed
person in jail during her years as jail nurse.
6 SHCR 2156. The Director appropriately observed
that Ms. Loyless simply agreed with the statement
that substances can effect cognition and perception.
The statement was nothing more than basic common
knowledge that did not require scientific, technical or
specialized knowledge. It is also noted that Drs.
Scarano, Axelrad and Oropeza had testified at length
that there is basic knowledge in the medical
community. Finally, the Director opined that Sgt.
Dawsey merely explained that he had walked the
route described by Petitioner.
The Fifth Circuit has observed that “the
distinction between lay and expert witness testimony
is that lay testimony ‘results from a process of
reasoning familiar in everyday life,’ while expert
testimony ‘results from a process of reasoning which
can be mastered only by specialists in the field.’ ”
United States v. Ebron, 683 F.3d 105, 136-37 (5th Cir.
2012) (citations omitted), cert. denied, 134 S. Ct. 512
(2013). “A witness who provides only lay testimony
may give limited opinions that are based on the
witness’s perception and that are helpful in
understanding the testimony or in determining a fact
in issue, but the witness may not opine based on
scientific, technical, or other specialized knowledge.”
United States v. McMillan, 600 F.3d 434, 456 (5th

247a
Cir.), cert. denied, 562 U.S. 1006 (2010). None of the
opinions offered by these three witnesses were of a
type based on scientific, technical or specialized
knowledge. Defense counsel did not have a basis to
object to their testimony. Counsel was not required
to make frivolous or futile objections. Johnson, 306
F.3d at 255; Koch, 907 F.2d at 527. Counsel’s failure
to make meritless objections does not result in the
ineffective assistance of counsel. Clark, 19 F.3d at
966 (“Failure to raise meritless objections is not
ineffective lawyering; it is the very opposite.”).
In addition to the foregoing, the claim must be
rejected because the state habeas court reasonably
concluded that Petitioner has not shown that counsel
was ineffective on this issue. 10 SHCR 3581 ¶¶ 10405. The TCCA subsequently denied Petitioner’s state
application for a writ of habeas corpus on the trial
court’s findings and conclusions and on its own
review. Ex parte Thomas, 2009 WL 693606, at *1.
Petitioner has not shown, as required by § 2254(d),
that the state court findings resulted in a decision
that was contrary to, or involved an unreasonable
application of, clearly established federal law as
determined by the Supreme Court of the United
States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceedings.
Moreover, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.

248a
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective for failing to
object to the lay opinion testimony.
B. Leading questions
*71 Petitioner also complains that counsel failed
to object to the State’s leading questions. For
example, counsel did not object when the State
suggested the answer to Ranger William Bennie
(actually Sergeant Bruce Dawsey) regarding
Petitioner’s escape route from the murder scene. 27
RR 171. He also complained that the State asked Dr.
Scarano to accede to the contention that Petitioner
met the legal definition of voluntary intoxication prior
to the murders. 31 RR 120. He asserts that the State
continued to propound leading questions to other
witnesses, such as questions to his father. He cites 28
RR 155 of the trial transcript, but the record shows
that Ms. Peterson objected to the State’s leading
questions, and the trial court admonished the
prosecutor not to lead the witness. Petitioner argues
that he was prejudiced by counsel allowing the
prosecutor to testify on his own.
Mr. Hagood responded to the claim as follows:
Often, even if you can object, you do not to
avoid annoying the jury or delaying the trial.
This is particularly true if the information does
not harm [Petitioner] or merely restates
previous evidence. Often jurors think you are
trying to hide something if you object to
everything. In this case there were several

249a
instances where I chose not to object even if I
had a legal basis to do so.
First, he claims that I allowed the
prosecution to lead Ranger William A. Bennie.
Having looked at the citation given by
[Petitioner] in his application (vol. 27, p. 171) it
is clear that I did not. Ranger Bennie’s
testimony is not contained at that location nor
was Ranger Bennie ever asked a question
regarding the “quickest route.” The question
regarding the quickest route was actually
asked of Officer Dawsey. The information had
been elicited by Ms. Peterson (vol. 27, p. 167)
that the officer had walked what he believed to
be the quickest route. There was simply no
reason to object to a leading question when that
evidence was already before the jury.
[Petitioner] also complains about leading
questions to Dr. Scarano and my failure to
object. Dr. Scarano had already testified about
his diagnosis and his conclusions regarding
[Petitioner]. There was no doubt that the court
would allow the doctor to opine on whether
[Petitioner’s] illness and his subsequent
conduct while in a psychotic state would be
admissible. I strategically chose not to object
to information that was admissible. I hoped
the trial would move more rapidly and would
prevent the State from dwelling at greater
length on hurtful facts that would have been
shown inevitably by questions in proper form.

250a
Finally, [Petitioner] criticized us for not
objecting to leading questions by Kerye
Ashmore of [Petitioner’s] father, Danny
Thomas. First, Ashmore did not examine Mr.
Thomas. That was done by Joe Brown. Second,
Ms. Peterson and I did object to some leading
questions throughout the case. The section
cited by [Petitioner] (vol 28, p. 155) contains
only one leading question which was objected
to by Ms. Peterson. The other questions were
of the “yes” or “no” variety and did not suggest
the answer. Further, Mr. Thomas was a
terrible witness.
Leading questions often
produce very short answers from a witness.
The shorter his answers were, the better I
believed it would be for [Petitioner]. For that
reason alone Ms. Peterson and I should have
allowed leading questions to pass without
objection.
6 SHCR 2156-57. Co-counsel Peterson’s response
mirrored the comments by Mr. Hagood. Id. at 216667.
The first thing that stands out in evaluating
defense counsels’ responses is that they noted factual
errors in Petitioner’s state application, such as Officer
Dawsey testifying as opposed to Ranger Bennie and
Ms. Peterson’s alleged failure to object to leading
questions, but Petitioner repeated the same factual
mistakes in the present petition. To that extent,
Petitioner’s claim lacks any basis in fact.
Furthermore, the claim lacks merit because the Fifth
Circuit has repeatedly held that the “failure to object
to leading questions and the like is generally a matter

251a
of trial strategy as to which [the court] will not second
guess counsel.” Burnett v. Collins, 982 F.2d 922, 930
(5th Cir. 1993); Villanueva v. Stephens, 555 Fed.Appx.
300, 308 (5thCir. 2014). Indeed, Mr. Hagood stated
that he often had no reason to object to the question
or that he chose, as a matter of trial strategy, not to
object.
Petitioner’s failure to object to leading
questions claim lacks merit.
*72 In addition to the foregoing, the claim must be
rejected because the state habeas court reasonably
concluded that Petitioner has not shown that counsel
was ineffective on this issue. 10 SHCR 3581 ¶¶ 10405. The TCCA subsequently denied Petitioner’s state
application for a writ of habeas corpus on the trial
court’s findings and conclusions and on its own
review. Ex parte Thomas, 2009 WL 693606, at *1.
Petitioner has not shown, as required by § 2254(d),
that the state court findings resulted in a decision
that was contrary to, or involved an unreasonable
application of, clearly established federal law as
determined by the Supreme Court of the United
States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceedings.
Moreover, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to satisfy
the requirement of showing that there was not any
reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective for failing to
object to leading questions.

252a
C. Hearsay
Petitioner finally alleges that counsel was
ineffective for failing to object to hearsay.
In
particular, he complains that counsel did not object to
questions that elicited a hearsay response from
Bryant Hughes aimed at developing “a rational
motive for [Petitioner’s] irrational murders: that
[Petitioner] allegedly wanted Laura Boren back, and
was enraged after she rejected him over the
telephone.” Petition at 285.
Mr. Hagood provided the following response to this
claim:
The portion of Bryant Hughes testimony
referenced by [Petitioner] (vol. 30, p. 39-43)
may not have been hearsay. The statements
attributed to the murder victim, Laura
Hughes, were admitted to show that they were
spoken, but not necessarily for the truth of the
matter.
Additionally, if Laura’s phone
conversation and subsequent statements were
hearsay, they would qualify as an exception to
the hearsay rule because it was a statement of
the declarant’s then existing state of mind,
emotion, sensation, or physical condition (such
as intent, plan, motive, design, mental
feeling...). Because I believed the court would
let Laura’s statements in, I certainly would not
have objected because it would appear we were
hiding something from the jury and because
there would be many other ways that same
evidence,
regarding
discord
between
[Petitioner] and his estranged wife, Laura,

253a
would come into evidence. If I had felt an
objection was strategically warranted, I would
have prompted Ms. Peterson to object.
6 SHCR 2157-58.
To the extent that the statement was admissible,
counsel was not required to make frivolous or futile
objections. Johnson, 306 F.3d at 255; Koch, 907 F.2d
at 527. Counsel’s failure to make meritless objections
does not result in the ineffective assistance of counsel.
Clark, 19 F.3d at 966 (“Failure to raise meritless
objections is not ineffective lawyering; it is the very
opposite.”). Moreover, the claim ultimately lacks
merit because counsel engaged in reasonable trial
strategy in not objecting to the testimony. The claim
must also be rejected because the statement was
“neither crucial to the prosecution nor devastating to
the defense in the context of the trial as a whole.”
Gochicoa v. Johnson, 238 F.3d 278, 282 (5th Cir. 2000)
(citation omitted). Furthermore, Petitioner cannot
show prejudice arising from his claim of failure to
object to harmless hearsay. Id. at 283. His claim is
without merit.
In addition to the foregoing, the claim must be
rejected because the state habeas court reasonably
concluded that Petitioner has not shown that counsel
was ineffective on this issue. 10 SHCR 3581 ¶¶ 10405. The TCCA subsequently denied Petitioner’s state
application for a writ of habeas corpus on the trial
court’s findings and conclusions and on its own
review. Ex parte Thomas, 2009 WL 693606, at *1.
Petitioner has not shown, as required by § 2254(d),
that the state court findings resulted in a decision

254a
that was contrary to, or involved an unreasonable
application of, clearly established federal law as
determined by the Supreme Court of the United
States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceedings.
Moreover, he failed to overcome the “doubly”
deferential standard that must be accorded counsel in
the context of § 2254(d). Indeed, he failed to show that
there was no reasonable argument that counsel
satisfied Strickland’s deferential standard. Richter,
562 U.S. at 105. Petitioner has not satisfied his
burden of showing that counsel was ineffective for
failing to object to allegedly hearsay testimony.
*73 Overall, Petitioner has not shown that he is
entitled to relief on claim number nineteen. All relief
on this claim should be denied.
Claim Number 20: Counsel was constitutionally
ineffective for failing to object to the court’s
erroneous instruction on, and the entire
evidence regarding, voluntary intoxication as
there was no intoxication, and it should have
never been allowed to infect the trial.
In claim number twenty, Petitioner complains
about the State’s focus on the argument that he was
voluntarily intoxicated at the time of the murders. He
argues that counsel was ineffective with respect to
this issue in the following four respects: (1) the trial
court’s preliminary instructions regarding the issue of
voluntary intoxication, (2) the joint power point
presentation made during voir dire, (3) the State’s

255a
opening statement, and (4) the State’s closing
argument.
The record in this case clearly reveals that the
defense strategy in this case was to show that
Petitioner was not guilty by reason of insanity and
that his psychosis was organic. The State countered
the defense by presenting a case showing that
Petitioner’s psychosis was substance induced, arising
from his combined use of alcohol, marijuana and DXM
in the days, weeks and months leading up to the
murders. Despite Petitioner’s claims to the contrary,
the State presented evidence supporting its counter
argument. The issue of voluntary intoxication was
properly before the jury.
The jury was charged as follows:
It is an affirmative defense to the conduct
charged that, at the time of conduct charged,
the actor, as a result of severe mental disease
or defect, did not know that his conduct was
wrong.
The term “mental disease or defect” does not
include an abnormality manifested only by
repeated criminal or otherwise antisocial
behavior.
The burden of proof is on the defendant to
prove such a defense by a preponderance of the
evidence. The term “preponderance of the
evidence” means the greater weight of credible
evidence.

256a
You are further instructed that voluntary
intoxication does not constitute a defense to the
commission of a crime.
“Intoxication” means disturbance of mental
or physical capacity resulting from the
introduction of any substance into the body.
5 CR 1675-76. The instruction comports with state
law. See Tex. Penal Code § 8.04. State law expressly
provides that “[w]hen temporary insanity is relied
upon as a defense and the evidence tends to show that
such insanity was caused by intoxication, the court
shall charge the jury in accordance with the
provisions of this section.” Tex. Penal Code § 8.04(c).
Petitioner contends that this was error because
the record is “devoid of any proof that [he] was
intoxicated at the time of the crime.” The Director
persuasively argued that the assertion simply is not
true. As the State explained in its opening statement,
“intoxication” applies not just to the exact time of the
offense but also to any mental or physical disturbance
resulting from the introduction of any substance into
the body. 27 RR 35. The record fully supports the
conclusion that Petitioner’s psychosis was drug
induced: (1) Petitioner told Dr. Oropeza that he
smoked marijuana the night before the murders, 36
RR 106; (2) tests showed marijuana metabolites in
Petitioner’s urine; (3) a blood test revealed the
presence of DXM several hours after the murders; (4)
Petitioner told Nurse Sims that if he had not been on
drugs, the murders would not have happened, 35 RR
42; and (5) Dr. Gripon admitted on cross-examination
that the combined use of marijuana, alcohol and DXM

257a
could exacerbate a pre-existing condition of
schizophrenia, 36 RR 111. Furthermore, numerous
witnesses testified to Petitioner’s alcohol and/or drug
use. 27 RR 185-87; 29 RR 113, 137-40, 186, 203-04,
221-24, 226, 235; 31 RR 92-94. The State’s experts
also concluded that Petitioner’s psychosis was
substance induced. 31 RR 54, 112; 34 RR 78-79. Dr.
Scarano testified that Petitioner admitted to
consuming
marijuana,
alcohol
and
DXM
approximately thirty-six hours before the murders.
31 RR 113-15. Based on the record, the jury
instruction was entirely proper.
*74 Further, to the extent that Petitioner contends
that the voluntary intoxication instruction precluded
the jury from finding insanity, his contention is
fallacious. The jury could still have found Petitioner
insane as long as: (1) they believed that his mental
illness was not substance induced; and, (2) they
believed that as a result of that mental illness, he did
not know that what he was doing on the morning of
March 27, 2004, was wrong. The bottom line is that
the jury simply did not believe Petitioner’s side of the
story and rejected his defense that he was not guilty
by reason of insanity.
Because voir dire was conducted with this in mind,
and because the power point was presented to assist
the jury understand the law, and because the State’s
opening and closing statements did not in any way
misstate the law, counsel was not ineffective for
failing to object. Counsel was not required to make
frivolous or futile objections. Johnson, 306 F.3d at
255; Koch, 907 F.2d at 527.

258a
The state court’s conclusions of law on this issue
include the following:
18. Although voluntary intoxication is never
a defense, an instruction for the jury’s guilt/
innocence determination on the law applicable
to voluntary intoxication may be warranted
when the record includes evidence of
intoxication sufficient under the Nethery5
standard. Taylor v. State, 885 S.W.2d at 15758 (applying Nethery, 692 S.W.2d at 711-12). A
voluntary intoxication instruction given in the
guilt/innocence phase is erroneous if the record
is devoid of sufficient intoxication evidence.
Taylor, 885 S.W.2d at 158.
19. The Taylor court held regarding
voluntary intoxication in the guilt/innocence
phase that “if there is evidence from any source
that might lead a jury to conclude that the
defendant’s intoxication somehow excused his
actions, an instruction is appropriate.” Id. at
159. Numerous other cases have quoted this
holding. See, e.g., Robinson v. State, 971
S.W.2d 96, 97-98 (Tex. App. Beaumont 1998);
Haynes v. States, 85 S.W.3d 855, 858 (Tex. App.
Waco 2002); Miller v. State, No. 01-03-00819CR, 2005 WL 825762, at *7 (Tex. App. Hous.
2005); McGrew v. State, No. 14-04-00321-CR,
2005 WL 3116240, at *3 (Tex. App. Hous.
2005).

Nethery v. State, 692 S.W.2d 686 (Tex. Crim. App. 1985)
(en banc), cert. denied, 474 U.S. 1110 (1986).
5

259a
22. A trial court has wide discretion in
conducting voir dire, and its rulings are
reviewed under an abuse of discretion
standard. See Atkins v. State, 951 S.W.2d 787,
790 (Tex. Crim. App. 1997); Camacho v. State,
864 S.W.2d 524, 531 (Tex. Crim. App. 1993). If
the subject could possibly be raised during
trial, the attorneys are entitled to voir dire on
that issue. Generally speaking, a voir dire
topic is proper if it seeks to discover a juror’s
views on an issue applicable to the case. See
Robinson v. State, 720 S.W. 808, 810-11 (Tex.
Crim. App. 1986); Campbell v. State, 685
S.W.2d 23, 25 (Tex. Crim. App. 1985).
23. It was proper for voluntary intoxication
to be discussed.
24. The Court’s voluntary intoxication
instruction was not erroneous, misleading or a
misstatement of the law. The definition of
“intoxicated” in the statute regarding
voluntary intoxication, referred to whether
[Petitioner’s] mental state at the time of the
offense was induced solely or in part because of
the introduction of any substance into the body.
Tex. Code Crim. Proc. Art. 8.04 (Vernon’s
2003).6 The definition does not require that the
substance still be in the body at the time of the
criminal act nor does it preclude mental states
that still exist a significant amount of time
It is noted that the state court cited Art. 8.04 of the Texas
Code of Criminal Procedure when it was actually § 8.04 of the
Texas Penal Code.
6

260a
after the introduction, but still because, of
substances to the body.
25. The court explained the law properly,
did not preclude a finding of insanity if
[Petitioner] was intoxicated and duly protected
[Petitioner’s] rights.
*75 26. The facts of the case raised the issue
of voluntary intoxication.
27. If a preexisting condition of mind of the
accused was not such as would have rendered
him legally insane in and of itself, recent use of
intoxicants causing stimulation or aggravation
of such preexisting condition to the point of
insanity could not be relied upon as a defense
to the commission of a crime. Evilsizer v. State,
487 S.W.2d 113, 116 (Tex. Crim. App. 1972).
28. [Petitioner] has failed to prove by a
preponderance of the evidence that the trial
court’s substantive preliminary instructions to
the entire voir dire panel, the specific
instructions at voir dire regarding voluntary
intoxication, the power point display regarding
the definition of voluntary intoxication, the use
of the definition of voluntary intoxication in the
State’s opening statement and closing
arguments and the instructions regarding
voluntary intoxication in the jury charge were
improper or misleading.
29. [Petitioner] has failed to prove by a
preponderance of the evidence that the

261a
decisions by [Petitioner’s] counsel regarding
these grounds were based on anything less
than a thorough and complete investigation of
the facts and law at the time of trial.
30. [Petitioner] has failed to prove by a
preponderance of the evidence that his trial
attorney
was
ineffective
and
denied
[Petitioner] his right to counsel under the
Fifth, Sixth and Fourteenth Amendments to
the United States Constitution for failing to
object to the trial court’s substantive law
preliminary instructions to the entire voir dire
panel, the specific instructions at voir dire
regarding voluntary intoxication, the power
point display regarding the definition of
voluntary intoxication, the use of the definition
of voluntary intoxication in the State’s opening
statement and closing arguments and the
instructions regarding voluntary intoxication
in the jury charge.
31. [Petitioner] has failed to prove by a
preponderance of the evidence that, but for his
attorneys’ failure to object to the voluntary
intoxication instruction, the objection would
have been granted and the outcome of his trial
would have been different.
10 SHCR 3566-69. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.

262a
Petitioner simply disagrees with the state court’s
findings, but he has not shown, as required by §
2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Moreover, he failed to overcome the
“doubly” deferential standard that must be accorded
counsel in the context of § 2254(d). Indeed, he failed
to satisfy the requirement of showing that there was
not any reasonable argument that counsel satisfied
Strickland’s deferential standard. Richter, 562 U.S.
at 105. Petitioner has not satisfied his burden of
showing that counsel was ineffective on this issue.
Claim number twenty should be denied because it
lacks merit and because Petitioner has not satisfied
the requirements of § 2254(d).
Claim Number 21: The cumulative evidence of
counsel’s failures at both phases of Petitioner’s
trial unequivocally constitutes constitutionally
ineffective assistance of counsel.
*76 Petitioner argues next that he should be
granted habeas corpus relief because of cumulative
errors committed by defense counsel. The Fifth
Circuit has regularly rejected cumulative error claims
while noting that federal habeas relief is available
only for cumulative errors that are of constitutional
dimension. Coble, 496 F.3d at 440; Livingston v.
Johnson, 107 F.3d 297, 309 (5th Cir.), cert. denied,
522 U.S. 880 (1997); Yohey v. Collins, 985 F.2d 222,

263a
229 (5th Cir. 1993). The Fifth Circuit has emphasized
that “[m]eritless claims or claims that are not
prejudicial cannot be cumulated, regardless of the
total number raised.” Westley v. Johnson, 83 F.3d
714, 726 (5th Cir. 1996) (citing Derden v. McNeel, 978
F.2d 1453, 1461 (5th Cir. 1992)), cert. denied, 519 U.S.
1094 (1997). Because all of Petitioner’s ineffective
assistance of trial counsel claims lack merit, he has
failed to show that he was denied due process as a
result of cumulative errors. United States v. Moye,
951 F.2d 59, 63 n.7 (5th Cir. 1992); Derden, 978 F.2d
at 1454. The claim lacks merit.
Claim Number 22: The State violated
Petitioner’s due process rights under the Fifth,
Sixth and Fourteenth Amendments when the
State knowingly presented false and misleading
testimony in violation of Napue v. Illinois and
its progeny.
Petitioner continues with the same basic theme
presented in claim number twenty by arguing that
the State presented false and misleading testimony
that he was intoxicated at the time of the murders.
He correctly observed that a state denies a criminal
defendant due process when it knowingly uses false
evidence, including false testimony, to obtain a
conviction. Giglio v. United States, 405 U.S. 150, 153
(1972); Napue v. Illinois, 360 U.S. 264, 269 (1959);
United States v. O’Keefe, 128 F.3d 885, 893 (5th Cir.
1997). In support of the claim, he alleges that the
“State began its indoctrination of the jurors with the
false impression that (1) he was intoxicated on the day
of the murders, and (2) such intoxication nullified the
availability of the insanity defense.” Petition at 301-

264a
02. He further alleges that the State elicited false and
misleading testimony from Dr. Axelrad and Dr.
Scarano that he was intoxicated on the day of the
slayings. He asserts that the State’s questions gave
the impression that he was taking drugs, particularly
Coricidin, everyday leading up to March 27, 2004.
Petitioner argues that the State’s experts and others
falsely testified that his intoxication and delusions
flowed principally from the use of Coricidin.
The Supreme Court found that a the “deliberate
deception of a court and jurors by the presentation of
known false evidence is incompatible with
‘rudimentary demands of justice.’ ” Giglio, 405 U.S.
at 153 (citations omitted). “The same result obtains
when the State, although not soliciting false evidence,
allows it to go uncorrected when it appears.” Id.
(citations omitted). To obtain relief, Petitioner must
show that (1) the testimony was actually false; (2) the
State knew that it was false; and (3) the testimony
was material. Canales v. Stephens, 765 F.3d 551, 573
(5th Cir. 2014) (citations omitted). False testimony is
material if there is a reasonable likelihood that the
false testimony could have affected the judgment of
the jury. Creel v. Johnson, 162 F.3d 385, 391 (5th Cir.
1998), cert. denied, 526 U.S. 1148 (1999); Kirkpatrick
v. Whitley, 992 F.2d 491, 497 (5th Cir. 1993). Perjury
is not established by mere contradictory testimony
from witnesses, inconsistencies within a witness’
testimony and conflicts between reports, written
statements and the trial testimony of prosecution
witnesses. Koch, 907 F.2d at 531. Contradictory trial
testimony merely establishes a credibility question
for the jury. Id.

265a
*77 The Director persuasively argued that the
present claim flows from Petitioner’s general
misunderstanding of the definition of “intoxication.”
As was noted in conjunction with claim number
twenty, the Texas Penal Code defines “intoxication”
as a “disturbance of mental or physical capacity
resulting from the introduction of any substance into
the body.” Tex. Penal Code § 8.04(d); see also 5 CR
1675-76 (jury charge). In its conclusions of law, the
state habeas court observed that this definition “does
not require that the substance be in the body at the
time of the criminal act nor does it preclude mental
states that still exist a significant amount of time
after the introduction, but still because, of substances
to the body.” 10 SHCR 3568 ¶ 24. The State’s theory
of the case was that even though Petitioner was
psychotic at the time of the murders, he was not
insane such that he did not know right from wrong.
As part of the case, the State argued and presented
evidence proving that Petitioner’s psychosis was
substance induced – as opposed to organic as
Petitioner sought to prove –having been triggered by
his use of marijuana, alcohol and Coricidin (DXM) in
the days and weeks leading up to the murders.
During opening statements, the State set out the
time line of Petitioner’s drug and alcohol use prior to
the murders. 27 RR 27-28, 30-31. Further, the State
emphasized that state law did not require proof of
“intoxication” at the exact time of the murders;
rather, it required proof of “any disturbance of mental
or physical capacity resulting from the introduction of
any substance into the body.” Id. at 35. This is the
area where Petitioner misunderstands the law. His

266a
Giglio claim is premised on the erroneous belief that
“intoxication” requires that the substances still be in
his body at the time of the murders.
Dr. Scarano testified during the State’s case-inchief. He explained to the jury that mental illness can
be substance induced, and even when a person stops
using the particular substance or substances that
sparked the mental illness, the mental illness does
not necessarily disappear. 31 RR 83-85. Dr. Scarano
opined that Petitioner’s psychosis was substance
induced, having been triggered by his use of
marijuana, alcohol and DXM in the days and weeks
leading up to the murder. Id. at 92-111, 113-15.
Ultimately, Dr. Scarano testified that Petitioner was
not legally insane at the time of the murders. Id. at
94-101. Dr. Axelrad, although called first by the
defense, reached the same conclusion.
Their
testimony was not false or misleading in light of the
definition of “intoxication” under Texas law, and the
State did not violate Napue/Giglio because their
testimony did not comport to his erroneous
understanding of the definition of “intoxication.”
During closing arguments, the State emphasized
that Petitioner knew right from wrong when he
savagely murdered Leyha, Andre, Jr., and Laura.
The State further argued that because petitioner was
voluntarily intoxicated as defined by state law, he was
precluded from claiming insanity – because his
psychosis at the time of the murders was substance
induced. 37 RR 86, 89-92.
Petitioner relies on blood tests taken hours after
the murders to establish his Napue/Giglio claim, but

267a
those tests are irrelevant. Neither the State nor its
experts contended that significant amounts of drugs
and/or alcohol were in Petitioner’s system at the time
of the murders or that he was “intoxicated” as that
term is used in the vernacular. Instead, the State and
its witnesses properly used the term “intoxicated” as
defined by the Texas Penal Code. The Napue/Giglio
claim lacks merit.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following findings of fact regarding this
claim:
61. Neither the State nor its experts alleged
that [Petitioner’s] system still contained
significant amounts of drugs or alcohol during
the murder.
62. Mr. Hagood had gone over the discovery
and the reports from both of the State’s experts,
and was aware of the State’s theory of the case.
63. Mr. Hagood was aware of the lab results
from [Petitioner’s] blood.
64. Neither the State nor its experts
presented “false or misleading” evidence.
*78 10 SHCR 3536. Petitioner has not overcome the
presumption of correctness that must be accorded to
the state court findings with clear and convincing
evidence.

268a
The state trial court proceeded to issue the
following conclusion of law:
34. [Petitioner] has failed to prove by a
preponderance of the evidence that the State
knowingly presented false and misleading
testimony about whether [Petitioner] was
intoxicated at the time he murdered his
estranged wife, his son and her baby daughter.
10 SHCR 3570. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner’s claim is simply based on his
misunderstanding
of
Texas
law
regarding
intoxication. He has not satisfied any of the elements
of a Napue/Giglio claim. Moreover, he is not entitled
to relief because he has not shown, as required by §
2254(d), that the state court findings resulted in a
decision that was contrary to, or involved an
unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Petitioner is not entitled to relief on
claim number twenty-two.
Claim Number 23: The trial court’s refusal to
define “reasonable doubt” denied Petitioner his
right to due process under the Fourteenth
Amendment.

269a
Claim number twenty-three is an oft seen
complaint in capital murder cases about trial courts
not providing definitions of basic terms, such as
“reasonable doubt.”
The Constitution does not
require courts to define reasonable doubt. Victor v.
Nebraska, 511 U.S. 1, 5 (1994). The Fifth Circuit has
held that “attempts by trial courts to define
‘reasonable doubt’ have been disfavored by this court.”
Thompson v. Lynaugh, 821 F.2d 1054, 1061 (5th Cir.),
cert. denied, 483 U.S. 1035 (1987). See also Lackey v.
Scott, 28 F.3d 486, 491 (5th Cir. 1994), cert. denied,
513 U.S. 1086 (1995); Garcia, 73 F. Supp. 3d at 769.
The claim lacks merit in light of clearly established
federal law.
In addition to the foregoing, the claim should be
rejected because of the reasons provided by the state
court. The Texas Court of Criminal Appeals rejected
the claim on direct appeal as follows:
In Paulson v. State, we overruled the portion of
Geesa [v. State, 820 S.W.2d 154 (Tex. Crim.
App. 1991)] that required a trial court to
instruct the jury on the definition of “beyond a
reasonable doubt.” [28 S.W.3d 570, 573 (Tex.
Crim. App. 2000)]. We quoted the Supreme
Court’s holding in Victor v. Nebraska that “ ‘the
Constitution neither prohibits trial courts from
defining reasonable doubt nor requires them to
do so as a matter of course.’ ” [Id. at 573
(quoting Victor, 511 U.S. at 50) ]. And we stated
that “the better practice is to give no definition
of reasonable doubt at all to the jury.” [Id.]

270a
Thomas, 2008 WL 4531976, at *15. In the state
habeas proceedings, the trial court rejected the claim
for essentially the same reasons as the TCCA on
direct appeal. 10 SHCR 3585-86 ¶ 125. Petitioner
has not shown, as required by § 2254(d), that the state
court findings resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings. Relief on
claim number twenty-three should be denied.
Claim Number 24: Petitioner was deprived of
his Fifth Amendment privilege against selfincrimination
because
the
jury
used
Petitioner’s decision not to testify against him
in imposing a sentence of death.
*79 Petitioner correctly observes that the Fifth
Amendment to the United States Constitution
guarantees a criminal defendant both the right to
remain silent during trial and the right not to have
the jury draw any adverse inferences from the
defendant’s exercise of this privilege. Carter v.
Kentucky, 450 U.S. 288, 305 (1981). The scope of this
Fifth Amendment privilege applies equally to the
guilt/ innocence and punishment phases of a capital
trial. Estelle v. Smith, 451 U.S. 454, 462-63 (1981).
After the trial, the foreperson stated that he and
others on the jury considered the fact that Petitioner
did not express true remorse during the penalty phase
of the trial. 43 RR 16. He stated that he, and possibly

271a
others on the jury, wanted something to “hang their
hat on,” such as Petitioner’s expression of true
remorse, to decide against imposing a sentence of
death. Id. Petitioner sought a new trial, arguing that
this amounted to a violation of his right against selfincrimination. 5 CR 1702-05. The State, anticipating
that Petitioner would call jurors to testify, objected
pursuant to Texas Rule of Evidence 606(b). The trial
court sustained the objection and denied the motion
for new trial. On direct appeal, the TCCA found that
the application of Rule 606(b) prevented proof of the
alleged violation. Thomas, 2008 WL 4531976, at *1921. The TCCA held that the application of Rule 606(b)
did not violate Petitioner’s constitutional rights, and
the judgment of the trial court was affirmed. Id. at
*21.
The issue was raised again in the state habeas
corpus proceedings. The state trial court rejected the
claim and issued the following conclusions of law:
132. The failure to testify at trial shall not
be used against any defendant, nor shall
counsel comment on the defendant’s right to
remain silent and failure to testify. Tex. Code
Crim. Proc. Ann. art. 38.08 (Vernon Supp.
2004). A jury’s discussion of the defendant’s
failure to testify – and using that circumstance
to find guilt would be impermissible. Under
rule 606(b), however, jurors are not competent
to testify that they discussed the defendant’s
failure to testify and used that failure as a
basis for convicting him. Hines v. State, 3
S.W.3d 618, 620-21 (Tex. App. – Texarkana
1999, no pet.); see also Tex. R. App. P. 21.3.

272a
133. [Petitioner] has failed to prove by a
preponderance of the evidence that the jury
discussed [Petitioner’s] failure to testify or
used the fact that [Petitioner] did not testify
against [him].
10 SHCR 3587-88. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
“The constitutional right of a defendant to choose
not to testify is a fundamental tenet of our system of
justice.” United States v. Johnston, 127 F.3d 380, 399
(5th Cir. 1997), cert. denied, 522 U.S. 1152 (1998). On
the other hand, it has been long held that a postverdict inquiry of jury members, as live witnesses or
by affidavit, is inappropriate. See Mattox v. United
States, 146 U.S. 140, 149 (1892) (“[T]he evidence of
jurors, as to motives and influences which affected
their deliberations, is inadmissible either to impeach
or support the verdict.”); see also Tanner v. United
States, 483 U.S. 107, 117-21 (1987) (discussing policy
behind federal common law rule against admission of
jury testimony to impeach verdict); Cunningham v.
United States, 356 F.2d 454, 455 (5th Cir.) (“wellsettled general rule that a juror will not be heard to
impeach his own verdict”), cert. denied, 384 U.S. 952
(1966). In Cunningham, the Fifth Circuit upheld the
trial court’s refusal to consider an affidavit by one
juror who stated that the jurors discussed the
defendant’s failure to testify in his own behalf.

273a
*80 This basic tenet that courts generally will not
inquire into a jury’s deliberative process is
encapsulated in Rule 606(b) of both the Federal Rules
of Civil Procedure and the Texas Rules of Civil
Procedure. The Fifth Circuit has accordingly found
that the “post-verdict inquiry of jury members, as live
witnesses or by affidavit, is inappropriate and
precluded by Federal Rules of Evidence 606(b).”
Williams v. Collins, 16 F.3d 626, 636 (5th Cir.), cert.
denied, 512 U.S. 1289 (1994). Williams, like the
present case, involved a Texas death row inmate
challenging his conviction in a habeas corpus
proceeding. In affirming the denial of habeas corpus
relief, the Fifth Circuit found that the “district court
did not abuse its discretion in disallowing the
requested testimony.”
Id.
The Fifth Circuit
subsequently held that both Fed. R. Evid. 606(b) and
Tex. R. Evid. 606(b) “bar all juror testimony
concerning the juror’s subjective thought process.”
Salazar v. Dretke, 419 F.3d 384, 402 (5th Cir. 2005),
cert. denied, 547 U.S. 1006 (2006). The Court
ultimately found that it could not say the “state
habeas court’s application of Texas Rule 606(b) to bar
testimony by jurors concerning their internal
discussion...was contrary to, or an unreasonable
application of, clearly established law as determined
by the Supreme Court.” Id. at 403. More recently, the
Fifth Circuit refused to grant a certificate of
appealability with respect to a district court’s
rejection of a claim that jurors took into consideration
a defendant’s failure to testify because courts “will not
inquire into the jury’s deliberative process absent a
showing of external influences on the jurors.” Greer
v. Thaler, 380 Fed.Appx. 373, 382 (5th Cir.) (citing

274a
Tanner, 483 U.S. at 120-21), cert. denied, 562 U.S. 986
(2010). In light of Williams, Salazar and Greer, this
Court likewise cannot say that the state court’s
rejection of Petitioner’s claim based on Rule 606(b)
was contrary to, or an unreasonable application of,
clearly established law as determined by the Supreme
Court. Moreover, apart from the state court findings,
the Court further finds that Petitioner’s claim
impermissibly seeks to delve into a juror’s
deliberative process. Federal habeas corpus relief is
unavailable on claim number twenty-four.
Claim Number 25: Petitioner’s death sentence is
unconstitutional under Roper v. Simmons
because the State used prior convictions based
on acts committed by Petitioner when he was a
juvenile to establish an aggravating factor.
The Supreme Court has held that the execution of
individuals who were under eighteen years of age at
the time of their capital crimes is prohibited by the
Eighth and Fourteenth Amendments.
Roper v.
Simmons, 543 U.S. 551 (2005). Petitioner complains
that the State introduced a number of prior offenses
committed by him as a juvenile, including felony
criminal mischief in an amount over $750 (age
eleven), two separate criminal trespass offenses (age
eleven), three curfew violations (ages thirteen,
fourteen and fifteen), and evading arrest/detention
(age seventeen). The State introduced such evidence
during the sentencing phase of the trial to establish
future dangerousness.
Roper, however, only prohibits the imposition of
the death penalty for offenders who were under

275a
eighteen when their crimes were committed. Id. at
578. The dividing line of eighteen established a
“categorical rule.” Ebron, 683 F.3d at 156. The Fifth
Circuit has accordingly observed that Roper
“established a lower boundary: No one under eighteen
may be executed, meaning only that, ...” Doyle v.
Stephens, 535 Fed.Appx. 391, 395 (5th Cir. 2013), cert.
denied, 134 S. Ct. 1294 (2014). The Fifth Circuit
rejected the efforts to “undermine” Roper. Id. at 396
n.3.
Juvenile admissions and confessions are generally
admissible under Texas law during the punishment
phase of a trial where the defendant faces the death
penalty. See East v. State, 702 S.W.2d 606, 615 (Tex.
Crim. App. 1985) (“[Texas Code of Criminal
Procedure] Article 37.071 provides that during the
punishment phase of a capital murder trial, evidence
may be presented as to any matter that the trial court
deems relevant to sentence.”). Also see Garcia, 73
F.Supp.3d at 793 (observing that juvenile record may
be considered under Texas law in determining future
dangerousness).
The Director appropriately cited numerous cases
rejecting attempts by appellants to contort Roper to
prohibit the consideration of juvenile records as an
aggravating factor. Mitchell v. State, 235 P.3d 640,
659 (Okla. Crim. App. 2010) (“Nothing in the
language of Roper suggests that the State is
prohibited from relying on prior juvenile
adjudications
to
support
an
aggravating
circumstance.”), cert. denied, 562 U.S. 1293 (2011);
People v. Bramit, 210 P.3d 1171, 1186 (Cal.) (“[Roper]
says nothing about the propriety of permitting a

276a
capital jury, trying an adult, to consider evidence of
violent offenses committed when the defendant was a
juvenile.”), cert. denied, 558 U.S. 1031 (2009); State v.
Garcell, 678 S.E.2d 618, 645 (N.C.) (“Here, defendant
committed a capital crime after he turned eighteen
years old, and that simple fact carries defendant’s
case over the bright line drawn by Roper. Defendant
was sixteen when he committed common law robbery
and two counts of second-degree kidnapping, but he is
not being sentenced to death as an additional
punishment for those crimes.”), cert. denied, 558 U.S.
999 (2009); Lowe v. State, 2 So.3d 21, 46 (Fla. 2008)
(“Lowe attempts to expand this prohibition to
preclude the State from using as an aggravating
factor a conviction for a crime committed by a
defendant before he turned eighteen. However, Roper
does not stand for this proposition.”); United States v.
Wilks, 464 F.3d 1240, 1243 (11th Cir.) (“It is one thing
to prohibit capital punishment for those under the age
of eighteen, but an entirely different thing to prohibit
consideration of prior youthful offenses when
sentencing criminals who continue their illegal
activity into adulthood. Roper does not mandate that
we wipe clean the records of every criminal on his or
her eighteenth birthday.”), cert. denied, 549 U.S. 1066
(2006).
*81 Since the original petition was filed in this
case, the Fifth Circuit provided the following
discussion in rejecting the type of argument being
presented by Petitioner:
While the Roper decision clearly establishes
that the death penalty may not be imposed as
punishment for an offense committed as a

277a
juvenile, it does not clearly establish that such
an offense may not be used to elevate murder
to capital murder. Here, [petitioner] is not
being punished for his earlier crime but is
instead being punished for a murder that he
committed as an adult.
Taylor v. Thaler, 397 Fed.Appx. 104, 108 (5th Cir.
2010), cert. denied, 563 U.S. 939 (2011). Roper simply
did not prohibit the State from presenting evidence of
Petitioner’s juvenile record to establish future
dangerousness. The claim lacks merit.
The state trial court rejected the claim and issued
the following conclusions of law:
134. Roper v. Simmons prohibits the State
from assessing the death penalty against a
defendant who was under 18 years of age at the
time he committed the offense. Roper v.
Simmons, 543 U.S. 551 (2005).
135. In the punishment phase of a capital
murder trial, the admission of prior offenses
committed when the defendant was a juvenile
does not violate the Eighth Amendment if he
was assessed the death penalty for a charged
offense that occurred when he was at least
eighteen years old. See Corwin v. State, 870
S.W.2d 23 (Tex. Crim. App. 1993).
136. Neither the Supreme Court nor the
Texas Court of Criminal Appeals has extended
the holding in Roper v. Simmons to prohibit the
use of juvenile offenses in the punishment

278a
stage of a capital case. See e.g., Matthews v.
State, 2006 WL 1752169 (Tex. Crim. App. 2006)
(not designated for publication).
10 SHCR 3588. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.
Petitioner argues that Roper should be extended,
but he has not shown that either the Supreme Court
or the Fifth Circuit has done so. Petitioner has not
shown, as required by § 2254(d), that the state court
findings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law as determined by the
Supreme Court of the United States, or resulted in a
decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings. Relief on
claim number twenty-five should be denied.
Claim Number 26: Petitioner was deprived of
his right to a fair trial under the Sixth
Amendment because his attorney had a conflict
of interest that was not waived.
Petitioner alleges that co-counsel Bobbie Peterson
(Cate) had an “actual conflict of interest due to her
involvement as an assistant county attorney in a
juvenile prosecution of [him].” He asserts that the
conflict was not properly waived. In support of the
claim, he notes that she was a prosecutor in Grayson
County before going into private practice. She

279a
prosecuted him in juvenile delinquency proceedings
in Grayson County. He specifically cites a prosecution
for vehicle theft, which resulted in a term of probation
for eighteen months.
*82 The issue was raised during a suppression
hearing as follows:
ASHMORE: Your Honor, before we get started,
there is one thing we discussed in chambers
that I wanted of record. The defendant as a
juvenile was placed on probation on two
different times. The last time being, I believe,
in 1997 for the theft of three different
automobiles on three different times. In the
course of the County Attorney’s office of
Grayson County prosecuting the juvenile in
those various juvenile matters, I had noted
that Bobbie Peterson had signed several
pleadings of the state in her capacity as
Assistant County Attorney at that time. Mrs.
Peterson and I had talked about that and my
understanding was that is that Mrs. Peterson
had made the defendant aware of that
situation and that he has no problem with it,
but I wanted the Court to discuss that with him
and to have that clear on the record.
THE COURT: Okay.
PETERSON: That is correct, Your Honor. I
have spoken to Mr. Thomas about the fact that
I was a prosecutor and I did sign off on some
petitions that he was the juvenile and he has
indicated that he was aware of that and he has

280a
no problems or concerns about my representing
him now and the difference in our capacities.
THE COURT: Is that correct, Mr. Thomas?
THOMAS: Yes.
THE COURT: You are satisfied to have Mrs.
Peterson continue as your co-counsel?
THOMAS Yes, Sir.
THE COURT:
sworn....

Let’s

have the witnesses

7 RR 4-5.
This issue was raised again in the state habeas
corpus proceedings. Lead counsel Hagood addressed
the issue as follows:
[Petitioner] also attacks Ms. Peterson’s loyalty
to [him]. Specifically, [Petitioner] states that
because Ms. Peterson signed juvenile petitions
regarding [him] many years ago, and those
items were used in punishment, [Petitioner]
claims Mr. Peterson had a conflict. During the
suppression hearing prior to voir dire, the court
addressed that matter and personally asked
[Petitioner] if he agreed with a statement by
Ms. Peterson on the record that she had
discussed the issue with him and he had no
problem with her continuing to act as defense
attorney.
The court specifically asked if
[Petitioner] was satisfied to have Ms. Peterson
continue as co-counsel. [Petitioner] stated,

281a
“yes, sir.” (RR vol. 7, p. 5). I personally never
noticed a lack of loyalty to [Petitioner] or [his]
case.
In fact, Ms. Peterson showed a
tremendous dedication towards [Petitioner]
and zealousness towards [his] defense.
6 SHCR 2158. Mr. Ashmore also noted in his affidavit
that Petitioner specified that he wanted Ms. Peterson
to continue as counsel and that he did not observe any
lack of loyalty. 6 SHCR 2330 ¶ 19.
In Cuyler v. Sullivan, 446 U.S. 335 (1980), the
Supreme Court announced the general rule with
respect to conflicts of interest between attorneys and
clients. In that case, a state defendant had filed a
federal writ of habeas corpus alleging his trial
attorney was operating under a conflict of interest
because he represented Sullivan and his two codefendants in three separate criminal trials. The
Supreme Court held that the mere possibility of a
conflict of interest is insufficient to overturn a
conviction. Rather, in order for a criminal defendant
to demonstrate a violation of Sixth Amendment rights
that would entitle him to relief, the defendant must
establish that his attorney was actively representing
conflicting interests and that an actual conflict of
interest
adversely
affected
his
attorney’s
performance.
Once a criminal defendant
demonstrates such a conflict, prejudice is presumed.
Id. at 349-50. Since Cuyler was decided, the Supreme
Court has reiterated that a defendant is not entitled
to a presumption that the prejudice prong of the
Strickland standard has been met where there
existed a conflict of interest on his attorney’s part,
unless that conflict affected the attorney’s

282a
performance. Mickens v. Taylor, 535 U.S. 162, 172-73
(2002).
*83 In Beets v. Scott, 65 F.3d 1258 (5th Cir. 1995),
cert. denied, 517 U.S. 1157 (1996), the Fifth Circuit
held that Cuyler was only applicable in situations
where an attorney was representing multiple
interests. The Fifth Circuit further held in Beets that
the Cuyler standard for ineffective assistance of
counsel did not extend to conflicts between an
attorney’s personal interest and his client’s interest,
as those types of situations were best analyzed under
the Strickland standard for ineffective assistance of
counsel. Beets, 65 F.3d at 1269-72. The Fifth Circuit
has also held that, in order to show there has been an
adverse effect, a petitioner must show “some plausible
defense strategy or tactic [that] might have been
pursued but was not, because of the conflict of
interest.” Hernandez v. Johnson, 108 F.3d 554, 560
(5th Cir. 1997) (citation omitted), cert. denied, 522
U.S. 984 (1997).
More recently, the Fifth Circuit dealt with an
analogous situation in United States v. Villarreal, 324
F.3d 319 (5th Cir. 2003). The Fifth Circuit found that
the mere fact that counsel was employed in the
district attorney’s office at the time of Villarreal’s
prior conviction did not represent a conflict of
interest. Id. at 327-28 (citing Hernandez, 108 F.3d at
559-60). Moreover, there was no showing that counsel
failed to pursue a defense due to the conflict of
interest. The Fifth Circuit rejected the claim for the
additional reason that counsel made Villarreal aware
of the potential conflict of interest before trial, and

283a
Villarreal chose to continue being represented by
counsel. Id. at 328.
The situation in the present case is the same as in
Villareal. Petitioner has not shown an actual conflict
of interest; instead, he only showed a potential
conflict of interest. Moreover, he failed to show that
Ms. Peterson failed to pursue some plausible defense
strategy or tactic that might have been pursued
because of the conflict of interest. Finally, the
potential conflict of interest was made known to
Petitioner before trial, and he chose to continue being
represented by Ms. Peterson. He waived his right to
conflict free defense counsel by his voluntary and
intelligent waiver. See United States v. Plewniak, 947
F.2d 1284, 1287 (5th Cir. 1991), cert. denied, 502 U.S.
1120 (1992). Petitioner has not shown that he is
entitled to relief based on a conflict of interest.
After accumulating all of the evidence and
conducting oral arguments, the state trial court
issued the following conclusions of law:
110. The Sixth Amendment guarantees the
right of individuals to have counsel without
conflicts of interest. Gray v. Estelle, 616 F.2d
801, 803 (5th Cir. 1980); see also Ex parte
Prejean, 625 S.W.2d 731, 733 (Tex. Crim. App.
1981) (en banc). If an actual conflict exists, “it
need not be shown that the divided loyalties
actually prejudiced the defendant in the
conduct of his trial.” Zuck v. Alabama, 588
F.2d 436, 439 (5th Cir. 1979).

284a
111. Although a defendant can waive his or
her right to conflict-free counsel, a valid waiver
“requires an ‘intentional relinquishment or
abandonment of a known right.’ ” Gray, 616
F.2d at 803 (quoting Johnson v. Zerbst, 304
U.S. 458, 464 (1938)). A valid waiver “must be
both voluntary and ‘knowing, intelligent acts
done with sufficient awareness of the relevant
circumstances and likely consequences.’ ”
Gray, 616 F.2d at 803 (quoting Brady v. United
States, 397 U.S. 742, 748 (1970)). Texas courts
require that “[s]uch a waiver of right to conflictfree counsel should include a showing that the
defendant is aware of the conflict of interest,
realizes the consequences of continuing with
such counsel, and is aware of his right to obtain
other counsel.” Prejean, 625 S.W.2d at 733.
*84 112. [Petitioner] has failed to show his
attorney’s former role as the prosecutor in his
prior convictions raised anything other than a
speculative conflict of interest.
113. [Petitioner] failed to prove an actual
conflict of interest by a preponderance of the
evidence.
114. [Petitioner] has waived his right to
complain of any conflict.
10 SHCR 3582-83. The TCCA subsequently denied
Petitioner’s state application for a writ of habeas
corpus on the trial court’s findings and conclusions
and on its own review. Ex parte Thomas, 2009 WL
693606, at *1.

285a
Petitioner does nothing more than make a
conclusory claim that there was an actual conflict of
interest. He did not, however, show that he is entitled
to relief for the exact same reasons discussed by the
Fifth Circuit in Villarreal. He also complains about
the conclusion that he waived his conflict of interest;
nonetheless, the situation was fully discussed in
court, and he voluntarily and clearly waived any
conflict. 7 RR 5. Petitioner has not shown, as
required by § 2254(d), that the state court findings
resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law as determined by the Supreme Court of
the United States, or resulted in a decision that was
based on an unreasonable determination of the facts
in light of the evidence presented in the state court
proceedings. Relief on claim number twenty-six
should be denied.
Claim Number 27: Petitioner’s appellate
counsel was constitutionally ineffective.
In his final claim, Petitioner argues that his
appellate counsel was ineffective for failing to raise a
number of claims on appeal. He presents a laundry
list of claims that purportedly should have been
raised on direct appeal, including the following:
1. Failure to challenge the State’s opening
statement;
2. Failure to voir dire jurors adequately,
who stated they were opposed to interracial
relationships;

286a
3. Failure to object to the giving of
substantive law instruction to the venire;
4. Failure to challenge the voluntary
intoxication instruction offered by the State
and the Court;
5. Failure to object to the giving of an
erroneous voluntary instruction to the venire;
6. Failure to object to erroneous instructions
on the issues of insanity and voluntary
intoxication, or a clarifying instruction
explicating the interplay between;
7. Failure to object to the use of a
powerpoint display before the venire, when
that powerpoint reflected an erroneous
statement of the law;
8. Failure to object to the State’s reference
in opening statement to jury instructions
generally, and to the erroneous voluntary
intoxication instruction in particular;
9. Failure to object to the voluntary
intoxication instruction in the court’s charge;
10. Calling the State’s expert witnesses in
an attempt to prove insanity;
11. Repeated instances of failing to object to
leading or otherwise inappropriate questions or
to understand the application of the
evidentiary rules in the courtroom; and

287a
12. Trial counsel’s failure to request a
diminished capacity defense.
The two-prong Strickland test applies to claims of
ineffective assistance of counsel by both trial and
appellate counsel. Styron v. Johnson, 262 F.3d 438,
450 (5th Cir. 2001), cert. denied, 534 U.S. 1163 (2002).
An indigent defendant does not have a constitutional
right to compel appointed counsel to include every
nonfrivolous point requested by him; instead, an
appellate attorney’s duty is to choose among potential
issues, using professional judgment as to their merits.
Jones v. Barnes, 463 U.S. 745, 751 (1983). “Counsel
need not raise every nonfrivolous ground of appeal,
but should instead present solid, meritorious
arguments based on directly controlling precedent.”
Ries v. Quarterman, 522 F.3d 517, 531-32 (5th Cir.)
(citation omitted), cert. denied, 555 U.S. 990 (2008);
Adams v. Thaler, 421 Fed.Appx. 322, 332 (5th Cir.),
cert. denied, 132 S. Ct. 399 (2011). To demonstrate
prejudice, a petitioner must “show a reasonable
probability that, but for his counsel’s unreasonable
failure..., he would have prevailed on his appeal.”
Briseno v. Cockrell, 274 F.3d 204, 207 (5th Cir. 2001)
(citations omitted).
*85 In the present case, Petitioner essentially
presents the same meritless claims previously raised
in his petition and rejected earlier in this
memorandum opinion. He has not shown that, but for
appellate counsel’s unreasonable failure to raise these
claims, he would have prevailed on appeal. The claim
lacks merit.

288a
Moreover, Petitioner’s laundry list of claims that
allegedly should have been raised on direct appeal
focus on ineffective assistance of trial counsel claims.
Such arguments generally lack merit for reasons
explained by the Supreme Court as follows:
[T]he Texas procedural system – as a matter of
its structure, design, and operation – does not
offer
most
defendants
a
meaningful
opportunity to present a claim of ineffective
assistance of trial counsel on direct appeal.
Trevino, 133 S. Ct. at 1921. The Supreme Court
recognized that most ineffective assistance of trial
counsel claims must be raised and developed in
habeas corpus proceedings. Petitioner’s argument
that such ineffective assistance of trial counsel claims
should have been raised on direct appeal shows a
basic misunderstanding of the “structure, design and
operation” of the Texas procedural system. His claim
lacks any basis in theory and in practice. Petitioner’s
final claim lacks merit and should be denied.
Conclusion
Having carefully considered all of Petitioner’s
claims, the Court is of the opinion, and so finds, that
he has not shown that he is entitled to federal habeas
corpus relief and his petition should be denied.
Certificate of Appealability

289a
An appeal may not be taken to the court of appeals
from a final order in a federal habeas corpus
proceeding “unless a circuit justice or judge issues a
certificate of appealability.” 28 U.S.C. § 2253(c)(1)(A).
Although Petitioner has not yet filed a notice of
appeal, the court may address whether he would be
entitled to a certificate of appealability.
See
Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir.
2000) (A district court may sua sponte rule on a
certificate of appealability because “the district court
that denies a petitioner relief is in the best position to
determine whether the petitioner has made a
substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing
and argument on the very issues the court has just
ruled on would be repetitious.”).
A certificate of appealability may issue only if a
petitioner has made a substantial showing of the
denial of a constitutional right. 28 U.S.C. § 2253(c)(2).
The Supreme Court fully explained the requirement
associated with a “substantial showing of the denial
of a constitutional right” in Slack v. McDaniel, 529
U.S. 473, 484 (2000). In cases where a district court
rejected a petitioner’s constitutional claims on the
merits, “the petitioner must demonstrate that
reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Id.; Henry v. Cockrell, 327 F.3d 429, 431 (5th
Cir. 2003). “When a district court denies a habeas
petition on procedural grounds without reaching the
petitioner’s underlying constitutional claim, a COA
should issue when the petitioner shows, at least, that
jurists of reason would find it debatable whether the

290a
petition states a valid claim of the denial of a
constitutional right and that jurists of reason would
find it debatable whether the district court was
correct in its procedural ruling.” Id.
*86 In this case, reasonable jurists could not
debate the denial of Petitioner’s § 2254 petition on
substantive or procedural grounds, nor find that the
issues presented are adequate to deserve
encouragement to proceed. Miller-El, 537 U.S. at 327
(citing Slack, 529 U.S. at 484). The Court thus finds
that Petitioner is not entitled to a certificate of
appealability as to his claims. It is accordingly
ORDERED that the petition for a writ of habeas
corpus is DENIED and the case is DISMISSED with
prejudice. It is further
ORDERED that a certificate of appealability is
DENIED. It is finally
ORDERED that all motions not previously ruled on
are DENIED.
It is SO ORDERED.
SIGNED this 19th day of September, 2016.
All Citations
Not Reported in Fed. Supp., 2016 WL 4988257

291a
APPENDIX D
2009 WL 693606
Only the Westlaw citation is currently
available.
UNDER TX R RAP RULE 77.3, UNPUBLISHED
OPINIONS MAY NOT BE CITED AS
AUTHORITY.
Court of Criminal Appeals of Texas.
Ex Parte Andre Lee THOMAS.
No. WR-69859-01.
March 18, 2009.
On Application for Writ of Habeas Corpus, In
Cause No. 051858-15-A, In the 15th Judicial
District Court, Grayson County.
ORDER
PER CURIAM.
*1 This is a post-conviction application for writ of
habeas corpus filed pursuant to the provisions of
Texas Code of Criminal Procedure article 11.071.
In March 2005, a jury convicted Applicant of the
offense of capital murder. The jury answered the
special issues submitted under Article 37.071 of the
Texas Code of Criminal Procedure, and the trial court,
accordingly, set punishment at death. This Court
affirmed Applicant's conviction and sentence on direct
appeal.
Thomas v. State, No. AP-75,218 (Tex.
Thomas-2 Crim.App. October 8, 2008).

292a
Applicant presents forty-four allegations in his application in which he challenges the validity of his
conviction and resulting sentence. The trial court did
not hold an evidentiary hearing. The trial court
entered findings of fact and conclusions of law and
recommended that the relief sought be denied.
This Court has reviewed the record with respect to
the allegations made by applicant. We adopt the trial
judge's findings and conclusions. Based upon the trial
court's findings and conclusions and our own review,
the relief sought is denied. Applicant has also filed a
motion to remand his case, or in the alternative, to
stay the proceedings, to develop further evidence on
applicant's mental illness. Applicant's motion is
likewise denied.
IT IS SO ORDERED.
COCHRAN, J., filed a statement concurring in the
Court's Order.
This is an extraordinarily tragic case. I concur in
the denial of relief because applicant has not shown
that he is being illegally restrained or that his capital
murder conviction or death sentence was obtained in
violation of the constitution. Applicant was well
represented at trial, on appeal, and, most especially,
on this writ application. In his writ application, he
raises forty-four potential claims for relief. Those
claims have been fully addressed by the trial judge
whose lengthy Findings of Fact and Conclusions of
Law are supported by the record. After reviewing the
application, the trial record, the direct appeal, and
other associated materials, I, like the Court, adopt

293a
those findings and conclusions. But two of applicant's
groups of claims-claims relating to his insanity
defense and incompetency to be tried-deserve greater
explanation.
I.
Applicant has a severe mental illness. He suffers
from psychotic delusions and perhaps from schizophrenia.1 He also has a long history of drug and
alcohol abuse. Because of his drug abuse, he was
frequently truant, quit school in the ninth grade, and
had a series of juvenile and adult arrests. Dr.
Axelrad, called by both the State and defense,
testified that the twenty-one-year-old applicant told
him that he had been abusing alcohol since age ten
and marijuana since age thirteen, and, in the month
before the murders, had been taking large doses of
Coricidin, a cold medicine, for recreational purposes.2

There is evidence in this habeas record that applicant's
entire family had long suffered from mental illness. For
example, his father's affidavit states that applicant's mother,
Rochelle, was mentally ill and that all three of their sons had
suffered mental illnesses. One of applicant's brothers has also
been diagnosed as schizophrenic. According to one of applicant's
experts, Rochelle and her family believed that their delusions
were “gifts” that made them special. They interpreted “their
mental illness as superior powers” because “God talks to them”
and gives them “visions.”
2 Applicant told one psychologist that he had been using
large quantities of Coricidin in the days and weeks before the
murders, and he told another psychologist that he and his
girlfriend ingested up to ten pills a day, mixed with alcohol and
marijuana, to obtain “a high.” He thought that Coricidin “brings
perspective to the whole world, reality breakthrough drug.”
1

294a
Applicant's behavior in the months before the
killings became increasingly “bizarre”: He put duct
tape over his mouth and refused to speak; he talked
about how the dollar bill contains the meaning of life;
he stated that he was experiencing deja vu and
reliving events time and again; he had a religious
fixation and heard the voice of God.3 In the weeks
before the murders, applicant was heard by others
talking about his auditory and visual hallucinations
of God and demons.
*2 About twenty days before the killings, he took
Coricidin and then tried to commit suicide by
overdosing on other medications. He was taken to the
local MHMR facility, but then walked away before he
could be treated.4 Two days before the killings, he
3 According to his friend, Amy Ingle, applicant began acting
strangely at least a month before he began using Coricidin:
[I]n late January, 2004, he started acting more and more
strange. He really went haywire. Since Andre lost his
job and did not have any money. Andre and I and some
of his friends used to play dice in Andre's trailer and bet
money on the game. Once, Andre won a $100 bill and
immediately placed it in an ashtray and lit it on fire,
while yelling, “Money is the root of all evil!” He burnt up
the entire $100 bill despite being broke.
4 Apparently, a neighbor's son took applicant to the mental
health center. The MHMR in-take sheet reads:
[Applicant] presented as a walk-in-reportedly told
the front desk he would throw himself in front of a bus if
he couldn't talk to someone now. He presented as
restless and highly agitated. He made loose associations
& often did not answer questions directly. He stated
“we've been here before & the same shit happened.”He
stated “Life is too much for me to handle. I want to die
right now .”He stated if he had a gun he would shoot
himself-he asked if triage would shoot him.

295a
drank vodka and took about ten Coricidin tablets5 and
then stabbed himself.6 His mother took him to the
local hospital.7 But again, applicant left the hospital
before he could be committed for observation or
psychiatric treatment.8 On two occasions in the days
before the killings, applicant was seen by friends to be
highly intoxicated; they described him as vomiting,
delirious, incapacitated, and lying on the floor.
The MHMR staff told him to go to the emergency
room, but he did not do so. An order for involuntary
commitment was obtained, but it was never
implemented.
5 According to one of applicant's experts, “Coricidin has
known recreational use for the effects produced by its main
ingredient dextromethorphan. When taken in high doses this
drug produces euphoria and sensory and perceptual changes
that typically last about 6-10 hours depending on the tolerance
of the user. Effects may be enhanced or become less predictable
when used in conjunction with other mind altering sub-stances.”
6 Applicant explained that he was a “fallen angel” who could
“open the gates of Heaven” by killing himself by stabbing himself
in the heart. Although the wound was not life-threatening, he
did not understand why he did not die and therefore concluded
that he was “immortal.”
7 The hospital record included the following notations:
* “[Applicant] has expressed suicidal ideation to several
staff in the ER.”
* “Psychotic features.”
* “[Applicant] states he cut on his chest this AM trying
to ‘cross over into heaven’;
[Applicant is] psychotic-thinks something like Holodeck
on Star Trek is happening to him; T don't know if I
volunteered for this or if I was forced to' referring to his
life.”
8 In fact, applicant had twice before been evaluated for
psychiatric problems in 2003 when he was in jail charged with
stabbing his brother. He was eventually released without
prosecution because he had acted in self-defense.

296a
At around 7:00 p.m. on March 26th, just one day
after stabbing himself, applicant went to his
estranged wife's apartment where she and her
boyfriend, Bryant Hughes, were listening to religious
audiotapes.9 According to applicant's statement to
po-lice, he had come to believe that God wanted him
to kill his wife, Laura, because she was “Jezebel,”10 to
kill his four-year-old son, Andre, Jr., because he was
the “Anti-Christ,” and to kill his wife's daughter,
thirteen-month old Leyha, because she, too, was evil.
That evening, applicant saw Bryant twisting an extension cord as they listened to the religious tapes,
and he thought that Bryant also wanted to strangle
Laura and the children. Applicant wanted to make
“the first move,” so he walked into Laura's kitchen to
find a knife, but then decided that it was not the right
time. Bryant drove applicant home around 10:00 p.m.
Applicant reported that the next morning he woke
up and heard a voice that he thought was God telling
him that he needed to stab and kill his wife and the
children using three different knives so as not to
“cross contaminate” their blood and “allow the
demons inside them to live.” He walked over to
Applicant explained to police that these tapes talked about
a “secret God clan” that would kill, enslave, and rule over people.
The audiotape reminded applicant that he had had similar
dreams in which Laura was Jezebel, his son was the Anti-Christ,
and Leyha “was involved with it also.”
10 During one competency interview, applicant said that the
reason he and his wife were separated was because she had had
sexual relations with his brother and cousin, but then he said
that he was uncertain whether this was truly the case. Another
expert stated that applicant had periodic “obsessions regarding
his estranged wife, Laura, being unfaithful to him by having
sexual relationships with members of his family.”
9

297a
Laura's apartment. He saw Bryant drive by and
wave, so applicant believed that this was a signal that
he was doing “the right thing” by killing his wife and
the children.
He burst into the apartment, then stabbed and
killed Laura and the two children. He used a different
knife on each one of the victims, and then he carved
out the children's hearts and stuffed them into his
pockets. He mistakenly cut out part of Laura's lung,
instead of her heart, and put that into his pocket. He
then stabbed himself in the heart which, he thought,
would assure the death of the demons that had
inhabited his wife and the children. But he did not
die, so he walked home, changed his clothes, and put
the hearts into a paper bag and threw them in the
trash. He walked to his father's house with the
intention of calling Laura, whom he had just killed.
He called Laura's parents instead and left a message
on their answering machine:
Um, Sherry, this is Andre. I need y'alls help,
something bad is happening to me and it keeps
happening and I don't know what's going on. I
need some help, I think I'm in hell. I need help.
Somebody needs to come and help me. I need
help bad. I'm desperate. I'm afraid to go to
sleep. So when you get this message, come by
the house, please. Hello?
*3 Applicant then walked back to his trailer where
his girlfriend, Carmen Hayes, and his cousin, Isaiah
Gibbs, were waiting for him. He told them that he
had just killed his wife and the two children. Ms.
Hayes took him to the Sherman Police Department

298a
and he told the police what he had done. After he was
hospitalized for his chest wound, he was taken to jail,
and he gave a videotaped statement to the police. In
that videotaped statement, applicant gives a very
calm, complete, and coherent account of his activities
and his reasons for them.
Five days after the killings, applicant was in his
cell with his Bible. After reading a Bible verse to the
effect that, “If the right eye offends thee, pluck it out,”
applicant gouged out his right eye.11 Applicant was
examined for competency to stand trial by two
psychologists and was evaluated by a treating
psychologist in jail, all of whom agreed that applicant
was not then competent to stand trial.12 All three
provided a diagnosis or opinion of “Schizophreniform
Disorder with a Rule out 13 of Substance Induced
Psychotic Disorder due to [applicant's] recent history
of abusing Coricidin.”

Applicant's counsel recently filed a motion to remand his
case, pointing out that, while on death row, applicant also
gouged out his left eye and ate it.
12 The experts generally agreed that applicant was able to
understand the charge against him, the facts underlying that
charge, and the role of the judge and defense. But applicant's
ability to behave appropriately in the courtroom and to
communicate with his attorney were sufficiently compromised to
make him incompetent to stand trial at that particular time.
13 “Rule out,” in this context, is understood to mean “try to
eliminate or exclude something from consideration.” http://
www.medterms.com/script/main/art.asp?articlekey=33831;
http:// newide-as.net/adhd/diagnosis/what-to-rule-out-first. It
does not mean that this possible alternate diagnosis has already
been ruled out.
11

299a
After approximately five weeks of treatment and
medication in the Vernon State Hospital, applicant
was found to have regained his competency to stand
trial. During his stay at Vernon, applicant was placed
on Zyprexa, a strong anti-psychotic medication, and
did not display “bizarre or unusual behaviors,” but he
did make “hyper-religious statements throughout his
stay.” The attending psychiatrist at Vernon updated
applicant's diagnosis as being Substance-Induced
Psychosis with Delusions and Hallucinations. He also
diagnosed applicant as malingering (as did a
psychologist).
Applicant was returned to Grayson County to
stand trial.
Several different psychiatrists and
psychologists-both for the State and applicantinterviewed and tested applicant in anticipation for
the capital murder trial. By that time, applicant was
fully alert, conversant, and attentive. His memory
tested well, he spoke at a level consistent with his
tested I.Q. of 112, and he behaved appropriately
during the interviews. He told one psychiatrist in
December 2004 that he had not experienced any
hallucinations since September, although he was
severely depressed.
At trial, the jury rejected his insanity plea and
found applicant guilty of the capital murder of
thirteen-month-old Leyha. Based upon the jury's
answers to the special punishment issues, the trial
judge sentenced him to death.
II.

300a
In his first twelve claims, applicant complains of
the trial court's jury instruction on the law of
voluntary intoxication.
He asserts that this
instruction should not have been given and that his
trial counsel's failure to object to this instruction
showed ineffective assistance of counsel.14 He argues
that the evidence did not support an instruction on
voluntary intoxication and that the instruction
“erroneously suggest[ed] that intoxication precludes
an insanity defense.”15 Applicant's claims that his
two trial attorneys were ineffective for failing to object
to the voluntary intoxication instruction are without
merit.
*4 First, an attorney is not constitutionally
ineffective if his conduct was not deficient.16 Here,
applicant's counsel properly did not object to the
voluntary intoxication instruction because its
submission was, as the trial judge found, supported
See Strickland v. Washington, 466 U.S. 668 (1984).
These claims are procedurally barred because applicant
failed to object at trial or raise them on direct appeal. Ex parte
Boyd, 58 S.W.3d 134, 136 (Tex.Crim.App.2001); Ex parte
Goodman, 816 S.W.2d 383, 385 (Tex.Crim.App.1991); Ex parte
Banks, 769 S.W.2d 539, 540 (Tex.Crim.App.1989) (op. on reh'g).
16 Strickland, 466 U.S. at 687 (first prong of ineffective
assistance claim is that trial counsel's performance was deficient
in that his performance fell below an objectively reasonable
standard determined by the then-prevailing professional
standards); see Ex parte Chandler, 182 S.W.3d 350, 356
(Tex.Crim.App.2005) (“[A] reasonably competent counsel need
not perform a useless or futile act, such as requesting a jury
instruction to which the defendant is not legally entitled or for
which the defendant has not offered legally sufficient evidence
to establish. Requesting a jury instruction to which one is not
legally entitled, merely for the sake of making the request, is not
the benchmark for a competent attorney.”) (footnote omitted).
14
15

301a
by the law and the evidence. Applicant admitted that
he consumed a combination of alcohol, marijuana,
and Coricidin some thirty-six hours before the
murders. A toxicologist testified that he still had a
trace of DXM (the active ingredient in Coricidin) in
his blood after the murders. Numerous witnesses
testified about applicant's drug use.17 The State's
experts thought that applicant's psychosis was
substance-induced.18 According to one psychiatrist,
there appears to be “a strong association between
[applicant's] drug and alcohol abuse problems and his
affective disfunction” and that applicant's use of
Coricidin in the days before the murders accentuated
his mental problems.19
He concluded, “All of
[applicant's] psychiatric problems, which occurred at
the time of the commission of the alleged offenses, are
the result of voluntary intoxication with alcohol,
cannabis, and Coricidin[.]”
This voluntary-intoxication instruction, as the
trial court's findings state, “was not erroneous,
misleading or a misstatement of the law.” The trial
court had included the instruction pursuant to article
One nurse testified that applicant told her that if it hadn't
been for the drugs, the murders wouldn't have occurred.
18 Even the defense expert testified that the combined use of
marijuana, alcohol, and DXM would aggravate and exacerbate a
pre-existing condition of schizophrenia.
19 Dr. Axelrad noted that applicant “has experienced
psychotic behavior and psychotic symptoms, which appear to be
strongly associated with the use of drugs and alcohol since his
early adolescence. He reported to me that he had at least one
psychotic episode in 2002, and has reported similar symptoms of
psychotic experiences associated with intoxication on a number
of occasions throughout the course of his development.”
17

302a
8.04(a) and (d) of the Texas Penal Code.20 This
definition does not require that the intoxicating
substance still be in the body at the time of the
offense. The State's theory was that applicant's
psychosis was caused by, or aggravated by, his
voluntary use of alcohol, drugs, and Coricidin.
Accordingly, if applicant's pre-existing, “weakened”
condition of mind was not such as would have
rendered him legally insane at the time of the
murders, but his recent use of intoxicants aggravated
that “weakened” condition-was the “last straw” so to
speak-then insanity at the time of the offense would
not be a defense. That position is in accord with prior
Texas law,21 as well as law from other states.22 This
20 Article 8.04(a) reads: “Voluntary intoxication does not
constitute a defense to the commission of crime.” Section (d)
defines “intoxication” to mean “disturbance of mental or physical
capacity resulting from the introduction of any substance into
the body.”
21
See Evilsizer v. State, 487 S.W.2d 113, 116
(Tex.Crim.App.1972) (“if the pre-existing condition of mind of
the accused is not such as would render him legally insane in
and of itself, then the recent use of intoxicants causing
stimulation or aggravation of the pre-existing condition to the
point of insanity cannot be relied upon as a defense to the
commission of the crime itself”).
22 See, e.g., State v. Sexton, 904 A.2d 1092, 1099-1111
(Vt.2006) (rejecting the claim that a “defendant can present an
insanity defense based on his claim that the ingestion of illegal
drugs activated a latent mental disease or defect resulting in a
psychotic reaction that rendered him unable to appreciate the
criminality of his conduct or conform his conduct to the
requirements of the law”; noting, however, that a “defendant
remains free to prove that he was not responsible for his conduct
as a result of an independently preexisting mental disease or
defect that rendered him unable to appreciate the criminality of
his acts or conform his conduct to the requirements of the law.”);

303a
legal proposition was accepted by the trial court, the
State, and the defense.
The defensive theory, however, was that
applicant's actions were committed as the result of
insane delusions caused solely by his mental
disease.23 This is precisely what Dr. Gripon, the
defense expert, stated: Although applicant had
previously used drugs and alcohol, his insanity was
not substance-induced. The State's experts, Drs.
Scarano and Axelrad, testified that applicant was
psychotic when he committed the offense, but that his
psychosis was triggered by his substance abuse in the
preceding days and weeks. It was also their opinion
that applicant knew that his conduct was wrong at
the time of the offense.
There was ample evidence to reject an insanity
defense and support a jury finding that applicant
knew that his conduct was wrong at the time he
murdered his wife and the children.24 There was also
Bieber v. People, 856 P.2d 811, 817 (Colo.1993) (rejecting defense
of “settled” insanity and finding “no principled basis to
distinguish between the short-term and long-term effects of
voluntary intoxication by punishing the first and excusing the
second. If anything, the moral blameworthiness would seem to
be even greater with respect to the long-term effects of many,
repeated instances of voluntary intoxication occurring over an
extended period of time.”)
23 In his most recent affidavit, applicant's lead trial attorneys
points out that one psychiatrist retained by the defense, but not
called at trial, “could not rule out the possibility that the
psychotic episode was induced by drugs and alcohol.”
24 That evidence would include:
* Applicant thought about murdering Laura the night before
when he thought Bryant might do so before he could, and he

304a
evidence that applicant did not know that his conduct
was wrong at the time. This was a quintessential fact
issue for the jury to decide, and it did so.25 Neither on
went into the kitchen to look for a knife, but then decided that
the time was “not right”;
* Applicant went to Laura's apartment to commit the crime
at a time when he knew that Bryant would not be there;
* He saw Bryant leave before he approached the apartment;
* He admitted that he saw a woman when he was on the way
to his wife's apartment, but decided not to say hello because he
wanted things to appear “normal” and not call attention to
himself;
* He took the three knives that he used to kill the victims
with him when he left his trailer and went to Laura's apartment;
* When Laura came running toward him as he barged into
the apartment with the knife raised, she cried “No,” but the only
word applicant said was “Yes” as he began stabbing his wife to
death.
* He felt panicked after he committed the murders;
* He left the apartment when the alarm went off;
* He walked home faster when he heard police and fire sirens
because he knew that police were on the way and that “they'd be
on to me in [a] second but they didn't, they didn't ever catch up
to me”;
* He left duct tape behind and thought that the police could
identify him through fingerprints left on the tape;
* When he returned home, he told his cousin and girlfriend
that he had com-mitted the murders and that the police would
be coming for him;
* He told his cousin that he would not see him for a long time;
* He turned himself in to the police, said that he “murdered”
his wife, and asked, “Will I be forgiven?”;
* He told Dr. McGirk that, while he was stabbing Laura,
there was a moment when he asked himself, “What the f--- am I
doing?”
25
See Graham v. State, 566 S.W.2d 941, 952-53
(Tex.Crim.App.1978) (stating that issue of insanity is not strictly
one of a medical fact because it also includes an “inarticulate
ethical component” that is properly left to the jury's discretion).

305a
appeal nor in this habeas application does applicant
contend that there was such “overwhelming evidence”
that applicant did not know that what he was doing
was wrong as to make the jury verdict “manifestly
unjust.”26
*5 While there is no dispute that applicant was, in
laymen's terms, “crazy” at the time he killed his wife
and the children, the legal question is whether he
knew that what he was doing was “wrong” or a
“crime” at the time he acted.27 There is no dispute that
applicant knew that it was his wife and the children
that he was stabbing to death. He may have thought
that he was morally justified in doing so because she
was a “Jezebel,” his son was the “Anti-Christ,” and
Leyha was somehow evil also. He said, “I thought I
was doing the will of God.”28 But religious fervor,

See Bigby v. State, 892 S.W.2d 864, 875
(Tex.Crim.App.1994) (reviewing the sufficiency of the evidence
that supported the jury's rejection of the defendant's affirmative
defense of insanity in a capital murder trial); Meraz v. State, 785
S.W.2d 146, 155 (Tex.Crim.App.1990) (affirming court of
appeals' holding that evidence was factually insufficient to
support a finding of competency).
27
See Ruffin v. State, 270 S.W.3d 586, 592
(Tex.Crim.App.2008) (“Under Texas law, ‘wrong’ in this context
means ‘illegal.’ ”). Of course, the jury is instructed only on
whether the defendant knew that what he was doing was
“wrong.”
See Brown v. State, 122 S.W.3d 794, 802
(Tex.Crim.App.2003). Jurors may then use their common sense
understanding of the word “wrong” when deliberating upon that
issue. Graham v. State, 566 S.W.2d 941, 952-53 & n. 1
(Tex.Crim.App.1978).
28 During the first custodial interview, a detective asked
applicant, “For instance, you knew it wasn't right to go out there
and do what you did at that apartment, right?”
26

306a
whether the result of a severe mental disease or
inspired by a jihadist fatwâ or KKK rally, does not
provide a legal excuse for the knowingly “wrongful”
murder of a person.
Applicant's trial counsel submitted an affidavit
stating that it was his understanding that the
submission of an instruction on voluntary
intoxication was legally proper under these
circumstances. He is correct. An attorney is not
constitutionally deficient when he declines to make a
legally merit less objection.29 Applicant's ineffective
assistance claims are without merit.
Nonetheless, this is a particularly tragic case
because these horrendous deaths could have been
avoided. Those around applicant realized that he was
mentally ill, and he was twice taken to hospitals to
obtain help. In each instance, he left before he could
be involuntarily committed for observation, diagnosis,
or treatment. The hospitals cannot be faulted; they
cannot detain someone involuntarily without legal
Applicant responded, “Right, but I felt like it was
what God wanted me to do. That's what he told me to
do.”
In response to whether he knew what he did was
“wrong,” applicant said, “It wasn't on my mind whether
it was right or wrong. I don't like to talk about it because
I cared about Laura. That was my friend. She was my
friend. I didn't want to hurt her. What's
happening?”Then applicant stated that he had stabbed
himself and explained, “I wanted to die for my
sins.”Applicant said, “I just want to say that I'm sorry for
what I did.”
29
See Ex parte Chandler, 182 S.W.3d 350, 356
(Tex.Crim.App.2005).

307a
authority, and applicant voluntarily left while they
were trying to obtain that mental health warrant. Of
course, there is no direct relationship between the
failure to detain applicant for involuntary mental
health treatment and the deaths of applicant's wife
and the two children, while there is a direct
relationship between his intentional conduct and
their deaths.
The jury was given the proper
instructions, and it was entitled to reject his insanity
defense and find him criminally responsible for that
murderous conduct.
III.
Applicant also claims that (1) he was not
competent to stand trial 30 and (2) his trial attorneys
were constitutionally ineffective for failing to request
a second competency exam. Applicant's first claim is
procedurally barred, but the need for clarity in the
law concerning ineffective assistance warrants
discussion of the second claim.31

Applicant failed to object at trial that he had not regained
his competency during the time he spent at Vernon Hospital.
This claim is procedurally barred. Ex parte Bagley, 509 S.W.2d
332, 334 (Tex.Crim.App.1974).
31 In this case, the trial court's findings were issued before
the direct appeal was concluded and thus did not address the
potential procedural default issue. This ineffective assistance
claim is not barred as procedurally defaulted even though
applicant raised the issue of ineffective assistance of his counsel
for failing to request a post-commitment competency hearing on
direct appeal. That claim was rejected on direct appeal, but in
this habeas application, applicant provides additional evidence
that could arguably support such a position. See generally Ex
parte Nailor, 149 S.W.3d 125, 131 (Tex.Crim.App.2004)
30

308a
At the time of applicant's trial in March 2005,
Texas law stated, “A person is incompetent to stand
trial if the person does not have:
(1) sufficient present ability to consult with
the per-son's lawyer with a reasonable degree
of rational understanding; or
(2) a rational as well as factual
understanding of the proceedings against the
person.32 Texas law, in accord with decisions
by the United States Supreme Court,33 has
intentionally set the threshold for competency
very low. A person may be suffering from a
severe mental disease or defect or he may be
highly medicated, but he will be competent to
stand trial if he still has the ability to
meaningfully consult with his attorney and he
has a rational as well as factual understanding

(procedural bar not applied when new evidence is brought
forward on habeas application to support previously rejected
claim of ineffective assistance of counsel).
32 TEX.CODE CRIM. PROC. art. 46B.003.
33 Dusky v. United States, 362 U.S. 402, 402 (1960) (per
curiam ) (the test for determining competency to stand trial is ‘
“whether [the defendant] has sufficient present ability to consult
with his lawyer with a reasonable degree of rational
understanding-and whether he has a rational as well as factual
understanding of the proceedings against him.’ ”); Drope v.
Missouri, 420 U.S. 162, 171 (1975) (repeating Dusky standard
and stating that it “has long been accepted that a person whose
mental condition is such that he lacks the capacity to understand
the nature and object of the proceedings against him, to consult
with counsel, and to assist in preparing his defense may not be
subjected to a trial.”).

309a
of the charged
proceedings.34

offense

and

the

trial

*6 Applicant was initially found incompetent to
stand trial and sent to Vernon State Hospital on June
23, 2004. While there, he was placed on Zyprexa, a
medication used for the treatment of schizophrenia
and related psychotic disorders. After the dosage was
increased to 40 mg a day and applicant was enrolled
in a psychosocial educational program to improve his
trial competence, he was found to meet the six criteria
for trial competency.35 At Vernon, applicant was
See, e.g., Townsend v. State, 949 S.W.2d 24, 27 (Tex.App.San Antonio 1997, no pet.)(although evidence showed that
defendant was depressed and suicidal, a “determination that a
person is mentally ill does not constitute a finding that the
person is incompetent to stand trial”; evidence supported finding
that defendant could consult with his attorney and understood
the proceedings against him).
35 Those criteria are:
(1) Capacity to understand the charges and potential
consequences of pending criminal proceedings.
Here, the Vernon psychologist concluded that applicant has
“consistently been able to accurately name the charges he faces,
and has periodically indicated his awareness that this is a
serious matter of felony status.”
(2) Capacity to disclose pertinent facts, events, and states of
mind to counsel.
The competency report stated that applicant knew his attorney's
name, but was not sure if that attorney was trying to help him
because applicant hardly ever saw him. Thus, the report
continued, “one might conclude that his faith in his attorney
might well be increased if and when he has greater contact.
Importantly, [applicant] was able to provide a consistent account
of facts, events, and states of mind to various authorities within
the first several weeks after the instant offense, suggesting that
should he chose to do so, he would be able to convey information
to his attorney as well.”
34

310a
diagnosed with Substance-Induced Psychosis with
Delusions. He was also diagnosed with Malingering
because he “has clearly exaggerated symptoms that
he might be experiencing, and may have even
fabricated some symptoms of psychosis.” He was
returned to Grayson County for trial.

(3) Capacity to engage in a reasoned choice of legal strategies
and options.
The report noted that applicant was verbally vague on these
issues, but that he revealed considerably greater under-standing
of such information on a written questionnaire. “[H]is approach
of grossly exaggerating the symptoms of memory deficits and
[psychosis] that he appears to have adopted during this
evaluation can be interpreted as a distinct strategy, one which
he has apparently chosen to pursue.”
(4) Capacity to understand the adversarial nature of the
legal process.
The report concluded that applicant had a reasonable
understanding of the roles played by the various courtroom
personnel.
(5) Capacity to exhibit appropriate courtroom behavior.
Applicant knew that he was “supposed to sit still, pay attention”
in the courtroom. Although he had originally suggested that he
would talk directly to the judge “if faced with a situation in which
others were lying about him,” applicant then agreed that it
would be more appropriate to use his attorney as a conduit to the
judge.
(6) Capacity to testify.
The psychologist noted that applicant could provide a consistent
account of the events and circumstances surrounding the
charged offenses, [but] he had a very low tone of voice, a tendency
to mumble, and frequently made non-responsive answers.
This sixth area was the only one of concern to the Vernon
psychologist. Nonetheless, both applicant's treating psychiatrist
and the testing psychologist found that applicant “has
demonstrated all areas of trial competency.” SeeTEX.CODE
CRIM. PROC. art. 46.B.024(1).

311a
For the first time, applicant argues that the 40 mg
dosage of Zyprexa during the trial exceeded the
normal maximum therapeutic amount, and therefore
he could have been overly sedated and unable to
consult with his trial counsel.36
Trial counsel,
however, disputes that conclusion. In his post-trial
affidavit, lead counsel stated that he did not file a
second claim of incompetency after applicant
returned from Vernon State Hospital because he
believed that applicant was, in fact, competent.
Counsel stated that, “[a]lthough [applicant was]
heavily medicated and still suffering from a mental
illness, I was able to talk to applicant and discuss the
case with him.” Applicant was able to participate in
their conversations, he recalled events, and helped
with his defense.
When the judge explicitly asked counsel, during
the trial, if he was claiming that applicant was again
incompetent, counsel tried to avoid the question, but
finally had to admit that he was not going to challenge
applicant's present competency “because [he] had no
new evidence to dispute the findings at Vernon or
suggest the applicant was incompetent. Although I
will work diligently for my clients, I will not lie to the
court or file motions, the basis of which I know are not
true.” Applicant's lead counsel would usually be the
single most reliable and important source of
information about whether he and applicant could
discuss the factual and legal aspects of the case and
develop an appropriate defense. Although others who
worked with counsel in developing evidence and
The trial court's pertinent factual finding states, “As is
widely recognized, antipsychotic drugs can have a ‘sedation-like’
effect, and in severe cases, may affect thought processes.”
36

312a
testimony for the trial disagreed with counsel's
assessment and thought that applicant was not
totally responsive to them during the trial, the trial
judge credited counsel's affidavit and found that
applicant was competent to stand trial.37
Applicant has failed to show that his counsel was
constitutionally deficient for failing to raise a second
claim of incompetency to be tried when both his
counsel and the trial court concluded that applicant
was competent to stand trial.
Although reasonable people might well differ on
the questions of whether this applicant was sane at
the time he committed these murders or competent at
the time he was tried, those issues were appropriately
addressed by the defense, the prosecution, trial judge,
and the jury during the trial. The evidentiary basis
for those sanity and competency issues 38 could have
been addressed on direct appeal, thus they are
procedurally barred (as well as without merit). His
ineffective assistance claims are, as the trial judge
found, without merit. In sum, applicant has failed to
prove that he is entitled to relief on his application for
a writ of habeas corpus. This is a sad case. Applicant
is clearly “crazy,” but he is also “sane” under Texas
law.

The trial judge could also rely upon his personal
recollection of applicant's appearance, demeanor, and
statements during the trial as support for his finding that
applicant was competent.
38 A claim of error that the trial judge's failure to make a
specific judicial determination that applicant had regained his
competency was raised, but rejected, on appeal.
37

313a

Tex.Crim.App.,2009.
Ex parte Thomas
Not Reported in
(Tex.Crim.App.)

S.W.3d,

END OF DOCUMENT

2009

WL

693606

314a
APPENDIX E
EX PARTE

ANDRE
THOMAS

NO. 051858-15-A
§
IN THE 15TH JUDICIAL
§

DISTRICT COURT OF

§

GRAYSON COUNTY,
TEXAS

FINDINGS OF FACT AND CONCLUSIONS OF
LAW REGARDING APPLICANT’S POST
JUDGMENT APPLICATION FOR WRIT OF
HABEAS CORPUS
After reviewing the Application and Response
thereto as well as the proposed Findings of Fact and
Conclusions of the Law by both sides, as well as the
Court’s personal recollection, the Court makes the
following findings of fact and conclusions of law:
FINDINGS OF FACT
1. Applicant Mr. Thomas is confined at the
Polunsky Unit of the Texas Department of Criminal
Justice, Institutional Division, in Livingston, Texas.
2. Mr. Thomas is confined pursuant to a Judgment
entered on March 14, 2005, by the 15th Judicial
District Court of Grayson, Texas, the Honorable
James R. Fry, sitting by assignment in the 15th
Judicial District Court. Clerk’s Record (C.R.) Volume
(Vol.) 5, Page (P.) 1696-1698.

315a
3. A grand jury impaneled in Grayson County,
Texas in and for the 336th Judicial District of Texas,
indicted Mr. Thomas in Cause No. 51858 on or about
June 30, 2004, for the capital murder of Leyha Marie
Hughes. C.R. Vol. 1, P. 9. Mr. Thomas pled not guilty
by reason of insanity to the charge in Cause No.
51858. C.R. Vol. 1, P.1.
4. Prior to the issuance of the above-described
indictment against Mr. Thomas, on March 30, 2004,
the 336th Court of Grayson County, Texas appointed
R.J. Hagood to represent Mr. Thomas as lead counsel
or “1st Chair.” Supplementary (Supp.) C.R. Vol. 1, P.
14. The next day, March 31, 2004, the 15th District
Court of Grayson County, Texas appointed Ms.
Peterson as co-counsel or “2nd Chair.” Supp. C.R. Vol.
1, P. 15.
5. On July 22, 2004, the State moved to transfer
Cause No. 51858 from the 336th Judicial District to
the 15th Judicial District for Grayson County, Texas.
C.R. Vol. 1, P. 5.
6. Jury selection for Mr. Thomas’s capital murder
trial began on January 10, 2005, and ended on
February 4, 2005. Reporter’s Record (“R.R.”) Volume
(“Vol.”) 11-26.
The trial itself commenced on
February 15, 2005. R.R. Vol. 27. On March 7, 2005,
the jury returned a guilty verdict. C.R. Vol. 1, P. 6;
C.R. Vol. 5, P. 1674-81; R.R. Vol. 38, P. 6-7.
7. The penalty phase of Mr. Thomas’s trial began
on March 7, 2005. R.R. Vol. 38-42. The jury answered
two special issues, as required by law, resulting in a
sentence of death for Mr. Thomas. C.R. Vol. 1, P. 7;

316a
C.R. Vol. 5, P. 1690-95; R.R. Vol. 42, P. 85-87. The
Court immediately sentenced Mr. Thomas based upon
the jury’s verdict. R.R. Vol. 42, P. 91-92. Thereafter,
on March 14, 2005, the court formally entered
“Judgment of Conviction by Jury; Sentence by Court
to Death.” C.R. Vol. 5, P. 1696-1698.
8. On July 5, 2005, the court appointed Garland
Cardwell as Mr. Thomas’s counsel for his direct
appeal. C.R. Vol. 5, P. 1709.
9. Mr. Thomas’s case is on automatic direct appeal
before the Court of Criminal Appeals for the State of
Texas, Case No. AP-75,218 pursuant to Tex. R. App.
Proc. 25.2(a)(2)(b) & 71.1.
10. The Court of Criminal Appeals for the State of
Texas has yet to issue an Order addressing the issues
raised in Mr. Thomas’s direct appeal.
11. On the morning of March 27, 2004 Andre
Thomas and his wife, Laura Christine (Boren)
Thomas were separated and she was living with their
four year old son, Andre Lee Boren, and Andre Lee
Boren’s thirteen and one-half month old half-sister,
Leyha.
12. In the days and weeks leading up to the
murders of his wife and her two children, Mr. Thomas
had been abusing marijuana, alcohol, and a cold
medication called Coricidin, containing the drug
Dextromethorphan (“DXM”).
13. On the morning of March 27, 2004 Andre
Thomas was psychotic.

317a
14. On the morning of March 27, 2004 Andre
Thomas went to the apartment of his wife, Laura
Christine Thomas, his four year old son, Andre Lee
Boren, and Andre Lee Boren’s thirteen and one-half
month old half-sister, Leyha and killed each of them
with a different knife.
15. Mr. Thomas attempted to cut each of his
victim’s hearts out, but was only partially successful.
He removed the hearts of the children, but only
managed to remove a part of one of Laura’s lungs. See
generally R.R. Vol. 28, P. 123-149; R.R. Vol. 45 at
State’s Exs. 51-60.
16. While still at the crime scene, Mr. Thomas
turned one of the knives on himself, stabbing himself
in the chest, in an attempt to commit suicide.
Surprised that he was not dead, Mr. Thomas did not
flee, but simply walked home. Just a few hours later,
he would need emergency surgery to save his life.
R.R. Vol. 36, P. 6-14; Vol. 44, Supp. Hrg. State’s Ex.
21 at 21 and State’s Ex. 23 at 3-4 and 8.
17. Upon arriving at his home he “went and . . . got
a Wal-Mart sack and put the hearts into” it and then
“put the hearts in the trash” and then “went and
changed clothes.” R.R. Vol. 44, at Supp. Hrg. State’s
Ex. 23 at 4-5. He put the murder weapons – the three
knives – in his kitchen sink and left his bloody clothes
on the floor of his bedroom. R.R. Vol. 27, P. 141-144;
R.R. Vol. 45 at State’s Ex. 66.
18. Despite just having killed Laura, Mr. Thomas
next went over to his dad’s trailer nearby to call her,
because he “didn’t believe what had happened” and

318a
was “gonna call her.” R.R. Vol. 44 at Supp. Hrg.
State’s Ex. 23 at 5. Unable to locate Laura’s phone
number in his wallet, however, he used his dad’s
phone instead to call Laura’s parents. He did not
reach them, but left them the following message:
Um, Sherry, this is Andre. I need yall’s help.
Something bad is happening to me and it keeps
happenin’ and I don’t know what’s going on. I
need some help. I, I think I’m in hell, and um,
I need help. Somebody needs to come and help
me. I need help bad. I’m desperate and, um,
I’m afraid to go to sleep. So, when you get this
message, come by the house, please. Hello?
R.R. Vol. 30, P. 143-148; R.R. Vol. 45 at State’s Exs.
85 & 86.
19. Andre Thomas turned himself into the
Sherman Police Department later that morning.
20. The blood samples and a urine test from Mr.
Thomas on the morning of the crime did not reveal
any evidence of intoxication due to Mr. Thomas’s
ingestion of either marijuana or Coricidin on the
evening of March 25, 2004. See Ex. 63 at DPS 0160;
Ex. 64 at DPS0137; Ex. 159 at DPS0123; Ex. 83 at AT
018949. See also Ex. 23 at ¶ 10. As stipulated by the
State at trial, a less than measurable amount of
Dextromethorphan (“DXM”) was found in Mr.
Thomas’s blood. R.R. Vol. 45, State’s Ex. 92. See also
R.R. Vol. 29, P. 73-74; R.R. Vol. 32, 7-8.
21. On March 27, 2004, Mr. Thomas had
emergency open heart surgery to repair damage

319a
caused by his self-inflicted stab wounds to his heart
and was re-arrested for the murders of Laura, Andre,
Jr., and Leyha. R.R. Vol. 36, P. 6-14; R.R. Vol. 7, P.
111; R.R. Vol. 14 at State’s Supp. Hrg. Exs. 18 and 19.
22. After spending two days in the hospital, Mr.
Thomas was discharged to the Sherman Police
Department for a videotaped interview and
statement. R.R. Vol. 7, P. 134. See generally R.R. Vol.
7, P. 119-131, R.R. Vol. 10, P. 4-14.
23. Mr. Thomas gave a videotaped statement to
the police on March 29, 2004.
24. On March 30, 2004, Mr. Thomas was
transferred to the Grayson County Jail and gave an
audiotaped statement to Detective Ditto, Texas
Ranger Tony Bennie, and Grayson County Jail Nurse
Natalie Sims. R.R. Vol. 44, State Ex. 23. See
generally R.R. Vol. 32, P. 9, 22; R.R. Vol. 44 at Supp.
Hrg. State’s Ex. 23; R.R. Vol. 45 at State’s Exs. 91 and
92.
25. On March 30, 2004, the 336th Court of
Grayson County, Texas appointed R.J. Hagood to
represent Thomas as lead counsel or “1st Chair.”
Supp. C.R. Vol. 1, P. 14. The next day, March 31,
2004, the 15th District Court of Grayson County,
Texas appointed Bobbie Peterson (Cate) as co-counsel
or “2nd Chair.” Supp. C.R. Vol. 1, P. 15.
26. Mr. Hagood and Ms. Peterson (Cate) were
working on other cases in state and federal court
while representing Mr. Thomas. Ex. 15 (Hagood Aff.)
at ¶ 6.

320a
27. Prior to and during trial, Mr. Hagood suffered
from chronic pancreatitis.
28. Following his return from Wilson N. Jones
Hospital, Mr. Thomas was held in Grayson County
Jail. See generally R.R. Vol. 33, 98, 100-103; R.R. Vol.
46 at Def. Trial Ex. 8.
29. On April 2, 2004, Mr. Thomas was in his cell
reading the Bible. After reading a Bible verse to the
effect that, “If the right eye offends thee, pluck it out,”
Mr. Thomas removed his right eye with his fingers,
blinding himself in that eye. See generally R.R. Vol.
33, 19, 31-32, 111; R.R. Vol. 46 at Def. Exs. 9-13.
30. On or about April 5, 2004, Mr. Hagood brought
a motion for a competency examination of Mr.
Thomas. Supp. C.R. Vol. 1, P. 21-22. The Court
granted the motion the same day and appointed
Psychologist Dr. James Harrison to evaluate whether
Mr. Thomas was competent to stand trial. Supp. C.R.
Vol., P. 23-24. Dr. Harrison concluded that Mr.
Thomas was incompetent to stand trial. Ex. 60.
31. On April 26, 2004, the State brought its own
motions to have Mr. Thomas examined for trial
competency by its expert Dr. Peter Oropeza. Supp.
C.R. Vol. 1, P. 25-26.
32. Dr. Oropeza also found Mr. Thomas
incompetent to stand trial and recommended that he
receive psychiatric treatment. Ex. 65 at 8.
33. The parties waived a trial on competency and
at a June 16, 2004 hearing, the Court declared Mr.

321a
Thomas to be incompetent. C.R. Vol. 3, P. 1025-1033.
The next day, the Court ordered Mr. Thomas to the
North Texas State Hospital – Vernon Maximum
Security Unit (“Vernon”) in Vernon, Texas, a
maximum security psychiatric facility of the Mental
Health Mental Retardation (“MHMR”) network.
Supp. C.R. Vol. I, P. 11-12; C.R. Vol. 3, P. 00981-982.
34. On July 23, 2004 Dr. B. Thomas Gray, a
Clinical Psychologist at Vernon concluded that Mr.
Thomas was now competent to stand trial. Ex. 70 at
AT 002029.
35. Mr. Hagood’s and Ms. Bobbie Peterson (Cate’s)
trial strategy was to prove that the applicant was
insane at the time of the offense, not because of
intoxication, but because of his prior medical and
mental history.
36. The State’s position was that the Applicant
either knew right from wrong or that any psychosis
he had was substance induced.
37. For the guilt/innocence phase of the trial, the
State primarily relied on Drs. David Axelrad and
Victor Scarano and psychologist Dr. Peter Oropeza.
See generally C.R. Vol. 1, P. 20-22, 51; R.R. Vol. 2, P.
3.
38. The State called two experts for the
punishment phase of the trial that were disclosed on
its expert witness list, Brent O’Bannon, a licensed
professional counselor who interacted with Mr.
Thomas back in 1999, when he was 16, and Royce
Smithey, the Chief Investigator for the Special

322a
Prosecution Unit for the State of Texas that helps
Texas district attorneys prosecute crimes committed
in prisons. See generally R.R. Vol. 40, P. 19-53, R.R.
Vol. 41, P. 161-216.
39. The defense team also retained three core
experts for the guilt/innocence phase of the trial:
psychiatrists Dr. Edward Gripon and Dr. Jay
Crowder and psychologist Richard Rogers. Ex. 72.
None
had
specific
credentials
as
a
neuropharmacologist and only Dr. Gripon was called
at trial. The defense team did not initially retain any
experts for the mitigation phase of the case. Id; Ex.
27 at ¶ 31.
40. On December 6, 2006, the defense team filed a
motion entitled, “Motion for Discovery, Production
and Rule 702/705 Hearing” in the related case, Cause
No. 51483, involving Laura and Andre, Jr. to preserve
the right to challenge the State’s experts under
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993) and its progeny. See Supp. C.R. Vo.
1, P. 76-86.
41. The Defense neither retained nor called a
neuropharmacologist or a toxicologist.
42. Jury selection in Mr. Thomas’s capital case
began on January 10, 2005. The venire was seated in
the East and West courtrooms of the old Grayson
County Courthouse. See generally R.R. Vol. 11, P. 2123.
43. Prior to commencement of voir dire, potential
jury instructions were read to the entire venire

323a
assembled for Mr. Thomas’s trial. The defense made
no objection. See generally R.R. Vol. 11, P. 67-75, 7986.
44. Texas Law provides that “Voluntary
intoxication does not constitute a defense to the
commission of crime” and “intoxication” means
“disturbance of mental or physical capacity resulting
from the introduction of any substance into the body.”
Texas Penal Code § 8.04(a) & (d).
45. The defense and the State agreed on a joint
Power Point presentation that stated “Insanity
caused by the aggravation of a pre-existing mental
condition by alcohol or drugs is not a defense to a
crime.” Ex. 41 (emphasis added). See, e.g., R.R. Vol.
21, P. 84-87.
46. Prosecutor Kerye Ashmore made references to
the law of voluntary intoxication in his opening
statement. The defense did not object. R.R. Vol. 27,
P. 35-36.
47. Mr. Hagood was aware that the State’s experts
had diagnosed the applicant with substance-induced
psychosis.
48. On direct examination, Dr. Victor Scarano set
out his opinion that the applicant’s use of drugs and
alcohol precipitated the applicant’s psychotic episode.
RR vol. 31, p. 94; State’s Response Appendix ex. L)
49. The instruction on voluntary intoxication
given by the court and referred to during the entire

324a
trial was taken almost verbatim from the Texas Code
of Criminal Procedure.
50. The applicant has failed to plead facts that
establish the jurors or attorneys had difficulty in
understanding the instructions.
51. There was no instruction that if voluntary
intoxication was found, the applicant could never be
considered insane.
52. The court’s instruction on voluntary
intoxication was supported in that: (1) the evidence
showed that the applicant told Dr. Peter Oropeza that
he smoked marijuana the night before the murder
(RR Vol. 36, p. 106); (2) the medical records of the
applicant showed that there was marijuana in his
urine. There was insufficient blood to test for
marijuana in the blood as what blood that was left
from the hospital was used to test for DXM; (3) there
was DXM still in the applicant’s blood at the time his
blood was drawn several hours after the murders; (4)
there was evidence from nurse Natalie Sims that the
applicant had told her that if it hadn’t been for the
drugs the crime would not have happened. The
defense expert, Dr. Harrison, was also questioned
about this (RR Vol. 35, p. 42); and (5) the defense
expert Dr. Gripon, admitted during cross examination
that the combined use of marijuana, alcohol, and
DXM would aggravate and exacerbate a pre-existing
condition of schizophrenia (RR Vol. 36, p. 111).
Numerous witnesses testified to the applicant’s drug
and/or alcohol abuse. (RR vol. 27, pp. 185-187, vol. 29,
pp. 113, 137-140, 186, 203-204, 221-224, 226, 234-235;
vol. 31, pp. 92-94) The State’s expert psychiatrists

325a
also found that the applicant’s psychosis was
substance-induced. (RR vol 31, pp. 54, 112; vol. 34, p.
78-79)
53. The jury heard evidence that applicant was
intoxicated off and on in the days and weeks leading
up to the murders.
54. Dr. Victor Scarano testified that the applicant
told the doctor that the applicant was a heavy user of
marihuana in 2004 and that he had begun mixing the
marihuana with alcohol and Coricidin, a cold
medicine which contained Dextromethorphan
(hereinafter, DXM). (RR vol. 31, pp 92-94) The
applicant specifically told the doctor that he had
mixed those substances on either March 4 or 5 of
2004, and the 25th into the 26th of March 2004. (RR
vol. 31, p. 94) According to the applicant, he had
consumed all three substances approximately 36
hours before murdering his wife and her two children.
(RR vol. 31, pp. 113-115)
55. After a day and a half, the applicant used
enough Coricidin to still have a trace of DXM in his
blood. (RR vol. 29, pp. 76-79, 82, 85-86, 88)
56. During opening statements, the State set out a
time line setting out the drug use and intoxication by
the applicant prior to the murders. (RR vol. 27, pp.
27-28, 30-31) The prosecutor, Kerye Ashmore,
specifically set out the definition of voluntary
intoxication and emphasized that it did not only apply
to the exact time of an offense, but also to any
disturbance of mental of physical disturbance
resulting from the introduction of any substance into

326a
the body. (RR vo. 27, p. 35) Mr. Ashmore set out that
he expected the evidence to show that in the days and
weeks leading up to the murders, the applicant had
been smoking “blunts,” containing marihuana,
drinking and taking Coricidin, a cold medicine
containing DXM on a daily basis (RR vol. 27, p. 36-38)
The prosecutor also described the anticipated
testimony of Dr. Victor Scarano, M.D., regarding the
applicant’s psychotic state and the fact that it was
substance induced. (RR vol. 27, pp. 38-39) The State
stated that the evidence would show that the mental
state of the applicant at the time of the murders was
not only substance induced, but that even in that
mental state, the applicant knew right from wrong.
(RR vol. 27, p. 39, 44-45) In fact, Mr. Ashmore stated
in no uncertain terms that the facts of the case
surrounding the murders would show that the
applicant knew his conduct was wrong and still he
killed 13 month old Leyha Marie Hughes, her four
year old brother and their mother. (RR vol. 27, pp. 4762)
57. Dr. Victor Scarano, M.D., testified about the
applicant’s mental state at the time he murdered the
victims. During direct examination, Dr. Scarano
testified that a person can be mentally ill and
delusional and still be sane according to the legal
definition of sanity in Texas. (RR vol. 31, pp. 83-84)
Dr. Scarano described how mental illnesses can be
substance-induced. (RR vol. 31, p. 85) The doctor also
explained to the jury that a substance-induced mental
illness or psychosis does not disappear when the
substance is taken away from a subject. Instead, the
“psychosis can continue once it is precipitated by a

327a
substance for a longer period of time, even when that
substance is removed.” (RR vol. 31, pp. 86-87, 116120) The doctor testified that the applicant was
psychotic when he killed his wife and her two
children, but that the psychosis was triggered by his
substance abuse in the preceding days and weeks.
(RR vol. 31, pp. 92-111, 113-115) The doctor also set
out the facts of the case, some of which had been given
to him by the defendant, and applied those facts to the
legal definition of sanity. In Dr. Scarano’s medical
opinion, the applicant new that his conduct was
wrong and was not legally insane at the time he
murdered his wife and her two children. (RR vol. 31,
pp. 94-101)
58. Dr. A. David Axelrad’s diagnosis
essentially the same as Dr. Scarano.

was

59. During closing arguments, the State argued
that the applicant knew right from wrong. The state
also argued that the definition of intoxication
precluded the applicant from claiming insanity even
if he did not know right from wrong at the time of the
murders, because his psychosis was substance
induced. (RR vol. 37, pp. 86, 89-92)
60. Dr. Jay Crowder, a psychiatrist hired by the
defense but not called at trial, informed the defense
that he could not rule out the possibility that the
psychotic episode leading up to the murders was
induced by his use of a combination of drugs and
alcohol.

328a
61. Neither the State nor its experts alleged that
the applicant’s system still contained significant
amounts of drugs or alcohol during the murder.
62. Mr. Hagood had gone over the discovery and
the reports from both of the State’s experts, and was
aware of the State’s theory of the case.
63. Mr. Hagood was aware of the lab results from
the applicant’s blood.
64. Neither the State nor its experts presented
“false or misleading” evidence.
65. The State timely requested a jury shuffle.
66. There were more African-Americans in the
first one hundred venire men prior to the shuffle.
67. The State requested the shuffle based on the
appearance of several of the venire men in the first
one hundred.
68. There is no evidence that the request for a
shuffle was racially motivated.
69. The Applicant did not object to the shuffle.
70. As a result of the State’s shuffle, only two of
the 102 potential jurors questioned during voir dire
were African American. Ex. 27 at ¶ 18; R.R. Vol 23,
P. 115.
71. All members of Mr. Thomas’s jury were white.
Ex. 27 at ¶ 18.

329a
72. There is no evidence that the jury’s decision
was racially motivated.
73. No objection was ever made by the Applicant
to the purported racial bias of any juror that was
seated.
74. Dr. Shannon Miller is a psychiatrist who has
written extensively about DXM addiction, is a
specialist on the effects of drug addiction, and is
certified in addiction medicine. See Ex. 39.
75. In January 2005, the State formally retained
Dr. Miller, signed a modified version of his retainer
agreement and sent him a retainer check for ten
hours work. See supra, Part I-I.
76. The State Prosecutors telephoned Dr. Miller
and recounted the basic facts of the case to him,
including the State’s position.
During that
conversation, Dr. Miller preliminary questioned
whether DXM could have played a part in the kind of
psychotic episode Mr. Thomas experienced on March
27, 2004. State’s Resp. To App. for Writ of Habeas
Corpus at 23.
77. There was no evidence from Dr. Shannon
Miller, exculpatory or otherwise.
78. Dr. Shannon Miller states in his affidavit that
he did not form an opinion concerning the applicant,
his mental state, his psychosis, the cause thereof, or
his sanity because he never performed a complete
evaluation of the applicant or examined all of the
records.

330a
79. Mr. Ashmore’s and Mr. Brown’s decision was
not to use Dr. Miller because of several factors
including: (1) the attendant cost of having Dr. Miller
come to Grayson County to evaluate and
subsequently to testify; and (2) the fact that the
applicant had already been fully tested and evaluated
by three expert witnesses the State had already hired.
80. The affidavit of J. Kerye Ashmore is credible.
81. The affidavit of Joseph Dr. Brown is credible.
82. Mr. Ashmore and Mr. Brown believed the
applicant had been seen by enough experts for the
State and doubted that the defense team would allow
them to bring another expert in during the voir dire
in this case to do another evaluation.
83. Dr. Miller was not requested to prepare a
report.
84. Mr. Ashmore and Mr. Hagood met to discuss
the State’s list of expert witnesses which had
previously been provided to the defense prior to or
during voir dire. Mr. Ashmore went through the list
of the State’s potential expert witnesses and advised
Mr. Hagood who the State anticipated would be called
to testify. During this meeting, Mr. Ashmore advised
Mr. Hagood that the State would not be calling
Shannon Miller. Mr. Hagood inquired as to why and
was advised of the reasoning for the State not using
Dr. Miller. During this conversation, Mr. Ashmore
advised Mr. Hagood that Dr. Miller could not give an
opinion without examining the defendant and Dr.

331a
Miller indicated the cases he had dealt with generally
involved larger doses of DXM.
85. Bobbie Peterson (Cate) represented the State
in a juvenile proceeding regarding Applicant when he
was a juvenile.
86. Applicant was aware of this representation.
87. Mr. Hagood never noticed a lack of loyalty to
the applicant or the applicant’s case by Ms. Peterson
(Cate). Mr. Hagood states that Ms. Peterson (Cate)
showed a tremendous dedication towards the
applicant and was zealous in his defense.
88. The applicant indicated that he understood his
attorney's previous role as the prosecutor in his prior
convictions and after acknowledging on the record
that he understood his attorney's previous role, the
applicant stated that he had no problem with Ms.
Peterson (Cate) continuing her representation.
89. Both Ms. Peterson (Cate) and the applicant
acknowledged on the record that the applicant had
previously discussed this problem with his attorney.
90. The Court of Criminal Appeals has previously
rejected an invitation to extend the federal
constitutional proscription against execution of the
insane to the greater category of mentally ill
defendants. The applicant has failed to state a
compelling reason to do so in this case.
91. Dr. Gripon's testimony that the applicant was
competent at the time of trial was credible.

332a
90. Initially, the applicant was found incompetent
and sent to Vernon State Hospital for treatment.
(Appendix ex. K) The applicant was returned to
Grayson County to stand trial after doctors at Vernon
State Hospital found that he was then competent to
stand trial. (11.071 Application, Appendix ex. 71)
91. No second claim of incompetency was raised.
92. The trial court specifically asked Mr. Hagood if
the applicant was claiming incompetency.
Mr.
Hagood told the judge that the applicant was not
challenging competency at that time.
93. The trial court on at least one occasion
addressed the applicant directly and asked him a
question
regarding
Ms.
Peterson
(Cate’s)
representation. Ms. Cate had told the court that she
had explained to the applicant that while Ms.
Peterson (Cate) was a prosecutor she had worked on
a case against the applicant, that he understood and
wished Ms. Peterson (Cate) to continue as co-counsel.
(RR vol. 7, p. 4-5) This court did not observe the
applicant to be incompetent.
94. At no time did Ms. Peterson (Cate) suggest
that the applicant was unable to understand her.
95. During trial, Mr. Thomas was treated for his
schizophrenia with an antipsychotic drug called
Zyprexa. As is widely recognized, antipsychotic drugs
can have a “sedation-like” effect, and in severe cases,
may affect thought processes. Riggins v. Nevada, 504
U.S. 127, 143 (1992); see also University of Maryland
Medical Center online Health Library at

333a
http://www.umm.edu/altmed/drugs/olanzapine094026.htm#Overdosage/Toxicology.
96. As Mr. Hagood explains, the defense team
should have objected to the competency finding when
Mr. Thomas returned from the state hospital. Ex. 15
at ¶ 10. While his attorney recognized that the report
should have been objected to, the defense team did not
object to the findings.
97. Defendant was competent to stand trial.
98. Prior to the beginning of the trial on the
merits, Mr. Hagood was presented with a
memorandum on the admissibility of evidence of the
defendant’s diminished mental capacity to counter
State evidence aimed at proving that Mr. Thomas had
the requisite mens rea to be found guilty of capital
murder. See Ex. 15 at ¶ 12.
99. Mr. Hagood did not share this information
with co-counsel, see Ex. 27 at ¶ 12, nor did he further
investigate, or attempt to present a diminished
capacity option to the jury. Ex. 15 at ¶ 12.
100. The court granted a motion in limine
prohibiting witnesses from using titles or terms
including the word “mitigation” or any other form of
that word and that Dr. Kate Allen not be allowed to
testify to hearsay statements from the applicant.
101. The trial court sustained the objections by the
State to Dr. Allen, an expert with a degree in family
counseling, from making medical conclusions
regarding the applicant’s treatment.

334a
102. Mr. Hagood states that their trial strategy
involved straight insanity. Although it is permissible
to request conflicting defense instructions in a jury
charge, it is not always prudent. In front of a jury in
a death penalty trial telling a jury “he did it, but he
was insane”, then saying in the next breath, “but if he
wasn’t insane he was just reckless or criminally
negligent” might seem deceitful and manipulative to
a jury. Mr. Hagood states that even if he believed that
the facts of this case warranted a lesser included
instruction, he might not have requested one. Mr.
Hagood states that he certainly would not have
labeled it a “diminished capacity” defense as that
carries with it a different connotation.
103. Applicant has not indicated what admissible
evidence indicated that if guilty, the applicant was
only guilty of a lesser-included offense of capital
murder.
104. Applicant attempted to negate the State’s
evidence regarding mens rea by introducing evidence
of the applicant’s history of mental illness through the
testimony of Dr. Gripon.
105. The jury was able to hear all of this evidence,
determine the weight of the evidence, and choose
whether or not Applicant possessed the requisite
mens rea to commit this offense or whether he was
insane and did not know the difference between right
and wrong.
106. On March 4, 2005, Mr. Hagood submitted a
motion for a Requested Jury Instruction Defining
Reasonable Doubt. C.R. Vol. 5, P. 1619-21. Mr.

335a
Hagood requested the Court give the jury the
following definition of reasonable doubt.
“Reasonable doubt” is a doubt based upon
reason and common sense after careful and
impartial consideration of all the evidence in
the case. Proof beyond a reasonable doubt,
therefore, is proof of such a convincing
character that you would be willing to rely and
act upon it without hesitation in the most
important of your own affairs.
This definition comes from the Fifth Circuit’s
Criminal Pattern Jury Charge. See United States v.
Williams, 20 F.3d 125, 129 n.1 (5th Cir. 1994), cert
denied, 115 S. Ct. 239 (1994).
107. On the same date, the Court asked the parties
if there were any objections to the Court’s jury charge.
Mr. Hagood raised an objection that mirrored the
motion for the requested jury charge, citing the
specific instruction requested. The Court denied the
request. R.R. Vol. 37, P. 6.
108. This claim is barred because it was raised on
direct appeal, which is still pending.
109. The applicant has failed to plead facts which
justify raising in his 11.071 application an issue
which has been raised on direct appeal.
110. The jury foreperson, Kyle McCoy, stated that
he and others on the jury did not feel there was
evidence of true remorse. R.R. Vol. 43, P. 16. Mr.
McCoy stated that he, and possibly others on the jury,

336a
wanted something to “hang their hat on,” such as
evidence of true remorse.
111. The applicant has failed to plead facts that
the jury violated the applicant’s right against selfincrimination.
112. The State used prior convictions based on acts
committed by Mr. Thomas when he was a juvenile to
establish aggravating circumstances during the
penalty phase of his case.
113. Specifically, the State offered prior offense
evidence regarding the following:
•

felony criminal mischief over $750 that
occurred when Mr. Thomas was 11;

•

two separate offenses of criminal trespass
when Mr. Thomas was 11;

•

a curfew violation citation at age 13;

•

three felony offenses of vehicle theft at age 14;

•

curfew violations at 14 and 15; and,

•

arrest and detention for evading arrest while
using a vehicle at age 17.

R.R. Vol. 38, P. 24-25; R.R. Vol. 38, P. 104-106; R.R.
Vol. 38, P. 28-32, 101-102, 109-112 & R.R. Vol. 39, P.
34-38; R.R. Vol. 39, P. 26-29, P. 34; R.R. Vol. 39, P.
129-131.

337a
114. During the penalty phase, the trial court
instructed the jury that it could consider Mr.
Thomas’s background and evidence that he had
committed other acts or participated in other
transactions. R.R. Vol. 42, P. 30-31.
115. Applicant did not object to the admission of
his juvenile convictions.
116. The defense team also did not seek to conduct
neuropsychological testing of Mr. Thomas.
See
generally Ex. 35 & Ex. 14.
117. To conclude the defense’s mitigation case, Mr.
Hagood called Mr. Fitzgerald. R.R. Vol. 41, P. Mr.
Fitzgerald did not testify after the State’s voir dire.
R.R. Vol. 41, P. 148.
118. The State identified Dr. Victor Scarano as a
potential expert witness, and Dr. Scarano was one of
the experts that examined Mr. Thomas.
119. Trial counsel did not raise a Daubert
challenge to Dr. Scarano or Dr. Axelrod.
120. During the State’s case in chief, Dr. Scarano
testified that his opinion was that a combination of
alcohol, marijuana, and Coricidin “pushed Mr.
Thomas into a delusional psychosis” on Saturday
morning March 27, 2004. R.R. Vol. 31, P. 94.
121. The State identified Dr. David Axelrad as a
potential expert witness, and Dr. Axelrad was one of
the State’s experts who examined Mr. Thomas.

338a
122. Dr. Axelrad was named on the State’s pretrial witness list and prepared a 68-page report
concluding that Mr. Thomas’s psychosis was druginduced.
123. The defense chose to call Dr. David Axelrad
as its initial expert witness to help the defense to try
and prove their case. See R.R. Vol. 34, P. 55-166.
124. Mr. Royce Smithey is an employee of the state
special prosecution unit, and investigates felonies
that are committed within the Texas penal system.
R.R. Vol. 41, 149-150. During the penalty phase of
Mr. Thomas’s trial, Mr. Smithey was called to testify
for the State regarding the risk of Mr. Thomas
committing future acts of violence. He also testified
on the broad subjects of prison classification and
prison violence. Id. at 152-153.
125. Defense counsel retained Mr. Larry
Fitzgerald to testify, on behalf of Mr. Thomas, about
the safeguards taken by the TDCJ to ensure that
prisoners would not pose a risk of future
dangerousness to other incarcerated individuals and
prison employees. See Ex. 11 at ¶ 5.
126. Defense counsel waived the Rule 705 hearing
with respect to Dr. Oropeza.
127. Defense counsel did not object to Dr.
Oropeza’s testimony that Mr. Thomas had Antisocial
Personality Disorder.
128. Defense counsel had intended to present
videotape evidence through Mr. Fitzgerald to

339a
undermine the State’s case on Mr. Thomas’s future
dangerousness, but instead presented this evidence
through the State’s witness, Mr. Smithey. Ex. 27 at
¶ 28.
129. Members of Mr. Thomas’s family, friends and
community leaders were available at the time of Mr.
Thomas’s trial to inform counsel, experts, and jurors
about Mr. Thomas’s life. Id.
130. The defense team did not contact all of Mr.
Thomas’ family members. Nor did Schade draft a
social history or mitigation report.
131. Mr. Hagood spent many months preparing all
aspects of the case. He states that he had talked to
several family members regarding the applicant's
background and childhood.
132. The applicant's mother was angry at the
applicant for killing her grandson. Although Mr.
Hagood states that he could have gleaned useful
background information from the mother's testimony,
Mr. Hagood did not do so. She had left the state and
Mr. Hagood states he made no attempt to subpoena
her or get her back to Grayson County, Texas for the
trial. Mr. Hagood states that this was because he was
too afraid of what might come out of her mouth and
the further damage she might do to the applicant. Mr.
Hagood states that he had no intention of putting her
on the stand and preferred that the state not have
that opportunity either.
133. Mr. Hagood believed the applicant's aunt,
Doris Gonzalez, would be the primary defense witness

340a
regarding mitigation. When Mr. Hagood interviewed
her she was articulate and passionate about the trial
and obstacles faced by the applicant. Once on the
stand, however, she collapsed. She was unable to
relate to the jury despite Mr. Hagood's best attempts
as she had during trial preparation.
134. Mr. Hagood also prepared two of the
applicant's brothers and his father. They, too, had
done a much better job in Mr. Hagood's office than
they were able to in court. Mr. Hagood states that
once he realized that they were not coming across
well, he abandoned his questioning of those three
witnesses.
135. Ms. Peterson (Cate) procured Kate Allen with
Mr. Hagood's consent. Mr. Hagood did not know
about Ms. Allen until shortly before she testified,
although he was glad Ms. Peterson (Cate) had
contacted Ms. Allen. Mr. Hagood was disappointed
with Ms. Allen's performance because her demeanor
did not translate well to the rural community from
which our jurors were selected.
136. Ms. Schade was employed based on a
recommendation from the Texas Defender’s Service.
137. Mr. Hagood states that he instructed Ms.
Schade to do as much background as possible. All
materials possessed by the defense were available to
her.
138. Mr. Hagood was disappointed in Ms. Schade's
performance. Mr. Hagood states that having worked
well with Amanda Maxwell, a mitigation specialist

341a
also recommended by the Texas Defender Service, in
another case, he can now see what Ms. Schade should
have done.
139. Mr. Hagood also states that Ms. Schade
allowed her personal feelings about the death penalty
to affect her performance.
140. Ms. Schade was admonished by the court to
restrain herself because a juror had complained about
her action in the courtroom.
141. Mr. Hagood was aware of the family
background and history of mental problems and
alcohol abuse.
142. Mr. Hagood felt that such information to a
juror could cut both ways.
143. Mr. Hagood did not want the jury to think
that the applicant's background and propensity for
drug use and mental instability 'would make him
more of a future danger.
144. Mr. Hagood concentrated on relatives and
friends with current close relationships to the
applicant. Strategically, Mr. Hagood states that he
did not want to introduce childhood anecdotes or the
history of distant relations.
145. Through his investigation and interviews and
friends and family members, Mr. Hagood had been
told that the applicant had engaged in the conduct as
a child long before any onset of mental illness that
involved cruelty to animals or setting fires.

342a
146. Mr. Hagood was afraid that the jury could see
this as a sure sign that the applicant would be a
future danger as such, Mr. Hagood did not seek out
all friends and relatives.
147. The court appointed Garland Cardwell as Mr.
Thomas's counsel for his direct appeal. C.R. Vol. 5, P.
1709. Mr. Cardwell submitted appellant's brief on
September 29, 2006. See State v. Thomas, No. 51858
(appellant's brief on appeal from the 15th District
Court).
148. This court observed R.J. Hagood during the
course of the entire trial and did not discern any
issues with Mr. Hagood’s performance attributable to
an illness.
149. During Ms. Long's initial examination by the
state she indicated that she understood that the state
had the burden of proving the applicant committed an
offense, even if insanity was involved. Ms. Long also
indicated that she understood the burden of proof
regarding insanity and the law regarding involuntary
intoxication. The question by the state regarding
outside evidence from personal knowledge she agree
that she could not consider the outside evidence.
When the applicant examined her, she first agreed in
order to find insanity would be by preponderance of
the evidence. She then agreed with Mr. Hagood that
she would need clear and convincing evidence then
backed up and stated that she did not know at that
time. After first stating that she did not know how
much evidence she would need to find the applicant
insane she then agreed with Mr. Hagood that she
would hold the defense to a higher burden of proof

343a
than of preponderance of the evidence. The state
asked Ms. Long again whether she understood that
insanity bad to be proven by believing more evidence
was presented by the state than was by the defense,
she agreed. She then agreed with Mr. Hagood that
she would need proof beyond a reasonable doubt to
find that insanity, then stated that she was confused.
The state then explained the difference between
reasonable doubt and preponderance of the evidence
and Ms. Long stated that there was a fine line
between the two standards. At this point the juror
became clearly confused about the respective
definitions of preponderance and reasonable doubt
and the court intervened and attempted to explain to
her the differences between the two standards. After
that explanation Ms. Long indicated that the
difference made sense and that she could follow the
law. (RR vol. 12, pp. 14-88)
150. Ms. Long vacillated or equivocated on her
understanding of the burden of proof regarding
insanity.
151. Ms. Long's answers were credible that she
would be able to follow the law.
152. During voir dire the defense moved to strike
Ms. Long for cause. The court denied the motion and
the applicant exercised his first peremptory strike.
The applicant asked for two additional strikes
regarding Ms. Long in voir dire person Scott Kermit.
The court denied the request at that time. The
defense renewed their request three times. The trial
court denied each request and told the applicant that

344a
the request was premature because the applicant had
yet to exhaust all of his original peremptory strikes.
153. The applicant did not exhaust his fifteen
statutory peremptory challenges during voir dire.
154. The applicant requested strikes for cause and
additional strikes on several occasions but was told
the requests for additional strikes were premature.
(RR vol. 12, p. 90, 163; vol. 15, p. 242; vol. 17, pp. 227228; vol. 20, p. 96) In chambers, the court indicated
that he was going to grant two more strikes for the
defense. (RR vol. 26, pp. 66-67) However, this did not
happen solely because the defense did not exhaust its
strikes, having one left. (RR vol. 26, p. 67)
155. After twelve jurors were seated, the parties
then proceeded to pick two alternate jurors. Each side
was given one strike for purposes of picking the two
alternates. (RR vol. 26, p. 66) The State and the
applicant accepted the next panel member who
became the first alternate. (RR vol. 26, p. 146) The
next venire person was Mary Stewart, upon whom the
applicant exercised his sole strike in the alternate
selection phase. There were no grounds to strike Ms.
Stewart for cause. (RR vol. 26, p. 196) The next juror,
Kelly Walton, was the one the applicant refers to as
an “objectionable juror" in his application. The
applicant had used his sole strike regarding
alternates. There were no grounds to strike Mr.
Walton for cause.
156. Mr. Walton was the second alternate juror
and never deliberated on the case. (RR vol. 26, pp.
241-242; vol. 37, pp. 112-113).

345a
157. Prior to Dr. Scarano’s testimony, the defense
had been provided a copy of Dr. Scarano’s curriculum
vitae and his report containing his findings, diagnosis
and the facts relied on to make those decisions.
158. The defense was not surprised by Dr.
Scarano’s testimony.
159. The defense was surprised that the State
called Dr. Scarano during the State’s case-chief rather
than at rebuttal.
160. Dr. Scarano was a medical doctor who had
been licensed since 1961. Dr. Scarano’s prior training
and practice had included psychiatry and pediatric
surgery.
Dr. Scarano had been doing forensic
psychiatry since 1998 and had graduated from law
school.
161. Dr. Jay Crowder, an expert hired by the
defense had indicated to Mr. Hagood that he could not
rule out that the applicant’s psychosis was substance
induced.
162. As a medical doctor and a psychiatrist, part of
a doctor’s education and training would include the
pharmacological effect of drugs and alcohol on the
brain and relating to psychotic behavior.
163. Dr. Scarano's testimony was consistent with
what the defense expert, Dr. Crowder, had told Mr.
Hagood.

346a
164. Mr. Hagood felt requesting a Daubert/Kelly
hearing regarding Scarano and Axelrad would be
frivolous.
165. The majority of Dr. Scarano's work as a fulltime forensic psychiatrist is in the examination and
evaluation of individuals involved in the criminal
justice system, as was the case with the applicant.
166. Dr. Scarano is often appointed as a forensic
psychiatric expert by courts. In addition, his services
are employed as a consulting and/or testifying expert
by the prosecution and defense in criminal cases. A
large portion of the defendants on whom he performs
forensic psychiatric examinations/evaluations have a
history of drug abuse. Evaluation of the defendant’s
abuse of drugs is an integral and important part of
the psychiatric examination/evaluation.
167. A significant and important part of a
psychiatrist's and forensic psychiatrist's training is
learning and understanding the effects of
medications, alcohol, and illicit drugs upon the
central nervous system.
In clinical practice,
experienced forensic psychiatrists utilize and apply
their knowledge and expertise in evaluating the
mental state of criminal defendants.
168. This court finds that Dr. Scarano is a
qualified expert in forensic psychiatry.
169. Neuropharmacologists
or
psychopharmacologists are not the only individuals
who should be allowed to testify in court in regards to
the effects of drugs on the central nervous system.

347a
These individuals are not physicians, but rather are
consultants whose services may be requested by the
physician responsible for the evaluation and/or
treatment of the patient. Many physicians, including
family physicians, emergency room physicians,
internists, pediatricians, and psychiatrists, have
expertise in identifying the effects of drugs or their
absence on human behavior.
170. Based on the facts of the case and the
information provided to the defense, Mr. Hagood did
not believe the trial court would have prevented Dr.
Axelrad's testimony.
171. Neuropharmicological findings were not the
sole basis of Dr. Axelrad’s diagnosis.
172. Applicant’s habeas attorneys retained Dr.
Ruben C. Gur to interview and test the applicant.
173. Dr. Gur is a neurophyschologist with a PhD
from Michigan State University, a masters from
Michigan State University, and has done a post
doctoral fellowship from Stanford University.
174. Dr. Gur reviewed Mr. Thomas' medical and
social history as well as standard and computerized
neuropsychological evaluations, as well as a personal
interview of Mr. Thomas. Dr. Gur concludes that Mr.
Thomas has schizophrenia of the paranoid type
superimposed on a neuro-developmental brain
disorder. He further concludes that he was under the
delusions that his acts would save himself and the
world and his behavior before, during, and after the
crime is controlled by this symptom of paranoid

348a
schizophrenia. He states Mr. Thomas's ability to
respond to appropriate to his environment or deficits
associated with acquired brain injury.
175. Applicant's habeas counsel also retained Dr.
Mila H. Young, a board certified clinical psychologist
with
a
specialty
in
neurophysiology
and
neuropsychological assessments. She has a doctorate
in clinical psychology from Alliant lnternational
University in San Francisco, California, a master's
degree in experimental psychology from Towson State
University in Baltimore, Maryland, and a bachelor of
arts with a major in psychology from the University
of Guam. Dr. Young did a neuropsychological and
psychological evaluation of Andre Thomas in May of
2007, which included neuropsychological testing.
176. Dr. Young concludes that "There is
substantiating evidence that Andre experienced
psychotic symptoms before the deaths of his wife and
children, there is convincing evidence that Andre
continues to experience psychotic symptoms." She
further concludes that "Andre's performance crossed
multiple neuropsychological test of brain functioning
are impaired and the impairment is consistent with
the brain impairment known to be experienced in
schizophrenia."
177. Applicant's habeas counsel retained Janet
Vogelsang, who has a master's degree in social work
from the University of South Carolina, and bachelors
in psychology from Pepperdine University.
178. Jan Vogelsang reviewed "a social history
prepared by Andre Thomas's habeas defense team."

349a
She concluded that Andre was completely deprived of
the cohesive family environment that would provide a
crucial support for someone with his mental illness."
She further finds that she has "no doubt that any
competent clinical social worker conducting a
comprehensive psycho social assessment could have
presented a formable picture of Andre's life and his
family which have directly and strongly supported the
severe
genetically
deviated
mental
illness
corroborated by current neuropsychological testing."
179. Applicant's habeas corpus counsel retained
Dr. Jonathan Lipman, a Neuropharmacologist with a
doctoral degree from the University of Wales.
180. Dr. Lipman's opinion was that "the behaviors
exhibited by Thomas before, during, and after 27
March 2004 do not resemble the known toxicity of
dextromythorathan. Dr. Lipman concludes to a
reasonable degree of neuropharamachological
certainty that Mr. Thomas appears to suffer from an
endogenous schizophreniform psychotic illness.
181. Ruben Gur, Mila Young, Jan Vogelsang, and
Jonathan Lipman have been qualified as experts in
state and federal courts.
182. Ruben Gur, Mila Young, Jan Vogelsang, and
Jonathan Lipman did not testify at trial.
183. Dr. Victor Scarano, Dr. David Axelrad, both
psychiatrists and Dr. Peter Orapeza, a psychologist,
testified at the trial of Andre Thomas.

350a
184. Larry Pollock, PhD, psychologist specializing
in neuropsychology, did not testify at the trial but was
hired by the state to review the findings of Dr. Mila
Young and Ruben Gur.
185. The State’s experts take issue with both the
findings and methodology used by the applicant’s post
trial experts. All of the state’s experts have been
qualified to testify in state and federal courts as
experts. Dr. Scarano, Dr. Axelrad, and Dr. Orapeza
interviewed the applicant and evaluated him on at
least one occasion prior to trial.
186. Mr. Hagood’s recollection is that the defense
gave Dr. Gripon a copy of everything they had
received in discovery.
187. Ms. Peterson (Cate) states that on her way to
Grayson County, Dr. Gripon requested from her
several items he told her he had not been provided,
although she cannot remember what those items were
at this time.
188. Mr. Hagood handled Dr. Gripon’s testimony.
189. Ms. Peterson (Cate) says she cannot speak for
Mr. Hagood as to why he did or did not ask certain
questions.
190. Mr. Hagood states that Dr. Gripon never
complained to him that items were missing from the
materials sent to the doctor.
191. Mr. Hagood also states that he was never
given a list of questions from Dr. Gripon. but did

351a
spend a considerable time going over the questions
the defense would be asking Dr. Gripon.
192. Mr. Hagood states that he spent a couple of
hours with Dr. Gripon in his hotel room the night
before he testified going back over questions and
issues.
193. Mr. Hagood states that he made sure the
doctor knew that he would be asked about his
qualifications, interviews and examinations of the
applicant and would then illicit his opinion regarding
sanity.
194. Mr. Hagood states that he does not know
which questions Dr. Gripon specifically asked Mr.
Hagood to use that were not used in some manner.
195. Dr. Gripon is not specific about which
questions Mr. Hagood should have asked.
196. Mr. Hagood states that strategically there
may have been some questions the defense did not
ask.
197. Mr. Hagood states that during the
examination of Dr. Gripon, Hagood was being careful
not to illicit information from Gripon which the state's
experts could use against the applicant.
198. The decision to call Dr. Axelrad as part of the
defense case was done to examine him and attempt to
frame questions in a way more favorable to the
applicant as well as to attempt to discredit his opinion
prior to the State examining him. Strategically, Mr.

352a
Hagood states he felt this was the best course of action
rather than attempting to exclude his testimony.
199. Mr. Hagood's decision to call two of the state's
witnesses during the defenses case was deliberate.
Mr. Hagood states that his strategy was to illicit
certain information and to attempt to diffuse some of
the more damaging testimony against the applicant.
Mr. Hagood was able to get Dr. Scarano to admit that
psychoses triggered by marihuana or alcohol was
rare. Further, the defense illlicited information that
alcohol induced psychoses generally occurred in
chronic alcoholics and the applicant did not appear to
be a chronic alcoholic.
200. Mr. Hagood also states that he attempted to
get the doctor to give information that would
minimize the testimony against the applicant. Dr.
Scarano admitted that this was his first case
involving DXM.
201. Mr. Hagood states in his affidavit that he
wanted to be the first to question Dr. Axelrad in order
to frame the questions in a way more beneficial to the
applicant.
202. Mr. Hagood states that he pressed both
doctors, after hearing the state’s theory, in order to
make them back down from their diagnosis or to at
least admit that they would not rule out
schizophrenia that was not precipitated by drug and
alcohol use.

353a
203. Neither Dr. James Harrison or Dr. Cactus
McGirk had examined the applicant with the purpose
of determining sanity.
204. Harrison stated in his first report that he
could not rule out that a substance had induced the
applicant's psychotic episode. (States' Response,
appendix ex. O)
205. Harrison testified that he did not have
enough evidence to make a determination of insanity.
206. Dr. Harrison's affidavit does not comport with
his sworn trial testimony. During cross examination
of Dr. Harrison, Mr. Ashmore specifically asked him
whether after interviewing the applicant on a number
of occasions, reviewing all of the experts reports in
this case (which were quite detailed) and looking at
the other information that he indicated he had taken
into consideration both during direct examination
and on voir dire prior to cross, whether he felt like he
had sufficient information to give an opinion about
the applicant's sanity at the time of the offense. Dr.
Harrison responded he did not feel like he had
sufficient information to render an opinion (RR vol.35,
pp. 50-51).
207. Cactus McGirk had been hired by the jail to
determine if the applicant needed medication or was
a danger to himself. McGirk has never been hired to
determine competency or sanity. (RR vol. 35, pp.184,
188-189).

354a
208. Mr. Hagood knew that Harrison had stated in
his report that he could not rule out that a substance
had induced the applicant's psychotic episode.
209. Harrison also testified that he could not make
a determination regarding sanity when asked by the
prosecution. (RR vol. 35, p.51)
210. After being examined by prosecutor, Kerye
Ashmore, Mr. Hagood states that McGirk came across
as biased against the state and incompetent.
211. Mr. Hagood did not believe McGirk had any
credibility with the jury and was not going to hang the
applicant's insanity on McGirk.
212. Dr. Axelrad is a practicing psychiatrist who
specializes in Adult Psychiatry, Neuropsychiatry,
Pain Medicine, Psychoanalysis, and Forensic
Psychiatry. He is Board-certified by the American
Board of Psychiatry and Neurology in General
Psychiatry (April 1978, Certificate #17308); Forensic
Psychiatry (Certificate #22), and Pain Medicine
(Certificate #102).
213. The records provided to Dr. Axelrad indicated
that Thomas was a heavy drinker and used
marihuana almost daily in the form of a blunt (a
hollowed out cigar filled with marihuana).
214. The testimony reflects that both the applicant
and his girlfriend Carmen Hayes stated in the records
provided to Dr. Axelrad that the applicant had
recently started adding DXM to the alcohol and
marihuana.

355a
215. Thomas exhibited psychotic behavior after
showing up at MHMR on one occasion and the
emergency room at a local hospital on a different day.
On both occasions, the testimony and the records
provided to Dr. Axelrad indicated that Thomas was
using a combination of DXM, marihuana and alcohol
the previous night. The testimony reflected that
there was no indication from the records or from Dr.
Axelrad's interviews with Thomas that he exhibited
the same acute psychotic symptoms when DXM was
not added to the other substances he was using.
216. Dr. Axelrad interviewed Mr. Thomas and
took a history from him including his scholastic
history, his marriage to Laura Boren and the birth of
their son Andre, his work history and his lack of a
history of psychiatric issues prior to two months
before the murder. The applicant admitted abusing
alcohol since age 10, marihuana since age thirteen
and the addition of Dextromethorphan, in the form of
the cold medicine Coricidin, in the days leading up to
the murder.
217. Mr. Fitzgerald bad been questioned by the
State out of the presence of the jury. The State had
him admit that he was retired from the Texas
Department of Criminal Justice where he had been
employed as a public information officer. (RR vol. 41,
p. 142) The State established that Fitzgerald did not
aid in the development of TDCJ policies, had never
investigated crimes in the penitentiary, and had not
gathered any statistics of his own. (RR vol.41, pp. 141146) Fitzgerald also testified that the video tape he
intended to show was provided by the Texas Defender
Service. (RR vol.41, pp. 144-145)

356a
218. Mr. Hagood believed that Fitzgerald did not
come off as a respected expert.
219. Mr. Hagood decision not to call Fitzgerald as
a witness was trial strategy.
220. The defense did not challenge Smithey's
credentials because they intended to get much of the
information Fitzgerald was to provide in through the
State's witness. Through Smithey, the defense was
able to get a video tape of the conditions at prison into
evidence and establish that the applicant would be
sent to the Connally Unit which was maximum
security, the different classifications within the unit,
security precautions in the unit, and that the
applicant could never reach the best classification of
GI. The defense was able to have Smithey testify that
an inmate serving life in a capital case is not housed
in open housing with other inmates, are ineligible for
furloughs and trustee status and cannot work out side
of the facility. Smithey also testified that there was a
psychiatric unit available and to the homicide·rate at
TDCJ.
221. Dr. Peter Oropeza states that he has testified
numerous times in different courts both for the State
and the defense. Dr. Oropeza has always been found
to be an expert. Dr. Oropeza has never had a
challenge to his expertise sustained.
222. Dr. Oropeza was a psychologist licensed in
this state who has a Doctoral degree in psychology
prior to 2004.

357a
223. Dr. Oropeza had at least 24 hours of
specialized forensic training relating to incompetency
or insanity evaluations prior to 2004.
224. Dr. Oropeza had completed six hours of
required continuing education in courses in forensic
psychiatry or psychology, as appropriate, in either of
the reporting periods in the 24 months preceding the
appointment prior to 2004.
225. The exams before the Texas Board of
Examiners
of
Psychologists
consists
of a
jurisprudence written examination, the national
examination (EPPP), and an oral examination. An
examinee must pass all three tests to become a
licensed psychologist. On the jurisprudence written
examination Dr. Oropeza he received a score of 98,
and on the national examination a score of 81. The
oral boards include a review of a case vignette that
involves a host of issues regarding a hypothetical
case. Dr. Oropeza's practice was in the area of
assessment and the board noted his weakness
regarding therapy issues. Dr. Oropeza addressed
these issues in the next examination and passed.
Applicants do not receive scores from the oral
examination, rather, feedback is provided on areas to
address and a simple pass or fail is given.
226. Dr. Oropeza only testified during
punishment phase of the applicant's case.

the

227. Mr. Hagood knew that under 46B.022, Dr.
Oropeza met the qualifications set out in subsections
(a)(l), (a)(2)(B)(i) and (b), he was licensed by the
appropriate board, had training consisting of24 hours

358a
of specialized training relating to incompetency or
insanity evaluations and he met his continuing
education requirements.
CONCLUSIONS OF LAW
1. An applicant is entitled to relief for ineffective
assistance of counsel if he satisfies the two prongs set
forth in Strickland v. Washington:
(1) that trial counsel's performance was
deficient, meaning that the performance
fell below an objective standard of
reasonableness—a standard determined
with reference to prevailing professional
standards and from counsel's actual point
of view during the representation; and
(2) that
but
for
counsel's
deficient
performance, there is a reasonable
probability the result of the proceeding
would have been different.
466 U.S. 668, 687-91 (1984); Thompson v. State, 9
S.W.3d 808, 812 (Tex. Crim. App. 1999).
2. Under Strickland’s first prong, the question is
“whether counsel’s assistance was reasonable [after]
considering all the circumstances.” Strickland, 466
U.S. at 688 (emphasis added).
3. Under Strickland’s second prong, a “reasonable
probability” the result would have been different is
merely “probability sufficient to undermine
confidence in the outcome” of trial. Strickland, 446

359a
U.S. at 695; Thompson, 9 S.W.3d at 812; Mitchell v.
State, 68 S.W.3d at 642 (emphasis added).
4. The ABA Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases
("ABA Guidelines") have been cited by the United
States Supreme Court as one acceptable "guide[ ] to
determining what is reasonable" for defense counsel
(Wiggins v. Smith, 539 U.S. 510, 524 (2003)), and have
also served as a model for the Texas Guidelines and
Standards For Texas Capital Counsel ("Texas
Guidelines"), adopted by the Texas State Bar in 2006.
The ABA Guidelines state that defense counsel "must
be experienced in the utilization of expert witnesses
and evidence, such as psychiatric and forensic
evidence, and must be able to challenge zealously the
prosecution's evidence and experts through effective
cross-examination."
ABA
Guidelines
1.1,
commentary at 5 (Rev. Ed. 2003) (emphasis added);
see also Texas Guidelines §§ 3.1(A)(2); 4.1(B)(2)(e).
The Texas Guidelines further provide that trial
counsel "at every stage [has] an obligation to conduct
thorough and independent investigations relating to
the issues of both guilt and penalty." Id. at § 11.l(A).
Additionally, "[c]ounsel at every stage of the case,
exercising professional judgment in accordance with
[the Texas Guidelines], should [inter alia]: (l)
Consider all legal claims potentially available; and (2)
Thoroughly investigate the basis for each potential
claim before reaching a conclusion as to whether it
should be asserted... " Id. at § 11.2(A).
5. The purpose of the constitutional requirement
of effective counsel is to ensure a fair trial. Strickland
v. Washington, 466 U.S. 668, 686 (1984). Thus, "the

360a
benchmark for judging any claim of ineffectiveness
must be whether counsel's conduct so undermined the
proper functioning of the adversarial process that the
trial cannot be relied on as having produced a just
result.” Id.
6. A defendant must show, by a preponderance of
the evidence, that counsel's performance was
constitutionally deficient. The applicant must prove
counsel was not acting as "a reasonably competent
attorney,” and his advice was not "within the range of
competence demanded of attorneys in criminal cases.”
Strickland v. Washington, 466 U.S. 668, 687(1984);
Ex parte White, 160 S.W.3d 46, 50-51 (Tex.Crim.App.
2004).
7. The applicant must show that this
constitutionally deficient performance prejudiced his
defense. He must show that "there is a reasonable
probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. Under this
two-pronged analytical framework, an applicant must
overcome the "strong presumption that counsel's
conduct fell within the wide range of reasonable
professional assistance.” Thompson v. State, 9 S.W.3d
808, 813 (Tex.Crim.App. 1999). Moreover, a "review
of defense counsel's representation is highly
deferential and presumes that counsel's actions fell
within the wide range of reasonable and professional
assistance.” Bone v. State, 71 S.W.3d 828, 833
(Tex.Crim.App. 2002).

361a
8. The practice of law is an art, not a science, "and
an act or omission that is unprofessional in one case
may be sound or even brilliant in another."
Strickland, 466 U.S. at 693. The existence of an
adversary system guarantees there will always be
lawyers who disagree on almost any issue. Since law
is not an exact science, no level of skill or excellence
exists at which all differences of opinion or doubts will
be removed from the minds of legal professionals. 3
Ronald E. Mallen & Jeffrey M. Smith, Legal
Malpractice §§ 18.17, at 57 (5th ed.2000). Thus, when
a legal proposition or a strategic course of conduct is
one on which reasonable lawyers could disagree, “an
error that occurs despite the lawyer’s informed
judgment should not be gauged by hindsight or
second-guessed.” Id. at 59.
9. In evaluating the effectiveness of counsel under
the first prong, the totality of the representation and
the particular circumstances of each case are
reviewed. Thompson, 9 S.W.3d at 813. The issue is
whether counsel's assistance was reasonable under
all the circumstances and prevailing professional
norms at the time of the alleged error. Strickland,
466 U.S. at 688-89.
10. "[C]ounsel is strongly presumed to have
rendered adequate assistance and made all
significant decisions in the exercise of reasonable
professional judgment.” Id. at 690. An allegation of
ineffective assistance must be firmly founded in the
record, and the record must affirmatively
demonstrate the alleged ineffectiveness. Thompson,
9 S.W.3d at 814.

362a
11. Scrutiny of counsel's performance must be
highly deferential, and every effort must be made to
eliminate the distorting effects of hindsight.
Strickland, 466 U.S. at 689.
12. The second prong of Strickland requires a
showing that counsel's errors were so serious that
they deprived the defendant of a fair trial, i.e., a trial
whose result is reliable. Id. at 687. In other words,
an applicant must show there is a reasonable
probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been
different. Id. at 694. A reasonable probability is a
probability sufficient to undermine confidence in the
outcome. Id. The ultimate focus of the inquiry must
be on the fundamental fairness of the proceeding
whose result is being challenged. Id. at 697.
13. Under Strickland, the appellate courts must
presume that counsel is better positioned than the
appellate court to judge the pragmatism of the
particular case, and that counsel "made all significant
decisions in the exercise of reasonable professional
judgment." Delrio v. State, 840 S.W.2d 443, 447
(Tex.Crim.App. 1992) (quoting Strickland, 466 U.S. at
690); see also Jackson v. State, 877 S.W.2d 768, 771
(Tex.Crim.App. 1994) (reaffirming same proposition).
14. The right to "reasonably effective assistance of
counsel" does not guarantee errorless counsel, or
counsel whose competency is to be judged by
hindsight. Saylor v. State, 660 S. W.2d 822, 824
(Tex.Crim.App. 1983). Rather, the right to counsel
affords an accused an attorney "reasonably likely to

363a
render
and
rendering
reasonably
effective
assistance.” Cannon v. State, 668 S.W.2d 401, 402
(Tex.Crim.App. 1984). A fair assessment of counsel's
performance requires that every effort be made to
eliminate the distorting effects of hindsight, to
reconstruct the circumstances, and to evaluate the
conduct from counsel's perspective at the time.
"Because of the difficulties inherent in making the
evaluation, a court must indulge a strong
presumption that counsel's conduct falls within the
wide range of reasonable professional assistance; that
is, the defendant must overcome the presumption
that, under the circumstances, the challenged action
might be considered sound trial strategy."
Strickland, 466 U.S. at 688-689. Strategic choices
made after a thorough investigation of law and facts
relevant to plausible options are thus virtually
unchallengeable.
15. Issues raised solely under state law are not
cognizable under habeas corpus review unless the
conviction is void. Ex parte Truong, 770 S.w.2d 810
(Tex.Crim.App. 1989).
16. The "failure of petitioner, as defendant, to
object at the trial, and to pursue vindication of a
constitutional right of which he was put on notice on
appeal, constitutes a waiver of the position he now
asserts" on a writ of habeas corpus; see also Ex parte
Boyd, 58 S.W.3d 134, 136 (Tex.Crim.App. 200l) (citing
Bagley and noting that "(o]rdinarily, the writ of
habeas corpus may not be used to litigate matters
that could have been raised at trial and on direct
appeal”).

364a
17. To prevail upon a post-conviction writ of
habeas corpus, applicant bears the burden of proving,
by a preponderance of the evidence, the facts that
would entitle him to relief. Ex parte Morrow, 952
S.W.2d 530, 534 (Tex.Crim.App.1997); Ex parte
Thomas, 906 S.W.2d 22, 24 (Tex.CrimApp.1995); Ex
parte
Kimes,
872
S.W.2d
700,
703
(Tex.Crim.App.l993); Ex parte Adams, 168 S.W.2d
281,
287-88 (Tex.Crim.App.1989);
Ex parte
Maldonado,
688
S.W.2d
114,
l16
(Tex.Crim.App.1985).
18. Although voluntary intoxication is never a
defense, an instruction for the jury's guilt/innocence
determination on the law applicable to voluntary
intoxication may be warranted when the record
includes evidence of intoxication sufficient under the
Nethery standard. Taylor v. State, 885 S.W.2d at 15758 (applying Nethery, 692 S.W.2d at 711-12). A
voluntary intoxication instruction given in the
guilt/innocence phase is erroneous if the record is
devoid of sufficient intoxication evidence. Taylor, 885
S.W.2d at 158.
19. The Taylor court held regarding voluntary
intoxication in the guilt/innocence phase that "if there
is evidence from any source that might lead a jury to
conclude that the defendant's intoxication somehow
excused his actions, an instruction is appropriate."
Id. at 158. Numerous other cases have quoted this
holding. See, e.g., Robinson v. State, 971 S.W.2d 96,
at *97-98 (Tex. App. Beaumont 1998); Haynes v.
State, 85 S.W.3d 855, 858 (Tex. App. Waco 2002);
Miller v. State, No. 0l-03-00819-CR, 2005 WL 825762,
at *7 (Tex. App. Hous. 2005); McGrew v. State, No. 14-

365a
04-00321-CR, 2005 WL 3116240, at *3 (Tex. App.
Hous. 2005).
20. The applicant has waived the complaint that
he was denied his constitutional rights to Due Process
under the Sixth and Fourteenth Amendments to the
United States Constitution due to the trial court's
substantive law preliminary instructions to the entire
voir dire panel, the specific instructions at voir dire
regarding voluntary intoxication, the power point
display regarding the definition of voluntary
intoxication, the use of the definition of voluntary
intoxication in the State's opening statement and
closing arguments and the instructions regarding
voluntary intoxication in the jury charge.
21. There is no requirement that all legal issues to
be discussed at voir dire must be contained in the
charging instrument.
22. A trial court has wide discretion in conducting
voir dire, and its rulings are reviewed under an abuse
of discretion standard. See Atkins v. State, 951
S.W.2d 787, 790 (Tex.Crim.App.1997); Camacho v.
State, 864 S.W.2d 524, 531 (Tex.Crim.App.1993). If
the subject could possibly be raised during trial, the
attorneys are entitled to voir dire on that issue.
Generally speaking, a voir dire topic is proper if it
seeks to discover a juror's views on an issue applicable
to the case. See Robison v. State, 720 S.W.2d 808, 81011 (Tex.Crim.App.1986); Campbell v. State, 685
S.W.2d 23, 25 (Tex.CrimApp.1985).

366a
23. It was proper for voluntary intoxication to be
discussed during voir dire and the opening
statements.
24. The Court's voluntary intoxication instruction
was not erroneous, misleading or a misstatement of
the law. The definition of "intoxicated" in the statute
regarding voluntary intoxication, referred to whether
the applicant's mental state at the time of the offense
was induced solely or in part because of the
introduction of any substance into the body. Tex.
Code Crim. Proc. Art. 8.04 (Vernon's 2003) The
definition does not require that the substance still be
in the body at the time of the criminal act nor does it
preclude mental states that still exist a significant
amount of time after the introduction, but still
because, of substances to the body.
25. The court explained the law properly, did not
preclude a finding of insanity if the applicant was
intoxicated and duly protected the applicant's rights.
26. The facts of the case raised the issue of
voluntary intoxication.
27. If a preexisting condition of mind of the
accused was not such as would have rendered him
legally insane in and of itself, recent use of intoxicants
causing stimulation or aggravation of such
preexisting condition to the point of insanity could not
be relied upon as a defense to the commission of a
crime. Evilsizer v. State, 487 S.W.2d 113, 116
(Tex.Crim.App. 1972).

367a
28. The applicant has failed to prove by a
preponderance of the evidence that the trial court's
substantive law preliminary instructions to the entire
voir dire panel, the specific instructions at voir dire
regarding voluntary intoxication, the power point
display regarding the definition of voluntary
intoxication, the use of the definition of voluntary
intoxication in the State's opening statement and
closing arguments and the instructions regarding
voluntary intoxication in the jury charge were
improper or misleading.
29. The applicant has failed to prove by a
preponderance of the evidence that the decisions by
the applicant's counsel regarding these grounds were
based on anything less than a thorough and complete
investigation of the facts and law at the time of trial.
30. The applicant has failed to prove by a
preponderance of the evidence that his trial attorney
was ineffective and denied the applicant his right to
counsel under the Fifth, Sixth and Fourteenth
Amendments to the United States Constitution for
failing to object to the trial court's substantive law
preliminary instructions to the entire voir dire panel,
the specific instructions at voir dire regarding
voluntary intoxication, the power point display
regarding the definition of voluntary intoxication, the
use of the definition of voluntary intoxication in the
State's opening statement and closing arguments
and
the
instructions regarding voluntary
intoxication in the jury charge.
31. The applicant has failed to prove by a
preponderance of the evidence that, but for his

368a
attorneys' failure to object to the voluntary
intoxication instruction, the objection would have
been granted and the outcome of his trial would have
been different.
32. Section 8.04(d) defines "intoxication” as a
“disturbance of mental or physical capacity resulting
from the introduction of any substance into the body.”
33. The explanation of the law of voluntary
intoxication was proper and correct. The lab tests
taken hours after the murder were irrelevant in
regards to the issue of intoxication under Section
8.04(d).
34. The applicant has failed to prove by a
preponderance of the evidence that the State
knowingly presented false and misleading testimony
about whether the applicant was intoxicated at the
time he murdered his estranged wife, his son with her
and her baby daughter.
35. There are three components to a Brady
violation: (1) the state failed to disclose evidence
regardless of the prosecutor's good faith or bad faith;
(2) the withheld evidence is favorable to the
defendant; and (3) the evidence is material to guilt or
punishment. See Youngblood v. West Virginia, 126
S.Ct. 2188, 2190 (2006); Strickler v. Greene, 527 U.S.
263, 280-82 (1999); Kyles v. Whitley, 514 U.S. 419,
432-433 (1995); United States v. Bagley, 473 U.S. 667,
683 (1985); East v. Johnson, 123 F.3d 235, 237 (5th
Cir. 1997); Flores v. State, 940 S.W.2d 189, 191 (Tex.
App. 1996).

369a
36. The due process clause of the Fourteenth
Amendment places upon the prosecution in a criminal
case the affirmative duty to disclose evidence
favorable to the accused. Brady v. Maryland, 373
U.S. 83, 87 (1963). This is commonly referred to as
the Brady rule, and exculpatory evidence is
referenced as Brady material. Favorable evidence
includes both that which tends to exculpate the
accused, and impeachment evidence, United States v.
Bagley, 473 U.S. 667, 676 (1985), because such
evidence is "favorable to the accused," so that, if
disclosed and used effectively, it may make the
difference between conviction and acquittal. Thomas
v. State, 841 S.W.2d 399, 403 (Tex.Crim.App.1992)
(quoting Bagley, 473 U.S. at 676).
37. Where, as here, the applicant claims that the
prosecution suppressed exculpatory evidence and
thereby violated his right to due process applicant
must satisfy a three pronged test. Brady v. Maryland.
373 U.S. 83, 83 (1963) (prosecution has affirmative
duty to disclose material, exculpatory evidence to an
accused; prosecution's suppression of co defendant's
confession violated Due Process Clause of the
Fourteenth Amendment); Ex parte Kimes, 872 S.W.2d
at 702. Applicant must first show that the State
failed to disclose evidence, regardless of the
prosecution's good or bad faith. Id. He must then
show that the withheld evidence is favorable to
applicant. Id. Finally, the applicant must show that
the evidence is material, that is, there is a reasonable
probability that had the evidence been disclosed, the
outcome of the trial would have been different. Id. at
702-03.

370a
38. A habeas applicant demonstrates that he is
entitled to relief for a Brady violation by "showing
that the favorable evidence could reasonably be taken
to put the whole case in such a different light as to
undermine confidence in the verdict.” Kyles v.
Whitley, 514 U.S. at 435; Ex parte Adams, 768 S.W.2d
at 290. "The question is not whether the defendant
would more likely than not have received a different
verdict with the evidence, but whether in its absence
he received a fair trial, understood as a trial resulting
in a verdict worthy of confidence.” Kyles, 514 U.S. at
434.
39. However, a habeas corpus applicant's sworn
allegations in his petition are insufficient to sustain
his burden of proof, if those allegations are the sole
"proof" offered. As in any habeas proceeding, the
applicant must prove the constitutional violation and
his entitlement to habeas relief by a preponderance of
the evidence. See Ex parte Empey, 757 S.W.2d 771,
775 (Tex.Crim.App. 1988).
40. The applicant has failed to satisfy any of the
three prongs set out in Brady and followed in Kimes.
41. There was no evidence from Dr. Shannon
Miller, exculpatory or otherwise.
42. The applicant has failed to prove that there
was any evidence suppressed by the State.
43. The applicant has failed to prove by a
preponderance of the evidence that Dr. Miller gave
evidence favorable to the applicant.

371a
44. The applicant has failed to prove by a
preponderance of the evidence the prong regarding
materiality and that but for that material evidence
the results of his trial would have been different.
45. In ground 15, the applicant claims that he was
denied due process because he was not competent to
stand trial. This ground was not objected to at trial
and has been waived. In Ex parte Bagley, 509 S. W.2d
332, 334 (Tex.Crim.App.1974), the Court of Criminal
Appeals held that "the failure of petitioner, as
defendant, to object at the trial, and to pursue
vindication of a constitutional right of which he was
put on notice on appeal, constitutes a waiver of the
position he now asserts" on a writ of habeas corpus;
see also Ex parte Boyd, 58 S.W.3d 134, 136
(Tex.Crim.App.2001) (citing Bagley and noting that
"[o]rdinarily, the writ of habeas corpus may not be
used to litigate matters that could have been raised
at trial and on direct appeal").
46. Under Texas law, the applicant was competent
to stand trial.
47. A person is legally incompetent to stand trial if
he lacks either (1) sufficient present ability to consult
with his lawyer with a reasonable degree of rational
understanding or (2) a rational as well as factual
understanding of the proceedings against him. See
Tex.Code Crim. Proc. Ann. art. 46.02, §§ lA (Vernon
Supp.2001); Moore v. State, 999 S.W.2d 385, 392
(Tex.Crim.App.1999; Guzman v. State, 923 S.W.2d
792, 795 (Tex.App.-Corpus Christi 1996, no pet.).
Evidence of mental impairment alone does not
require that a competency hearing where no evidence

372a
indicates that a defendant is incapable of consulting
with counsel or understanding the proceedings
against him. Townsend v. State, 949 S.W.2d 24, 2627 (Tex.App. - San Antonio 1997, no pet.) (evidence
that defendant was depressed and suicidal did not
warrant an incompetency hearing); Lingerfelt v.
State, 629 S.W.2d 216 (Tex.App.-Dallas 1982, pet.
ref’d) (testimony from psychiatrist that defendant
suffered from schizophrenia did not warrant a
competency hearing). Generally, to raise the issue of
incompetency, there must be evidence of recent severe
mental illness or bizarre acts by the defendant or
evidence of moderate retardation. Guzman v. State,
923 S.W.2d 792, 797-98 (Tex.App.-Corpus Christi
1994, no pet.).
48. The record does not support the applicant's
claim that he was incompetent to stand trial or that
his attorney was ineffective for failing to raise the
competency issue a second time.
49. The applicant has failed to prove that he was
incompetent to stand trial or that his attorney was
ineffective for failing to raise the competency issue a
second time.
50. Under ground 17, the applicant does not
actually state an error upon which he could receive
relief.
51. The applicant did not make an objection at
trial regarding ground 17 and has waived this issue.
52. The applicant has failed to present by a
preponderance of the evidence any proof of purposeful

373a
prosecutorial or jury discrimination in his particular
case.
County v. State, 812 S.W.2d 303, 308
(Tex.Crim.App.1989).
53. Strickland encompasses the prohibition
against second-guessing counsel's trial strategy on
voir dire. Not every attorney will conduct voir dire in
the same manner, and, with hindsight, every attorney
may have wished that additional questions were
asked. However, the fact that another attorney might
have pursued other areas of questioning during voir
dire will not support a finding of ineffective
assistance. See Delrio v. State, 840 S.W.2d 443, 445
(Tex.Crim.App. 1992); Owens v. State, 916 S.W.2d
713, 717 (Tex.App. - Waco 1996).
54. The applicant has failed to overcome the
presumption that trial counsel was effective during
voir dire questioning. See Shilling v. State, 977
S.W.2d 789, 791 (Tex.App.-Fort Worth 1998, pet.
ref’d) (ineffectiveness claim fails where record is
devoid of reasoning counsel employed during voir
dire); Suniga
v.
State, 733 S.W.2d 594, 600
(Tex.App.-San Antonio 1987, no pet.) (overruling
complaint regarding brief voir dire that failed to
include certain questions based on absence of
indication that trial counsel's decision was
unsupported).
55. The applicant has not demonstrated that his
counsel's performance fell below a reasonable
objective standard, and he has not demonstrated that
any alleged error prejudiced bis defense.

374a
56. The applicant did not object to the jury shuffle
and waived any rights under that issue.
57. In Batson v. Kentucky, 416 U.S. 79, 106 S.Ct.
1712, 90 L.Ed.2d 69 (1986), the Supreme Court held
that a prosecutor violates a defendant's equal
protection rights if he uses peremptory strikes to
eliminate members of defendant's race from the jury.
58. Texas Courts have declined to make the broad
extension of Batson that applicant seeks. See Ladd v.
State, 3 S.W.3d 547, 563 (Tex.Crim.App. 1999), cert.
denied, 529 U.S. 1070 (2000).
59. The applicant has failed to prove by a
preponderance of the evidence any fact which would
establish purposeful discrimination by the court and
has failed to cite any law which would support the
extension of Batson to jury shuffle requests. As such,
the applicant has also failed to prove by a
preponderance of the evidence that his attorneys were
ineffective for not objection to the State's request for
a jury shuffle.
60. The defense and the state are entitled to a
shuffle, if requested.
61. The failure to shuffle when timely requested is
reversible error.
62. The requested shuffle did not constitute
reversible error.
63. Batson does not apply to a jury shuffle.

375a
64. The applicant did not object to those jurors on
the grounds set out in Ground 20.
65. If a juror vacillates or equivocates on the
juror's ability to follow the law, the reviewing court
must defer to the trial court's judgment. Brown v.
State, 913 S.W.2d 577, 580 (Tex.Crim.App.1996);
Riley
v.
State,
889
S.W.2d
290,
300
(Tex.Crim.App.1993).
66. Because the trial court was in the best position
to judge the credibility of the prospective juror's
responses, the reviewing court must give deference to
the trial courts decision. Swearingen, 101 S.W.3d at
99.
67. Ms. Long vacillated or equivocated on her
understanding of the burden of proof regarding
insanity, the Court intervened and made the
difference between preponderance and reasonable
doubt clear to Ms. Long, her vacillation ended, the
juror gave an unequivicable response that she would
be able to follow the law, therefore the trial court did
not err in denying the applicant's motion to strike for
cause against Ms. Long.
68. There was no harm to the applicant regarding
his use of a strike on Ms. Long. When the trial court
erroneously overrules a challenge against a
venireperson, the defendant is banned only if he uses
a peremptory strike to remove the venireperson and
thereafter suffers a detriment from the loss of the
strike. Demouchette v. State, 731 S.W.2d 75, 83
(Tex.Crim.App.1986), cert. denied, 482 U.S. 920
(1987). See also Jones v. State, 833 S.W.2d 118, 123

376a
(Tex.Crim.App.1992), cert. denied, 507 U.S. 921.
Error is preserved for review by this Court only if
applicant (1) used all of his peremptory strikes, (2)
asked for and was refused additional peremptory
strikes, and (3) was then forced to take an identified
objectionable juror whom applicant would not
otherwise have accepted had the trial court granted
his challenge for cause (or granted him additional
peremptory strikes so that he might strike the juror).
Id.
69. Because the applicant did not exhaust his
fifteen statutory peremptory challenges during voir
dire, and because the applicant has failed to allege an
objectionable juror who actually sat on the jury and
deliberated as a part of that jury, the applicant has
failed to prove by a preponderance of the evidence
that he was harmed by the court's decision to overrule
the motion to strike for cause on Ms. Long.
70. The applicant failed to prove by a
preponderance of the evidence that counsel was not
acting as a reasonably competent attorney and his
advice was not within the range of competence
demanded of attorneys in criminal cases.
71. The applicant has failed to prove that a
constitutionally deficient performance prejudiced his
defense and that there is a reasonable probability
that, but for counsel's unprofessional errors, the
result of the proceeding would have been different.
72. The applicant has failed to satisfy either prong
of Strickland or prove by a preponderance of the

377a
evidence that his attorney was ineffective regarding
ground 23.
73. The applicant has failed to prove by a
preponderance of the evidence that Dr. Scarano was
not qualified to render a diagnosis involving
substance-induced psychosis.
74. The applicant has failed to prove by a
preponderance of the evidence that the Court would
have excluded Dr. Scarano's testimony.
75. The applicant has failed to prove by a
preponderance of the evidence that defense counsel
was ineffective for not requesting a Daubert/Kelly
hearing regarding Dr. Scarano.
76. The applicant has failed to prove by a
preponderance of the evidence that Dr. Axelrad was
not qualified to render a diagnosis involving
substance-induced psychosis.
77. The applicant has failed to prove by a
preponderance of the evidence that the Court would
have excluded Dr. Axelrad's testimony.
78. The applicant has failed to prove by a
preponderance of the evidence that defense counsel
was ineffective for not requesting Daubert/Kelly
hearing on Dr. Axelrad.
80. The applicant has failed to prove both prongs
of Strickland in regards to ground 26.
81. Defense counsel has set out reasonable trial
strategy to justify these decisions.

378a
82. The applicant has failed to prove by a
preponderance of the evidence that Dr. Peter Oropeza
was not legally qualified or competent to testify to the
applicant's competency or sanity.
83. The applicant has failed to prove by a
preponderance of the evidence that by choosing not to
attack Dr. Oropeza's qualifications on non-existent
grounds, counsel was not acting as a reasonably
competent attorney, and his advice was not within the
range of competence demanded of attorneys in
criminal cases.
84. The applicant has failed to prove by a
preponderance of the evidence that if defense counsel
had challenged Dr. Oropeza's qualifications, the
challenge would have been sustained and that there
is a reasonable probability that the result of the
proceeding would have been different.
85. Dr. Young's conclusions in her affidavit do not
prove by a preponderance of the evidence that the
opinions and diagnosis of the State's experts are
erroneous.
86. Dr. Gur's conclusions in his affidavit do not
prove by a preponderance of the evidence that the
opinions and diagnosis of the State's experts are
erroneous.
87. Dr. Lipman's conclusions in his affidavit do not
prove by a preponderance of the evidence that the
opinions and diagnosis of the State's experts are
erroneous.

379a
88. The applicant has failed to prove by a
preponderance of the evidence, that counsel's failure
to hire a neuropharmacologist or to have a
neuropharmicological exam performed on the
applicant was constitutionally deficient.
89. The applicant has failed to prove by a
preponderance of the evidence exactly which
questions Mr. Hagood did not ask Dr. Gripon.
90. The applicant has failed to prove by a
preponderance of the evidence that the decision not to
ask certain questions was not trial strategy.
91. The applicant has failed to prove by a
preponderance of the evidence that his alleged
deficient performance prejudiced his defense and that
based on the opinions of Gur, Young, and Littman
there is a reasonable probability that, but for counsels
unprofessional errs the results of the proceeding
would have been different."
92. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient and was
not acting as a reasonably competent attorney, and
his advice was not within the range of competence
demanded of attorneys in criminal cases.
93. The applicant has failed to prove by a
preponderance of the evidence that a constitutionally
deficient performance prejudiced his defense and that
there is a reasonably probability but for counsel's
unprofessional errs the results of the proceeding
would have been different.

380a
94. The applicant has failed to prove by a
preponderance of the evidence that Mr. Hagood was
not employing trial strategy in calling two of the
State's experts in the defense's case-in-chief
95. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient and that
he was not acting as a reasonably competent attorney,
and that his trial strategy was not within the range of
competence demanded of attorneys in criminal cases.
96. The applicant has failed to prove by a
preponderance of the evidence that a constitutionally
deficient performance prejudiced his defense and that
there is a reasonable probability that, but for
counsel's decision to use Dr. Scarano and Dr. Axelrad
in the defense's case-in-chief, the result of the
proceeding would have been different.
97. The applicant has failed to prove by a
preponderance of the evidence that Mr. Hagood was
not employing trial strategy in not requesting sanity
opinions from Dr. Harrison or Dr. McGirk.
98. The applicant has failed to prove by a
preponderance of the evidence that Mr. Hagood's
decision not to call Larry Fitzgerald was not trial
strategy.
99. The applicant has failed to prove by a
preponderance of the evidence that counsel was not
acting as a reasonably competent attorney and his
advice was not within the range of competence

381a
demanded by attorneys in criminal case by not
introducing the testimony of Larry Fitzgerald.
100. The applicant has failed to prove by a
preponderance of the evidence that a constitutionally
deficient performance prejudiced his defense or that
there is a reasonable probability that but for counsel's
unprofessional errors the result of the proceeding
would be different.
102. The applicant has failed to prove by a
preponderance of the evidence that Mr. Hagood was
not employing trial strategy in his selection of
punishment witnesses.
103. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient and that
he was not acting as a reasonably competent attorney
in that his trial strategy was not in the range of
competence required of attorneys in criminal cases in
his selection and handling of punishment witnesses.
104. The applicant has failed to prove by a
preponderance of the evidence that his attorney was
ineffective for not objecting to every objectionable
question asked by the State.
105. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient or that
appellate counsel was not acting as "a reasonably
competent attorney," and his advice was not "within
the range of competence demanded of attorneys in
criminal cases.”

382a
106. The applicant has failed to prove by a
preponderance of the evidence that any of Grounds l
through 36 were actually error. As such they cannot
accumulate into reversible error. See Chamberlain v.
State, 998 SW 2nd 230, 238 (Tex.Crim App, J 999)
107. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient or the
appellate counsel was not acting as a reasonably
competent attorney and his advice was not within the
range of competence demanded of attorneys in
criminal cases.
108. The applicant has failed to prove that
Cardwell did not preserve an issue for "exhaustion”
which was constitutionally deficient and prejudiced
his defense.
109. The applicant has failed to prove by a
preponderance of the evidence that there is a
reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding
would have been different.
110. The Sixth Amendment guarantees the right
of individuals to have counsel without conflicts of
interest. Gray v. Estelle, 616 F.2d 801, 803 (5th Cir.
1980); see also Ex Parte Prejean, 625 S.W.2d 731, 733
(Tex. Crim. App. 1981) (en banc). If an actual conflict
exists, "it need not be shown that the divided loyalties
actually prejudiced the defendant in the conduct of his
trial." Zuck v. Alabama, 588 F.2d 436, 439 (5th Cir.
1979).

383a
111. Although a defendant can waive his or her
right to conflict-free counsel, a valid waiver "requires
an 'intentional relinquishment or abandonment of a
known right."' Gray, 616 F.2d at 803 (quoting
Johnson v. Zerbst, 304 U.S. 458,464 (1938)). A valid
waiver "must be both voluntary and 'knowing,
intelligent acts done with sufficient awareness of the
relevant circumstances and likely consequences.'".
Gray, 616 F.2d at 803 (quoting Brady v. United
States, 397 U.S. 742, 748 (1970)). Texas courts
require that "[s]uch a waiver of right to conflict-free
counsel should include a showing that the defendant
is aware of the conflict of interest, realizes the
consequences of continuing with such counsel, and is
aware of his right to obtain other counsel." Prejean,
625 S.W.2d at 733.
112. The applicant has failed to show how his
attorney's former role as the prosecutor in his prior
convictions raised anything other than a speculative
conflict of interest.
113. The applicant failed to prove an actual
conflict of interest by a preponderance of the evidence.
114. The applicant has waived his right to
complain of any conflict.
115. Texas Rule of Evidence 702 instructs that "[i]f
scientific, technical, or other specialized knowledge
will assist the trier of fact to understand the evidence
or to determine a fact in issue, a witness qualified as
an expert by knowledge, skill, experience, training, or
education may testify thereto in the form of an
opinion or otherwise.” In order to testify about

384a
scientific, technical, or other specialized matter, a
witness must be qualified as an expert. The initial
burden of establishing a witness's qualifications lies
with the party offering the testimony. Holloway v.
State, 613 S.W.2d 497,501 (Tex.Crim.App.1981).
116. The trial court properly limited Dr. Allen
from testifying that she believed evidence was
"mitigating" or referring to a "mitigation time line"
compiled by a "mitigation expert.”
117. The trial court properly prevented Dr. Allen
from testifying that the applicant had expressed
remorse to her the night before Dr. Allen testified.
The Court of Criminal appeals has decided that the
federal constitution does not require admission of a
defendant's self-serving, out-of-court declarations of
remorse when they are inadmissible under state law
even when these declarations meet the test of
constitutional "relevancy." See Lewis v. State, 815
S.W.2d 560, 568 (Tex.Crim.App.1991) (defendant's
hearsay expressions of remorse not admissible at
punishment phase of capital murder trial); Thomas,
638 S.W.2d at 484 (defendant's self-serving hearsay
declarations offered by defendant in mitigation are
ordinarily inadmissible).
Although "[r]emorse
following commission of a serious crime may well be a
circumstance tending in some measure to mitigate
the degree of a criminal's fault, but it must be
presented in a form acceptable to the law of evidence
before he is entitled to insist that it be received over
objection." Renteria v. State, 206 S.W.3d 689, 697
(Tex.Crim.App. 2006).

385a
118. The court properly sustained the State's
objection to a witness testifying in the narrative.
119. A trial court is responsible for exercising
reasonable control over the mode and order of
interrogating witnesses and presenting evidence so as
to: (1) make the interrogation and presentation
effective for the ascertainment of the truth; (2) avoid
needless consumption of time; and (3) protect
witnesses from harassment or undue embarrassment.
See Tex.R.Crim.Evid. 610(a); Jasper v. State, 61
S.W.3d 413,421 (Tex.Crim.App.2001).
120. The trial court was correct in sustaining the
objections by the State to Dr. Allen, with a degree in
social work, from making medical conclusions
regarding the applicant's treatment.
121. Texas does not recognize diminished capacity
as an affirmative defense i.e., a lesser form of the
defense of insanity.
122. The diminished-capacity doctrine argued by
the applicant in this case is a failure-of-proof defense
in which the applicant claims that the State failed to
prove that the defendant had the required state of
mind at the time of the offense.
123. The applicant has failed to prove by a
preponderance of the evidence that counsel's
performance was constitutionally deficient.
124. The applicant has failed to prove by a
preponderance of the evidence that counsel was not
acting as a reasonably competent attorney when he

386a
did not request an instruction on "diminished
capacity" or a lesser-included offense or that this
decision was not within the range of competence
demanded of attorneys in criminal cases.
125. In Paulson v. State, 28 S.W.3d 570
(Tex.Crim.App. 2000), issued years before the trial in
this case, The Court of Criminal Appeals overruled
that portion of Geesa which required a definition of
"beyond a reasonable doubt" to be included in the
court's charge. In fact, they stated "that the better
practice is to give no definition of reasonable doubt at
all to the jury.” Id. at 573. The Court in Paulson cited
Victor v. Nebraska, 51l U.S. l (1994), for the
proposition that "the Constitution neither prohibits
trial courts from defining reasonable doubt nor
requires them to do so as a matter of course.” Id. at
5, 114 S.Ct. at 1243. Citing Jackson v. Virginia, 443
U.S. 317 (1979), the Court concluded, "indeed, so long
as_ the court instructs the jury on the necessity that
the defendant's guilt be proved beyond a reasonable
doubt, the Constitution does not require that any
particular form of words be used in advising the jury
of the government’s burden of proof.” Id.
126. Ground 41 is barred. Issues raised and
rejected on direct appeal are generally not cognizable
on habeas corpus. Ex parte McFarland, 163 S.W.3d
743, 748 (Tex.Crim.App.2005). An exception to that
rule occurs when there is a change in a legal principle
relevant to the applicant's claim, and that legal
principle would apply retroactively to cases on habeas
corpus. Id.; Ex parte Drake, 883 S.W.2d 213, 215
(Tex.Crim.App.1994). But when there has been no
change, an applicant should not again urge the exact

387a
same basis that was raised on direct appeal unless the
legal basis for the claim "could not have been
reasonably formulated" at the time the direct appeal
was filed. It serves judicial economy and conforms to
common sense: issues that can be litigated on direct
appeal, should be litigated there, and not re-litigated
on habeas corpus. Texas Code of Criminal Procedure
11.071 § 5 bars claims and issues that have been
presented in an earlier application, not just claims
and issues that could have been presented. Art.
11.071, §§ 5(a)(1){"the current claims and issues have
not been and could not have been presented
previously"}.
127. The applicant, in order to avoid the
procedural bar, merely claims that appellate counsel
did not brief the issue sufficiently. Because the direct
appeal has yet to be ruled on, this issue is not ripe for
review. There is no a ruling to address in this case
yet and the applicant has failed to plead that there
has been a change in a legal principle relevant to the
applicant's claim, and that legal principle would apply
retroactively to cases on habeas corpus.
128. The applicant has failed to prove by a
preponderance of the evidence that the United States
Constitution requires a full definition of reasonable
doubt be included in the court's jury charge.
129. Consistent with due process; the State is
required to prove each element of an offense beyond a
reasonable doubt. See Tex.Pen.Code Ann. §§ 2.01
(Vernon 2003); The United States Supreme Court
held that the federal constitution neither requires nor
prohibits the giving of a definition of reasonable

388a
doubt. Victor v. Nebraska, 511 U.S. 1, 5 (1994). So
long as the court instructs the jury on the necessity
that the defendant's guilt be proved beyond a
reasonable doubt, the Constitution does not require
that any particular form of words be used in advising
the jury of the government's burden of proof. Id.
130. In ground 42, the applicant alleges that the
jury used the applicant's failure to testify against him
in a manner that deprived the applicant of his right
against self incrimination. This issue was raised on
direct appeal and is barred. In Ex Parte Drake, the
Court of Appeals stated that habeas corpus should
generally not be used to re-litigate matters which
were addressed on appeal, 883 S.W.2d 213, 215
(Tex.Crim.App.1994), citing Ex Parte Schuessler, 846
S.W.2d 850 (Tex.Crim.App.1993).
131. The applicant has failed to prove by a
preponderance of the evidence facts which justify
raising in his 11.071 application an issue which has
been raised on direct appeal.
132. The failure to testify at trial shall not be used
against any defendant, nor shall counsel comment on
the defendant's right to remain silent and failure to
testify. Tex.Code Crim. Proc. Ann. art. 38.08 (Vernon
Supp.2004). A jury's discussion of the defendant's
failure to testify – and using that circumstance to find
guilt would be impermissible. Under rule 606(b),
however, jurors are not competent to testify that they
discussed the defendant's failure to testify and used
that failure as a basis for convicting him. Hines v.
State, 3 S.W.3d 618, 620-621 (Tex.App.-Texarkana
1999, no pet.); see also Tex.R.App. P. 21.3.

389a
133. The applicant has failed to prove by a
preponderance of the evidence that the jury discussed
the applicant's failure to testify or used the fact that
the applicant did not testify against the applicant.
134. Roper v. Simmons prohibits the State from
assessing the death penalty against a defendant who
was under 18 years of age at the time he committed
the offense. Roper v. Simmons, 543 U.S. 551 (2005).
135. In the punishment phase of a capital murder
trial, the admission of prior offenses committed when
the defendant was a juvenile does not violate the
Eighth Amendment if he was assessed the death
penalty for a charged offense that occurred when he
was at least eighteen years old. See Corwin v. State,
870 S.W.2d 23 (Tex.Crim.App.1993).
136. Neither the Supreme Court of the United
States nor the Texas Court of Criminal Appeals has
extended the holding in Roper v. Simmons to prohibit
the use of juvenile offenses in the punishment stage
of a capital case. See e.g., Matthews v. State, 2006 WL
1752169 (Tex.Crim.App. 2006) (not designated for
publication).
137. The execution of mentally retarded persons
and insane persons violates the Eighth Amendment.
Atkins v. Virginia, 536 U.S. 304 (2002); Ford v.
Wainwright, 477 U.S. 399 (1986). There is no
Supreme Court authority or authority from the Texas
Court of Criminal appeals suggesting that mental
illness is enough to render one immune from
execution under the Eighth Amendment.

390a
138. The Court of Criminal Appeals has previously
rejected an invitation to extend the federal
constitutional proscription against execution of the
insane to the greater category of mentally ill
defendants.
Colburn v. State, 966 S.W.2d 511
(Tex.Crim.App.1998).
139. The applicant has failed to prove by a
preponderance of the evidence that the Court of
Criminal Appeals should extend the prohibition in
Atkins to those who are mentally ill.
The District Clerk is directed to immediately transmit
to the Court of Criminal Appeals a copy of all those
documents required under 11.071 Section 9(f).
Signed and entered on this 28th day of March, 2008.
s/ James Fry
JAMES R. FRY, Judge Presiding
FILE FOR RECORD
MAR 28 2008
By District Clerk, Grayson County

391a
APPENDIX F
EXCERPTS OF JUROR QUESTIONNAIRES
CAUSE NO. _________
THE STATE OF
TEXAS

§

IN THE 15TH
JUDICIAL

VS.

§

DISTRICT
COURT OF

ANDRE THOMAS

§

GRAYSON
COUNTY, TEXAS

Juror Questionnaire
(Marty Ulmer, Juror #4)
***
103. What is your church or spiritual
affiliation’s position on interracial marriages?
Don’t believe in this
104. Do you (__) Agree or ( X ) Disagree with this
position? Please tell us why you feel this way:
I personally don’t agree with this.
105. The Defendant in this case, Andre Thomas,
and his ex-wife, Laura Boren Thomas, are of
different racial backgrounds. Which of the
following best reflects your feelings or opinions

392a
about people of different racial backgrounds
marrying and/or having children:
( X ) I vigorously oppose people of different racial
backgrounds marrying and/or having children and
am not afraid to say so.
(__) I oppose people of different racial backgrounds
marrying and/or having children, but I try to keep my
feelings to myself.
(__) I do not oppose people of different racial
backgrounds marrying or being together, but I do
oppose them having children.
(__) I think people should be able to marry or be with
anyone they wish.
PLEASE TELL US WHY YOU FEEL THIS WAY:
I don’t believe God intended for this.

393a
CAUSE NO. _________
THE STATE OF
TEXAS

§

IN THE 15TH
JUDICIAL

VS.

§

DISTRICT
COURT OF

ANDRE THOMAS

§

GRAYSON
COUNTY, TEXAS

Juror Questionnaire
(Barbara Armstrong, Juror #5)
***
103. What is your church or spiritual
affiliation’s position on interracial marriages?
There is not one
104. Do you ( X ) Agree or (__) Disagree with this
position? Please tell us why you feel this way:
It is not the churchs place to have a position on
matters such as this.
105. The Defendant in this case, Andre Thomas,
and his ex-wife, Laura Boren Thomas, are of
different racial backgrounds. Which of the
following best reflects your feelings or opinions
about people of different racial backgrounds
marrying and/or having children:

394a
(__) I vigorously oppose people of different racial
backgrounds marrying and/or having children and
am not afraid to say so.
( X ) I oppose people of different racial backgrounds
marrying and/or having children, but I try to keep my
feelings to myself.
(__) I do not oppose people of different racial
backgrounds marrying or being together, but I do
oppose them having children.
(__) I think people should be able to marry or be with
anyone they wish.
PLEASE TELL US WHY YOU FEEL THIS WAY:
I think it is harmful for the children involved because
they do not have a specific race to belong to

395a
CAUSE NO. _________
THE STATE OF
TEXAS

§

IN THE 15TH
JUDICIAL

VS.

§

DISTRICT
COURT OF

ANDRE THOMAS

§

GRAYSON
COUNTY, TEXAS

Juror Questionnaire
(Charles Copeland, Juror #6)
***
103. What is your church or spiritual
affiliation’s position on interracial marriages?
Should not Be.
104. Do you ( X ) Agree or (__) Disagree with this
position? Please tell us why you feel this way:
I think we should stay with our Blood Line.
105. The Defendant in this case, Andre Thomas,
and his ex-wife, Laura Boren Thomas, are of
different racial backgrounds. Which of the
following best reflects your feelings or opinions
about people of different racial backgrounds
marrying and/or having children:

396a
(__) I vigorously oppose people of different racial
backgrounds marrying and/or having children and
am not afraid to say so.
( X ) I oppose people of different racial backgrounds
marrying and/or having children, but I try to keep my
feelings to myself.
(__) I do not oppose people of different racial
backgrounds marrying or being together, but I do
oppose them having children.
(__) I think people should be able to marry or be with
anyone they wish.
PLEASE TELL US WHY YOU FEEL THIS WAY:
See Ans. 104

397a
CAUSE NO. _________
THE STATE OF
TEXAS

§

IN THE 15TH
JUDICIAL

VS.

§

DISTRICT
COURT OF

ANDRE THOMAS

§

GRAYSON
COUNTY, TEXAS

Juror Questionnaire
(Norma Hintz, Alternate #1)
***
103. What is your church or spiritual
affiliation’s position on interracial marriages?
We have no interracial couples but they would not be
turned away
104. Do you ( X ) Agree or (__) Disagree with this
position? Please tell us why you feel this way:
I would be disappointed if my child entered into an
interracial marriage but I love my children and would
try to accept their choice
105. The Defendant in this case, Andre Thomas,
and his ex-wife, Laura Boren Thomas, are of
different racial backgrounds. Which of the
following best reflects your feelings or opinions
about people of different racial backgrounds
marrying and/or having children:

398a
(__) I vigorously oppose people of different racial
backgrounds marrying and/or having children and
am not afraid to say so.
( X ) I oppose people of different racial backgrounds
marrying and/or having children, but I try to keep my
feelings to myself.
(__) I do not oppose people of different racial
backgrounds marrying or being together, but I do
oppose them having children.
(__) I think people should be able to marry or be with
anyone they wish.
PLEASE TELL US WHY YOU FEEL THIS WAY:
As I stated before I try not to judge what other people
do. I oppose gay marriage but a man and woman have
the right to choose

